<html>
<title> - NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FY 2013 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 112-599]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-599

    NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FY 2013 
                      INTERNATIONAL AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/






                  U.S. GOVERNMENT PRINTING OFFICE

86-686 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        












                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary Rodham, Secretary of State, U.S. Department 
  of State, Washington, DC.......................................     5
    Prepared statement...........................................     8
    Responses to questions for the record submitted by the 
      following Senators:
        John F. Kerry............................................    44
        Richard G. Lugar.........................................    74
        Barbara Boxer............................................   122
        Robert Menendez..........................................   124
        Benjamin L. Cardin.......................................   129
        Jeanne Shaheen...........................................   133
        James E. Risch...........................................   136
        James M. Inhofe..........................................   140
        Johnny Isakson...........................................   140
        Christopher A. Coons.....................................   141
        Tom Udall................................................   147
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  

 
    NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FY 2013 
                      INTERNATIONAL AFFAIRS BUDGET

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Webb, 
Shaheen, Coons, Udall, Lugar, Corker, Risch, Rubio, DeMint, 
Isakson, Barrasso, and Lee.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Madam Secretary, welcome back to the committee. As always, 
and I think you know this, it is a great pleasure for us to 
welcome you here and to have you here. And it is enormously 
helpful for us, obviously, to hear your thoughts--especially at 
a time when we are facing so many different challenges and, at 
the same time, presented with so many opportunities.
    The demand for U.S. leadership has never been higher, 
whether because of the issues raised by the Arab Spring, by 
nuclear proliferation, by climate change, and particularly by 
the challenge of Iran and the Middle East. Budget realities, 
however, have placed a premium on projecting U.S. power not 
only effectively, but efficiently.
    I think that more than at recent moments, we need a smart, 
coordinated, and strong budget in order to safeguard the 
American people and particularly to fund the administration's 
pursuit of opportunities and to face the challenges that we are 
all too well aware of.
    Obviously, for anybody running for office--and I know you 
know this, Madam Secretary--cutting foreign aid and talking 
about a sort of comparison between some particular community at 
home, where you are standing, and our commitment abroad is a 
pretty easy applause line on the stump. And needless to say, it 
is good foreign policy to correct an unsustainable fiscal 
course. So we need to do what we need to do in order to put our 
house in order.
    But at the same time, it seems to me that our expenditures 
on diplomacy are really minuscule compared to the return on 
investment. Our international affairs budget is, in my 
judgment, a smart investment that ultimately yields outsized 
returns and saves us money over the long haul.
    There is nothing conservative about starving our foreign 
policy budget of a few billion dollars today in order to spend 
a trillion dollars later on when an otherwise avoidable crisis 
strikes or an armed conflict looms. This year's budget request 
reflects very difficult decisions and some obvious tradeoffs. I 
commend the administration for identifying programs where we 
can save money, for deepening reforms at State and USAID, and 
for leveraging U.S. funds in multilateral forums.
    We also all know how crucial our military is to our 
national defense, and I think everybody on the committee and in 
the administration shares the belief that we would never 
hesitate to use force when necessary. But clearly, smart and 
able diplomacy and development policy can neutralize threats 
before they become crises and can manage crises if threats 
escalate and assure security and stability after conflicts are 
resolved. And all of this can be done at a fraction of the cost 
of military deployment.
    Diplomats and development experts support counterterrorism 
efforts at this moment in countries like Yemen, Somalia, 
Pakistan, Afghanistan, and support programs to destroy small 
arms and shoulder-fired missiles which deprive our enemies of 
the tools to attack us. Teaching foreign military officers 
American values and skills creates capacity so that we can 
fight together and share burdens.
    Training foreign law enforcement and counterterrorist 
officials in American investigative techniques increases their 
capacity, their capability, and our security. And implementing 
stricter export controls, training international weapons 
inspectors, and securing our borders allows us to guard against 
the most pernicious of threats, the threat of weapons of mass 
destruction and terrorism.
    So the stakes are enormous in the coming years. We will 
have great opportunities to build and redefine our 
relationships around the world, particularly in the Middle 
East. The region is moving in many different directions, but 
one thing is clear. It is transforming before our eyes.
    As you know, Madam Secretary, I recently traveled in the 
Middle East, spent a number of days in the region, and came 
away more convinced than ever of both the opportunities that 
exist to help the people of the Middle East seek their 
legitimate political and economic aspirations, but also with a 
renewed sense of the fragility of this moment and the urgency 
of our engagement in that region.
    So I truly fully share your perspective in the goals of the 
Middle East and North Africa Incentive Fund, which will make 
sure that we have the tools and the flexibility needed to act 
proactively and take advantage of opportunities when they 
arise.
    I look forward to continuing that conversation with you to 
make sure that you have those tools and also to try to 
ascertain the best way forward with respect to the North Africa 
Incentive Fund and the Middle East to support lasting change 
and the continued hopes that we all share for a renewed effort 
in the Middle East peace process.
    We all know the difference that the United States can make. 
Our efforts vaccinate children, combat climate change, engage 
at-risk youth, and promote core U.S. national security 
interests. Our global presence also does something else: It 
creates jobs.
    Through OPIC loans and multilateral forums, we both lift 
the economies of low-income countries and simultaneously--and 
this is important for Americans to understand in terms of our 
own interests--we open markets for American businesses and 
recognize the connections between promoting our business and 
creating jobs elsewhere.
    Energetic global leadership is a strategic imperative for 
America, not a favor that we do for other countries. It is who 
we are. It is in the American DNA. From the Marshall Plan to 
our response to the earthquakes in Haiti and the floods in 
Pakistan, it strengthens our security, and it makes us stronger 
at home and in the world.
    And as we carefully watch our expenditures, we also need to 
scrutinize the cuts that have been proposed. So we look forward 
to your comments this afternoon, Madam Secretary, and to 
talking throughout the year about the State Department's 
priorities.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
Secretary Clinton to the Foreign Relations Committee once 
again. We look forward to discussing the administration's 
foreign policy priorities and budget request for fiscal year 
2013.
    Since your visit last year, the American economy remains 
under great stress. The unemployment rate stands well above the 
historical standards at 8.3 percent nationally and 9 percent in 
my home State of Indiana.
    At the close of 2011, nearly 14 million Americans were 
still looking for work and millions more were underemployed. 
The United States national debt has risen above $15 trillion, 
posing extreme economic risk for our country. American families 
continue to bear the brunt of these economic uncertainties.
    Within this context, the administration's request for 
resources must be prioritized to meet the requirements of 
budget austerity, while addressing the vital national security 
objectives the chairman has so well outlined.
    This past year has also brought further uncertainty 
overseas. People in North Africa and the Middle East are 
marking the anniversaries of their protests, their protests for 
democracy and accountability from their leaders. For some, 
these anniversaries have been celebrations of a break with a 
troubled past. For others, they are a reminder that progress 
remains very elusive.
    In Syria, the world continues to bear witness to the 
violent repression by the Assad regime against the Syrian 
people. This tragedy unfolds daily, bringing with it an 
increasing death toll.
    After the regrettable veto in the Security Council by 
Russia and China earlier this month, the U.N. General Assembly 
voted overwhelmingly, as did the United States Senate, to 
condemn the Syrian regime's brutal use of force against 
civilians. During this upheaval, our Government must pay 
special attention to Syria's weapons of mass destruction.
    Now, in Egypt, the difficult transition to a democratic, 
civilian government has been marked by changing timelines, 
protests, and sectarian violence. Given this tentative 
transition, when resources should be spent on building 
institutions, it is disheartening that the Egyptian authorities 
would choose to harass the work of the civil society 
organizations focused on elections and government transparency. 
I look forward to Secretary Clinton's update on efforts to 
secure the release of those facing trial for their work on 
behalf of democracy.
    Amidst these changes in the region, we face the ongoing 
threats to peace and the global economy posed by Iran as Iran's 
Government continues to flout the will of the international 
community for a verifiable end to its nuclear weapons program. 
The most recent inspections by the IAEA failed, with Iran 
refusing to address the IAEA's questions on or to grant 
inspectors access to the sites.
    The Iranian nuclear program is a grave threat to our close 
ally Israel and to our own security interests. A growing 
understanding that this crisis may lead to military conflict 
has helped push oil prices well above $100 per barrel. An 
increasing number of Americans are paying $4 or more per gallon 
of gasoline, and most analysts believe prices will go higher.
    Now, for years, I have talked about the risk to United 
States national security of our dependence on foreign oil. I 
appreciate Secretary Clinton's recent reorganization in the 
Department in this regard, which elevates the prominence of 
energy security within the State Department, and I compliment 
you on this remarkable endeavor.
    But given the intensity of multiple crises in the Middle 
East and the certainty that threats to our oil supplies are not 
limited to the current crisis with Iran, it is 
incomprehensible, at least to me, that the President has 
rejected approval of the Keystone XL pipeline.
    Few national security decisions of the past several decades 
are more clearly at odds with core United States interests than 
the President's pipeline delay. The prospect that Iran could 
obstruct oil flowing from the Strait of Hormuz for even a 
relatively short period underscores the importance of having 
safe and secure fuel supplies for the United States.
    The Iranian threat is intensified by its growing alliance 
with the Chavez regime in Venezuela, which could choose to 
support Tehran with its own oil supply disruption during a 
conflict. Our Government should explicitly warn Venezuela the 
United States would regard such a disruption as a threat to 
United States national security interests.
    Today's high oil prices are difficult for American families 
and American businesses, yet without action, the worst is 
likely to be months or years down the road. Even if the Iranian 
nuclear program is halted without resort to warfare, Middle 
East oil supplies will remain at risk from political 
manipulation, conflict, and terrorism.
    A serious, sustained oil supply disruption could cripple 
our economy. Over time, we know rising oil demand from China, 
India, and other emerging economies will reduce spare capacity 
and stress global oil supplies. The Keystone XL pipeline is one 
of the best means at our disposal to help overcome future 
difficulties now.
    Moreover, the decision to delay sends a signal to markets 
and our overseas enemies that we are not serious about ending 
United States energy dependence. Pricing today incorporates 
expectations of future supply.
    We must not leave any doubt that this country will break 
its oil dependence on unstable and unfriendly regimes. That 
requires the United States Government to support domestic 
drilling; it requires stronger supply relationships with 
reliable allies like Canada; it requires more alternative 
fuels; and it certainly requires innovation to do more with 
less fuel.
    While bolstering energy security, the Keystone XL pipeline 
would create up to 20,000 new jobs for Americans, produced at 
virtually no cost to American taxpayers. The administration, in 
my judgment, should reverse course, and I would encourage 
Secretary Clinton to recommend to the President that it is in 
our national security interests to immediately approve the 
Keystone XL pipeline.
    Now, in closing, I would like to express my appreciation 
for the dedicated men and women serving in roles within the 
State Department and USAID. In an era of declining resources, 
we are asking them to deal with very difficult and wide-ranging 
challenges, often at even greater risk.
    We are asking them to reduce threats from weapons of mass 
destruction, help mitigate epidemics and food insecurity, watch 
over United States business interests and travelers, promote 
democracy, and assist in combating terrorism. We are asking 
them to achieve these United States foreign policy goals and 
innumerable others in a global environment that is increasingly 
dangerous for diplomatic personnel.
    We are very grateful for their willingness to serve their 
country. We are grateful for your willingness to serve our 
country. And we greet you again and look forward to your 
testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Madam Secretary, the floor is yours, and we welcome your 
comments.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you very much.
    And I greatly appreciate, Chairman Kerry, Ranking Member 
Lugar, members of the committee, to be here once again to have 
this opportunity. And I want to thank you for the support that 
this committee has given to the State Department and USAID over 
the last 3 quite consequential and unpredictable years. And I 
especially am grateful for the very kind words about our 
diplomats and development experts who are serving around the 
world, some in very difficult circumstances.
    You have seen the world transforming right before your 
eyes, from Arab revolutions, to the rise of new economic 
powers, to a more dispersed but still dangerous al-Qaeda and 
terrorist network. And in this time, only the United States of 
America has the reach, resources, and relationships to anchor a 
more peaceful and prosperous world.
    The State Department and USAID budget we discuss today is a 
proven investment in our national and economic security, but it 
is also something more. It is a downpayment on America's 
leadership.
    When I took this job, I saw a world that needed America, 
but also one that questioned our focus and our staying power. 
So we have worked together to put American leadership on a firm 
foundation for the decades ahead.
    We have ended one war and are winding down another. We have 
cemented our place as a Pacific power. We have also maintained 
our alliance across the Atlantic. We have elevated the role of 
economics within our diplomacy, and we have reached beyond 
governments to engage directly with people, with a special 
focus on women and girls.
    We are updating diplomacy and development for the 21st 
century and finding ways to work smarter and more efficiently. 
And after the first Quadrennial Diplomacy and Development 
Review, we created two new bureaus, taking the work we were 
already doing on counterterrorism and combining it with other 
assets within the State Department to create a much more 
focused effort on counterterrorism and on energy.
    And I really commend Senator Lugar because it was his idea. 
It was his talking with me when I was visiting with him prior 
to my confirmation that made me determined that we would 
actually accomplish this. And we have reorganized our assets 
into a bureau focused on fragile states.
    Now, like many Americans in these tough economic times, we 
have certainly made difficult tradeoffs and painful cuts. We 
have requested 18 percent less for Europe, Eurasia, and Central 
Asia, preserving our most essential programs and using the 
savings for more urgent needs elsewhere. We are scaling back 
construction of our embassies and consulates, improving 
procurement to save money, and taking steps across the board to 
lower costs.
    Our request of $51.6 billion represents an increase of less 
than the rate of inflation and just over 1 percent of the 
Federal budget, and this is coming at the very same time that 
our responsibilities are multiplying around the world. Today, I 
want briefly to highlight our five priorities.
    First, our request allows us to sustain our vital national 
security missions in Iraq, Afghanistan, and Pakistan and 
reflects the temporary extraordinary costs of operating on the 
front lines. As President Obama has said, the tide of war is 
receding. But as troops come home, thankfully, civilians remain 
to carry out the critical missions of diplomacy and 
development.
    In Iraq, civilians are now in the lead, helping that 
country emerge as a stable, sovereign democratic power. This 
increases our civilian budget, but State and USAID are asking 
for only one-tenth of the $48 billion the U.S. Government spent 
on Iraq as recently as 2011.
    The 2013 U.S. Governmentwide request for Iraq, including 
defense spending, is now $40 billion less than it was just 2 
years ago. So we are doing what must be done to try to 
normalize our relationship at a far lower cost than what we 
have been expending.
    Over time, despite the tragic violence of this past week, 
we expect to see similar governmentwide savings in Afghanistan. 
This year's request will support the ongoing transition, 
helping Afghans take responsibility for their own security and 
their own future and ensuring that this country is never again 
a safe haven for terrorists. We remain committed to working on 
issues of joint interest with Pakistan, including 
counterterrorism, economic stability, and regional cooperation.
    Second, in the Asia-Pacific, the administration is making 
an unprecedented effort to build a strong network of 
relationships and institutions because we believe in the 
century ahead, no region will be more consequential to our 
economic and security future. As we tighten our belts around 
the world, we are investing the diplomatic attention necessary 
to do more with less.
    In Asia, we are pursuing what I call forward deployed 
diplomacy, strengthening our alliances, launching new strategic 
dialogues, and economic initiatives; creating and joining 
important multilateral institutions; even pursuing a possible 
opening with Burma; all of which underscores America will 
remain a Pacific power.
    Third, we are focused on the wave of change sweeping the 
Arab world. As the region transforms, so must our engagement. 
Alongside our bilateral and security support, we are proposing 
a $770 million Middle East and North Africa Incentive Fund.
    This fund will support credible proposals validated by 
rigorous analysis and by Congress from countries that make a 
meaningful commitment to democratic change, effective 
institutions, and broad-based economic growth. In an 
unpredictable time, it lets us respond to unanticipated needs 
in a way that reflects both our agility and our leadership in 
the region.
    This budget request would also allow us to help the Syrian 
people survive a brutal assault and plan for a future without 
Assad. It continues our assistance for civil society and Arab 
partners in Jordan, Morocco, Tunisia, and elsewhere. It 
provides a record level of support for our ally Israel, and it 
makes possible our diplomacy at the U.N. and around the world, 
which has now put in place with your help the toughest 
sanctions that I think any country has ever faced against Iran.
    The fourth priority is what I call economic statecraft, in 
particular how we use diplomacy and development to create 
American jobs. We have more than 1,000 State Department 
economic officers working to help American businesses connect 
to new markets and consumers. We are pushing back every day 
against corruption, redtape, favoritism, distorted currencies, 
and intellectual property theft.
    Our investment in development also helps us create the 
trading partners of the future. We have worked closely on three 
trade agreements that we believe will create tens of thousands 
of jobs in America, and we hope to work with Congress to ensure 
that as Russia enters the WTO, foreign competitors do not have 
an advantage over American businesses.
    And finally, we are elevating development alongside 
diplomacy and defense. Poverty, disease, hunger, climate change 
can destabilize societies and sow the seeds for future 
conflicts. We think we need to make strategic investments today 
in order that we can meet our traditional foreign policy goals 
in the future.
    Through the Global Health Initiative, through our Feed the 
Future Initiative, we are consolidating programs, increasing 
our partners' capacity, shifting responsibilities to host 
countries, and making an impact in areas of health and hunger 
that will be a real credit to our country going forward.
    And as we transform development, we really have to deliver 
measurable results. Our long-term objective must be to empower 
people to create and seize their own futures.
    These five priorities are each crucial to American 
leadership, and they rely on the work of some of the most 
capable, hardest working, and bravest people I have ever met--
the men and women of State and USAID. Working with them is one 
of the greatest honors I have had in public life.
    With so much on the line, from the Arab world to the Asia-
Pacific, we simply cannot pull back. Investments in American 
leadership did not cause our fiscal challenges, and retreating 
from the world will not solve them.
    Let me end on a personal note. American leadership means a 
great deal to me personally. It is my job everywhere I go. And 
after 3 years, 95 countries, and over 700,000 miles, I know 
very well what it means to land in a plane that says the 
``United States of America'' on the side.
    People look to us to protect our allies, stand by our 
principles, serve as an honest broker in making peace, to fight 
hunger, poverty, and disease, to stand up to bullies and 
tyrants everywhere.
    American leadership is not just respected. It is required. 
And it takes more than just resolve. It takes resources.
    This country is an unparalleled force for good in the 
world, and we all want to make sure it stays that way. So I 
would urge you to work with us to make this investment in 
strong American leadership and the more peaceful and prosperous 
future that I believe will result.
    Thank you.
    [The prepared statement of Secretary Clinton follows:]

    Prepared Statement of Secretary of State Hillary Rodham Clinton

    Chairman Kerry, Ranking Member Lugar, members of the committee, it 
is good to be with you again. I am grateful for your support for 
civilian power these past 3 years and eager to hear your thoughts on 
the work ahead.
    We are living through a time of volatility and possibility. The 
Arab world is transforming. The rise of new powers is redrawing the 
strategic map, creating new partners, new challenges and growing 
economic competition. Al-Qaeda is weakened, but still dangerous. In 
this time, only America has the reach, resources, and relationships to 
anchor a more peaceful and prosperous world.
    The State Department and USAID budget we discuss today is a proven 
investment in our national and economic security, but also something 
more: it is a downpayment on American leadership in a fast-changing 
world.
    When I became Secretary of State, I saw a world that needed 
America, but also one that questioned our focus and staying power. Ever 
since, we have worked together to put American leadership on a firm 
foundation for the decades ahead. We have ended one war and are winding 
down another. We have cemented our place as a Pacific power, while 
maintaining the most powerful alliance in history across the Atlantic. 
We have elevated the role of economics within our diplomacy to create 
American jobs and advance our strategic interests. We have reached 
beyond governments to engage directly with people--with a special focus 
on women and girls.
    We are updating our diplomacy and development for the 21st century, 
making use of new technologies, partnering with the private sector and 
finding ways to work smarter and more efficiently. After the first-ever 
Quadrennial Diplomacy and Development Review, we created two new 
bureaus focused on counterterrorism and energy and reorganized a third 
to prevent fragile states from becoming failed states.
    Like many Americans in tough economic times, we have made difficult 
tradeoffs and painful cuts. We have requested 18 percent less for 
Europe, Eurasia and Central Asia, preserving our most essential 
programs and using the savings for more urgent needs elsewhere. We are 
scaling back construction, improving procurement, and taking countless 
steps to lower costs.
    Even as our challenges and responsibilities multiply around the 
world, our request represents an increase of less than the rate of 
inflation. State and USAID request $51.6 billion, just over 1 percent 
of the Federal budget.
    Today, I want to highlight five priorities--all made possible by 
the investments in this budget.
    First, our request allows us to sustain our vital national security 
missions in Iraq, Afghanistan, and Pakistan. As President Obama says, 
``the tide of war is receding.'' But as troops come home, civilians 
remain to carry out the critical missions of diplomacy and development. 
Our request reflects the temporary, extraordinary costs of operating on 
the front lines.
    In Iraq, civilians are now in the lead, working to help that 
country come through this current period of challenge and uncertainty 
to emerge as a stable, sovereign, democratic partner. This increases 
our civilian budget, but State and USAID are asking for only one-tenth 
of the $48 billion the U.S. Government spent on Iraq as recently as 
2011. The 2013 U.S. Governmentwide request for Iraq, including defense 
spending, is now $40 billion less than it was just 2 years ago. So this 
approach is saving taxpayers a great deal of money.
    Over time, despite the past week's violence, we expect to see 
similar governmentwide savings in Afghanistan, where civilians have 
already taken on increased duties. This year's request will support the 
ongoing transition, helping Afghans take responsibility for their own 
future and ensure their country is never again a safe-haven for 
terrorists to threaten America. In Pakistan, we have a challenging but 
critical relationship. We remain committed to working on issues of 
joint interest, including counterterrorism, economic stability, and 
regional cooperation.
    For the past decade, we have been focused--by necessity--on the 
places where we face the greatest threats. In the decade ahead, we need 
to be just as focused on the areas of greatest opportunity. Which 
brings me to another critical priority: the Asia-Pacific region, from 
the Indian subcontinent to the shores of the Americas. The Obama 
administration is making an unprecedented effort to build a strong 
network of relationships and institutions across the Pacific. In the 
century ahead, no region will be more consequential.
    As we tighten our belts around the world, we are investing the 
diplomatic attention necessary to do more with less. In Asia, we are 
pursuing what we call forward-deployed diplomacy--from strengthening 
our alliances, to launching new strategic dialogues and economic 
initiatives, to creating and joining important multilateral 
institutions, to our new opening with Burma--to underscore that America 
will remain a Pacific power.
    Third, we are focused on the wave of change sweeping the Arab 
world. We have a significant stake in successful democratic 
transitions. And as the region transforms, so must our engagement.
    Alongside our bilateral and security support, we are proposing a 
$770 million Middle East and North Africa Incentive Fund to encourage 
major political and economic reforms. This fund will support credible 
proposals--validated by rigorous analysis and key stakeholders, 
including Congress--to promote democratic change, effective 
institutions, and broad-based economic growth. When countries commit to 
making genuine reform, the fund will provide meaningful assistance, 
which ultimately puts our partnerships on firmer footing. And, in an 
unpredictable time, it lets us respond to unanticipated needs in a way 
that reflects our leadership role in the region.
    Of course, not all countries in the region are embracing the mantle 
of reform and responsibility. This budget request would allow us to 
keep our commitment to help the Syrian people survive a brutal assault, 
reclaim their country and plan for a future without Assad.
    Our request also supports those working for change at the 
grassroots. It continues our assistance for Arab partners in Jordan, 
Morocco, and elsewhere. It provides a record level of support for our 
ally, Israel. And it makes possible our diplomacy at the U.N. and 
around the world, which has now put in place--with your help--by far 
the toughest sanctions Iran has ever faced.
    The fourth priority is what I call economic statecraft--how we act 
at the crossroads of economics and diplomacy. At every turn, we are 
asking: how can we use diplomacy and development to strengthen our 
economy? We have more than 1,000 State Department economic officers 
working every day to help American businesses connect to new markets 
and consumers to create opportunities here at home. We are pushing back 
against corruption, redtape, favoritism, distorted currencies and 
intellectual property theft. USAID invests in the poorest, most 
unstable regions because it is the right thing to do, but also because 
it helps create the trading partners of the future. Under the 
leadership of U.S. Trade Representative Kirk, we have worked closely 
together on three trade agreements that will create tens of thousands 
of American jobs. And we hope to work with Congress to ensure that, as 
Russia enters the WTO, foreign competitors do not have an advantage 
over American business.
    Finally we are elevating development alongside diplomacy and 
defense within our foreign policy. Poverty, disease, hunger, and 
climate change can destabilize entire societies and sow the seeds for 
future conflict. We have to make investments now not just to promote 
human security, but to meet even our traditional foreign policy goals 
down the road.
    Through the Global Health Initiative, we are consolidating 
programs, increasing efficiencies, and shifting responsibilities to 
host countries. By driving down costs, we will be able to provide life-
saving HIV treatment for 6 million people by the end of 2013 without 
additional spending--accelerating our progress toward President Obama's 
vision of an AIDS-free generation. Building on past investments, we are 
increasing countries' own health system capacity. That helps us target 
our resources where they are most needed and have the greatest impact, 
including areas like maternal and child health.
    Our Feed the Future Initiative will help millions of men, women, 
and children--farmers and consumers--by driving agricultural growth and 
improving nutrition to hasten the day when countries no longer need 
food aid at all.
    As we pursue these initiatives, we are transforming the way we do 
development. We are partnering with governments, local groups and the 
private sector instead of substituting for them. We are making it a 
priority to deliver measurable results, build local capacity and 
promote good governance and progrowth policies to empower people to 
create and seize their own opportunities.
    These five priorities--the frontline states, the Asia-Pacific, the 
Arab transitions, economic statecraft and elevating development--are 
each crucial to American leadership. And they are just the beginning of 
what we do to serve and safeguard the American people in every region 
of the world--including Africa, Latin America, Central Asia, and 
Europe. State and USAID reduce the threat of nuclear weapons, fight 
international trafficking, counter violent extremism, and protect U.S. 
citizens overseas.
    This work is done by some of the most capable, hardest working and 
bravest people I have ever met: the men and women of State and USAID. 
The political officers who worked for thousands of hours to assemble 
and hold together a NATO-Arab coalition that helped the Libyan people 
reclaim their future--without a single American death. The economic 
officers helping American companies take part in the tens of billions 
of dollars of construction underway as Brazil prepares for the World 
Cup and Olympics. The development officers offering life-saving 
treatment. The consular officers who serve as the front line of our 
efforts to secure our borders. The public diplomacy officers who tell 
the world our story. And the management officers who make everything 
else possible. Working with them is one of the greatest honors I have 
had in public life.
    With so much on the line, from the Arab world to the Asia-Pacific, 
we simply cannot pull back. Investments in American leadership are not 
the cause of our fiscal challenges, and retreating from the world is 
not the solution.
    American leadership is personal for me. It is my job everywhere I 
go. After 3 years, 95 countries and over 700,000 miles, I know very 
well what it means to land in a plane that says ``United States of 
America'' on the side. People look to us to protect our allies, stand 
by our principles and serve as an honest broker in making peace; to 
fight hunger, poverty, and disease; and to stand up to bullies and 
tyrants. American leadership is not just respected. It is required. And 
it takes more than just resolve. It takes resources.
    This country is an unparalleled force for good in the world. We all 
want to make sure it stays that way. I urge you to make this investment 
in strong American leadership and a more peaceful and prosperous 
future.

    The Chairman. Well, thank you, Madam Secretary. Thank you 
particularly for those last comments.
    And I think I can express the thoughts of everybody on the 
committee in expressing our gratitude to you for the enormous 
energy you have expended and the terrific job that you have 
done in public diplomacy for our country. I think we have seen 
that in many of the photographs coming back from various parts 
of the world.
    I was particularly struck by the one of you and Aung San 
Suu Kyi, which was really a historic moment. And I think those 
and many others are the kinds of things that really do make a 
difference. So we compliment you, all of us, on that.
    Since I am confident colleagues are going to ask you 
specific budget questions with respect to specific countries 
what I would like to do is ask you perhaps to be a little bit 
more broadly reflective and expand on the comments that you 
just made, since this is now your fourth budget and, by your 
own decision, the final budget that you will put before us.
    And having now been in there for more than 3 years, I 
wonder if you could put a little meat on the bones on the 
importance of the foreign affairs budget number that we deal 
with here?
    Egypt, for instance, is teetering on potential economic 
collapse unless the right decisions are made. That would have 
profound implications on every other interest we have in the 
region. There are many parts of the world where we are simply 
not adequately staffed to be able to protect our economic 
interests, to promote American business opportunities and so 
forth.
    And it seems to me that beggaring the foreign affairs 
budget, which, as you said, is about 1 percent the entire 
budget of the United States, but which has so much--which 
touches on trillions of dollars of engagement, one way or the 
other--simply does not make sense.
    So would you share with the committee what you think we get 
for this, and you have particularly put this fund in there for 
the North Africa piece. And I think that is part of this 
discussion. There must be some measure of frustration in some 
degree as this budget is 8.5 percent lower than the President's 
request, and the President's request clearly is reflective of 
his sense--and your sense--of our national security priorities.
    But what we are missing and what are we losing for not 
being willing to be a little more critical about $100 billion a 
year in military expenditure in Afghanistan and these small 
amounts that get parceled out in these longer term investment 
opportunities elsewhere?
    Secretary Clinton. Well, that is a question, Mr. Chairman, 
that I obviously spend a lot of time worrying about because as 
we try to respond to the urgent demands that are made because 
of changes in the world, we often find ourselves having to 
reprogram, shift resources, come up with what we can so that 
America is present, America is a player, America is in there 
trying to influence the outcomes of events. And this past year 
has been unprecedented in the demands that we have faced.
    At the same time while we are dealing with the urgent, even 
the emergency humanitarian and political strategic demands, we 
also try to look over the horizon, which is one of the reasons 
why the so-called pivot to Asia is so important. We need to be 
very clearly present in Asia.
    So it shouldn't be an ``either/or,'' and there are many 
other examples of that that I could give you. We need to be 
very clear-eyed about how we interact in this fast-moving 
environment in which we find ourselves.
    And I also firmly believe, as I alluded to in my opening 
remarks, that were it not for the work that Foreign Service 
officers and civil servants and locally employed staff do every 
day, American businesses would not be as profitable and 
expanding and creating jobs in this recovery as they are. I 
mean, we have these 1,000 economic officers. We have many other 
people who are there constantly trying to support American 
business.
    I just held and hosted a big conference at the State 
Department where we called in American Chambers from across the 
world so that we could be asking them, What are we doing right? 
What can we do better?
    We are in an economic competition that has profound 
consequences, but it is primarily the work of diplomacy. As our 
businesses are trying to open doors, they come to our 
embassies. They come to the State Department. They say, ``What 
do I need to know about this country? What can you do to help 
me get to the right person so that my bid can be fairly 
considered?''
    We are also seeing an increase in travel to the United 
States. So we have dramatically had to up our budget and our 
presence in countries like Brazil and China because business 
travelers, tourists, they want to come here. We want them to 
come. That is good for our economy. It holds forth the 
possibility of greater benefits.
    We have to continue to counter violent extremism. I mean, 
we have done, I think, a good job in going after the top 
leadership of al-Qaeda, including bin Laden, but we can't rest. 
I mean, al-Qaeda has now made a coalition with al-Shabaab.
    And I just came back from North Africa, and everywhere I 
went, from Tunisia to Algeria to Morocco, we talked a lot about 
security because of al-Qaeda in the Maghreb.
    We have to be constantly not only responding with our 
intelligence community and military means, if necessary, but we 
have to be on the ground picking up the information that can 
then be shared with our intelligence and military 
professionals. And we also put together for the first time this 
past year a global counterterrorism forum, where we have the 
major players from around the world.
    I hosted the first meeting with Turkey in September. We are 
setting up a center in the UAE to counter violent extremism. So 
these are all parts of the multitudinous role that the 
diplomacy and development experts at State and USAID perform 
every single day, and obviously, we think it is important work 
because we do it with great pride.
    The Chairman. Well, I thank you for that. I know they do it 
with great pride and to great effect.
    I think one of the things I was struck by--this is not 
under the 150 Account, but under the commerce account, which I 
also serve on--was that when I was in Hong Kong, I remember 
there were about three Foreign Commercial Service folks, who 
were complaining bitterly that they didn't have either the 
place, which other countries had, to convene meetings in or the 
staff capacity and that we were literally missing, they said, 
``billions of dollars of business'' because we weren't as 
aggressive as other people in seeking it. So I think this 
connection is something that we really need to try to 
underscore to people.
    Secretary Clinton. Well, I appreciate your mentioning the 
Commerce Department because they have been our partners over 
the past many decades. Their budget has been severely affected 
with the result that they are removing commercial officers.
    Here we helped to liberate Libya from Gaddafi, and the 
commercial officer that could be there to help guide American 
investments, whether it be in hydrocarbons or agriculture or 
you name it, is not going to be renewed.
    And throughout the world--and you know, I have had many 
conversations with major American corporations, but also with 
small and medium-sized businesses in our country. We are trying 
to double exports in the 5 years. We are close to meeting that 
goal. We have to keep upping the number so that we are always 
on our toes because that is where a lot of the new jobs are 
going to come from.
    As Senator Lugar pointed out, we still have a lot of people 
hurting in our country. And although I think we are making 
progress, we want to accelerate that progress, and we have to 
get into those markets overseas, and it is difficult for many 
American companies to navigate through that without expert 
help.
    The Chairman. Thank you, Madam Secretary.
    Senator Lugar.
    Senator Lugar. Madam Secretary, in the budget that you 
presented, the leading candidates to receive foreign assistance 
are Israel, Afghanistan, Pakistan, Iraq, and Egypt in that 
order with very sizable portions of money--$3 billion for 
Israel, $2.5 billion for Afghanistan, $2.2 billion for 
Pakistan, $2 billion for Iraq, and so forth.
    My question comes down to the fact that long ago, before 
you had any responsibility, the United States decided to build 
the largest embassy we have ever built in the world in Baghdad. 
During many years, those of us who visited that building or the 
general compound noted how important the security was around 
all of it not only for United States personal, but for Iraqis 
who were working with us to try to build democracy and 
stability in that country.
    Now, as we have withdrawn our Armed Forces and, as you 
pointed out, the diplomatic mission still remains remarkably 
vital and important, I ask this question along with the sidebar 
of Afghanistan, which in this budget you presented contemplates 
building consulates across Afghanistan, staffing them at 
significant cost.
    Given the realities of the security situations in both Iraq 
and Afghanistan how do we, or even can we, adjust the size and 
scope of these buildings given our current financial situation 
and the political and diplomatic realities on the ground? You 
can't try to revise the whole policy today in this hearing, but 
is there discussion, as you contemplate this budget and as we 
think about it, as to how to move forward, given these 
circumstances and really how much building we should be doing? 
Or how do we even secure what we have?
    Secretary Clinton. Well, Senator, you ask two very 
important questions. With respect to Iraq, you know, the 
planning for what we are doing now really began several years 
ago in the prior administration. It set the date for 
withdrawal. It set the date and the framework through the 
strategic framework agreement for our relationship with Iraq.
    And we certainly have planned to try to fulfill what we 
considered to be national expectations. So we are doing 
everything we can to ensure the safety of our staff and our 
contractors in Iraq. We constantly monitor the on-the-ground 
security conditions, but there is never a guarantee of safety.
    And all staff who are deployed to Iraq are certainly aware 
of the risks. They are getting out. They are working with their 
counterparts in government agencies, businesses, NGOs. But we 
are in the process of trying to right-size our presence in 
Iraq. I think we have to assume we are moving toward a more 
normalized relationship with Iraq, and that means we have got 
to be very clear about what we can do and what we cannot do.
    Because of our experience in Iraq, we are starting that 
process earlier in Afghanistan, because we do have through the 
end of 2014 until the NATO ISAF combat troops will be out. So 
we are trying to get ahead of the curve.
    But your questions are absolutely the right ones. I mean, 
we do want there to be secure, democratic governance and 
progress in both Iraq and Afghanistan, and how we allocate the 
responsibilities within the civilian workforce is what we are 
trying to determine.
    Senator Lugar. On an entirely different subject, Madam 
Secretary, yesterday the Keystone pipeline company announced it 
was going to construct a pipeline between mid Oklahoma and 
Houston, TX. They pointed out this would not require any OK by 
the State Department. That was a great relief to you perhaps.
    At the same time, it begs the question of why the State 
Department has been studying the Keystone pipeline issue for 3 
years. Now, the usual answer is because it crosses an 
international boundary between Canada and the United States.
    And nevertheless, after the State Department apparently had 
come to a conclusion that it had been studied enough, I recall 
a very large demonstration of citizens surrounded the White 
House one Sunday in the latter part of last year, demanding 
that the Keystone pipeline be stopped. There were many 
arguments. One of these, however, was that essentially we 
should not be importing more oil into our country. It is an 
ardent theme of those who are fighting climate change who feel 
that fossil fuels, whether they are oil, natural gas, or coal, 
create CO2 and problems for our children and our grandchildren.
    Nevertheless, even though it may be a very powerful 
argument, it was an argument that apparently gave the President 
enough consternation that he recommended it to go back to the 
State Department for further review. Maybe perhaps by February 
2013, you might be able to come up with an answer.
    My hope is that it happens long before that, but can you 
give us any idea what kind of deliberation is proceeding? Why 
might there be a recommendation much sooner than the Keystone 
proposal 
on behalf of energy needs of our country, and particularly 
given 
the program of energy the President has presented, that has a 
conspicuous omission of the oil that might come from our near 
neighbor Canada?
    Secretary Clinton. Well, Senator, yesterday the Department 
received a letter from TransCanada indicating their intent to 
submit a new application for a pipeline which crosses the 
United States-Canadian border and ends at Steele City, NE. You 
are right that under the laws of the United States, the State 
Department is responsible for evaluating any request for such 
permits that do cross an international border.
    And at this point, I obviously cannot make any comment on a 
hypothetical application and permit, but I do think that your 
concerns and the concerns of others about the pipeline, both 
pro and con, suggest that it is important that the process 
follow the laws and regulations because whatever the outcome, 
it is likely to be controversial whichever way the decision is 
finally made.
    It is taking place within the context of U.S. gas and oil 
supplies increasing dramatically domestically. In fact, we are 
now beginning to export domestic supplies. I believe that we 
have to continue to develop supplies everywhere. That is an 
absolutely critical component of our energy security going 
forward.
    And I think that when you look at the request here, there 
were, up until the very end of the process that we were engaged 
in, serious questions raised and most particularly from one of 
the States on the proposed pipeline route. Other States had 
made their own determination, but it wasn't until recently that 
Nebraska weighed in.
    And so, I think that a new application triggers a new 
review process under existing regulations. We would be able to 
draw on some of the technical information that has already been 
compiled. But I think it is probably fair to say that until we 
get the application, until we actually have a chance to study 
it, we won't be able to provide you information as to when a 
decision could be made.
    Senator Lugar. Thank you.
    The Chairman. Thank you, Senator Lugar.
    Senator Cardin.
    Senator Cardin. Well, Madam Secretary, let me join the 
chairman and members of the committee in thanking you for your 
dedicated service to our country. We very much appreciate you 
representing America throughout the world. You have done an 
incredible job.
    Secretary Clinton. Thank you.
    Senator Cardin. I want to talk about the issue of human 
rights for a moment. You stated in the last December's OSCE 
ministerial meeting in Vilnius that lasting peace and stability 
depends just as much on meeting our citizens' legitimate 
aspirations as they do our military security. That is certainly 
true with the Russian citizens who are on the street demanding 
that their legitimate aspirations be taken seriously by their 
government.
    Shortly, we will be considering whether to grant PNTR to 
Russia, as the United States looks at Russia joining the World 
Trade Organization. To me, that presents an opportunity for us 
to advance the aspirations of the people of Russia.
    Jackson-Vanik at its time may have been controversial, but 
I think today we all recognize that the inclusion of Jackson-
Vanik put a spotlight on the world of the oppressive practices 
of the former Soviet Union.
    As we move to PNTR, I would like to get your view as to how 
we can use that opportunity. Assistant Secretary Gordon was 
quoted as saying, when responding to what Congress might do on 
PNTR, said--on human rights, he said, ``We will see what they, 
Congress, demand.''
    I would hope we could work together on this issue, and I 
would welcome your thoughts as to how we could use this 
opportunity.
    Secretary Clinton. Well, first, Senator, let me commend you 
for your long work on behalf of the Helsinki Commission and 
your continuing interest in the OSCE, which I believe not only 
played an important historical role, but still has a role to 
play in maintaining an emphasis on human rights. Promoting 
universal human rights is one of the highest priorities for the 
United States around the world, and we engage on behalf of 
human rights every day everywhere.
    Our other priority, which we don't think is in conflict, 
but is certainly one of particular importance, is promoting 
U.S. trade and boosting our economy. We strongly believe that 
voting for PNTR for Russia is a vote to create American jobs.
    So we agree with you that we think it is important that we 
go ahead and do that. Jackson-Vanik served a very important 
role in the past by helping thousands of Jews to emigrate from 
the Soviet Union, and we ought to lift it. Failing to lift it 
will put our farmers and our manufacturers and our workers at a 
disadvantage.
    At the same time, we would like to work with you on the 
need to send a clear, unmistakable message to Russia that we 
care deeply about rule of law in Russia. We care deeply about 
universal human rights and that Russians have every reason to 
expect their government to protect their human rights.
    So I am not standing back waiting. I would like to very 
affirmatively offer to you the opportunity we work together 
because I think we can do both. I don't, again, think it is 
either/or. I strongly believe we should lift Jackson-Vanik, and 
I believe we should send a message about our continuing concern 
about human rights in Russia.
    Senator Cardin. I thank you for that, and I look forward to 
working with you. I do think we can do both, and I know there 
are many Members of the Senate who agree on that.
    Let me talk a little bit about an amendment that Senator 
Lugar and I were responsible for including in the Dodd-Frank 
legislation dealing with transparency of extractive industries 
and in which you were extremely helpful in supporting that 
effort and having it included in the Dodd-Frank provisions.
    I would ask if you could perhaps share with us how you see 
that playing internationally. We know that that is important 
for investors to have transparency when they determine whether 
to invest in a particular company. It also leads to stability 
of governments that are critically important to U.S. interests.
    The international community is looking at the United States 
and sees the leadership here. And I am wondering if you could 
share with us how you think this will be effective 
internationally, the U.S. leadership on transparency of these 
mineral companies so that the wealth goes to the people of the 
country rather than to fund corruption.
    Secretary Clinton. Well, first, I want to commend you and 
Senator Lugar for including the principles that underpin the 
extractive industries disclosure requirements in Dodd-Frank. 
Look, we know and we see it every day how development of 
natural resources has fueled corruption, mismanagement. It is 
the so-called oil curse or resource curse that actually impedes 
inclusive, broad-based economic growth. And so, you set a new 
standard for transparency.
    We are working very hard to try to make sure that it is 
implemented effectively. We know that there are challenges in 
doing this. I hope the regulations expected from the SEC 
reflect the clear intent of the law, namely to require all 
relevant companies operating in this sector to disclose the 
payments they make to foreign governments.
    I think everybody is benefited by the disinfectant of 
sunshine and the spotlight to hold institutions accountable.
    And the section 1504, which is what the SEC is promulgating 
rules on, complements other efforts at transparency that we are 
committed to.
    And yet I hear a lot from people who are concerned about 
whether the SEC is going to go far enough. In our system, they 
are the ones that have responsibility for doing it. So we are 
encouraging them to go as far as possible because the EU is 
already considering provisions similar to section 1504 because 
we passed 1504.
    We are working at State on a program called the Energy 
Governance and Capacity Initiative, which is trying to 
encourage governments to manage their oil and gas and mineral 
sector responsibly. So we have got a good start here. USAID 
even has an EITI multidonor trust fund to help countries know 
how to implement it.
    So I think that our own Government, all aspects of our own 
Government should be as forward-leaning as possible in giving 
full weight to what the intent was behind the legislation that 
you and Senator Lugar proposed and passed.
    Senator Cardin. Thank you, Madam Secretary.
    Let me just say and you don't need to respond, in regards 
to Alan Gross in Cuba, we appreciate the fact that you are 
working to get him released from the Cuban prison, and I look 
forward to continuing to work with you on that issue.
    I ask consent that an editorial from the Financial Times 
about the rulemaking process for Section 1504 be included in 
the record.
    Thank you, Mr. Chairman.
    [The above mentioned editorial follows:]
               [From the Financial Times, Feb. 26, 2012]

                           Transparency rules

    In the past two years, the US Congress and the European Commission 
have acted boldly to clear up the murkiness in which natural resource 
companies' payments to governments around the world are clouded. 
Lobbying efforts aimed at overturning this progress on both sides of 
the Atlantic should not be allowed to succeed.
    In the US, the American Petroleum Institute, the lobby group for 
the oil industry, has mounted a rearguard action to engage regulators 
in a battle it lost against legislators in 2010. Senators Ben Cardin 
and Richard Lugar inserted into the Dodd-Frank regulatory reform bill a 
requirement that US-listed oil, gas and mining companies report 
publicly their payments to host governments. The Securities and 
Exchange Commission must now specify exact rules. It is this step that 
lobbyists want to trip up.
    In Europe, too, rule-making procedures give special interests 
second chances. Last year the Commission proposed similar reporting 
requirements, now going through the Council and the parliament. Denmark 
is laudably eager to get the law passed before its Council presidency 
ends in June. It should not be weakened along the way.
    The case for public reporting has long been clear. Fuel and mineral 
resources hold back the development of countries that have them as 
often as they promote it. 
The concentrated wealth they entail is a breeding ground for corruption 
and waste. Publicity around what governments are paid for national 
wealth extracted from the ground is not sufficient for managing it 
better, or for reducing the instability of resource-rich states that 
also threatens the well-being of importers. But it is necessary.
    Many extractive companies are happy to live with this, but the most 
recalcitrant demand changes. On both sides of the Atlantic the fight is 
on to reshape the reporting rules so that whatever is published is less 
informative. In particular, it is suggested that the laws' call for 
reporting project-by-project details be watered down with overbroad 
definitions of ``project''. There is no justification for this: most 
payments to states are calculated on a project basis anyway, so 
publishing such detail is no great burden.
    What the rejectionist companies most seem to fear is an inability 
to compete against non-western companies with fewer scruples. If 
realistic, it would be a concern. But that case has not been proven: an 
ability to bribe is not the only competitive edge in the industry. Nor 
is it one either Europe or the US permits. Keeping it hard to expose 
would not make it more legal.

    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here today. I think 
you have earned a well-deserved respect on both sides of the 
aisle for the way you have conducted yourself as Secretary, the 
way you have worked with all of us, and I thank you for that. I 
really do.
    I know that--and I especially thank you for coming before a 
committee that doesn't do authorizing.
    But you are presenting your budget. I realize that much of 
this is punted to the Appropriations Committee, and there may 
be a few committee meetings regarding this. But it is nice of 
you to come up here anyway, even though we probably won't 
impact that in any way.
    One of the things that we did impact, I think, was the 
START treaty. And we worked very closely with Rose and 
Secretary Tauscher to work through the START treaty. And I 
supported the START treaty. We worked very closely with your 
office to make sure all the complements of that treaty were put 
in place.
    One of the big components, and I think a lot of people 
would consider this to be rational, and that is if we are going 
to reduce the number of nuclear arms that we have in this 
country, we ought to make sure the ones that we have work. That 
was a pretty rational thing.
    We have guided systems that have literally tubes like our 
old black and white televisions, and to at least have them 
operate as well as my little BlackBerry might be a good thing 
to do. And so, as part of that, we worked out a very intricate 
plan, 1251 plan relating to modernization.
    Matter of fact, Secretary Gates said, ``The modernization 
program was very carefully worked out between ourselves and the 
Department of Energy. And frankly, where we came out on that 
played a fairly significant role in the willingness of the 
Senate to ratify the START agreement.''
    Secretary Panetta recently said, ``I think it is 
tremendously shortsighted if they reduce funds that are 
absolutely essential for modernization. If we aren't staying 
ahead of it, we jeopardize the security of this country. So, 
for that reason, I certainly would oppose any reductions with 
regard to the funding.''
    So now the START treaty is in place. It passed with a 
majority. I helped do that, among others. And the budget that 
has come forth from the administration this year almost totally 
negates the agreement regarding funding.
    I know, again, that you worked on that. Secretary Tauscher 
worked on that. A lot of trust was built. Rose was up here 
nonstop. I am just wondering within the Department, does that 
create any kind of integrity issue, and how should those of us 
who relied upon these commitments--a letter from the 
President--how should we feel about this as it relates to other 
serious agreements that may occur between Congress and the 
White House?
    Secretary Clinton. Well, first, Senator, thank you for your 
engagement on that and other issues with me and with the 
Department. I highly value this committee. I know how difficult 
it is to get an authorization done, but in effect, the constant 
consultations are very influential in determining our policy.
    And with respect to NNSA modernization, the level of 
funding requested in the November 2010 section 1251 report for 
nuclear modernization was unprecedented, as you know, since the 
end of the cold war. We had, frankly, neglected our nuclear 
stockpile. We did not make the kinds of investments.
    And as we have looked at what the sequence will be, the FY 
2013 request for $11.5 billion will help the NNSA achieve the 
nuclear security objectives and the underlying agreement that 
you referred to under START. It is an increase. It is an 
increase of 4.9 percent over the FY 2012 appropriations.
    And it was developed, as I understand it--because you know 
it is not in my budget. It is in the Department of Energy's 
budget. It was developed closely in concert with the experts 
about how much money could you spend in a year to get this 
underway and then looking out, year after year, to actually 
deliver.
    Now if the Congress doesn't fully fund the President's 
budget, as laid out in the 1251 report, then the President will 
have to make a report to Congress.
    Senator Corker. If I could?
    Secretary Clinton. Yes.
    Senator Corker. I know we don't have time, and I have 
tremendous respect for you. So this is not meant to be 
disrespectful.
    But all that is history, but I am talking about the budget 
that has just been submitted. The President did not ask for the 
very funds that he committed to in the 1251 that was laid out. 
It was all part of this package that we all worked so closely 
together on. So it is a total--it is a reneging of an 
agreement.
    I guess I would ask the question if we are not going to 
modernize as was laid out by everybody involved as being very 
important, including our chairman, should we consider reducing, 
slowing the commitment on the START treaty since we are not 
really living up to the modernization component that was so 
talked about in such detail, with such commitment by all 
involved?
    Secretary Clinton. Well, Senator, I don't think, 
respectfully, I agree with the premise. There is a 4.9-percent 
increase in the budget request for FY13. The $11.5 billion 
requested will go into the modernization agenda. As I 
understand it, it is what the experts who will be doing the 
work at the labs and elsewhere believe can be effectively spent 
in a year.
    So I am happy to take this question for the record, have 
the Department of Energy respond to it. But I really want to 
say that I think that, given the budget, that the President and 
the administration are meeting the assurances that were given 
to you and others. It is tough in a time of budget restraint, 
but $11.5 billion that will be this year's investment will be 
followed by more, which will be followed by more.
    Because I mean, if you gave the NNSA $100 billion, they 
couldn't physically do the work. So I believe that we are on 
the right track. But let me take that and get the Department of 
Energy to respond.
    [The written information from the State Department 
follows:]

    The administration remains committed to maintaining a safe, secure, 
and effective nuclear arsenal. Over the past 3 years, the 
administration has worked with Congress to develop a sustainable, 
bipartisan commitment to a nuclear deterrent to defend and protect the 
United States and our allies.
    The administration's historic budget requests and nuclear 
modernization plan have sought to reverse years of declining 
investments in the nuclear weapons complex. With congressional passage 
of the Budget Control Act (BCA), we face new fiscal realities. These do 
not weaken our commitment to the nuclear deterrent, but they must 
inform programmatic decisions.
    As stated in the March 2 letter from Secretaries Panetta and Chu, 
the administration worked aggressively to develop a budget request for 
FY13 that makes hard choices to meet fiscal realities, but maintains 
funding for the most critical programs and capabilities. The resulting 
$7.6 billion is $363 million (or 5 percent) above the amount 
appropriated by Congress for FY 2012, is sufficient to keep our 
stockpile safe, secure, and effective.
    This is one of the few accounts in the entire U.S. Government to 
receive an increase of this size, and it demonstrates the 
administration's support for the modernization of the U.S. nuclear 
weapons complex in a time when there is significant scrutiny of all 
budgets.

    Senator Corker. I am glad I had the opportunity to raise 
the issue, and again, I want to reiterate we have tremendous 
respect for the way that you have dealt with us.
    The issue of Iran, and I know there is not much time left, 
is obviously front and center.
    The Chairman. About 5 seconds.
    Senator Corker. And I think--I think most people in the 
country watching what is happening believe there is a very good 
chance that we could end up with a military engagement with 
Iran in the next 12 months. And I guess I would ask the 
question of you, what is it that you would like to see Congress 
do and not do as it relates to that particular issue?
    Secretary Clinton. Well, I think that we are absolutely on 
the same page. The administration has been unequivocal about 
its policy toward Iran. With your good work and our efforts, we 
have passed the Menendez-Kirk sanctions. We are implementing 
those sanctions.
    There has never been anything like them that the world has 
ever agreed upon. We are diligently reaching out around the 
world to get agreements from countries for whom it is quite 
difficult to comply with our sanctions, but they are doing the 
best they can. We know what the stakes are here.
    We are in close, close consultation with Israel, with 
Europe, with our friends in the gulf and elsewhere. We are 
focused on the toughest form of diplomacy and economic pressure 
to try to convince Iran to change course, and we have kept 
every option on the table.
    So, I mean, I think we are in agreement about the various 
aspects of our proposals--of our policy where we are today. The 
challenge is making sure that we are constantly evaluating 
where Iran is and what Iran's reactions are.
    The Chairman. Senator Corker, let me just say I appreciate 
you raising that issue also, and I feel as if I am somewhat a 
party to that agreement, having worked that with you.
    I very strongly feel that the Secretary has appropriately 
said that the amount of money being spent is what can be spent, 
that it is on track within the constraints of the budget 
overall. But I think that commitment remains extant and 
obviously needs to be made good on. And we will work with you 
on that.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your incredible service to 
our country. I remember when you were sitting here for your 
confirmation hearing, that there were those who had questions. 
I think you have more than dissipated all those questions, and 
you have just done an extraordinary job.
    I want to talk about Iran. I hope you agree with me that 
the best peaceful diplomacy tool left to us to stop Iran's 
march toward nuclear weapons is the vigorous enforcement of the 
sanctions policy that we presently have, particularly the 
Central Bank of Iran. Would you agree that that is our best 
peaceful diplomacy tool?
    Secretary Clinton. It is certainly probably the highest 
priority tool. We have other tools, but I think your 
characterization is right.
    Senator Menendez. And in that context then, with respect to 
the implementation of the Central Bank sanctions that will 
begin to take effect tomorrow on nonpetroleum transactions, I 
have concerns about the subjective criteria that will be used 
by the Department to determine whether a country has achieved 
significant reductions in purchases of refined petroleum.
    I would have preferred that we had some scale, but I have 
heard the arguments for why having a subjective criteria may be 
better. But can I presume that in the absence of a national 
security waiver under the law, that all countries would be 
required to actually make significant reductions in their 
purchases during each of the 180-day periods?
    Secretary Clinton. Yes, our expectation and the direction 
we are giving to countries is that we do expect to see 
significant reductions. And I am pleased to report, Senator, 
that we have been aggressively reaching out to and working with 
countries to assist them in being able to make such significant 
reductions.
    You know, for some countries, it is a lot harder than other 
countries. And so, we have really come in with a lot of 
suggestions to help them be able to do what we are asking them 
to do.
    Senator Menendez. I appreciate hearing that we expect to 
see them make significant reductions in each of those 180-day 
periods because I think it sends a very clear message to our 
allies abroad, joining with the Europeans that are already 
pursuing an oil embargo, about the seriousness of this nature.
    In that respect, what progress can you tell us about with 
reference to countries like China, India, and Turkey?
    Secretary Clinton. Well, I think with respect to China and 
Turkey and India, we have had very intense and very blunt 
conversations with each of those countries. I think that there 
are a number of steps that we are pointing out to them that we 
believe they can and should make.
    I also can tell you that in a number of cases, both on 
their government side and on their business side, they are 
taking actions that go further and deeper than perhaps their 
public statements might lead you to believe. And we are going 
to continue to keep an absolute foot on the pedal in terms of 
our accelerated aggressive outreach to them.
    They are looking for ways to make up the lost revenues, the 
lost crude oil. That is a difficulty for a lot of these 
countries, not just the ones you mentioned. So we have had to 
put together an entire team to try to assist them in thinking 
through ways of doing that.
    Senator Menendez. Well, I appreciate that because I think 
the stronger and more uniform the message is, the fewer 
challenges we will have getting countries to join us in common 
cause toward something that is in their mutual national 
security interest. This is not just about the United States, 
not just about Israel, and certainly not even about the 
European Union. It is about the entire region and certainly 
beyond.
    One final question in this regard. Several of us wrote a 
letter to the President about the P5+1 talks and where that 
would lead. And some of us are concerned that the Iranians, to 
gain time, would just simply enter into a negotiation thinking 
that either the sanctions would cease or that their enrichment 
facilities and centrifuges would not be part of the discussion 
on the table.
    Can you give me a sense of the conditions that we are going 
to be looking at as it relates to any such talks?
    Secretary Clinton. Well, as we have done since 2009 within 
the P5+1, we have pursued this dual-track policy, and we have 
had a policy of pressure and a policy of engagement.
    And we have used these escalating sanctions as a way to 
persuade Iran to engage with us. And there are two things we 
have been very clear about.
    First, as outlined in Cathy Ashton's letter to Iran, any 
conversation anywhere with Iran has to begin with the 
disposition of their nuclear program. I mean, that is the No. 1 
issue. And Iran's response to her letter appears to acknowledge 
and accept that.
    Second, we have been working with our colleagues in the 
P5+1 to set forth the actions we expect Iran to take that would 
have to be verifiable, would have to be sustainable because 
there has to be some guarantee to the international community 
that assuming they were willing to come into compliance with 
their international obligations, that they would actually do so 
in a way that was not reversible or certainly not immediately 
reversible.
    So we are a long way from having any assurance as to what 
Iran would or would not do in the P5+1. But I can certainly 
assure you, Senator, that there is not going to be any front-
loading of concessions on our part. This is going to be a very 
hard-nosed negotiation, and we are joined by the P5+1 in that 
kind of approach.
    Senator Menendez. Well, I thank you for that. We look 
forward to continuing to work with you.
    And I will just close by saying I know that everything 
cannot be a priority in the world, although I am sure 
everything is important in the world. But certainly, I want to 
call your attention to what is happening here in our own 
hemisphere, and I appreciate that probably more than any other 
Secretary of State, your travel to the hemisphere has been 
extraordinary.
    This is incredibly important when we see the erosion of 
democracy within the hemisphere, the erosion of free press 
within the hemisphere, the influences that Iran and China are 
seeking within the hemisphere right in our own front yard. So I 
look forward to continuing to work with you on that.
    And I will have a question for the record on Camp Ashraf. I 
am concerned about the transition at Camp Liberty and what goes 
on there, and I look forward to your response.
    Secretary Clinton. Thank you, Senator.
    The Chairman. Thank you, Senator Menendez.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Secretary Clinton, I am not going to dwell on this because 
you spent quite a bit of time on it. But I didn't vote for the 
treaty, but the administration almost took me with the promises 
that it made. And there has been a lot of discussion as to 
whether the promises are being kept or not, and I don't think 
it comes as a surprise to you that there are a good number of 
people on my side of the aisle that feel that the promises are 
not being kept.
    And the good chairman of this committee acted in very good 
faith I think in soliciting votes and making commitments. The 
President made commitments in writing. So when you take the 
question for the record for the DOE, I don't think I would 
focus on so much as what can be done as to whether or not the 
commitments are being kept.
    So that is my two-cents worth.
    Moving to Iran for just a minute. As you try to work 
through this Rubik's cube and try to get a handle on this thing 
and try to get things ratcheted down, it is always best to 
start with what is the other side thinking? And you read this 
stuff and you just--it is hard to comprehend why they continue 
to push the envelope and why they continue to pursue something 
that everyone in the world doesn't want them to do.
    What is your theory on that? Is it homegrown politics? What 
is it that is motivating them to continue to do this?
    [The written information from the State Department 
follows:]

    The administration remains committed to maintaining a safe, secure, 
and effective nuclear arsenal. Over the past 3 years, the 
administration has worked with Congress to develope a sustainable, 
bipartisan commitment to a nuclear deterrent to defend and protect the 
United States and our allies.
    The administration's historic budget requests and nuclear 
modernization plan have sought to reverse years of declining 
investments in the nuclear weapons complex. With congressional passage 
of the Budget Control Act (BCA), we face new fiscal realities. These do 
not weaken our commitment to the nuclear deterrent, but they must 
inform programmatic decisions.
    As stated in the March 2 letter from Secretaries Panetta and Chu, 
the administration worked aggressively to develop a budget request for 
FY13 that makes hard choices to meet fiscal realities, but maintains 
funding for the most critical programs and capabilities. The resulting 
$7.6 billion is $363 million (or 5 percent) above the amount 
appropriated by Congress for FY 2012, and is sufficient to keep our 
stockpile safe, secure, and effective.
    This is one of the few amounts in the entire U.S. Government to 
receive an increase of this size, and it demonstrates the 
administration's support for the modernization of the U.S. nuclear 
weapons complex in a time when there is significant scrutiny of all 
budgets.

    Secretary Clinton. Well, Senator, first, very briefly on 
the question about nuclear modernization, I will certainly 
provide you with information that I hope that makes it as clear 
as possible that we took our obligations seriously, and we are 
fulfilling them.
    There may be debate about how fast we are going, where we 
are doing it. That I don't have any expertise on, but I want to 
reassure you that certainly I acted in good faith, and so I do 
believe----
    Senator Risch. I believe you did act in good faith. But the 
comfort level needs to be raised, I can assure you.
    Secretary Clinton. Well, I will do what I can. I will have 
the 
answers delivered with macaroni and cheese and other comfort 
food that I hope makes that case to you.
    Senator Risch. That will get you everywhere.
    [Laughter.]
    Secretary Clinton. Well, thank you, Senator.
    Look, I know that last week, the Director of National 
Intelligence former General Clapper, the Director of the CIA 
former General Petraeus, the Chairman of the Joint Chiefs 
General Dempsey, plus Secretary Panetta, all testified in front 
of other committees here in the Senate that it is the 
conclusion of our Intelligence Committee that the Iranians have 
not yet made the decision to produce a nuclear weapon.
    Now the explanation that I think came from those very 
credible sources, patriots all, is that there is a continuing 
debate going on inside the Iranian regime, and it is an 
especially complicated debate for anybody on the outside and, I 
dare say, some people who are on the inside to understand 
because there is a lot of power struggle going on. There are 
personality clashes.
    The Supreme Leader, who is the head of the clerical 
presence institutionally within Iran, the Revolutionary Guard 
and the Quds Force, the Parliament, and the President, we just 
get a lot of static in intelligence reporting and analysis from 
not just our own sources, but international sources.
    So I think there is a debate. There is no doubt they are 
pursuing nuclear power. They have a right under the NPT as a 
signatory to pursue peaceful civil nuclear power. And there is 
no doubt that a lot of what has been discovered by the IAEA 
points in the direction of a nuclear weapons program, and there 
is no doubt that they raise all kinds of suspicions by putting 
a lot of their work in their nuclear program into very remote, 
inaccessible places and recently denying the IAEA the right to 
investigate.
    So I think it is understandable, Senator, why you and why 
millions of people who are concerned and worried about this are 
trying to discern what they want and what they are trying to 
achieve. And that is one of the reasons why I support our dual 
track of intense pressure and of being willing to engage 
because I want to gather as much information not only about 
actions, but about intentions.
    And we have very deep ongoing consultations with Israel, 
with the Gulf Arabs, with the Europeans, with others. There 
isn't anybody of any stature in the world in any government 
that really is not concerned about what the Iranians are doing, 
and it is a source of constant discussion.
    So what we are intending to do is ratchet up these 
sanctions as hard and fast as we can. Follow what is going on 
inside Iran, which seems to be a lot of economic pressures that 
we think do have an impact on decisionmaking. Continuing to be 
vigilant. Responding quickly to threats like the threat about 
the Strait of Hormuz, leaving absolutely no question in the 
Iranian mind as to what we would do should they take any 
foolhardy action.
    Having aircraft carriers going in and out of the gulf. 
Consulting and planning with a lot of our partners. So that is 
the state of play right now. But the question you asked is a 
question that is asked every day in the intelligence community 
and in foreign affairs agencies around the world.
    Senator Risch. Well, thank you very much. I appreciate 
that.
    And I would think that someone in their decisionmaking 
authority in Iran would look back at recent history in Iraq and 
look what Saddam Hussein did. What a reckless thing to do to 
take the world and make them believe something that isn't even 
necessarily true.
    So thank you very much for your analysis. I sincerely 
appreciate it.
    Thank you, Mr. Chairman.
    Secretary Clinton. Thank you.
    The Chairman. Thank you, Senator Risch.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Secretary Clinton, it is great to be with you again. Thank 
you for appearing before us.
    I have two questions. The first one concerns Pakistan, the 
other, Iran.
    With regard to Pakistan, this August, Senator Whitehouse, 
Senator Blumenthal, and Senator Michael Bennet and I traveled 
to both Afghanistan and Pakistan. Our trip had one focus, and 
that was this question of IEDs and the material components 
thereof. And just recently, the four of us sent you a letter 
that you may have just gotten a number of days ago, and I 
wanted to ask you about that topic.
    I want to focus your attention on what the Pakistanis have 
done or not done. The Pakistanis gave us assurances on our 
trip--and I mean assurances at the highest levels of their 
government--that they would take this matter more seriously and 
that they would implement the strategic plan that they 
presented to us in writing. And it is my judgment that, despite 
these assurances, they have been very slow to implement the 
plan, especially focusing on the networks that are moving 
component parts that become the foundation of IEDs that are 
either killing or grievously wounding our troops on a regular 
basis in Afghanistan.
    As a predicate to my question, I want to thank you for your 
determined leadership on this. You have been focused. You have 
been vigilant. And you have been persistent in pushing the 
Pakistani leadership to help us on this, and I am grateful for 
that.
    Based on your observation of their actions or inaction on 
this, do you think the Pakistani Government has taken any 
measurable steps to specifically go after the networks? Because 
I think that is what a lot of us are waiting to see, that is, 
whether or not their professed plan becomes a plan of action 
and specific steps. Can you tell us about how you see it?
    Secretary Clinton. Well, Senator, I appreciate your 
leadership on this issue. And as I reported to you some months 
ago, I raised it at the very highest levels of the Pakistani 
Government one more time. I discussed it at some length last 
Thursday in London with the Foreign Minister. And it is very 
clear they need to do more, and they need to do more for 
themselves.
    I mean, our concern is very much rooted in the terrible 
attacks that take place in Afghanistan against our soldiers, 
against other targets there. But in 2011, there were 1,966 
terrorist attacks in Pakistan which resulted in 2,391 deaths, 
the vast majority of which were the IEDs. So our point to 
Pakistan has been this is not about the United States, NATO 
ISAF, Afghanistan alone. This is also about you.
    Now what they have done is they have introduced legislation 
in their national assembly. I have been told they expect to 
pass it shortly. It is focused on the transport of calcium 
ammonium nitrate. They have an implementation plan in the 
works. We have had several expert meetings with them on their 
national counter-IED strategy that they approved in June 2011.
    They are working actually with their Afghan counterparts to 
improve coordination on the border to restrict fertilizer 
imports. We have had several productive meetings between the 
Government of Pakistan, the Government of Afghanistan, and ISAF 
over the past year. And so, we are making progress.
    And I just have to say, Senator, that when I raised it 
directly with the very highest levels of the military and 
civilian governance in Pakistan, there was a lot of confusion. 
They did not understand how fertilizer, that many of them told 
me they use on their own farms, was such a problem.
    So I explained to them after the Oklahoma City bombing, we 
had to reach the same conclusion, and we had to go after the 
use of fertilizer. And so, they are like 10 to 15 years behind 
us in terms of thinking through what this means and how to do 
it. So they are making progress, but they are not doing enough, 
and they are not moving fast enough.
    Senator Casey. I know that you sat with their leadership 
back in May, and I remember seeing the video from Memorial Day 
weekend. And when you came back, you called me about it. I 
remember you making that point at the time.
    But I just hope we can all continue to be as persistent as 
you and others have been to make this point because, as you 
said, it really is about protecting their own people as much as 
it is about the urgency we feel about protecting our own 
troops. And it is remarkable the lengths to which our Armed 
Forces and our military intelligence have gone to protect 
soldiers, to prevent and to deal with the aftermath of the 
horror of those explosions.
    And you know Pennsylvania well. A lot of Pennsylvanians 
have served in both Iraq and Afghanistan. At last count, the 
number of Pennsylvanian fatalities in Iraq and Afghanistan was 
79--it could be above 80 now. By the last count, that's 79 
Pennsylvanians killed in action, and 573 wounded. So it is a 
major issue for our families.
    In my remaining time, let me address another aspect of the 
Iranian question. The Institute for Science and International 
Security recently released a report about efforts to prevent 
Iran from gaining access to illicit nuclear materials.
    The report said, ``There remain significant gaps, notably 
the weak implementation of U.N. Security Council sanctions by 
China. China remains vulnerable to Iran's smuggling of vital 
goods for its nuclear program. Smugglers use front companies to 
buy from Chinese suppliers or Western high-technology 
subsidiaries located within its borders. There remain many 
concerns about Iran's continued ability to transship goods 
through countries with weak implementation of sanctions or 
trade controls, commonly called countries of `transit concern.' 
''
    The basic question there, and I know you may have to 
elaborate in writing, but can you say anything about the 
efforts to urge China to do what it should do in terms of 
preventing this illicit transfer?
    Secretary Clinton. It is one of our highest priorities, and 
we are working with the Chinese. They have made some progress. 
They have eliminated some of the companies that were engaging 
in that illicit trade, but they have not done everything that 
we would like to see them do.
    So I will get you more details. Some of that will have to 
come in a classified section, but I will respond to that.
    [The written information from the State Department 
follows:]

    Pakistan has taken steps to stop the flow of materials used to make 
improvised explosive devices (IEDs) from entering Afghanistan. Over the 
past year, Pakistan established new requirements to monitor and secure 
shipments of calcium ammonium nitrate (CAN), ammonium nitrate (AN), and 
potassium chlorate. Pakistan continues to participate in the ISAF-
Afghanistan-Pakistan IED coordination group aimed at improving 
information-sharing on the IED threat between these two countries. Most 
significantly, Pakistan supported the U.N. 1988 terrorist designation 
of IED facilitator Samad Achekzai. This is the first such designation 
related to IEDs.
    These actions are a step in the right direction, but more stringent 
controls are needed to further restrict access to these chemicals for 
illicit use. It is clear Pakistan can do more and their actions must 
have an impact. We will continued to engage Pakistan and press for more 
progress in these areas.

    Senator Casey. Thank you very much.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    Good afternoon. How are you?
    A few months ago, I had the unique opportunity to travel to 
Libya right in the aftermath of that transition. It was 
startling to watch pro-American graffiti on the walls, and 
people walking up to you on the streets and thanking America.
    They very clearly knew who was with them, and they also 
very clearly knew who had turned their back on them. And I hope 
that will pay dividends in the future.
    We are now several months into that transition and the U.S. 
involvement in it. So my question really is two part. No. 1 is 
how is that going in terms of our role there, the money that we 
are spending, and how the budget anticipates our ongoing 
involvement with Libya?
    And then the second question is one that is hopeful that 
there will be a transition similar to that in Syria very soon, 
and what lessons have we learned or are learning from the 
Libyan experience that as far as what role we could play, 
particularly in things like making sure that these 
sophisticated weapons--MANPADS and so forth--don't fall in the 
wrong hands, but also some of the other things that are going 
on?
    So, in essence, how is the transition in Libya going as far 
as our role is concerned, and what lessons are we taking from 
Libya, that could potentially be applied to a Syrian transition 
hopefully very soon?
    Secretary Clinton. Senator, thank you for that visit. I 
remember very well getting briefed about it. And you are right. 
I think the United States has a very important opportunity from 
Libya through Tunisia through Algeria to Morocco. If we do what 
we need to do in those four countries, we can really help them 
move toward sustainable democracy, open up their economies, and 
produce results for people.
    Libya is more challenging because Gaddafi destroyed all 
institutions. They don't have institutions that they can remove 
people from and fill people with because it was such a 
personality cult. They are making progress. The new Prime 
Minister will be coming to visit in just a few weeks.
    I would urge, if it is not already on the schedule, that he 
meet with members of this committee and explain to you what he 
is doing, what his government is doing. They have cooperated 
with us on going after the MANPADS. We have implemented a plan 
that we worked through with them, and we are also working with 
them to fulfill their signing of the conventional weapons 
destruction technical arrangement. So they have been very 
cooperative.
    We know they faced problems in combining all of the 
militias into a coherent, organized military presence. We are 
certainly supporting them in their efforts to do so. I think 
that we have got a chance here to really respond to their very 
positive attitude toward the United States. This is something 
that can bring dividends in not only how they develop, but in 
our own standing and leadership in the region.
    Reintegrating these militia members into civilian life and 
into the security services is the biggest challenge. They are 
getting their economy up and going. We are working with them on 
trying to help with their wounded warriors, something that is, 
I know, important to several members of the Senate.
    The people in Libya seem still to be quite optimistic about 
how things are going. But it is like starting from scratch. 
They really are working as hard as they can, and I think it is 
in our interest to support them.
    With respect to Syria, it is a much more difficult and 
complicated set of circumstances. I recently returned from a 
meeting in Tunis, where about 70 countries and organizations 
were present to try to plot a way forward on Syria. The 
potential of supporting the political transition, the 
humanitarian assistance that they need, ratcheting up 
pressure--the EU just adopted more tougher sanctions 
yesterday--is what we are all working on.
    And then, as you know, there is a big debate about whether 
there is a feasible way of trying to help the people who are 
under assault by the Assad regime defend themselves.
    So this is at an early stage, and there is a lot of good 
work being done. But there is no plan yet that we can point to.
    Senator Rubio. Thank you.
    And my last question is involving PEPFAR, which, as you 
know, enjoys incredible bipartisan support here. I was pleased 
to see earlier this year an increased commitment to the program 
by the administration. Would the current budget projections, 
which I think has some level of reduction, keep us on track for 
the goal of putting 6 million people on life-sustaining 
treatments by 2013? Does it keep us on that trajectory?
    Secretary Clinton. It does, and I would welcome the 
opportunity to provide you with more specific information. But 
I just wanted briefly to say that we have brought down the cost 
of the drugs dramatically. We have also leveraged American 
support for the Global Fund to do the same. So I am confident 
we are on the track to bringing down the number of infections 
and bringing up the number of people on treatment.
    And as you referenced, Senator, we do have a chance to have 
an AIDS-free generation because the evidence is compelling that 
treating people very early helps to prevent AIDS. And the 
request that we have given to you will give us the maximum 
impact in our investment in fighting HIV-AIDS.
    But I will give you details on it because this has had 
bipartisan support. This was a really historic program started 
under the Bush administration, begun by President Bush, fully 
supported on a bipartisan basis. It buys us so much goodwill. 
You really--if you go to sub-Saharan Africa, it is one of the 
reason why people have a positive view of the United States.
    So we think we are on track, but I will give you additional 
information on that.
    [The written information from by the State Department 
follows:]

    The PEPFAR budget will indeed allow for such a goal. The FY 2013 
request for PEPFAR bilateral programs is $4.54 billion, including HHS 
appropriation for HIV/AIDS, accompanied by a contribution to the Global 
Fund of $1.65 billion. PEPFAR is confident that these plans provide 
sufficient resources to bilateral programs to keep PEPFAR on target to 
meet its goal, announced by the President on World AIDS Day, to provide 
treatment for 6 million people by 2013.
    In FY 2013, PEPFAR will continue efforts to support greater impact 
and efficiency through smart investments, improve the quality of 
collect data, and ensure that country programs continue to reflect the 
realities of the epidemic at the local level so that we can target our 
investments to maximize impact. PEPFAR has reduced the cost of 
treatment per person per year from over $1,100 to $335. Lower costs of 
drugs, bulk purchasing, and simple changes like shipping medication by 
ground instead of air have reduced the cost of treatment. Given the 
efficiencies that PEPFAR has built into its system, we will be able to 
reach this goal under this budget.

    The Chairman. Thank you, Senator Rubio.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Clinton, I have to apologize for having missed 
your opening remarks. I was presiding over the Senate at the 
time, a chore which I am sure you well remember.
    Secretary Clinton. I do.
    Senator Webb. Let me begin by expressing my agreement with 
your words of caution about the Syrian situation. It is 
enormously complex, geographically, culturally, diplomatically, 
and I think we are right to try to proceed very carefully 
forward, no matter what we end up doing.
    In fact, one of the more clarifying moments of my life was 
when I was a journalist in Beirut in 1983, and you remember how 
complicated that was. And in the middle of a very complicated 
firefight, a Marine turned around to me and said, ``Sir, never 
get involved in a five-sided argument.''
    I would like to ask you a couple of questions with respect 
to this region. First, I am interested in learning more about 
this Middle East and North Africa Incentive Fund. There is $770 
million in the budget request for that fund, and that comes on 
top of other programs, such as about $2 billion for the OPIC, 
and $1 billion in debt swaps to Egypt, about $500 million in 
existing funds being reallocated, and the considerable moneys 
we give to other countries in the region.
    I am just curious to learn from you what programmatic and 
particular ways you see that fund as working?
    Secretary Clinton. This fund idea came out of two 
experiences, Senator. One experience about what happened this 
past year when we were constantly trying to carve out money to 
respond to the emerging needs in Tunisia, Egypt, and Libya and 
how we could make sure we were demonstrating leadership, 
whether it was humanitarian leadership, or in the case of 
trying to create enterprise funds, debt swaps, the kinds of 
things that would send a clear message to these new Arab 
transformations that we were on their side.
    The second source of experience is what we did at the fall 
of the Soviet Union. Back in 1989, for example, we had support 
for democracy in Eastern Europe, where we provided assistance 
for Hungary and Poland at a $1 billion fund level, and it gave 
us flexibility. We could be agile about it.
    So what we are asking here is to give us some of that 
flexibility. We would obviously come back to the Congress and 
notify the Congress. We would look at projects based on 
rigorous analysis as to what could work, helping the democratic 
transformation.
    I just came back from Tunisia, and here is an Islamist 
government that is saying all the right things on human rights, 
on women's rights, on economic reform. They have a huge budget 
gap by their standard. It is a billion dollars.
    That is a huge budget gap.
    They have a very well thought-out plan about how they are 
going to reform their economy, open it up. But they have to get 
some help from where they are to where they are headed. And 
they just basically said, ``What can the United States do for 
us, and can you help us then leverage what you can do with 
other countries?''
    Well, that is the kind of request that we want to respond 
to because it is in our interest to do so. So the fund would 
complement existing bilateral and regional programs, but it 
would give us flexibility to look and be as smart as possible.
    Senator Webb. Thank you.
    We have got about $12 billion in this budget request going 
to Iraq, Afghanistan, and Pakistan, at least by our staff's 
count. You are about $4.8 billion into Iraq; $2.8 billion of 
that for diplomatic funds, embassy, consulates, et cetera. 
About $4.6 billion into Afghanistan, and $2.4 billion into 
Pakistan; this actually reflects an increase in funding for 
Pakistani military, as compared to last year.
    The first question I have on this goes to some 
correspondence that we initiated out of our office last year 
that expresses concern about how Pakistan has been expanding 
its nuclear program, even as our assistance programs have 
continued over these years, and wanting to know whether we have 
a firewall in the moneys that are going into Pakistan so that 
they don't directly, or indirectly, assist in expansion of 
their nuclear program.
    Secretary Clinton. Well, we certainly have constructed one. 
I think the fair question is, even with a firewall, if you 
provide aid for other purposes, does that permit the government 
then to divert funds that should be spent for health, 
education, energy, et cetera, to that program? And it remains a 
serious concern of mine, Senator.
    You know, part of our ongoing and very tough dialogue with 
Pakistan is around the reforms they need to make for their own 
people. They have invested the great bulk of their revenues 
into their military establishment, including their nuclear 
program, to the great cost of providing basic education, health 
care, electricity, the kinds of things that would demonstrate 
to the people of Pakistan they had a government that, No. 1, 
cared about them and, No. 2, produced for them.
    So I can answer the direct question, yes, we have a 
firewall. But that isn't the end of the dialogue, as you know 
very well. And we are going to keep pressing hard to make sure 
that the IMF and the World Bank and we and others are working 
toward the kind of reforms that are going to stabilize Pakistan 
for the long term.
    Senator Webb. Well, I hope we can continue to focus on 
that. We may have some more dialogue.
    I had a number of discussions with Admiral Mullen on this 
subject, and it is something that I think we should put at one 
of our highest security priorities. And I understand how that 
could be taken in a different way from the Pakistani side, but 
you can't not look at the way that they have expanded their 
nuclear program and not want to try to figure out whether we 
are indirectly assisting it; that would clearly not be in our 
national interest.
    I am running out of time. So I am just going to say that I 
hope we can find the right kind of off-ramps in terms of the 
amount of money that we are spending in these transitional 
occupations and contingency operations--like we have in Iraq 
and Afghanistan--for the good of our own country and the good 
of our budget, but in a way that doesn't destabilize the 
region.
    And again, I apologize for not being here at the beginning, 
and I appreciate everything you have been doing.
    Thank you, Mr. Chairman.
    Secretary Clinton. Well, Senator, on the last question on 
the off ramps, we are very committed to that, and I would like 
to have our team come and brief you. And if you have any ideas 
about that, I certainly would welcome them. And I also want to 
publicly thank you for the great preliminary ground work you 
did with respect to Burma. It made a big difference.
    Senator Webb. Thank you very much, and I will look forward 
to that meeting with some of your people.
    Thank you.
    The Chairman. Thank you, Senator Webb.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Secretary Clinton, thank you for the way you have 
represented us around the world and for being here today. I 
certainly agree with you that American power is a stabilizing 
force around the world, and I am sure you will agree with me 
that any perception of American weakness is a destabilizing 
force around the world.
    And in some circles today, I think because of a perception 
that we are overextended, in financial trouble here at home, 
and maybe tired of wars and intervention, that our 
determination to continue to be a stabilizing force is in 
question. As I look at your budget and budgets, I guess, 
throughout the Federal Government now, I have to look at it not 
so much as I once did as what we want to do or what we should 
do, but what we are financially able to do, given the fact that 
probably half of the money that we will be spending through the 
State Department is either borrowed or printed money. So we 
have got to make that money work for us.
    And I agree with your priority, certainly, of facilitating 
and expediting international business travel, trade, and energy 
supplies are key to Americans' interests. But I do question 
just looking at history that our attempts to, let us say, buy 
friends in a lot of parts of the world have not appeared as 
successful. It does seem that countries we have spent decades 
supporting are willing to turn on us relatively quickly.
    So I am very concerned that how we spend our money, 
particularly the fact that we don't have enough to do the 
things we need to do domestically. And so, I have a number of 
questions about the budget, but I will just turn to one of them 
because maybe it will shed some light on others. Again, this in 
the context of our money meaning something and that we mean 
what we say.
    As you know, last year the United States pulled its funds 
for UNESCO in accordance to United States law when the 
organization decided to grant membership to Palestine. And they 
have not changed their position on Palestine, but the 
administration is now requesting $78 million and a waiver from 
Congress in order to fund UNESCO.
    So I would just like you to take a minute to explain why we 
are changing, if we are, previous policy and asking for a 
waiver of United States laws instead of insisting that they 
comply with really U.N. agreements about Palestine that has 
been going on for decades.
    Secretary Clinton. Well, Senator, thank you.
    Our position is absolutely clear that there cannot be any 
premature recognition of Palestinians in any international body 
because that is not a way to bring about a lasting peace 
through a negotiation over a two-state solution. And we 
believed, as we said at the time, that Palestinian membership 
in UNESCO was premature and unhelpful in the overall goal that 
we were seeking.
    We continue to make that clear. We tell everyone that we 
are against it and that we have legislation that requires us to 
withdraw.
    Now the State Department does believe that some benefits 
accrue to the United States in membership in these 
organizations. And as was pointed out in my earlier hearing 
before the Senate Foreign Ops Subcommittee of the 
Appropriations Committee, Israel remains a member of UNESCO, 
despite the Palestinian membership. And in our conversations 
with Israelis, they basically point out that there are a number 
of areas where UNESCO action is helpful to the Israelis.
    We have very clear instructions from our legislation, but 
we also think it is in America's interests to do things like 
Holocaust education programs, which UNESCO does, stand up for 
the freedom of press and expression. So the waiver would give 
us the opportunity to evaluate specific circumstances, and it 
would also give us the chance to react if, by some unforeseen 
circumstance, some of the major U.N. organizations, like the 
World Health Organization or the International Atomic Energy 
Agency, were to be so wrongheaded to extend membership. Those 
are organizations that we really have a big stake in.
    So the policy is one we agree with. We obviously follow the 
legislation. But as we have done in many situations over the 
years, providing some national security waiver would allow us 
to make case-by-case decisions.
    Senator DeMint. But aren't you afraid that this is going to 
send a signal to United Nations, to the whole world that our 
threats don't mean anything? I mean, we warned UNESCO not to 
take this action. You warned them personally.
    And for us less than a year later to come back and say, 
well, never mind, we are going to fund you again, it just seems 
like we are just telling the world that our words don't mean 
anything.
    Secretary Clinton. You know, I think, Senator, that all of 
these issues that we are confronted with have different 
factors. Certainly, we have made it abundantly clear that we 
would stand in the way at the Security Council to any attempt 
to try to provide a shortcut to the Palestinians. That is the 
real issue to me is that they will never be a member of the 
United Nations unless they negotiate a solution with Israel.
    We do worry that there are a lot of initiatives that are 
undertaken by these organizations that directly help Israel, 
directly contribute to the potential for negotiations, and then 
there are other actions that are very much in the United States 
interests. I mean, if there were some new flu virus that arose 
out of somewhere in the world that was killing people on the 
way to the United States, working with the World Health 
Organization would be in the interests of our people.
    So I agree with you that we have taken a stand. It is based 
on our law. But we can't predict the future, and I think some 
flexibility that would be only exercised very prudently might 
be worthwhile considering.
    Senator DeMint. Thank you. And thanks again for your 
service.
    Secretary Clinton. Thank you, sir.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Madam Secretary, I want to echo my colleagues' thanks for 
all of your effective and hard-working service for our country 
around the world.
    And I would also like to just echo what you had to say 
about the role that our embassies play around the world in 
promoting American trade and business interests. My office had 
the opportunity to help organize a trade mission to India, and 
the business people who went on that mission would not have had 
the same prospects for meetings, for opportunities to do future 
business without the support from our Embassy in India.
    So thank you very much for that effort.
    As I look at the top five recipients of U.S. foreign 
assistance, and Senator Lugar read those earlier, No. 2 on that 
list is Afghanistan, which has been in the headlines in the 
last several weeks because of concerns about trust between the 
United States and Afghanistan. Certainly on the military side, 
there have been concerns raised about whether our strategy of 
being able to turn over security to the Afghan forces has been 
an effective one.
    And I wonder if you could talk about what you are seeing on 
the economic foreign assistance side and whether you see those 
same kinds of strains and what concerns you have about how our 
efforts there are working.
    Secretary Clinton. Well, Senator, thank you for the kind 
comments about the work of the Embassy in India. And I well 
remember how difficult it was for you, having planned such an 
excellent trip, and then being kept because of Senate business 
unable to go. But that is what we like to do to try to promote 
that kind of interaction, and we think it pays off.
    With respect to Afghanistan, we do see progress on the 
civilian side in terms of what our investment and the 
investments of our partners has brought. There is still a very 
long way to go. But if you look at health indicators, maternal 
mortality has dropped significantly in Afghanistan, and I think 
that that could not have been possible without investments on 
the part of the United States and others, but also a real 
commitment on the part of Afghans themselves--education, 
energy, infrastructure.
    So we do see progress. But I hasten to add we see a lot of 
instability, and we see a very difficult road ahead for 
Afghanistan.
    The transition that is agreed to, to have the end of combat 
missions and troops in 2014, is one that we are working to try 
to support because like we saw in Iraq, when 2014 comes and 
troops leave from NATO ISAF, the civilians in the United States 
and other countries will be there and will be interacting with 
the government, working with businesses, with citizen groups. 
So we are intent upon doing everything we can to try to 
strengthen those parts of the equation.
    It is a difficult environment, but I think if you, as I did 
recently, talk to hundreds of our civilians who are serving 
across Afghanistan and asked them what they were doing on rule 
of law, on women's empowerment, and so much else, they are 
proud of what they are doing. They feel like they are making a 
difference. So we have to protect them, and we have to enable 
them to continue to do what they need to do and to be prepared 
with whatever the right size mission is for our relationship 
after 2014.
    Senator Shaheen. Thank you.
    As you know, we have a really serious situation in Egypt. 
It also has been in the headlines, as a number of very 
effective NGOs, their employees have been arrested, their 
records have been taken. I wonder if you could speak both to 
the situation there and what we think the prospects are for an 
effective resolution that releases those Americans who are 
being held and allows those NGOs to continue to do their work 
or not.
    But also speak to it in the context of the effort that we 
have spent in Egypt over the years in terms of providing 
foreign assistance, and again, it is in the top five of those 
countries receiving foreign assistance, and how we explain to 
the American public about the effectiveness of that foreign 
assistance and what they are currently seeing being expressed 
by Egyptians in the news today.
    Secretary Clinton. Well, first, as you know, Senator, the 
great majority of our foreign assistance over the last three 
decades has been to the Egyptian military, and it did create a 
very positive working relationship that was certainly to the 
benefit of the Camp David accords enforcement and the peace 
treaty between Egypt and Israel and also to the United States.
    And it helped greatly in avoiding what we are now seeing in 
Syria when the Egyptian revolution began. Long ties between 
American and Egyptian officers played an instrumental role in 
encouraging the Egyptian military not to intervene and cause a 
great bloodbath in the streets of Egypt.
    With respect to our NGOs, we think they have been working 
in good faith to support Egyptian aspirations, the transition 
to democracy. They are respected organizations. They have been 
working in Egypt with a goal of trying to assist in all the 
work that needs to be done, such as holding elections.
    They don't favor a group. They don't favor individuals. 
They are providing what we would call nonpartisan education and 
information.
    We are working very hard to resolve this NGO problem. We 
have had a lot of tough conversations with various Egyptian 
leaders, and we hope that we will see a resolution soon.
    Senator Shaheen. Thank you.
    My time has expired, but I do want to let you know that I 
will be submitting for the record some specific questions about 
the NATO summit coming up in Chicago in May. I think it offers 
a tremendous opportunity for us to highlight the still critical 
economic and security ties of our transatlantic partnership, 
and so look forward to your responses.
    Thank you.
    Secretary Clinton. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    And thank you, Secretary Clinton, for joining us. I want to 
join the chorus that you have heard from my colleagues praising 
you for your hard work on our country's service.
    Every time I watch the news, I wonder whether they ever 
allow you to sleep. I hope they do.
    Senator Lee. But rest assured, the American taxpayer is 
getting his money's worth out of your service, and I appreciate 
the hard work you have put in.
    I want to follow up, first of all, on some of Senator 
Shaheen's questions about Egypt. You know, in your fiscal year 
2013 request, there is a request for an additional sum, going 
up from $1.5 billion in the previous fiscal year to $1.56 
billion for Egypt.
    And I am wondering what level of cooperation do you feel 
like we are getting out of Egypt in exchange for that? And 
specifically, do you feel like Egypt has shown a commitment to 
honoring its treaty obligations with Israel?
    Secretary Clinton. Yes, I do. To that last question, we 
have no evidence or even any intention expressed by different 
centers of power within Egypt that any decision has been made 
not to, and we have no evidence that there is any concern there 
yet. We obviously consult closely with the Egyptians and the 
Israelis about the challenges they face in the Sinai, for 
example.
    So, at this time, Senator, that is not yet a concern that 
we have to address. We also believe that they have carried out 
credible elections, and that was no easy task, given where they 
started. But we have to judge them on what they both say and 
what they do. And they don't yet have their government in 
place.
    So we are really unable to draw conclusions until we see 
the new Parliament acting, until they hold elections for their 
President, and then we will have more data on which to make 
decisions.
    Senator Lee. OK. And you feel like the aid that we give to 
Egypt is a component of that? That is part of what is keeping 
them maintaining the buy-in with respect to those hard-fought 
treaty obligations, the treaty obligations that we and Israel 
had so long hoped for need to be kept intact.
    Do you feel like that is strengthening that position?
    Secretary Clinton. It certainly has historically, and 
again, sitting here today, I have no evidence on which to draw 
any other conclusion. But I also know that we are going to 
learn a lot more about the new government in the months ahead, 
and we will be very vigilant.
    But at the end of the day, I think Egyptians understand 
that peace is in their interests, and they have a lot of work 
to do to build their economy, to get their democracy up and 
going. If I were certainly in their shoes, I would not be 
wanting to abrogate agreements and cause problems when my plate 
was already more than full.
    Senator Lee. Good. And if they call you for advice on that, 
I hope you will counsel them along those lines.
    Secretary Clinton. I have said that.
    Senator Lee. I want to turn to a study that was conducted 
last year by the British Government. The name of the study, I 
believe, was the Multilateral Aid Review. In that study, the 
British Government undertook an examination of the performance 
of various U.N. organizations against criteria including cost 
control, delivery of outcome, transparency, and other related 
factors.
    The review found that performance was severely deficient 
among several of these U.N. entities, including the 
International Labor Organization, U.N. Habitat, and the Food 
and Agriculture Organization. It found the performance, in 
fact, so poor on those criteria that the British Government 
chose to withdraw at least its core funding to those same 
programs.
    And the British Government also concluded that various 
other U.N. entities, while not scoring quite as bad as those, 
were jeopardized enough that they recommended that ``as a 
matter of absolute urgency,'' the U.N. implement special 
measures to try to improve those programs.
    So my question for you is with the United States continuing 
to provide support to the U.N., including these same programs, 
do you feel like the U.S. funding toward those programs is 
being utilized responsibly? Is it money well spent?
    Secretary Clinton. Senator, we are a staunch supporter of 
U.N. reform, and we have made it very clear that we expect 
reforms at the level of the U.N. and at every constituent 
group. We led efforts to cut the size of the 2012-2013 U.N. 
budget. We are pushing them to be more efficient.
    So we do think that the U.N. does an enormous amount of 
good work, work that helps to share the burden of everything 
from peacekeeping to keeping airplanes safe in the sky. They do 
a lot of very important work. But they have got to reform, and 
they have got to adapt to the expectations of more 
accountability and transparency in their operations.
    So we are adamant about that, and we are going to continue 
to press it. We have made some progress in the last year or 
two, but I am not satisfied. We have to expect more.
    Senator Lee. What reviews, if any, has the State Department 
conducted or will the State Department be conducting that are 
comparable to this Multilateral Aid Review conducted by the 
British Government?
    Secretary Clinton. Well, we participated in a number of 
such reviews. I will take that for the record and give you a 
full accounting of that. The British Government, through their 
development agency, conducted their own review, but we have 
been involved in supporting independent high-level reviews, and 
I would be glad to provide that to you.
    [The written information from the State Department 
follows:]

    We greatly value your concern and assure you that we are working 
very diligently to promote transparency, effectiveness, and 
accountability across the spectrum of multilateral agencies to ensure 
the most effective use of our aid. This issue is, and will remain, one 
of our top priorities. The Multilateral Aid Review (MAR) evaluated the 
effectiveness of various agencies in advancing the U.K.'s national 
development priorities and contributed to the ongoing international 
effort to promote results.
    U.S. vision and leadership have been crucial to building consensus 
for reform, making progress on concrete initiatives, and preventing 
complacency and ``business as usual'' at the U.N. As the largest 
financial contributor to the U.N., the U.S. is committed to ensuring 
the funds are spent wisely and not wasted. Most significantly, we led 
efforts to achieve a 5-percent cut in the size of the 2012-13 U.N. 
regular budget, resulting in a savings to American taxpayers of as much 
as $100 million, and representing the first time in 14 years--and only 
the second time in the last 50 years--that the General Assembly has 
approved a regular budget level below the previous biennium's final 
appropriation. More specifically, we also advanced the estalishment of 
a new U.N. agency called U.N. Women, combining four separate U.N. 
offices into one stronger, streamlined and more efficient entity 
working to support and empower women worldwide.
    Although we do not produce a single product akin to the MAR, we are 
working on all fronts to ensure close oversight of United States 
funding to United Nations bodies and to promote their capacity to audit 
or evaluate themselves. For instance, our support of the U.N. Office of 
Internal Oversight Services (OIOS) has been critical to it being a 
strong and independent watchdog of taxpayer funds, and we spearheaded 
efforts to strengthen OIOS through the creation of a new Assistant 
Secretary General to serve as a deputy and help lead this vital office. 
We have worked with great effect to ensure that audits and evaluations 
produced by U.N. organizations, including UNDP and UNICEF, are made 
available to donors.
    The Department has spearheaded many reforms of U.N. agencies 
through Phases I and II of the U.S.-sponsored United Nations 
Transparency and Accountability Initiative (UNTAI), which targets areas 
where member states can increase oversign and accountability and ensure 
that contributions are utilized efficiently and effectively. For 
example, when we launced UNTAI Phase I in 2007, most U.N. organizations 
did not disclose their internal audit reports, and many lacked an 
ethics and integrity framework. As a result of robut U.S. engagement 
between 2007 and 2010, 10 U.N. organizations decided to make their 
internal audit reports available to member states, 7 established 
independent ethics functions, 3 implemented credible whistleblower 
protections programs, and 4 began requiring their senior officials and 
staff with fiduciary or procurement responsibilities to disclose their 
financial interests. The Food and Agriculture Organization and 
International Telecommunication Union were two of the most improved 
U.N. agencies during Phase I. In Phase II of UNTAI, U.N. organizations 
continue to make progress on oversight and ethics reforms. Reforms of 
internal evaluation procurement, and risk management, which are new 
goals under Phase II, are in their early stages, and work is ongoing 
across the U.N. system to make progress.
    We also constantly monitor U.N. organizations' practices, 
especially with regard to their results frameworks, evaluations, and 
evidence-based decisionmaking. We also utilize findings from 
effectiveness reviews conducted byindependent entities, such as the 
Multilateral Organization Performance Assessment Network (MOPAN) and 
the Organization for Economic Cooperation and Development (OECD). We 
have regularly attended MOPAN meetings, which focus on the Nework's 
effectiveness reviews of various multilateral organizations, and we 
will continue to support such independent reviews in the future.
    These diverse efforts expand our knowledge base and help us make 
more informed recommendations regarding our own budgetary allocations. 
Our assessment of agencies' performance and their commitment to reform 
will remain an important factor in those recommendations. As a result 
of our efforts, U.N. organizations continue to make progress in terms 
of oversight, ethics, and financial reforms, and we will continue these 
efforts to ensure accountability and effectiveness.

    Senator Lee. Thank you very much.
    I see my time has expired. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lee.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for your outstanding 
service. You have demonstrated, I think, really remarkable 
leadership and vision in a very difficult time in world 
history, and I just want to applaud you and the administration 
for leading a strong foreign policy that is based not just on 
defense, but also diplomacy and development.
    I was grateful for the chance to witness firsthand your 
leadership on a joint delegation trip to Liberia for the 
inauguration of President Johnson Sirleaf.
    I think it is critical that the United States continue to 
demonstrate support for democratically elected leaders in 
Africa as well as in other places in the world, to encourage 
the rule of law and good governance, and I am also grateful you 
continue to elevate, as you did today, economic statecraft and 
development among the five principal priorities you put forward 
this year.
    A number of the Senators who preceded me have touched on 
issues of real concern to me--Alan Gross's case in Cuba, Iran 
sanctions and making sure we continue to press them, the path 
forward with Egypt. There has been lots of good ground covered, 
and I want to associate myself with Senator Rubio's comments 
about PEPFAR and its importance.
    But as the Africa Subcommittee chair, I just wanted to 
move, if I could, to the twin concerns of trade and governance 
and how an American values agenda around governance and 
transparency and rule of law also helps promote economic 
opportunity, economic statecraft, as you put it.
    You recently commented at the first-ever State Department 
Global Business Conference how America's foreign policy can 
champion U.S. business abroad and drive recovery here at home. 
Describe for me, if you would, in a little detail the tools for 
pursuing these critically important objectives in Africa, in 
particular in this FY13 budget request, and what we are doing 
around trade and investment for the United States. And then, if 
we could, go on to a question about governance and how these 
two connect.
    Secretary Clinton. Well, Senator, thank you. And thanks for 
your passion and commitment to Africa, and thanks for traveling 
with us to Liberia.
    I think that is an excellent question. You posed it with 
respect to Africa. It obviously could be more generalized.
    But speaking about Africa specifically, our approach 
combines several different tools. First, trade missions to 
Africa. Assistant Secretary Johnnie Carson just took a large 
delegation of American energy firms to Africa to meet with 
government officials, to meet with utility companies and 
businesses to talk about how the products and expertise of 
American energy companies could really enhance development of 
the energy sector in Africa.
    Second, we are doing a lot of other energy work through our 
newly constituted Energy Bureau because Africa is so blessed 
with energy resources that are either not developed or 
underdeveloped and underutilized or being developed in ways 
that are not good for sustainable development. So we are 
interacting at the highest levels of government to try to work 
on that.
    Third, the African Growth and Opportunities Act is a 
tremendous tool, and we have actively worked the last 3 years 
to help countries take better advantage of it. A lot of 
countries that are members don't really utilize it to the 
fullest and also to work with countries that could benefit from 
it.
    We have the Partnership for Growth. We have the Feed the 
Future. We have the Global Health Initiative. These are 
development objectives, but they are development objectives 
that are really focused on enhancing the capacity in African 
nations. The Millennium Challenge Grants, which are operating 
in Africa, do some of the same work.
    We also have encouraged greater regional integration, like 
the development in East Africa of a kind of a common market 
among some of the countries. We would like to see that all over 
the continent. I mean, if African nations would open up their 
borders to one another, if they would trade with one another, 
knock down barriers, if they would develop transportation 
networks, that would add dramatically to the ability of 
Africans to reap economic benefits.
    And the final thing I would say is probably no part of the 
world has benefited more from the advance in information 
technology, particularly wireless technology, especially mobile 
phones, than Africa. So we have a lot of interesting 
initiatives under way to help people do mobile banking, to help 
them get linked into the futures markets on their mobile 
phones. Just all kinds of really innovative ways that we have 
promoted both from outside, but also from within by running 
contests for young African entrepreneurs.
    So, I mean, I could go on for a long time. But it is a very 
important part of our agenda for Africa.
    Senator Coons. Well, thank you, Madam Secretary.
    And let me transition then to the other part of what I 
think is our shared agenda for Africa, which is promoting 
America's core commitment to transparency, to rule of law, to 
democracy, to Internet freedom, to human rights.
    Many of us were relieved that Senegal's elections proceeded 
without significant violence, but it raises the ongoing 
question, whether in Uganda, Cameroon, Equatorial Guinea, or 
Zimbabwe, of national leaders who have either manipulated 
constitutions or avoided really free and fair elections on a 
continent where there has been steady progress toward democracy 
in the last decade.
    What can we do to encourage and sustain good governance in 
Africa? What priorities are reflected in this 2013 budget in 
that regard, and then what can we be doing together that will 
help bring together these twin strands?
    One of the most striking things Senator Isakson and I saw, 
for example, in Nigeria was how that mobile phone revolution 
you are talking about made possible transparent elections in 
Nigeria in just the same way that they are making possible 
access to the marketplace, information for small farmers in 
Ghana. So how are we advancing the American values agenda in 
Africa?
    Secretary Clinton. Well, you are right to point out what 
technology has meant because we have invested in helping 
countries modernize their voting systems, making elections more 
transparent. We did a lot of work in Kenya, and the 
constitutional referendum there really demonstrated the impact 
that technology can have because we were able to get technology 
widely distributed, get votes counted without going through a 
lot of hands.
    So we are emphasizing use of technology to empower citizens 
to hold their governments more accountable, to have elections 
that are free, fair, and credible. We are also pushing very 
hard on how we interact with leaders in Africa by supporting 
those who are legitimately elected, like President Ouattara in 
Cote d'Ivoire.
    There was a case where there was a credible election. He 
was elected, and the former President Gbagbo wouldn't leave. 
Well, we weighed in very heavily.
    So we are trying to demonstrate that our commitment to 
technology, our commitment to elections, our commitment to good 
governance go hand in hand with what we think Africans across 
the continent want, which is more effective functioning 
societies that give them a chance at a better future.
    Senator Coons. Thank you very much.
    I have additional questions I will submit for the record 
about Nigeria, Somalia, the Sahel, others.
    Thank you so much for your appearance before this committee 
today, and thank you for your leadership.
    The Chairman. Thank you, Senator Coons.
    Let me just take a moment to thank you for your tremendous 
energy and diligence and enthusiasm in your leadership of the 
African Affairs Subcommittee. It has been really terrific and 
much appreciated by the committee.
    We are down to the hard core here.
    [Laughter.]
    Senator Udall has been here from the opening gavel to the 
last question, and I am happy to recognize him.
    Senator Udall. Thank you, Chairman Kerry.
    And thank you, Secretary Clinton, for being here. Thank you 
for your stamina. I think you have been here for more than 2 
hours, and I really appreciate that, you taking some final 
questions here.
    And it seems to me, in listening to your travels, that you 
may be one of our most traveling Secretaries of State, and you 
may have set some records there. So I know all of us very much 
appreciate that.
    I have been a proponent of an accelerated transition in 
Afghanistan, and I believe it is important that Afghans begin 
to take a lead role in protecting their country so they can 
begin to gain the experience and the capability before the 
drawdown of United States forces is completed. And I believe 
this will help stabilize Afghanistan and lead to a faster 
drawdown of United States combat forces.
    And I don't believe, Madam Secretary, as some have 
asserted, that this means abandoning Afghanistan. I believe a 
strong diplomatic training in counterterrorism will likely be 
necessary to support the developing Afghan Government.
    What I am wondering about is whether the State Department 
has begun considering what Secretary Panetta posed recently 
about accelerating the transition of combat responsibilities to 
Afghans by mid or early 2013. Has the State Department been 
considering this option? What are its implications?
    Do you look forward to what is going to happen with the 
NATO summit in May in Chicago? Is that going to be a part of 
the discussion that occurs there?
    Secretary Clinton. It certainly will. We agreed with all of 
our NATO ISAF partners to have a transition that would, 
beginning a year ago, transfer lead responsibility to Afghan 
security. We are doing that. We are transferring districts 
throughout Afghanistan on a regular basis.
    We also know that there has to be continuing training in 
order to equip the security forces to do what they are expected 
to do. So this is an agreed-upon transition sequence that was 
adopted at the Lisbon conference, is being worked through on 
both the military and civilian sides, will be further refined 
in Chicago, and we are certainly geared up to follow through on 
that.
    Senator Udall. Thank you.
    The issue in your opening statement came up where you 
talked about pivoting to Asia, and we know that the President 
has talked about Marines in Australia. I know you recently gave 
a speech talking about the South China Sea and activities 
there.
    Could you just talk in a broad, general way about what this 
actually means for the United States to put more of an emphasis 
in the Pacific? Are we talking about containment of China? I 
mean, how does China relate to this whole thing, and what roles 
are we trying to fulfill?
    Secretary Clinton. Well, I think, Senator, we have always 
considered ourselves so blessed by geography that we were both 
an Atlantic and a Pacific power, and that unique position has 
granted the United States significant strategic advantages that 
have been accompanied by economic benefits and so much else.
    But because of our heavy emphasis starting on 9/11 in going 
after those who attacked us, also the war in Iraq, the broader 
emphasis on the Middle East, there were many in Asia who 
thought that we were either by intention or by default 
abandoning our leadership role in the Pacific, and it was our 
intent to reestablish that leadership role, which we have done.
    We have initiated new strategic dialogues in the region. We 
became a full and active partner in strengthening our alliances 
in ASEAN and APEC. We have joined the East Asia summit. We have 
signed the Treaty of Amity and Cooperation. We began the Lower 
Mekong Initiative to work with countries that are dependent 
upon the Mekong.
    We have got great deal of work going on with Indonesia and 
the Philippines. We have the major trade agreement with Korea. 
We came to the aid of our good ally, Japan, after their 
disasters. We are having this opening to Burma.
    We are actively involved in what is going on in the Asia-
Pacific because we think it is very much in America's interest 
to be so. And that includes being able to project both civilian 
and military power. And as we looked at where we had forces 
operating, we saw some gaps, and that is what the President 
addressed on his recent trip to Australia.
    We think that there is a great deal for America to gain by 
being very much involved in and supporting the incredible 
growth of the region. So that is what we are positioned to do.
    Senator Udall. Thank you.
    I just returned several weeks ago, maybe about a month ago 
from India. And we had an excellent trip, and one of the things 
that was remarkable was seeing the activity out in the villages 
and seeing the cooking and seeing the pollution by the way they 
cook. And I know that you have been a real advocate of these 
kind of modern stoves that if they are utilized, I think, do a 
lot of things from pollution to using less fuel, to make it a 
healthier home and all that.
    Could you just, in the last couple of seconds we have left 
here, describe how you are doing that and what you are doing.
    Secretary Clinton. Well, first, let me thank you for caring 
about that, Senator, and asking a question about it. Because it 
is one of those long-term projects that I think has tremendous 
payoff, but it is not in the headlines. So thank you, sir.
    We are actively driving an initiative we helped to put 
together called the Global Cookstove Alliance, or the Alliance 
for Global Cookstoves. We are working with dozens of other 
countries, with the United Nations and organizations to help 
create a market for cleaner burning cookstoves in developing 
countries because you are right. This has tremendous benefits.
    It cuts down on respiratory illnesses for women and 
children. It also helps keep the environment clean by cutting 
down the soot, the black carbon that goes into the atmosphere. 
It is a security issue to the extent that many women and girls 
are put at risk when they go out to gather fuel in many of 
these countries.
    So we have looked at the data. The National Institutes of 
Health has been one of our partners. That in terms of cleaning 
up the atmosphere, reducing health costs, this is one of the 
most effective approaches we could take.
    For anybody who is really interested, maybe you or some of 
the staff would be interested, we have a display of clean 
cookstoves in the State Department that we just opened a few 
days ago because we want people to know what we are talking 
about.
    And when I was in India, I was in Chennai, we had an 
exhibit set up and we are working some Indian universities that 
are actually taking measurements of the pollution that goes 
into women and children's lungs and also into the atmosphere. 
That is related to an announcement we made last week that in 
our effort to try to help the environment, the United States 
has joined with five other countries in setting up a new 
coalition to fight the climate forcers, the short-term climate 
forcers--methane, soot, black carbon, et cetera. And 
cookstoves, obviously, are part of that.
    So, again, this is the kind of initiative that I think is 
worth investing in. It will pay dividends down the road. It is 
not a quick fix, but it is something that we are able to do 
with public-private partnerships.
    Senator Udall. Thank you for your efforts.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thanks, Senator Udall. And thanks 
for your patience.
    Senator Lugar, do you have anything additional?
    This hearing has taken a little longer, and I apologize, 
Madam Secretary. But thank you for being patient and staying 
with us.
    We are going to keep the record open for a week.
    There is one additional issue I just want to raise with you 
very quickly. I know you are very familiar with the case of 
Colin Bower, my constituent from Massachusetts whose two 
children were taken illegally from Massachusetts against court 
order and taken to Egypt. And he has had, as you know, an 
extraordinarily difficult time trying to get resolution of 
this.
    I raise this at the end of the hearing not because it is of 
last importance, but I want the Embassy and the Egyptian 
Government to take note that this is increasingly a concern 
among colleagues about respect for law and respect for family 
and an individual parent's rights, as well as the sort of 
international legal system.
    So I hope we can continue to have that issue raised in the 
context of your diplomacy, and we will continue to raise it, 
obviously.
    A final comment I would just say to all of you who are 
wearing the yellow jackets here, I want to express my respect 
for and appreciation for the way in which you have been present 
today. Yours is an issue that is of note to all of us, and we 
are concerned about it and pursuing thoughtful approaches to 
it. But I am particularly appreciative for the respectful way 
in which you have taken part in this hearing, and we thank you 
for that.
    Madam Secretary, thank you so much for being with us today.
    We stand adjourned.
    Secretary Clinton. Thank you.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                   Submitted by Senator John F. Kerry

    Question (#1a-c). In July 2011, you announced the New Silk Road 
(NSR) initiative, a long-term economic vision to transform Afghanistan 
into a hub of transport and trade, connecting markets in India, 
Pakistan, Afghanistan, and Central Asia. In December 2011 the Senate 
Foreign Relations Committee's majority staff released a report that 
recommended several concrete steps for implementing NSR.

  <bullet> Please describe the FY 2013 spend plan for NSR.
  <bullet> Of the twenty NSR investment projects, which ones is the 
        United States prioritizing with other donors? Is the 
        administration casting a broad net or focusing on a few 
        specific projects that stand the greatest chance of success? 
        What big-ticket infrastructure projects is the United States 
        supporting? Which projects is the United States supporting that 
        will focus on removing barriers to continental transport and 
        trade?
  <bullet> Most of the projects envisioned under NSR will take 3 to 10 
        years to yield results. Which projects is the United States 
        supporting that will deliver results in the near term, 
        demonstrate the potential of this strategy, and help broaden 
        political support to sustain longer term U.S. engagement?

    Answer. We appreciated the Senate Foreign Relations Majority Staff 
Committee report of 19 December, 2011 ``Central Asia and the Transition 
in Afghanistan.'' Our New Silk Road vision calls for an Afghanistan 
that is economically reintegrated into its region, at the center of web 
of transportation and trade linkages. We particularly appreciate your 
recommendation to extend the New Silk Road vision beyond Afghanistan, 
and both USAID and State are working on this challenge.
    Because the New Silk Road vision is not a list of infrastructure 
projects, it does not have an associated spend plan. However, you 
should be aware that Mission Kabul will complete in late May a Program 
Review to ensure that U.S. civilian assistance programming for 
Afghanistan is fully in line with policy and Administrator Shah's 
sustainability guidance, including to ensure projects are cost 
effective and contribute to our transition objectives. The review will 
discuss the need to identify institutional, governance, and policy 
factors critical to the success of program initiatives.
    Again, our New Silk Road vision is not a list of infrastructure 
projects, but an organizing principle. We are very pleased to see 
Afghanistan and its regional partners will come together at the fifth 
Regional Economic Cooperation Conference on Afghanistan (RECCA V) in 
Dushanbe March 26-28. At RECCA, Afghanistan and its regional partners 
will identify 15 hard and soft infrastructure programs that would 
foster greater regional economic integration. Among these 15 projects, 
several focus on cross-border issues, including Customs harmonization 
and greater coordination between chambers of commerce. The Dushanbe 
Declaration will stress the importance of a comprehensive regional 
approach to challenges faced by the region, and emphasize the 
importance of encouraging private sector investment as a driver of 
economic growth. We will continue to support efforts by Afghanistan and 
its region to implement our New Silk Road vision.
    Among the 15 proposed RECCA V projects, the United States has 
already provided significant assistance and support. For example, we 
have supported the rehabilitation of the Salang Tunnel, we continue to 
encourage regional partners to make progress on the Turkmenistan 
Afghanistan Pakistan India (TAPI) pipeline, we continue to support the 
CASA 1000 energy project, we have been instrumental in developing the 
Afghan fiber optic ring, and we play an important role in encouraging 
cross-border transit trade initiatives. All of these initiatives are in 
line with our New Silk Road vision.

    Question (#2a). In June 2011, the Department launched a new $4.1 
million initiative known as ``CACI,'' or the Central Asia 
Counternarcotics Initiative, to build local capacity and stimulate 
regional cooperation on counternarcotics. CACI seeks to establish 
vetted units and build counternarcotics task forces in the five Central 
Asian countries, linking them with existing task forces in Russia and 
Afghanistan.

  <bullet> The administration has requested $9.1 million in its FY 2013 
        budget for CACI. Please describe how this money will be spent.

    Answer. The administration requested $9.0M for CACI in FY 2013. 
These funds will be spent to: (1) cover the ongoing operational costs, 
including salary supplements, communications costs, vehicle 
maintenance, training, polygraph and other vetting procedures of 
Central Asian personnel in the three vetted units that we anticipate 
will be operational, under DEA oversight, during fiscal year 2013; (2) 
provide additional funding support to the Kyrgyz and Tajikistan drug 
control agencies; (3) provide funding support to the Central Asian 
Regional Information and Coordination Center (CARICC); (4) contribute 
to the United Nations Office on Drugs and Crime's (UNODC) Regional 
Program for Counternarcotics in Afghanistan and Neighboring Countries 
as it relates to the development of investigative capacities and drug 
task force development; (5) support operational cooperation between 
Afghanistan's Sensitive Investigative Unit (SIU) and Central Asian 
vetted units; and (6) contribute to the NATO-Russia Council 
Counternarcotics Training Program for Afghanistan, Pakistan, and 
Central Asia.

    Question (#2b). How will CACI be implemented, given recent reports 
that Russia has convinced Collective Security Treaty Organization 
(CSTO) members not to participate?

    Answer. While news reports have indicated that some unnamed 
officials associated with some parts of the Russian Government, and 
some officials associated with the Collective Security Treaty 
Organization (CSTO), are not supportive of CACI, the Russian Ministry 
of Foreign Affairs has advised us that the government does not oppose 
CACI but would like to have additional information about the 
initiative. Two countries in Central Asia have endorsed CACI and one of 
them has already agreed to establish a vetted unit. We are in 
discussions with two others which have shown strong interest in vetted 
units. However, we can only establish these units in countries where 
DEA has a full-time presence. The process of finding space for DEA at 
our embassies and processing NSDD-38 requests is ongoing as are 
negotiations with governments in the region.

    Question (#3). This committee encourages cross-border stabilization 
and development programs between Afghanistan and Pakistan, and between 
each country and the five Central Asian republics. The committee's 
December 2011 majority staff report on ``Central Asia and the 
Transition in Afghanistan'' offers a number of specific cross-border 
proposals.

  <bullet> Please describe in detail the FY 2013 plan for cross-border 
        projects between Afghanistan and Pakistan, and between each 
        country and Central Asia.

    Answer. The Senate Foreign Relations Majority Staff Committee 
report of 19 December 2011, entitled ``Central Asia and the Transition 
in Afghanistan'' notes the importance that the New Silk Road vision 
extend beyond Afghanistan, and both USAID and State are working to 
support national and regional efforts to advance this agenda.
    Over the past decade, the United States has spent significant 
diplomatic effort and assistance funding to support cross-border 
linkages that support sustainable Afghan economic growth. We 
aggressively supported Afghan and Pakistani efforts to negotiate and 
sign the Afghan-Pakistan Transit Trade Agreement (APTTA) and now 
continue to support efforts by the parties to resolve outstanding 
implementation efforts. U.S. funding to support the Afghan 
transportation sector is helping to bring online a new stretch of rail 
line, recently funded by the Asian Development Bank, that extends 
connections to Uzbekistan to Mazar-e-Sharif.
    USAID support to the Afghan electrical grid and the electrical 
utility (DABS) has made possible the purchase of Central Asian 
electricity for distribution to major Afghan urban areas, including 
Kabul, to the benefit of both Afghanistan and the supplier countries. 
There are many other examples of U.S. support for projects that 
facilitate cross-border economic cooperation over recent years.
    Ambassador Morningstar is leading a complex diplomatic engagement 
with Turkmenistan, Afghanistan, Pakistan, and India to make the TAPI 
pipeline a reality. These countries are making significant progress 
toward agreement on a pipeline that would link world-class gas reserves 
in Turkmenistan with massive demand in South Asia, a concrete example 
of our New Silk Road vision.
    We also continue to support the Asian Development Bank's Central 
Asia Regional Economic Cooperation (CAREC) program, which brings 
together 10 countries and 6 multilateral agencies to focus on tangible 
ways to promote cross-border synergies in the areas of trade, 
transportation, and energy.
    We recognize that there is more we can likely do, and greater 
synergies we can pursue between our assistance programs in the 
countries of the region. That is why USAID is convening a series of 
regional meetings to discuss opportunities for cross-border projects 
that might help reintegrate Afghanistan into both Central Asia and 
South Asia, in the spirit of our New Silk Road vision. This planning 
session will inform the FY 2013 plan for cross-border projects, which 
is at the initial planning stages given that we recently submitted a 
congressional budget justification.

    Question (#4a-e). I have a series of questions about the status and 
future plans for the Afghan National Security Forces (ANSF).

  <bullet> Reports indicate that ANSF will be reduced to 230,000 
        personnel. What are the projected end strength numbers for the 
        Afghan National Army (ANA) in 2013, 2014, 2015, and 2016?
  <bullet> What are the projected end strength numbers for the Afghan 
        National Police (ANP) in 2013, 2014, 2015, and 2016?
  <bullet> What missions does the new strategy envision for the ANA?
  <bullet> What missions does the strategy envision for the ANP?
  <bullet> What is the demobilization plan for getting ANSF down to 
        230,000?

    Answer. The goal of Afghanistan and the international community 
remains clear: to build a strong, effective Afghan Army and police 
force that is capable of securing Afghanistan's territory and 
protecting the Afghan people from violent extremism. The international 
community is committed to assisting the Afghans in this goal and in a 
manner that is not a threat to any of Afghanistan's neighbors. It is 
premature to publicly discuss what the Afghan National Security Forces 
(ANSF) will look like post-2014 and beyond as no decisions have been 
made. We are in discussions with our NATO allies, ISAF partners, and 
the Afghan Government on the nature of the long-term support necessary 
to maintain a sufficient and sustainable ANSF. This collaborative 
discussion with allies, partners, and the Afghan Government on 
sustainable costs associated with the future posture of the Afghan 
forces will be based on relevant variables during the post-transition 
period and conditions on the ground. These discussions further 
reinforce the long-term commitment by the United States and our NATO 
allies to the Afghan people, as agreed at Bonn in December 2011 and at 
the NATO Lisbon summit in November 2010.

    Question (#4f-l). What is the current strength of the ANA and the 
ANP? How many are present for duty?
  <bullet> What is the attrition rate for the ANA and ANP?
  <bullet> How many ANA units are capable of operating independently, 
        that is, capable of planning and executing missions, 
        maintaining command and control of subordinates, and exploiting 
        intelligence?
  <bullet> How many ANP units are capable of operating independently?
  <bullet> How many new ANA recruits come from the Pashtun south?
  <bullet> What is the ethnic composition of the ANA's officer corps?
  <bullet> What is the ethnic composition of the ANP? What is the 
        literacy rate for the ANA and ANP?

    Answer. In regards to the current status of the Afghan National 
Security Forces, I refer you to our colleagues at the Department of 
Defense, who, through their work with the NATO Training Mission in 
Afghanistan (NTM-A), work side by side with their Afghan partners on a 
daily basis to build a strong, effective Afghan Army and police force 
that is capable of securing Afghanistan's territory and protecting the 
Afghan people from violent extremism.

    Question (#4m). What metrics is the administration using to measure 
success in the transition to Afghan lead for security responsibility?

    Answer. Successful transition of security responsibility requires 
that Afghan Security Forces, under effective Afghan civilian control, 
will be capable of tackling security challenges on a sustainable and 
irreversible basis--albeit with some level of continued support from 
NATO. Afghan and NATO authorities have been assessing the readiness of 
areas for transition through the Joint Afghan-NATO Inteqal Board 
(JANIB), which produced its first set of conclusions and 
recommendations on 24 February 2012. Transition is a conditions-based 
process, not a calendar-driven event and the recommendations of the 
JANIB are based on an assessment of conditions on the ground.
    Criteria for the transition of a particular area include: ANSF are 
capable of shouldering additional security tasks with less assistance 
from ISAF, security is at a level that allows the population to pursue 
routine daily activities, local governance is sufficiently developed so 
that security will not be undermined as ISAF assistance is reduced, and 
ISAF is postured properly to thin out as ANSF capabilities increase and 
threat levels diminish. In addition, transition assessments also 
consider the ability and authority of the Afghan Government to provide 
the rule of law and manage public administration at subnational and 
local levels and the capacity of an area to sustain socioeconomic 
development.

    Question (#4n). Has the U.S. mission changed in transitioned areas?

    Answer. No area of Afghanistan has completed transition, as the 
process is gradual and completely conditions-based. The announcement of 
the beginning of transition is only the first step of a process that is 
expected to last between 12-18 months, with a gradual reduction in 
support to the ANSF from ISAF forces, until the point that the ANSF can 
fully provide for the area's security. Even as Afghans assume the 
security lead, ISAF will continue to be fully combat ready--and we will 
engage in combat operations as necessary. Additionally, in order to 
maintain the support and commitment of the Afghan people, we continue 
to work with our Afghan partners to improve the provision of basic 
services, promote government transparency and accountability, 
strengthen institutions, and advance Afghan-led reconciliation 
throughout Afghanistan, including in areas undergoing transition.

    Question (#4o). Is ANSF capable of consolidating security gains in 
transitioned areas, and if so, are these gains sustainable?

    Answer. Although no area of Afghanistan has completed the 
transition process in its entirety, the fact that the ANSF has so far 
maintained control in those areas that have begun the transition 
process is encouraging. While I would again refer you to our DOD 
colleagues for specifics on ANSF capabilities, we have seen that the 
insurgents attempt cowardly attacks aimed at causing fear and feelings 
of insecurity among Afghan citizens. The successful, professional 
response to many of these attacks by the ANSF, with ISAF mentors on 
hand for support, is an indication that transition is working as 
envisioned.

    Question (#5). How much has been obligated and disbursed on 
civilian assistance to Pakistan since October 2009? How much has been 
obligated and disbursed in Kerry-Lugar-Berman (KLB) funds? How much of 
the $500 million in KLB funds committed to flood relief in Pakistan has 
been obligated and disbursed?

    Answer. From October 2009 to December 31, 2011, the United States 
obligated $1.61 billion in bilateral civilian assistance to Pakistan. 
During the same time period, the United States disbursed a total of 
$2.6 billion in civilian assistance to Pakistan. This includes both 
funding obligated prior to October 2009 and over $800 million of 
emergency humanitarian assistance following the floods of 2010 and 
2011.
    Of FY 2010 and FY 2011 bilateral civilian assistance authorized 
under the Kerry-Lugar-Berman (KLB) legislation, as of April 2012, the 
United States has obligated $1.44 billion and disbursed $756 million of 
funds authorized under KLB.
    In response to the massive floods of 2010, then-Special 
Representative for Afghanistan and Pakistan, Richard Holbrooke, 
announced in November 2010 that the United States would seek to 
redirect up to $500 million of existing bilateral civilian assistance 
to Pakistan to support flood recovery and reconstruction. Of the $500 
million commitment (all of which has been obligated), over 60 percent 
has been disbursed, which includes $190 million toward the Citizens' 
Damage Compensation Program (CDCP).
    Of the remaining $310 million, approximately half of the funding is 
supporting existing programming which could be redirected to address 
flood recovery, for purposes such as: to provide seeds and fertilizer 
to farmers affected by flooding; assistance to women's 
microenterprises; maternal and child health programs and support for 
small grants programs and gender equity grants, in flood-impacted 
areas; and quick impact infrastructure projects in flood-impacted 
regions of the Federally Administered Tribal Areas. The other half 
supports reconstruction of infrastructure damaged by floods, including 
schools, roads, bridges, and irrigation control systems.

    Question (#6). The United States supports a peaceful and humane 
solution to the situation at Camp Ashraf. Recently, 397 residents of 
the camp were transported to Camp Liberty, where UNHCR is supposed to 
begin processing them for resettlement. But there seem to be delays in 
the processing and concerns about the presence of Iraqi security 
personnel within the new living quarters.

  <bullet> What is the status of the full closure of Camp Ashraf and 
        what steps is the U.S. Government taking to ensure that the 
        Memorandum of Understanding that was agreed to by the U.N. and 
        the Iraqi Government is effectively implemented?

    Answer. As you mentioned, on December 25, 2011, the United Nations 
and the Government of Iraq (GOI) signed a Memorandum of Understanding 
(MOU). This MOU opened the way for a peaceful and humane temporary 
relocation of Ashraf residents to Camp Hurriya (formerly Camp Liberty) 
and their eventual departure from Iraq. The United States has publicly 
supported the MOU, while also calling on the GOI to abide by the MOU's 
terms, specifically the elements of the MOU that provide for the safety 
and security of Camp Hurriya.
    On January 31, following much work by the GOI, the U.N. High 
Commissioner for Refugees (UNHCR) and U.N. Human Rights Office in 
Baghdad determined the infrastructure and facilities at Camp Hurriya to 
be in accordance with international humanitarian standards, as required 
by the MOU.
    On February 18, the first group of Ashraf residents relocated to 
Camp Hurriya. The United Nations Assistance Mission for Iraq (UNAMI) 
and the Office of the UNHCR, as they had committed, supported that 
relocation through human rights monitoring and mediation of certain 
issues between the GOI and the residents. There were complications 
during that move, but despite delays, it took place peacefully and the 
GOI provided significant resources for the protection of the residents' 
travel. U.S. officials from Embassy Baghdad also observed portions of 
this movement, at both Ashraf and Hurriya. A second and similar 
relocation of nearly 400 residents occurred on March 8, followed by a 
third relocation on March 19.
    At Hurriya, the UNHCR has begun a verification and refugee status 
determination process for the relocated residents, have registered over 
500 residents and has conducted over 100 refugee status determination 
interviews. U.N. monitors also remain available on a round-the-clock 
basis. The residents at Hurriya, who have access to the Internet and 
unrestricted ability to communicate with anyone outside Hurriya, have 
identified problems with certain facilities at the camp. UNAMI, with 
support from U.S. Embassy Baghdad, has acted swiftly to seek resolution 
of those problems by the GOI. UNAMI and U.S. officials have also urged 
leaders of the residents to work directly with the GOI on issues of 
security, including police presence, and on resolving remaining and 
future logistical issues. We have seen significant progress between the 
residents and the GOI on finding practical solutions in that regard. 
Patience and flexibility is required, and both the GOI and residents 
must continue to cooperate to find solutions. The brief but unfortunate 
outbreak of violence on April 8 at Camp Ashraf between Iraqi security 
forces and residents shows that the progress so far cannot be regarded 
as self-sustaining.
    In addition to our general support for these U.N. efforts, 
officials from U.S. Embassy Baghdad visit Hurriya regularly and 
frequently, and are in contact with representatives of the residents 
still at Ashraf. We remain attentive to the situation at Ashraf and 
Hurriya and remain in active, regular contact with both the U.N. and 
the GOI in support of completing a peaceful and safe relocation 
process.
    The decision of the remaining Ashraf residents to continue 
relocations to Hurriya is vital in moving forward with the work of 
UNHCR and the subsequent relocation of individuals out of Iraq. That 
relocation will require efforts on the part of many governments, 
including our own. We share your interest in seeing a peaceful 
conclusion to this issue and we look forward to continuing our dialogue 
with you.

    Question (#7a-c). The United States has played a key role in 
addressing the Iraqi displacement crisis by providing funding to ensure 
refugee children have access to education, that torture survivors 
receive medical treatment and that female-headed households receive 
basic assistance. But the needs of these Iraqis persist, as thousands 
of them continue to live in squalor.

  <bullet> a. How is the United States working with the Iraqi 
        Government, as well as its neighbors, to provide basic 
        assistance to these vulnerable populations?
  <bullet> b. How concretely is the United States assisting those who 
        voluntarily return to their homes?
  <bullet> c. What progress has been made to work with our partners to 
        find a durable solution for the thousands of refugees and 
        internally displaced persons?

    Answer. In FY 2011, the State Department's Bureau of Population, 
Refugees, and Migration (State/PRM) provided nearly $290 million to 
support Iraqi refugees, IDPs, and conflict victims. So far in FY 2012, 
State/PRM has provided almost $51 million to support this population, 
and more will be provided in the coming months. While the U.S. 
Government will continue to provide humanitarian assistance through 
international and nongovernmental organizations to these populations, 
we anticipate the levels will decline as the USG shifts from relief to 
development activities, and as the Government of Iraq assumes 
increasing ownership of addressing the needs of displaced Iraqis.
    Outside of Iraq, the USG remains the single largest contributor of 
humanitarian assistance for Iraqi refugees. Our funding supports 
international organizations, such as the United Nations High 
Commissioner for Refugees (UNHCR), the World Health Organization (WHO), 
the United Nations Children's Fund (UNICEF), and the World Food 
Programme (WFP), and nongovernmental organizations to address the needs 
of roughly 168,000 registered Iraqi refugees in neighboring countries, 
primarily Syria, Jordan, and Lebanon. As a result of State Department 
assistance, these populations received a range of services including 
relief commodities, shelter, cash and livelihoods assistance, health 
care, and education.
    Syria hosts the majority of Iraqi refugees. Despite the ongoing 
violence, State/PRM funding continues to provide assistance to refugees 
in the form of cash assistance for vulnerable families, medical clinics 
with pediatric care, primary education support and vocational education 
for youth, and psychosocial counseling. In Jordan, the USG has worked 
with the Government of Jordan to secure the right to work for Iraqis in 
some sectors, access to the national health care system for primary 
health care, and access to schools for Iraqi children. In Lebanon, our 
partners provide psychosocial assistance to Iraqis and work with the 
Government of Lebanon to integrate Iraqi children into the national 
school system. In Turkey, funded partners provide language classes to 
enable Iraqi children to attend Turkish schools.
    In addition to USG financial assistance, we continue intensive 
humanitarian diplomacy with host governments, the Government of Iraq 
(GOI), and international organization and nongovernmental partners in 
the region to protect displaced Iraqis and those who have chosen to 
return to their homes. Inside Iraq, U.S. Government engagement is aimed 
at encouraging the GOI to take greater ownership of managing the 
displacement issue. We have seen some positive signs in this direction. 
In August 2011 the GOI increased the return stipend from 1 million 
dinars (about $849) to 4 million dinars ($3,395). In the months 
following this decision, Iraq saw a large increase in returns of both 
IDPs and refugees and, by the end of 2011, roughly 261,000 Iraqis had 
returned to their home areas--the highest number since 2004. Iraq's 
Ministry of Displacement and Migration is also making strides to 
confront the housing issue for IDPs and returnees. Two large plots of 
land in Baghdad have been identified for shelter construction, and the 
GOI is working with UNHCR and the U.N. Human Settlements Program (U.N.-
HABITAT) to acquire proper title to this land, identify beneficiaries, 
and start construction of shelters. The GOI has also recently announced 
a Comprehensive Plan on Displacement that will guide the GOI actions to 
address issues relating to displaced Iraqis in the coming years. We 
will continue to work with the GOI as it moves forward to provide land 
and shelter for the displaced, and to ensure the GOI includes the 
displaced community in its resource planning.
    Since 2007, the United States has admitted nearly 64,000 Iraqi 
refugees for permanent resettlement. More than 10,000 of these accessed 
the U.S. Refugee Admissions Program (USRAP) through a direct access 
mechanism created by the 2008 Refugee Crisis in Iraq Act. Iraqis 
eligible for direct access to the USRAP include direct-hire U.S. 
employees, employees of certain entities receiving U.S. funds, and 
employees of U.S.-based media organizations or NGOs, as well as certain 
family members of those employees and Iraqi beneficiaries of approved 
I-130 immigrant visa petitions, including Iraqis still inside Iraq. The 
remainder were referred for resettlement consideration by UNHCR and 
include many with identified vulnerabilities, including victims of 
violence or torture, female-headed households, and those with medical 
needs that could not be met in the country of asylum.
    Since 2003, USAID's Office of U.S. Foreign Disaster Assistance 
(USAID/OFDA) has provided more than $451 million of humanitarian 
assistance to IDPs and vulnerable populations. This assistance has 
included support for the distribution of emergency relief commodities; 
the provision of emergency shelter; expanded access to essential water, 
sanitation, and hygiene facilities and services; income-generating 
opportunities and economic recovery; strengthened humanitarian 
coordination and information-sharing among relief agencies supporting 
IDPs; increased food security through agriculture and livestock-rearing 
programs; and the promotion of children's psychosocial health through 
the operation of child-friendly spaces and teacher training. Through 
the Danish Refugee Council, USAID/OFDA enhanced the capacity of Iraqi 
governorate authorities to prevent, respond to, and manage emergencies 
through the expansion and strengthening of the existing national 
Governorate Emergency Cell network currently operating in 11 of Iraq's 
18 governorates.
    By June 2012, USAID/OFDA's programs in Iraq will transition from 
emergency relief to early recovery, laying the foundation for long-term 
development and durable solutions. For instance, USAID/OFDA worked with 
State/PRM to ensure successful transition of a returnee assistance 
program, implemented by International Medical Corps (IMC), from USAID/
OFDA funding to a State/PRM-supported UNHCR program, once the USAID/
OFDA-supported program ended in January 2011. The program expanded the 
capacity of the GOI Ministry of Migration and Displaced to efficiently 
provide needs-based assistance--including registration, legal aid, and 
protection--to vulnerable IDP and refugee returnee populations.
    Principles relating to return, resettlement, and reintegration, 
require that ``competent authorities''--in this case, the Iraqi 
government--have the primary duty and responsibility to either allow 
IDPs to return to their homes, or resettle and reintegrate them 
voluntarily in other parts of the country. Special efforts should also 
be made to ensure full participation of IDPs in planning and management 
of their return, resettlement, and reintegration. IDPs should have the 
right to participate fully and equally in public affairs, have equal 
access to public services, and not be discriminated against for being 
displaced. Additionally, ``competent authorities''--in this case, the 
Iraqi Government--have the primary duty and responsibility to assist 
IDPs in recovering and reclaiming their property and possessions or 
compensation for their loss. Finally, international humanitarian 
organizations and other appropriate actors must be allowed rapid and 
unimpeded access to IDPs to assist in their return and resettlement.
    USAID development assistance for durable solutions supports these 
principles through the following activities:

  <bullet> Microfinance: USAID has recently committed $18.3 million to 
        focus on expanding access to credit for vulnerable groups, 
        including IDPs.
  <bullet> Access to Justice: USAID's Access to Justice Program assists 
        vulnerable and disadvantaged Iraqis by increasing awareness of 
        their rights as well as avenues for receiving remedies from the 
        Iraqi Government.
  <bullet> Civil Society and Governance: USAID works to strengthen 
        civil society through the Community Action Program (CAP) which 
        assists community action groups to identify their priorities, 
        implement solutions and advocate for their needs with local 
        authorities. Along with CAP, USAID's Governance Strengthening 
        Project and the Administrative Reform project, both provide 
        technical assistance to national, provincial, and local 
        governments to improve their capacity to respond to the needs 
        identified by local communities, such as IDPs.
  <bullet> Health and Education: USAID works with the Iraqi Ministry of 
        Health to improve their delivery of primary health care 
        services. USAID is also currently designing a Primary Education 
        program which will work with the Ministry of Education to 
        improve the delivery of primary education throughout the 
        country, and will also benefits IDPs.

    By working with the Iraqi Government at all levels and with Iraqi 
counterparts directly engaged and assisting the Iraqi people, USAID 
assistance can work toward long-term durable solutions that improve the 
Iraqi Government's response to IDP needs, while empowering IDPs 
themselves to improve their situation.

    Question (#8a-c). The administration has asked for $770 million in 
FY 2013 funding for the newly created Middle East and North Africa 
Incentive Fund. In your testimony, you justified this request by 
referencing the difficulties in the past year in reprogramming funding 
and by referencing the U.S.'s policies in Eastern and Central Europe 
shortly after the fall of the Soviet Union.

  <bullet> a. What examples does the State Department have to show 
        where policy outcomes could have been improved if such 
        authority was available?
  <bullet> b. If much of this funding will ultimately be allocated 
        through other programs--USAID, NADR, INCLE, and others--who 
        will determine where this money flows and how it is accounted 
        for?
  <bullet> c. What kind of internal oversight will the State Department 
        rely on to ensure that fast-tracking funding to new projects 
        does not result in unnecessary waste and expenditure at the 
        taxpayer's expense? What criteria will be used in dispersing 
        this funding?

    Answer. The MENA-IF represents a new approach to the Middle East 
and North Africa by demonstrating a visible commitment to reform and to 
the region; tying assistance to reform agendas; and providing 
flexibility for contingencies in order to take advantage of new 
opportunities. To support this new approach, this Fund has broad 
authorities to allow the USG to better respond to political changes in 
the Middle East and North Africa and incentivize meaningful and 
sustainable political and economic reforms by tying these reforms to 
significant levels of U.S. assistance.
    a. While we were able to respond to Arab Spring events by 
transferring money and reprogramming funds, the process was lengthy, 
our tools were limited, the opportunity costs were high, and we were 
not able to respond at levels commensurate with the diversity of 
challenges and opportunities we faced, which ranged from humanitarian 
needs to working with internal security forces. The MENA Incentive Fund 
will improve upon the process by enabling a more timely and flexible 
USG response to changing events in the MENA region. Reprogramming and 
moving funding takes time, both in identifying available funds and 
notifying the movement of these funds. Second, the MENA-IF will provide 
flexible response mechanisms such as loan guarantees or enterprise 
funds without having to seek new authorities each time we need to 
provide short-, medium-, and long-term responses to regional changes. 
Finally, when new opportunities arise that were not anticipated by 
global programs-such as new opportunities to work with internal 
security forces on human rights and capacity-building--MENA-IF funding 
flexibilities will allow us to target sufficient resources 
appropriately.
    b. Regardless of which agency or bureau implements MENA-IF 
programs, the funds will be centrally managed and allocated. Decisions 
about potential implementing agencies will be made based on the types 
of programming needed and each implementer's comparative advantage.
    c. The same oversight mechanisms governing all foreign assistance 
accounts will apply to the MENA-IF. We welcome credible proposals for 
economic and political reform but will prioritize funding for those 
countries that have the greatest commitment to reform (judged by 
actions taken this year and/or credible reform proposals), where 
successful outcomes would have the greatest impact in the country and/
or region, and where U.S. strategic interests are greatest. We will 
evaluate them against qualitative assessments to determine commitment 
to reform, need, access to resources, opportunities for U.S. engagement 
and partnership (with partner governments as well as other 
stakeholders, including IFIs, etc.), potential impact and strategic 
interest.

    Question (#9). What reforms do you believe need to occur in the 
Egyptian economy to set it on a sustainable path to prosperity? How is 
the United States supporting those reforms? Do you intend to use Middle 
East and North Africa Incentive Funds, and how would that fit into the 
$250 million of economic assistance that we already provide to Egypt?

    Answer. We believe that the long-term success of Egypt's democratic 
transition depends in large part upon the achievement of sustainable, 
inclusive economic growth that can address Egypt's unemployment and 
development challenges. To meet this goal, reforms in four main areas 
are essential. First, Egypt needs to strengthen its private sector and 
in particular the competitiveness of its small and medium enterprises 
(SMEs), which employ the majority of Egyptians. Central to this is 
improving the legal and regulatory environment for investment and 
business. Egypt also needs to make financing available to a greater 
number of SMEs so they can grow and hire more workers. Second, Egypt 
should reduce trade barriers and implement other reforms to enhance 
trade's significant potential as an economic driver and job creator. 
Third, to address the revolution's demands to root out corruption and 
cronyism, Egypt will need to achieve greater transparency and 
accountability in governance. Fourth, Egypt should redouble its efforts 
to deliver quality, market-relevant education to its workforce, 
particularly for young graduates. This will better align the skills of 
job-seekers with employers' needs.
    To help Egypt create a brighter economic future that will help 
ensure the country's long-term stability, the United States is 
providing support in each of these areas. For instance, we are helping 
Egypt make its private sector more competitive and enact reforms that 
create an enabling business environment, reduce the cost of doing 
business, and encourage innovation and entrepreneurship. We are also 
assisting Egyptian financial institutions increase lending to small 
businesses, including through a $250 million OPIC loan guarantee 
facility. The new Egyptian-American Enterprise Fund, currently 
capitalized at $60 million, will invest in the SME sector, further 
demonstrating our commitment to job creation. As part of the 
administration's Middle East and North Africa Trade and Investment 
Partnership (MENA-TIP), we will work closely with the Government of 
Egypt on technical and policy reforms that can help Egypt expand its 
regional and international trade, including through a program to 
improve Egypt's trade facilitation regime and strengthen its domestic 
market in order to create jobs and grow Egypt's economy. We are 
supporting Egyptian efforts to promote transparency and anticorruption, 
and we will seek opportunities to expand our support in this critical 
area as the transition continues. In addition, we are helping Egypt 
improve its vocational technical education system to bolster Egyptians' 
employable skills and link qualified young Egyptians in the science and 
technology sector to jobs in their field.
    The Middle East North Africa Incentive Fund (MENA-IF) could 
complement all of these efforts by creating incentives for the reforms 
the Government of Egypt must make to grow the Egyptian economy and 
attract greater foreign and domestic investment. Our current Economic 
Support Funds package will continue to support the democratic 
transition and sustainable economic growth that benefits the people of 
Egypt. While the large bilateral assistance program means that Egypt 
would not be top priority for MENA-IF funding, we would not rule out 
particularly innovative ideas from a new Egyptian Government. MENA-IF 
projects should complement the foundation built through our ongoing 
bilateral economic assistance.

    Question (#10a-b). The administration has repeatedly stated its 
intent to end the Assad regime through a peaceful transition of power. 
Among the many tools it has used at its disposal, it has cut all 
economic ties with Syria and advocated for increasingly strict 
sanctions within the international community. Yet a Russian company, 
Rosoboronexport, continues to state its willingness to supply Syria 
with weapons even as it works under a $375 million Department of 
Defense contract, overseen by the State Department, to maintain 
helicopters in Afghanistan.

  <bullet> a. Was the administration aware of Rosoboronexport's arms 
        sales to Syria at the time that it signed the contract for it 
        to work in Afghanistan?
  <bullet> b. Are there alternatives to Rosoboronexpert in Afghanistan?

    Answer. We have voiced our concerns about Russian weapons sales to 
Syria repeatedly, both publicly and through diplomatic channels, with 
senior Russian officials. Secretary Clinton has publicly urged Russia 
to cease arms sales to Syria. We will continue to press Russia on any 
activities that contribute to the Syrian regime's violent crackdown or 
threaten regional stability. For additional specific questions 
regarding U.S. contracts with Rosoboronexport, we must refer you to the 
Department of Defense.

    Question (#10c). Most importantly, what systems and oversight are 
in place to ensure that foreign companies signing contracts with the 
United States are not engaging in other practices contrary to stated 
administration policy?

    Answer. Contracting Officers are responsible for determining that 
companies are responsible contractors capable of performing 
successfully before making an award. Companies who violate sanctions, 
violate export controls, commit fraud, bribe officials and otherwise 
engage in illegal and irresponsible behavior may be placed on the 
governmentwide excluded parties list, which would make them ineligible 
for award. This list is checked by State Contracting Officers before 
award. The list is Internet-based and is maintained by the General 
Services Administration.

    Question (#11a). In December of last year the State Department 
created a new office, the Office of the Under Secretary for Economic 
Growth, Energy, and the Environment, which brought together the Bureau 
of Economic and Business Affairs; the Bureau of Oceans and 
International Environmental and Scientific Affairs; the new Bureau of 
Energy Resources; the Office of Science and Technology Adviser; and a 
new office of Chief Economist, in an effort to enhance the Department's 
commitment to economic statecraft, environmental sustainability, and 
energy security.

  <bullet> What are you doing to get economic statecraft into the DNA 
        of the State Department?

    Answer. In four speeches in summer and fall 2011, I outlined a 
vision for Economic Statecraft that places a renewed emphasis on the 
role and the importance of economics and market forces in our foreign 
policy. The United States has long recognized that our foreign and 
economic relations are indivisible.
    With our far-reaching platform overseas, the State Department is 
uniquely positioned to promote American economic leadership around the 
world. As stated earlier, our goals are twofold: to change how we think 
about and implement foreign policy; and to use that foreign policy to 
reinvigorate the economy.
    In order to elevate the economic and commercial diplomacy elements 
of the Economic Statecraft agenda, we have established an Economic 
Statecraft Task Force to ensure that we have the right people, support 
tools, and engagement platforms. The Task Force covers four principal 
areas of work.
    The Human Capital working group is developing recommendations to 
ensure the Department is hiring, training, deploying, and incentivizing 
staff in a manner consistent with the requirements of effective 
economic statecraft. We are looking at the data and collecting 
viewpoints on how to make the best use of the Department's most 
important asset--our people.
    The Internal Tools working group is improving and developing 
effective tools and resources. We are working with FSI and the Commerce 
Department to develop new online courses intended for economic officers 
and other Department of State staff to support execution of economic 
statecraft objectives.
    The External Engagement working group is implementing a strategy to 
improve and elevate our engagement with the private sector and the 
public at large. It uses the Department of State's online resources, 
convening power, and global personnel network to increase our impact. 
One key priority of external engagement is our ``Jobs Diplomacy'' 
agenda for helping U.S. business and advancing America's economic 
interests abroad.
    The Policy Targets of Opportunity working group, in conjunction 
with posts and business support organizations, is identifying 
opportunities for U.S. Government engagement on key policy priorities. 
Deputy Secretary Nides recently issued a new Department travel policy 
requesting all officials at the DAS-level and above to include economic 
or business issues in their trips.

    Question (#11b). As you reflect on lessons learned from these 
initial few months, what additional efficiencies or additional 
organizational changes do you think would be helpful to assure that the 
Department's organization is properly calibrated and aligned to meet 
the economic statecraft challenge?

    Answer. These first few months of focus in Economic Statecraft have 
given us the opportunity to get the lay of the land. As we continue our 
bottom-up approach to find where the real challenges are and where real 
change can be successfully implemented, we will discover what 
organizational changes may be helpful.

    Question (#11c). How is the new office positioned to seek to 
adjudicate and align efforts on energy security and environmental 
sustainability, which far too often are presented as opposites and with 
policymakers asked to make false choices between achieving goals in one 
area or the other as opposed to developing smart balanced approaches 
that will enable us to advance the dual imperatives of energy security 
and environmental stewardship?

    Answer. The Office of the Under Secretary of State for Economics, 
Energy, and the Environment was created, in part, to ensure that 
environmental issues remain at the same level as economic growth and 
energy. This is the first time that an Under Secretary of State has 
been given the mandate by title to address environmental issues. The 
realignment is not a way to subordinate one set of issues to another 
(i.e., make false choices between energy security and environmental 
stewardship) but rather will help ensure that all aspects of a given 
issue are considered at a senior-level. This new organizational 
structure will help us to better harmonize and coordinate our efforts 
in the key areas of trade, financial flows, development assistance, 
cybersecurity, science and innovation, sustainable development, health, 
and many other areas.

    Question (#12a). I wholeheartedly welcome your leadership elevating 
the importance of Economic Statecraft in U.S. diplomacy. At the recent 
Global Business Conference, you hosted major U.S. corporations and 
businesses leaders, including the CEO's of Boeing and the U.S. Chamber 
of Commerce, to talk about the nexus of foreign policy and domestic 
economic growth. You spoke of something that you called ``job 
diplomacy.''

  <bullet> a. What does ``job diplomacy'' look like?

    Answer. ``Jobs Diplomacy'' is a series of efforts focused on 
promoting American business, pursuing policy priorities for U.S 
competitiveness, and equipping State Department personnel with the 
skills and tools they need to advocate for America's economic interests 
abroad. ``Jobs Diplomacy'' is a top priority of our broader Economic 
Statecraft agenda.
    We will use our global network of economic staff at embassies, 
consulates, and headquarters to connect U.S. industry, small 
businesses, and state and local governments with economic information 
and business opportunities abroad. State is implementing a year-long 
plan to transform business promotion. We announced the following 
efforts to implement ``jobs diplomacy'':

  <bullet> A commitment to meet with business leaders on every foreign 
        trip.
  <bullet> A policy directive to all senior State Department officials 
        (Deputy Assistant Secretaries and above) to conduct economic 
        outreach on every foreign trip.
  <bullet> A ``Direct Line to American Business'' program will be 
        launched, in which ambassadors in key markets will conduct 
        regular conference calls to brief the U.S. business community 
        on economic opportunities and answer questions.
  <bullet> State's Special Representative for Global Intergovernmental 
        Affairs will launch an initiative to help U.S. international 
        business councils at the state and local level arrange 
        briefings from State Department speakers and foreign diplomatic 
        personnel.
  <bullet> Regular leadership conferences will be convened around the 
        world to promote U.S. business modeled on the Global Business 
        Conference held February 21-22, 2012.
  <bullet> State will help U.S. business capitalize on economic 
        opportunities in emerging economies.
  <bullet> The Department will deploy Internet and social media tools 
        to share information about economic opportunities abroad more 
        widely and openly with U.S. businesses.

    Question (#12b). What are your top priorities within the economic 
statecraft initiative?

    Answer. This work is a critical aspect of our broader economic 
statecraft initiative, which covers a lot of ground, but at bottom, 
boils down to two simple aims: First, as more nations come to deal in 
economic power, how we think about and practice foreign policy must 
change. And second, this is also a time when the needs of the American 
people demand that our foreign policy be a force for economic renewal. 
To deliver on these two objectives, we are pursuing four lines of work:

    1. Update our priorities to focus on where we have the greatest 
opportunities. Our foreign policy cannot be only focused on where we 
face the greatest dangers, but must be focused on where we have the 
greatest opportunities. This is the premise behind our ``pivot to 
Asia,'' where--through efforts like the Trans-Pacific Partnership, 
APEC, and our strategic dialogues with China, India and others--we are 
establishing the United States not simply as a resident diplomatic and 
military power in Asia, but as a resident economic power as well. To 
name just a few more examples, we are also devoting new focus to the 
challenges surrounding state capitalism, as well as unlocking the 
emerging middle class in Africa to fuel growth on the continent.
    2. Play better offense by updating and integrating our trade, 
investment, and commercial diplomacy agenda. Future U.S. economic 
growth will increasingly rely on our ability to compete and win 
overseas. Shoring up American competitiveness will require confronting 
systemic, inherently political problems that only a thoroughly 
different brand of U.S. diplomacy can tackle. Through our ``Jobs 
Diplomacy'' agenda, outlined above, we are answering this charge--and 
coining a smarter, tougher brand of diplomacy when it comes to 
advancing America's economic interests abroad.
    3. Use economic tools to solve foreign policy challenges. We need 
to recognize that many of the issues that we have traditionally 
characterized as first-order ``security'' objectives--from fostering 
reform and successful democratic transitions in the Middle East, to 
freedom of navigation in the South China Sea--hinge increasingly on 
important economic dimensions, and so economics must play a more 
central role in shaping our choices and responses. This has guided our 
responses to the transitions across the Middle East and North Africa--
where we are helping these countries lay the economic foundations for 
successful democracies through fiscal stabilization measures, jobs and 
skills training efforts, and incentives toward structural reforms. This 
has also guided our New Silk Road efforts in Afghanistan and Pakistan--
where we are creating a web of economic and transportation links that 
will embed Afghanistan in the thriving economies of South Asia as ISAF 
draws down its presence.
    4. Build the capacity of the Department of State. As a Department, 
we are expanding our capacity to advance our economic statecraft agenda 
by ensuring that our diplomats have the knowledge, skills, resources, 
and direction necessary to execute it. The first-ever Quadrennial 
Diplomacy and Development Review (QDDR), released in December 2010, 
made a series of organizational changes to strengthen the Department's 
ability to promote economic statecraft. State has established a new 
Office of the Chief Economist, who has the rank of an Assistant 
Secretary, and which will advise the Secretary on a range of strategies 
for advancing U.S. competitiveness. Foreign Service Institute curricula 
are being revised to ensure they reflect the realities of today's most 
sophisticated and integrated global markets, as well as the needs of 
American businesses that navigate them.
    5. Under the leadership of Deputy Tom Nides, we are also working on 
other steps to strengthen the Department's internal capacity on 
economic and commercial issues.

    Question (#12c). How do you intend to implement them, and how will 
you measure results?

    Answer. State is addressing top priorities for U.S. business with 
an ambitious policy agenda:

  <bullet> In support of the National Export Initiative (NEI), State is 
        replicating best practices for export promotion at posts around 
        the world, targeting infrastructure opportunities, and 
        increasing support to small- and medium-size enterprises.
  <bullet> Designing and executing diplomatic strategies to combat a 
        host of nontariff barriers--including forced localization, 
        abusive regulatory practices, and other priorities for U.S. 
        firms. To increase inward investment, State is working with 
        Commerce to further the efforts of Select USA, aligning our 
        efforts with state and local initiatives, and pressing for 
        regulatory changes that facilitate rather than impede 
        investment into the United States. The State Department is 
        committed to giving our people the tools and skills they need 
        to serve as the world's best advocates for America's economic 
        interests and to create American jobs.
  <bullet> State has launched a comprehensive review of human capital 
        at the State Department, including training, staffing models 
        and performance management, with additional recommendations to 
        follow.
  <bullet> A new Department economic information portal and new 
        information resources are being created, so that economic 
        officers can better focus on supporting U.S. business. State is 
        coordinating training options to leverage resources across 
        agencies.
  <bullet> A distance learning program is being launched to help our 
        economic personnel continually acquire new skills and knowledge 
        that will help them advance our economic agenda and be 
        America's frontline economic professionals.
  <bullet> State has deployed a range of internal challenges and 
        collaboration tools to crowd-source suggestions and best 
        practices for effective economic work.
  <bullet> A new Department-wide prize will be awarded by the Deputy 
        Secretary, to recognize excellence and innovation in commercial 
        statecraft.

    Beginning in the fourth quarter of fiscal year 2010, the Economic 
and Business Affairs Bureau (EB) began coordinating and documenting the 
Department's NEI efforts. Our more than 200 U.S. missions overseas are 
asked to report quarterly on their contributions to the NEI. Posts have 
reported increasing levels of commercial advocacy, U.S. business 
outreach, and commercial success stories. The key indicators measured 
include the number of commercial and economic policy advocacy 
activities conducted by embassy personnel on behalf of U.S. businesses 
that attempt to advance transactional deals, investment dispute 
settlements, or favorable foreign government economic policy changes.

    Question (#13a). This administration has made significant progress 
in promoting the deployment of clean energy solutions and improving the 
capacity of vulnerable countries to address the impacts of climate 
change. In the FY13 budget, the administration requests $770 million in 
``core'' funding for the Global Climate Change Initiative.

  <bullet> Given the important role the private sector plays in 
        developing innovative technologies to reduce greenhouse gas 
        emissions and solutions to address some of the more dire 
        impacts of climate change such as drought and sea-level rise, 
        please discuss how you are working to leverage and engage the 
        private sector in your efforts?

    Answer. The role of the private sector is critical in deploying 
clean energy technologies and finding solutions to the impacts of 
climate change. Most low-carbon infrastructure investment can and 
should originate from the private sector rather than the public sector. 
For this reason, engaging and leveraging the private sector is a 
primary goal of our climate finance activities. In particular, we have 
put increasing emphasis on the role of the Overseas Private Investment 
Corporation (OPIC) and the Export-Import Bank of the United States (Ex-
Im), as these institutions directly leverage private finance in their 
activities in developing countries while stimulating American 
investment and jobs. These two agencies have increased their clean 
energy finance activities from well under $500 million in FY 2009 to 
$1.3 billion in FY 2011, consistent with congressional mandates to 
increase their clean energy financing.
    Leveraging private investment and engagement has also been a theme 
in our bilateral and multilateral programs implemented through State, 
USAID, and Treasury--including in greenhouse gas mitigation programs 
such as the Global Methane Initiative, the World Bank's Partnership for 
Market Readiness and Forest Carbon Partnership Facility, the USAID-
supported Private Financing Advisory Network, and the Clean Technology 
Fund (CTF).
    Leveraging private commercial finance and investment for adaptation 
activities is somewhat more difficult, as such activities are not 
always deemed commercially viable by private investors. This is one 
reason why we anticipate that funding for adaptation activities from 
public sources may remain more important in the mid to long term 
relative to mitigation finance. However, our contributions to 
multilateral adaptation funds such as the Special Climate Change Fund 
and Pilot Program for Country Resilience do leverage some private 
sector finance, and USAID has done some pioneering work with private 
reinsurance companies on insuring countries against climate change-
related risks.
    Support for these programs is part of a concerted effort to target 
public support for efforts that will have the maximum impact in scaling 
up private investment in clean energy, forest preservation, and 
adaptation to the effects of climate change.

    Question (#13b). Please describe how the State Department's efforts 
to date to implement the Global Climate Change Initiative have 
contributed to the decisionmaking process for what future activities 
will be supported by the FY 2013 funds?

    Answer. State, USAID, and Treasury coordinate closely on the 
implementation of the Global Climate Change Initiative (GCCI). Lessons 
learned in the first 2 years (FY 2010-2011) of GCCI programming, along 
with our understanding of the difficult fiscal environment, play a 
major role in our FY 2013 request. For example, following our 
experience with FY 2010 programming, we decided to focus our 
programming in each of the GCCI ``pillars'' in a smaller number of 
priority countries: small island developing states, least-developed 
countries, Africa, and glacier-dependent countries for adaptation; 
major developing country emitters and early clean energy adopters for 
clean energy; and key forest ecosystems (Amazon, Congo, Southeast Asia) 
for Sustainable Landscapes. A related priority has been support for the 
development of Low Emissions Development Strategies (LEDS) in 
developing country partners, a joint State/USAID Agency Priority Goal.
    We did this because we found that larger amounts of funding in a 
more limited number of countries produces more effective results than 
smaller amounts spread across a larger pool of countries. This shift 
began with our FY 2012 request and programming of the actual FY 2011 
appropriation, and carries over into the FY 2013 request.
    Finally, as noted above, we are increasingly using State, USAID, 
and Treasury GCCI funds, along with policy engagement and the help of 
our partners in OPIC and Ex-Im, to leverage additional financial 
resources from both other donors and the private sector.

    Question (#14). You recently launched a new partnership aimed at 
reducing emissions from pollutants that have significant harmful 
effects on public health and climate change. This new effort to reduce 
so-called ``short-lived climate pollutants'' including black carbon, 
methane, and hydroflurocarbons, creates a unique global opportunity for 
a coalition of countries. It is my understanding that addressing these 
pollutants will yield significant benefits to public health, food 
security and energy access in developing countries.

  <bullet> Please discuss how this new coalition will complement 
        existing State Department activities to address these 
        pollutants and outline some of the benefits to the United 
        States and the international community of this new coalition?

    Answer. This new partnership, the Climate and Clean Air Coalition, 
is the first multilateral effort to treat short-lived climate 
pollutants together, as a collective challenge. The founding coalition 
partners are Bangladesh, Canada, Ghana, Mexico, Sweden, and the United 
States, together with the U.N. Environment Programme. In its first 
year, the Coalition will catalyze new international action to reduce 
short-lived climate forcers and highlight and bolster the work of 
existing efforts.
    Fast action to reduce short-lived climate pollutants can serve to 
further many objectives of the U.S. Government and the global 
community. Reducing these pollutants would have a direct impact on 
near-term global warming, with the potential to reduce the warming 
expected by 2050 by as much as 0.5 Celsius degrees. At the same time, 
by 2030, such action can prevent millions of premature deaths, while 
also avoiding the annual loss of more than 30 million tons of crops. 
Moreover, many of these benefits can be achieved at low cost and with 
significant energy savings.
    The United States is already actively engaged in efforts to reduce 
these pollutants on the national and international levels. Here at 
home, the U.S. Environmental Protection Agency addresses these 
pollutants through robust programs that protect public health and the 
environment. Abroad, the State Department, USAID, and EPA are providing 
support to developing countries who seek to reduce these pollutants and 
other causes of climate change through programs like the EPA's Global 
Methane Initiative, the Enhancing Capacity for Low Emissions 
Development Strategies program, and USAID support for clean energy and 
forest preservation. We will also reinvigorate efforts to address these 
pollutants through existing work under the Global Alliance for Clean 
Cookstoves, the Arctic Council, and the Montreal Protocol. The 
Coalition's work will augment, not replace, global action to reduce 
carbon dioxide (CO2), which is a key issue under the U.N. Framework 
Convention on Climate Change.

    Question (#15). I understand that, under your leadership, progress 
has been made to establish the League of Green Embassies, a bipartisan 
collaboration of State Department's overseas building office, American 
embassies, the Departments of Commerce and Energy, energy service 
companies, U.S. clean-tech exporters and international stakeholders.

  <bullet> Please discuss the progress of the League to date, including 
        the savings to the Federal Government this program has achieved 
        through smarter energy choices. What will be the impact on 
        these savings if the program is expanded?

    Answer. The progress of the League of Green Embassies to date can 
be effectively demonstrated under three criteria:

    (1) Number of embassy and industry partnerships the League has 
established: The League counts among its members over 70 U.S. embassies 
as well as a growing number of foreign missions in the United States, 
and has partnered with the Alliance to Save Energy to tap its vast 
membership for expertise and advice. Additionally, over 14 leading U.S. 
companies have provided equipment and services at-cost to U.S. 
embassies for Energy Efficiency Sweep events (``EE Sweeps''), in which 
U.S. Diplomatic Mission facilities showcase American clean energy 
technologies and services.
    (2) Number of EE Sweeps completed: Eleven Europe EE Sweeps have 
taken place beginning in November 2011. Ambassador-hosted events took 
place in Berlin, Brussels, Madrid, Berne, Warsaw, Bratislava, Sophia, 
Lisbon, and Rome, with Paris and Vienna to come. The Department will be 
able to provide full metrics on cost savings after a year has passed as 
these require an established baseline that accounts for weather and 
seasonal anomalies. Projected energy savings versus preinstallation are 
estimated to be up to 40 percent depending on level of investment and 
regional energy costs.
    (3) Education and publicity: The Department of State views the 
League as a platform to share information on U.S. leadership in clean 
energy technology and services. These events have led to U.S. companies 
receiving increased interest and contracts for their products and 
services. Additionally, the visibility of the program also advances 
U.S. public diplomacy objectives of increasing public awareness of 
alternative energy and energy efficient technologies.

    The League of Green Embassies is part of the broader Greening 
Diplomacy Initiative, a program to improve the environmental 
performance and sustainability of the Department of State's worldwide 
facilities and operations. The impact of expanding the League will be 
more exposure around the world for energy efficient goods and services 
and American leadership in this field. Additionally, the use of more 
energy efficient technologies in American embassies will clearly lower 
overall operational costs while demonstrating U.S. leadership in 
resource efficiency and sustainable operations.

    Question (#16). The President's Emergency Plan for AIDS Relief 
(PEPFAR) has been one of our most successful foreign policy programs, 
saving millions of lives and transforming the global health landscape. 
However, PEPFAR funding was significantly reduced in the President's 
Request, although funding for the Global Fund 
to Fight AIDS, Tuberculosis, and Malaria, with which our bilateral 
programs are closely intertwined, was substantially increased.

  <bullet> With reductions in drug prices and gains in efficiencies, I 
        understand that this truly is a case where our experts in the 
        field are able to do more with less, but please explain how, 
        even with this reduction, PEPFAR can achieve our ambitious 
        treatment goals also meet other objectives such as training 
        health care workers so that countries can do more themselves.

    Answer. With the resources provided in the budget request, by 
focusing on proven interventions and continuing to push for greater 
efficiency and lower cost, PEPFAR will be able to achieve its ambitious 
goals, including--but not limited to--supporting treatment for 6 
million HIV patients in FY 2013. This is true because PEPFAR continues 
to increase impact, improve efficiency and lower costs. In the area of 
treatment, costs per patient have declined from $1,100 to $335. Nearly 
$600 million has been saved due to increased generic procurement. And 
shifting from air freight to land and sea freight saved $52 million 
through December 2010. For voluntary medical male circumcision (VMMC), 
teams have been able to expand patient load with increased experience. 
One health VMMC team can now perform 8,000 circumcisions per year 
versus 2,000 per year when we first began. And upcoming improvements in 
VMMC technology hold the promise of cutting the cost of the procedure 
by 50 percent or more. In the area of infrastructure and equipment, 
investments have resulted in a decline of per-patient site level cost 
by 80 percent in the 2 years following establishment of a treatment 
site.
    PEPFAR has become more efficient in using health care workers, with 
tasks being more appropriately allocated among trained health 
professionals, ranging from physicians to community health workers. 
Perhaps most importantly, PEPFAR is seeing countries devote increased 
resources to HIV and the health sector. South Africa, the country with 
the largest HIV burden in the world, has dramatically increased its 
financing of its response to over $1 billion per year. As we move 
aggressively to a sustainable response, PEPFAR, the Global Fund and 
partner countries are working more closely together--which will 
ultimately produce an overall decrease in PEPFAR's programming costs 
even as services are expanded to reach more people. Building on 
science, focusing on proven interventions and increasing access to 
life-saving antiretroviral treatment, the United States can help 
dramatically decrease new infections with the resources provided in 
this budget.
    With respect to health workforce, partnerships such as our Medical 
Education Partnership Initiative (MEPI) and Nursing Education 
Partnership Initiative (NEPI) will continue under this budget. These 
programs provide resources to governments and educational institutions 
to better equip doctors, nurses and midwives to improve the health of 
vulnerable populations. MEPI and NEPI support our objectives to 
strengthen both the quantity and quality of health workforces and 
reflect our continued engagement with country health and education 
ministries. As PEPFAR transitions from an emergency response to a more 
sustainable effort our programs support national plans that strengthen 
health care delivery systems and empower countries to move toward 
country ownership of their HIV/AIDS responses.

    Question (#17a). President Obama plans to travel to Cartagena, 
Colombia, in April for the Sixth Summit of the Americas. He made a 
strong impression at the most recent summit in 2009 in Trinidad and 
Tobago when he spoke about equal partnership. ``There is no senior 
partner or junior partner,'' Obama said. ``There is just engagement 
based on mutual respect.''

  <bullet> What message will the administration hope to convey at this 
        year's summit

    Answer. At the Fifth Summit of the Americas in Trinidad and Tobago, 
President Obama challenged the region to embrace an updated 
architecture of regional cooperation based on partnership and shared 
responsibility. Many nations embraced that call and the results have 
been significant. The Sixth Summit of the Americas provides an 
excellent platform for the President to continue building on this 
partnership agenda and to highlight the accomplishments of his 
administration's hemispheric agenda.
    Colombia's summit theme, ``Connecting the Americas: Partners for 
Prosperity,'' reinforces the spirit of partnership that has been at the 
core of the Obama administration's policy since 2009. Through the 
establishment of equal partnerships and the power of proximity, the 
United States is working effectively with an increasingly capable set 
of partners to address key challenges facing the people of the 
Americas--from energy and citizen security to more inclusive economic 
growth and environmental protection--while also advancing core U.S. 
interests, both in the region and beyond.
    Fully recognizing that the region has moved beyond ``senior/junior 
partner'' relationships with the United States, we intend to showcase 
the strong record of progress, growth, inclusion, and security that we 
have developed with governments in the region as we continue to 
confront common threats and challenges.

    Question(#17b). What are the most important Summit of the Americas 
agenda items?

    Answer. Heads of state and government from throughout the 
hemisphere will convene under Colombia's leadership to address issues 
of regional importance, including infrastructure integration, the 
reduction of poverty and inequality, citizen security, natural disaster 
response and preparedness, and the access to and use of information and 
communication technologies throughout the hemisphere.
    The administration will focus on advancing the Energy and Climate 
Partnership of the Americas, a deliverable from the Fifth Summit of the 
Americas, establishing engines for economic growth and competitiveness, 
promoting innovation and social inclusion as vital components of 
development, sustaining natural capital, and institutionalizing 
government-private sector dialogue throughout the region.

    Question (#17c). What goals does the United States seek to achieve 
at the summit?

    Answer. Colombia's theme ``Connecting the Americas: Partners for 
Prosperity'' provides a useful framework to advance U.S. foreign 
policy. Through the summit process the President plans to promote a 
broad, inclusive agenda focused on the following key themes:

          (1) An Energy and Climate Partnership of the Americas (ECPA) 
        initiative, proposed by Colombia, to interconnect electrical 
        power systems throughout the Americas;
          (2) The President's 100,000 Strong in the Americas goal to 
        increase student exchange between the United States and Latin 
        America and the Caribbean;
          (3) Encouraging the development and creation of small and 
        medium enterprises across borders, especially through diaspora 
        linkages;
          (4) Promoting universal access to communications and 
        broadband technologies;
          (5) Supporting economic growth by breaking down barriers to 
        women's economic participation;
          (6) Increasing public-private partnerships by promoting 
        regular communication between private sector leaders and their 
        governments;
          (7) Promoting climate change mitigation and adaptation by 
        reducing deforestation and promoting sustainable development in 
        the Andes-Amazon region;
          (8) Supporting good governance and respect for human rights 
        by combating discrimination and promoting economic and social 
        inclusion; and
          (9) Financing more effective and lower cost solutions to some 
        of the region's toughest development challenges.

    Question (#18a). Under the Bush and the Obama administrations, the 
United States has forged a particularly cooperative law enforcement 
relationship with Mexico. Today our Federal law enforcement agencies 
are sharing an unprecedented amount of information, helping target 
successful enforcement operations against transnational criminal 
organizations operating in both in Mexico and the United States.

  <bullet> Recognizing that the Merida Initiative has promoted a very 
        positive transformation of bilateral law enforcement 
        cooperation, what are the greatest obstacles to further 
        strengthening law enforcement cooperation between Mexico and 
        the United States?

    Answer. The relationship of U.S. and Mexican law enforcement has 
never been stronger. The cooperation of U.S. and Mexican law 
enforcement is vital to the success of institutionalizing capacity to 
sustain the rule of law. While we have delivered over $900 million in 
Merida Initiative funding over the past 3 years, the Government of 
Mexico continues to devote extensive resources toward strengthening law 
enforcement and justice sector institutions.
    Mexican law enforcement entities, particularly those at the federal 
level, have made significant strides and expanded their capabilities to 
confront the cartels; however, the initial challenges confronting 
Mexico--notably corruption and a shortage of law enforcement 
capabilities at the federal, state, and municipal level--continue to 
exist.
    The Government of Mexico initiated substantial reforms against 
corruption in its law enforcement entities, but the process of 
implementing the reforms presents a new set of challenges. For example, 
Mexican law mandates that all police officers receive vetting every 3 
years. Mexico's federal agencies and states have established ``Control 
de Confianza'' centers to conduct this vetting, which includes a 
background investigation, as well as toxicology, medical, 
psychological, and polygraph examinations. The Control de Confianza 
centers are working to obtain sufficient resources and develop needed 
capabilities to conduct the vetting of thousands of currently serving 
law enforcement officers and recruits. While the Mexican Federal Police 
tripled its size, from 11,000 in 2006 to over 35,000 at present, many 
states lack sufficient numbers of new police officers who are vetted 
and trained to replace the removed, corrupt officers. Moreover, many 
law enforcement forces continue to receive low pay, lack benefits like 
survivors' benefits, and remain concerned for the safety of their 
families and themselves. The cartels' concerted violence against 
Mexican law enforcement fosters additional concern among law 
enforcement officers.
    The Merida Initiative provides assistance to the Control de 
Confianza centers at the federal and state levels. At the federal 
level, we are working with our Mexican counterparts to develop vetting 
standards and standard operating procedures. We are also working to 
develop Internal Affairs Units to investigate corruption and other 
abuses within federal and state law enforcement forces. At the state 
level, the Merida Initiative is providing training, technical 
assistance, and equipment to expand the capacities and capabilities of 
state-level Control de Confianza centers.
    The shortage of law enforcement capabilities continues to plague 
all levels of law enforcement, particularly those in Mexico's states. 
Federal law enforcement, notably the Mexican Federal Police, have made 
extensive gains in elevating general-level skills across the officers 
in its force. Our Mexican federal partners are now turning to address 
needs in specific, specialized law enforcement capabilities. With 
Merida Initiative support and the expertise of our U.S. Government 
agency colleagues, Mexican federal law enforcement officers are 
receiving specialized training in antimoney laundering, criminal 
investigations, and counternarcotics. We are also assisting Mexico's 
federal forensic laboratories to meet international standards in the 
forensic sciences, and we continue to enhance the ability of Mexican 
federal agencies to detect illicit goods at key check points and ports 
of entry with the donation of nonintrusive inspection equipment.
    Many of Mexico's states and municipalities have faced challenges in 
developing the capabilities and resources required to meet citizen 
security needs and combat the cartels' violence. In addition to the 
above-outlined assistance to the Control de Confianza centers, the 
Merida Initiative has begun to support the Government of Mexico-
sponsored Model Police Units (MPUs--known in Mexico as Accredited State 
Police Units), which are a major crimes task forces at the state level, 
and the state police academies. Merida assistance is working to elevate 
skill levels and expand the capabilities and resources of the MPUs in 
21 states and Federal District by providing training, technical 
assistance, and equipment. To date, over 1,300 investigators, 450 
analysts, and 1,900 operations personnel have received training. Merida 
is also providing assistance to the state police academies in the 
Government of Mexico-designated priority states of Chihuahua, Nuevo 
Leon, Sonora, and Tamaulipas, and to the development of a national law 
enforcement training academy in Puebla. We are coordinating with the 
Government of Mexico to place Senior Police Advisors/Mentors at those 
academies to better respond to MPU and state law enforcement needs, 
expand capabilities, and further elevate the skill levels of police 
officers.

    Question (#18b). What is the Government of Mexico's strategy to 
strengthen law enforcement capabilities at the state government level? 
Has the Mexican Government invited the United States to support the 
training of specific state government police forces? Which ones?

    Answer. The Merida Initiative supports Mexico's strategy of 
developing and training Model Police Units (MPUs) in the states and 
Federal District. The MPUs are similar to major crimes task forces and 
will operate within the states and communicate and coordinate with 
Mexican Federal Police and security forces. Our state and local law 
enforcement programs have three foci: (1) train recruits for the MPU 
program--currently, 21 states and the Federal District have started to 
develop these units; (2) provide assistance to state police forces and 
academies in the priority states of Chihuahua, Nuevo Leon, and 
Tamaulipas; and, (3) support the development of a national law 
enforcement training academy in Puebla. The U.S. -Mexico High Level 
Group in 2011 designated Chihuahua, Nuevo Leon, and Tamaulipas as 
priority states for Merida assistance. The Government of Mexico 
proposed expanding the list of priority states to eight during the 
March 2012 meeting of the bilateral Policy Coordinating Group, adding 
Durango, Guerrero, Michoacan, Sinaloa, and Sonora.
    Our assistance provides training, technical assistance, and 
equipment to the MPUs. To date, we have provided instructors to train 
recruits in information analysis, investigations, and operations--the 
three components of a MPU. Thus far, we have concentrated our efforts 
in four state police academies (Chihuahua, Nuevo Leon, Sonora, and 
Tamaulipas) and Puebla's national law enforcement academy, due to open 
in May. We are coordinating with the Government of Mexico to place 
senior police advisors/mentors in Chihuahua, Nuevo Leon, Sonora, and at 
the Puebla Academy, and are evaluating requests for assistance from 
other states, including Coahuila, Durango, Guerrero, and Veracruz.

    Question (#18c). What steps has the Government of Mexico undertaken 
to promote judicial reform at the federal level?

    Answer. Mexico is undergoing a profound transformation of its 
existing inquisitorial judicial system to introduce an oral advocacy 
system where prosecutors, defense lawyers, and the accused appear 
before a judge to present testimony and evidence in an open court. This 
systemic, constitutionally mandated 8-year reform process carries a 
deadline of 2016 and requires extensive training across the entire 
justice sector, including the creation of entirely new business 
processes. This massive effort consumes time, energy, resources, and 
focus among judicial sector actors.
    The Government of Mexico has stated its commitment to meet this 
deadline and has begun an extensive effort to train and equip all 
sectors of the justice sector.

    Question (#18d). What have been the principle obstacles hindering 
the Mexican Government's ability to promote judicial reform at the 
federal level?

    Answer. Mexico's transition from its inquisitorial legal system to 
an oral, adversarial one is progressing, but several states are 
advancing ahead of the federal legal system. This systemic, 8-year 
reform process requires extensive training across the entire justice 
sector, including the creation of entirely new business processes.
    The greatest obstacle we see is Mexico's failure, as of yet, to 
pass a Federal Code of Criminal Procedure--which would allow the 
necessary legislative changes needed to implement the adversarial 
system.
    Additionally, during the extended Presidential transition that 
stretches from the Presidential elections in July until the next 
administration takes office in December 2012, the current 
administration will be legally and politically prohibited from making 
commitments to receive training or other assistance on behalf of the 
next administration.

    Question (#18e). How has the United States encouraged the Mexican 
Government to promote federal level judicial reform?

    Answer. The United States strongly supports the efforts of the 
Mexican Government to implement a long-term solution to the weaknesses 
in Mexico's legal system. Accordingly, the vast majority of U.S. Rule 
of Law (ROL) assistance is focused on helping Mexico achieve the long-
term transformation of its justice sector, including strengthening the 
capacity of institutions at the state and federal level. Existing U.S. 
ROL assistance spans the breadth of institutional changes that will 
support the creation of an effective justice system in Mexico.
    Some examples of our programs include:

  <bullet> Federal, State, & Local Training: Through the Merida 
        Initiative, over $20 million in capacity-building training has 
        been delivered to SSP, PGR, the Tax Administration Service 
        (SAT), and state and local police officials. The project has 
        resulted in, among many other new capacities, 4,400 trained SSP 
        police investigators who are deployed throughout Mexico and can 
        incorporate the comprehensive intelligence cycle in federal 
        police investigations. All entities also have a much improved 
        capacity for leadership and management of police forces. In 
        addition, the development and certification of core instructor 
        cadres at the federal and state levels provides an improved 
        capacity for internal training. The Merida Initiative has also 
        provided assistance in the design of federally supported 
        training programs for judges, prosecutors, defense lawyers and 
        investigative police.
  <bullet> Corrections System: Prior to Merida Initiative assistance, 
        the Mexican federal prison system contained seven prisons 
        holding 6,400 out of 45,000 total federal prisoners (with the 
        rest being held in state prisons) and no formalized system for 
        training, classification, and transportation. With Merida 
        support Mexico now has a fully functional national corrections 
        academy, 2,635 newly trained prison staff including 
        classification and transportation specialists, and has 
        increased the capacity of the federal prison system to 18,000 
        inmates. In January 2012, Mexico received international 
        accreditation from the American Correctional Association for 
        four facilities and the Federal Academy at Xalapa. Mexico was 
        also recently named the regional chair of the newly formed 
        Latin American Chapter of the International Corrections and 
        Prison Association in recognition of its leadership in 
        corrections reform.
  <bullet> Prosecutors and Investigators: Under Merida, U.S. and 
        Mexican officials have designed and developed a comprehensive 
        training program that combines prosecutors and investigators in 
        courses designed to help them master the current inquisitorial 
        code as well as the proposed accusatorial code pending before 
        the Mexican Congress. In 2012, 2,500 PGR prosecutors and 6,000 
        investigators will be trained in core investigative and 
        prosecutorial competencies, enhancing their ability to work 
        together to effectively prosecute cases.
  <bullet> Witness Protection: The Merida Initiative provided technical 
        assistance in drafting Mexico's first federal witness 
        protection law which was approved by the Mexican House in 
        November 2011and is pending passage in the Mexican Senate. With 
        expected passage of this legislation, the U.S. Marshals Service 
        will commence training and provide technical assistance to 
        create a sustainable witness protection program in the PGR and 
        to train almost 500 Federal Investigative Agency agents in all 
        aspects of witness protection with Merida funding. This will 
        collectively improve prosecutors' ability to engage witnesses 
        and elicit trial testimony, a key component in the oral trial 
        system.
  <bullet> Forensics Development of Attorney General's Office (PGR) and 
        Federal Police (SSP) Laboratories: With U.S. funded fixed and 
        mobile forensics extraction devices, the SSP now has the 
        capacity to collect evidence which is admissible in criminal 
        prosecutions. Additionally, Merida assistance has financed 
        training and equipment for PGR and SSP forensics laboratories 
        and as a result they are aggressively moving toward 
        international accreditation in core forensic disciplines. Sixty 
        PGR employees are in the process of completing final 
        certification after 16 weeks of digital forensics training and 
        11 SSP instructors having begun the certification process.
  <bullet> Crime Scene Investigators (CSI): Through Merida, 180 PGR 
        crime scene investigators and 158 of the 230 SSP investigators 
        received forensics training modeled after the International 
        Association of Identification and U.N. guidelines. Six PGR CSI 
        instructors received an additional 520 hours of training and 
        were certified as trainers. The SSP has requested that 11 
        instructors go through the instructor certification training in 
        2012. This provides both organizations with a new and 
        flourishing capacity to conduct crime scene investigations to 
        international standards, and to continue the standardized 
        training into the future.
  <bullet> PGR Multi-Agency Digital Forensics System: Merida assistance 
        funded the integration of the first DNA server into the PGR 
        network. With complementary U.S. training to PGR personnel, 
        Mexico now has the infrastructure to begin nationwide use of a 
        secure network to effectively collect and store DNA data, 
        transforming the way evidence is gathered and crimes 
        investigated and prosecuted at the federal level. In 2012, U.S. 
        assistance will help fund a forensics training center at the 
        national PGR laboratory to build on this capability.
  <bullet> Victims' Assistance: The Merida Initiative provided 
        technical assistance to the Federal Prosecutor's Office for the 
        creation of an office focused on crime victims. This office is 
        increasingly providing legal, medical, psychological, and 
        social services to crime victims in 16 of the 32 states. The 
        Merida Initiative is providing this federal office with 
        technical assistance to expand its services in more states and 
        coordinating with state authorities to ensure complementarity 
        of services for victims. The Merida Initiative will also 
        provide assistance to design services for victims of 
        particularly serious crimes, such as forced displacements and 
        extra-judicial executions.

    Question (#19). Brazil has announced an ambitious program to 
encourage university students to study science and technology overseas.

  <bullet> Describe the intent, scope, and funding of this initiative.
  <bullet> How will the Brazilian Government place students in the 
        United States?
  <bullet> What is the State Department doing to facilitate the placing 
        of Brazilian students enrolled in this program in the United 
        States?

    Answer. In July 2011, Brazilian President Dilma Rousseff announced 
Science without Borders, a large-scale nationwide scholarship program 
funded by the Government of Brazil to promote the expansion and 
internationalization of Brazilian science and technology cadres. The 
program aims to send 75,000 Brazilian university students in the 
science, technology, engineering, and mathematics (STEM) fields to 
study and conduct research abroad over the next 4 years, with the 
private sector funding an additional 26,000 scholarships, for a total 
of 101,000 Brazilian students studying overseas. Boeing was the first 
private company to provide funds, and we believe it likely that other 
American companies will follow suit.
    The Government of Brazil has stated its intention to place at least 
half of these 101,000 students in U.S. universities and institutions of 
higher education. The Department sees President Rousseff's Science 
without Borders initiative as a boon to the bilateral relationship and 
a complement to President Obama's 100,000 Strong in the Americas goal. 
As you may know, President Obama announced 100,000 Strong in March 
2011, aiming to have 100,000 students from Latin America and the 
Caribbean study in the U.S. and 100,000 U.S. students studying in the 
region each year.
    In order to help facilitate these complementary efforts, the 
Department is building networks of cooperation between the Brazilian 
Government and universities in the United States. We have also expanded 
English language, Fulbright, and educational advising programs to 
prepare Brazilian students to succeed in the United States.
    Through consultations with the Department, Brazilian education 
officials have raised visibility and awareness of Science without 
Borders in the U.S. educational community. The Bureau of Educational 
and Cultural Affairs' EducationUSA student advising program showcased 
Science without Borders at the 2011 EducationUSA Forum and at several 
national conferences of higher education associations in the United 
States. Discussions with Brazilian officials and educators in the U.S.-
Brazil Global Partnership Dialogue and at subsequent events have shaped 
Brazilian university leaders' understanding of the U.S. higher 
education system, expanded U.S. awareness of opportunities in Brazil, 
and generated United States-Brazilian educational partnerships. The 
Department established a linkage between the Brazilian Government and 
the Institute for International Education (IIE), with the result of the 
first successful placement of 650 Science without Borders undergraduate 
students in more than 100 American universities in 42 States in January 
2012.
    Undergraduate candidates for the program are nominated by their 
Brazilian university and must receive approval from the Brazilian 
agencies responsible for the implementation of the program, Brazil's 
Federal Agency for Support and Evaluation of Graduate Education (CAPES) 
and the National Council for Scientific and Technological Development 
(CNPq). IIE conducts further review of the candidates and matches their 
applications with appropriate universities in the United States. IIE 
also manages payment of tuition, visa fees, placement logistics, and 
other operational support. The final decision to accept a Science 
without Borders student is made by the participating U.S. host 
institution.
    The U.S. Mission to Brazil is facilitating visa appointments and 
hosting Science without Borders orientation events for students through 
a collaborative effort by the Government of Brazil, EducationUSA, the 
United States-Brazil Fulbright Commission, and IIE. To develop the pool 
of students who are academically prepared for U.S. study, the 
Department of State, in partnership with a consortium of 38 Binational 
Centers in Brazil, launched english\3\ (``English cubed'') in March 
2012. The countrywide English language immersion program will 
incorporate language learning, test preparation, and orientation to 
life on a U.S. campus.

    Question (#20). What has the United States done, and what more can 
it do, to address threats to freedom of the press in the Americas?

    Answer. We are deeply troubled about recent threats to media 
freedom in the Western Hemisphere. The past 5 years have reversed a 20-
year positive trend, with declines in freedom of expression, due to 
government pressures in countries like Venezuela, Ecuador, and 
Nicaragua, and due to violence and intimidation from transnational 
criminal groups in Mexico and Central America. The Department's 
``Country Reports on Human Rights Practices,'' reports and statements 
by the OAS Special Rapporteur on Freedom of Expression, NGO reports, 
and other data document clearly the challenges to media outlets and 
individual journalists from both government and nongovernment actors.
    We have vigorously and repeatedly spoken out and expressed our 
concerns to the Ecuadorian Government on the El Universo and Gran 
Hermano libel cases, citing the Inter-American Democratic Charter's 
words that freedom of expression is an ``essential component'' of 
democracy, and stated unequivocally that democratically elected leaders 
have a responsibility to ensure political and legal space for freedom 
of expression. We continue to urge the Ecuadorian Government to address 
the potentially chilling effect on press freedom as a result of these 
and other cases.
    In response to continued Venezuelan Government harassment and 
intimidation of privately owned and opposition-oriented media outlets 
and journalists by using threats, fines, targeted regulations, property 
seizures, criminal investigations, and prosecutions, the Department has 
repeatedly and publicly stated that free and independent media play the 
key role in the dissemination of information and views. We will 
continue to speak out when the role of this critical democratic 
institution, part of the foundation of any healthy democracy, is 
targeted by the Venezuelan Government.
    In countries as diverse as Argentina, Nicaragua, Panama, Paraguay, 
and Suriname, heavy-handed government attempts to influence media, in 
some cases including imposition of restrictive legal frameworks and 
denying or suspending licenses, threaten the free flow of information. 
In Nicaragua, President Ortega has been consolidating a monopoly of 
television and radio stations owned by him, his wife, and family 
members. The government uses harassment, censorship, arbitrary 
application of libel laws, and national security justifications to 
suppress reporting, and withholds government advertising contracts from 
independent media.
    Government control of traditional media in Cuba (press, television, 
radio) is complete, leaving Cubans isolated and eager for unfiltered 
news from outside the island, about events on-island and worldwide. 
Cuba has one of the lowest levels of Internet penetration in the world, 
and the Cuban Government remains intent on barring the vast majority of 
the populace from gaining unfettered access to the Web. Some Cuban 
activists who are also independent journalists have been imprisoned for 
their activities.
    Cartel violence, particularly in Mexico and Central America, has 
taken a heavy toll on journalists' lives and has a chilling effect on 
media coverage of crime as well as on efforts to galvanize public 
support for countercrime programs. Mexico is rated as one of the most 
dangerous countries in the world for journalists by the United Nations 
and leading NGOs. We will continue to support the Mexican Government, 
which has taken considerable steps toward improving protections for 
journalists, including positive legislative action just this month.
    Through diplomatic engagement, public statements, and programs, the 
Department calls attention to the obstacles to freedom of expression 
and conveys support for those who strive to protect it, regardless of 
whether the threat comes from government or nonstate actors. Our 
embassies engage consistently with media organizations, human rights 
groups, journalists, and governments in the countries where freedom of 
expression is under threat. In Honduras we are supporting the Special 
Victims Task Force, which investigates the murders of journalists, 
among others. We will continue to enhance our public diplomacy programs 
focused on journalist education and safety, and on social media's 
capacity to buttress freedom of expression. The Bureau of Democracy, 
Human Rights and Labor as well as USAID manage programs throughout the 
region to work toward decriminalization of libel, promote independent 
journalism, empower civil society to support freedom of expression, 
improve the quality of investigative journalism, and provide 
journalists with tools to protect themselves in a climate of 
intimidation.
    We have strongly and publicly supported the OAS Special Rapporteur 
on Freedom of Expression, particularly against efforts to limit the 
functioning and funding of that office, and will continue to support 
this independent monitor of media freedom in the hemisphere. We will 
also renew our calls for better implementation by countries of existing 
standards and mechanisms, and support the work of international and 
regional protection mechanisms.

    Question (#21). What are the primary institutional obstacles 
hindering the Government of Honduras from addressing more effectively 
its enormous law enforcement challenges? Can the United States and 
other partner nations help Honduras promote law enforcement reform if 
these challenges are not addressed?

    Answer. Rule of law institutions in Honduras suffer from a chronic 
lack of resources, insufficient and unqualified personnel, and 
widespread corruption. The average member of the Honduran National 
Police has a sixth-grade education and lacks formal investigative 
training. Police detectives, prosecutors, and judges are ill-equipped 
to address rampant gang activity and overwhelmed by the rapid expansion 
of transnational drug-trafficking organizations. Honduras is the 
primary transshipment point for U.S.-bound cocaine, and it has the 
world's highest murder rate. The result is pervasive impunity, 
including for human rights abuses.
    The Government of Honduras has demonstrated the political will to 
strengthen its citizen security institutions and improve crime 
prevention. In July 2010, the Honduran Congress approved an asset 
forfeiture law to deprive criminals of ill-gotten gains and generate 
public resources. In June 2011, Honduran lawmakers approved an 
emergency tax to generate an additional $80 million annually for 
security spending. The Congress also approved legislation permitting 
judicially authorized wiretapping, and a constitutional amendment 
authorizing the extradition of Honduran nationals to the United States.
    Ultimately, success in combating crime and impunity will depend 
upon the Government of Honduras' efforts to improve the capabilities of 
its law enforcement institutions, root out corruption, expand state 
control over Honduran territory, and provide productive alternatives to 
young people tempted by lucrative offers from criminal enterprises. The 
U.S. Government and other donors see an opportunity to provide 
meaningful assistance in these areas to the Honduran people during this 
difficult time.
    The United States is helping to strengthen Honduras' rule of law 
institutions by assisting in a comprehensive overhaul of the national 
police academy curriculum, participating in the vetting of police, and 
supporting a police investigative unit that focuses on human rights 
violations. At the same time, we are directly combating criminal 
elements through specialized units staffed by vetted Honduran 
investigators and prosecutors and advised by U.S. experts. Though small 
in scale, these units have had impressive successes in disrupting drug 
trafficking, bulk cash smuggling, and gang activity.

    Question (#22). How can the United States, working with other 
partner nations and international organizations including the 
Organization of American States, best ensure that the Venezuelan people 
can freely choose who will represent them in the upcoming elections?

    Answer. Venezuela will hold Presidential elections on October 7. In 
current context, these elections will offer Venezuelans a particularly 
important opportunity to exercise their democratic right to elect their 
government and choose the future path for their country. All 
signatories of the Inter-American Democratic Charter, including 
Venezuela, have committed to hold ``periodic, free, and fair elections 
based on secret balloting and universal suffrage.''
    The international community can play an important role to guarantee 
that the electoral process in Venezuela is free, fair, and transparent. 
The U.S. Government has conveyed the importance of international 
electoral observation missions to the Organization of American States, 
the European Union, and other organizations that would conduct rigorous 
observation of all aspects of the Venezuelan electoral process. The 
Union of South American Nations announced on March 20 that its 
Electoral Council will serve as observers in the elections. Multiple 
observer missions can add to the depth and credibility of the overall 
observation effort. For that reason, the United States would welcome 
participation by credible international observation.

    Question (#23). I strongly support the administration's efforts to 
rebalance our attention, energy, and resources toward the Indo-Pacific 
region. It's important to recognize that Asia's dynamic and growing 
economies will be a global center of gravity that determines much of 
the future of the 21st century. In Asia, many of our allies, partners, 
and competitors are watching to see if we will continue to make 
credible security and economic commitments, and match them with 
concrete action. To do that, we need to adequately resource our 
diplomacy in the region.

  <bullet> In your view, does this budget request for the East Asia and 
        Pacific region reflect the administration's decision to 
        rebalance U.S. efforts toward East Asia?

    Answer. Looking forward to the next decade, we recognize that the 
Asia-Pacific region will continue to increase in importance to the 
United States and we understand that our diplomatic presence and 
engagement should reflect the significance the region will have for our 
country. Overall fiscal constraints in the foreign affairs budget have 
placed limits on our ability to increase direct State Department and 
USAID resources to the region in FY 2013. However, we are working 
smartly to elevate our commitment to the region through a strategy that 
is multifaceted, involving close coordination with the full spectrum of 
interagency partners to make sure our diplomatic, defense, and 
development efforts are targeted toward our highest priorities.
    The efforts of our diplomats are an essential part of our 
longstanding and ongoing engagement in the region. They are a critical 
component of how we pursue and achieve our strategic objectives. For 
example, we successfully concluded our implementation review process 
for our free trade agreement with the Republic of Korea, which entered 
into force on March 15 of this year, and are now working aggressively 
on the Trans Pacific Partnership. Our enhanced engagement with Burma 
and our strategy to match ``action-for-action'' to encourage the 
country's reform process has already shown signs of progress including 
a substantial release of political prisoners.
    These efforts have already produced real results, such as new 
strategic dialogues across the region with emerging partners, 
strengthened alliances, and enhanced engagement with the region's 
multilateral fora including the Association of Southeast Asian Nations 
(ASEAN) and the East Asia summit, as well as deepening regional 
cooperation on a range of economic issues through APEC. In addition, we 
have established the Lower Mekong Initiative with four Southeast Asian 
countries sharing the Mekong and launched a bilateral Comprehensive 
Partnership with Indonesia and Partnership for Growth in the 
Philippines. The budget request reflects the administration's continued 
support for and commitment to these important initiatives.
    We have also coordinated closely with our interagency partners to 
significantly increase assistance to the region. Recently signed MCC 
compacts will bring more than a billion dollars of American assistance 
to Indonesia and the Philippines in the next 5 years.
    We are substantially increasing our consular resources in the Asia-
Pacific to address an unprecedented increase in demand for U.S. visas 
throughout that region. In China, we are expanding our consular 
presence at every single post, and visa issuances have more than 
doubled in the last 5 years.
    As part of the National Export Initiative and the new focus on 
economic statecraft, our diplomats are helping U.S. companies learn 
about the massive infrastructure development opportunities in the ASEAN 
region, particularly Indonesia. We believe that our companies are best 
placed to bring world-class capabilities and state-of-the-art 
technology toward this endeavor and in the process create jobs for 
Americans at home.

    Question (#24). After almost a half-century of military 
dictatorship, Burma is now sending signals that it is ready to change 
direction and rebuild its relationship with the United States. 
President Thein Sein's government is authoring a series of reforms that 
both baffle and excite long-time observers. If the parliamentary 
elections this April go well, after consulting with Aung San Suu Kyi, 
other Burmese democrats, and our partners overseas, some leaders in 
Congress will likely support efforts to ease some sanctions as part of 
a gradual process that encourages reform and improves the lives of the 
people. You made a historic trip to Burma this November as part of an 
effort to show the U.S. Government is willing to invest in the 
country's reformers and encourage change. While the country's 
democrats, for the first time in decades, are finding reasons for 
encouragement, Burma's welcomed signs of spring remain fragile.

  <bullet> What additional steps is the administration prepared to take 
        in the coming months to help enlarge this window of opportunity 
        and facilitate continued progress?
  <bullet> If the government continues on the right track, will you 
        advise in favor of easing certain sanctions? Where will you 
        start? Would you support the provision of technical assistance 
        from international financial institutions like the IMF, World 
        Bank, and ADB?

    Answer. The United States has played a leading role in seizing what 
we view as a window of opportunity, and we are seeking to enlarge that 
window. Following my visit to Burma in late 2011, we announced our 
commitment to match ``action-for-action'' to help encourage and sustain 
progress toward democracy and national reconciliation. In recent 
months, we have provided U.S. support for international financial 
assessment missions and limited technical assistance, undertaken steps 
to resume World War II remains recovery operations and counternarcotics 
cooperation, invited Burma to join the Lower Mekong Initiative, and we 
have announced that we are going to begin the process of upgrading 
diplomatic ties with Burma by exchanging Ambassadors.
    Additionally, we are prepared to support U.N. Development Program's 
move toward conducting a normal country program in Burma. We are also 
seeking ways to expand U.S. assistance for microfinance and health 
activities in Burma and to increase educational exchanges to build 
capacity and promote human resource development in the country. In 
response to increased desire to strengthen civil society, we are 
renovating our American Center in Rangoon to increase its capacity for 
outreach.
    If the Government of Burma continues in this positive direction 
towards democratic reform, we will consider additional steps to support 
and encourage further transformation. The April 1 parliamentary by-
elections are an important milestone in Burma's democratization 
efforts. If the election process is free and fair, we will consider a 
range of actions including the targeted easing of certain sanctions and 
enhancing our USAID presence in Burma.
    In February, I authorized a partial waiver of the Trafficking 
Victims Protection Act Tier 3 sanctions to enable U.S. support for 
international financial institution assessment missions and some 
technical assistance in Burma through the 2012 fiscal year. If the 
Burmese Government continues on the reform path--takes concrete steps 
to achieve greater civic openness, end violence in ethnic minority 
areas, and sever military ties with North Korea--we will consider 
further steps such as easing restrictions on bilateral assistance.
    Once Burma has made the reforms we are looking to see, we believe 
that the international financial institutions can play a powerful role 
to promote overdue economic reforms to accomplish growth and poverty 
reduction in Burma. If circumstances warrant, we and our Treasury 
colleagues will consult closely with Congress on how we can support a 
resumption of multilateral financial assistance to Burma.

    Question (#25). The administration recently decided to send a 
Senate-confirmed ambassador and signaled its willingness to receive 
Burma's counterpart in Washington. An ambassadorial exchange is not a 
reward. Upgrading our diplomatic presence could allow us to more 
effectively monitor events, advocate for human rights, and advance U.S. 
interests and values. Much work remains to be done, and time is of the 
essence.

  <bullet> When can we expect the administration to come forward with a 
        nominee for this critically important post?

    Answer. Following a substantial release of political prisoners in 
January, the President and I announced that the United States would 
upgrade diplomatic ties by exchanging Ambassadors. This action will 
enable us to strengthen our ongoing high-level dialogue with senior 
government officials and pro-democracy groups, deepen and establish 
long-term ties with the Burmese Government and people, and identify new 
possibilities to support the reform process.
    We are actively considering prospective nominees and aim to 
identify and name a nominee in the coming weeks. We expect our 
Ambassador, once nominated by the President and confirmed by the 
Senate, to work in close coordination with the Special Representative 
and Policy Coordinator for Burma.

    Question (#26). According to some estimates, ethnic minorities 
constitute about 30 percent of Burma's population. President Thein Sein 
is in the process of negotiating cease-fires with the armed wings of 
various ethnic groups and making efforts to implement reforms.

  <bullet> As the country begins to gradually emerge from international 
        isolation, what steps is the United States taking to encourage 
        the Government of Burma to protect the rights of minorities, 
        specifically including the Rohingya, and to integrate these 
        communities into the political process?

    Answer. We have consistently called on the Burmese Government to 
halt hostilities in all of Burma's ethnic minority areas and begin an 
inclusive dialogue with ethnic minority groups toward genuine national 
reconciliation. Protecting the rights of all of Burma's diverse 
peoples, including the Rohingya, remains a priority for the United 
States Government. We are encouraged that the Burmese Government has 
signed cease-fire agreements with a number of armed ethnic minority 
groups. These preliminary agreements need to be followed up with a 
process for dialogue that addresses the deep mistrust between ethnic 
communities and the Burmese Government and begins laying the groundwork 
for lasting peace.
    During my meeting with President Thein Sein in December 2011, I 
specifically raised the situation of the Rohingya and expressed our 
concerns about reports of ongoing human rights violations. The Rohingya 
continue to face severe discrimination and lack basic rights including 
citizenship, freedom of movement, and freedom to marry. I underscored 
the need for the Burmese Government to take appropriate measures to 
protect its people, to ensure nondiscrimination, to investigate all 
allegations of abuse, and to hold accountable all those found 
responsible for human rights abuses and violations of international 
humanitarian law.
    As we move forward to support sustained democratic reform efforts 
in Burma, we will continue to emphasize the need for the Burmese 
Government to take additional concrete steps towards reconciliation 
with its ethnic minority groups.

    Question (#27). The Department has worked very cooperatively with 
the East-West Center across a number of different areas: helping host 
APEC, inviting the Pacific Island leaders, and working on a recent, 
major English language initiative in Southeast Asia, to name several. 
The Center has also been the site of several major policy addresses on 
the region.

  <bullet> Is this close relationship and the Center's important role 
        in helping rebalance our strategy toward Asia sufficiently 
        reflected in its FY 2013 budget allocation (e.g., $10.8 
        million)?

    Answer. The East-West Center is a well-known and respected 
institution that improves the Asia-Pacific region's understanding and 
appreciation of American values and society. Its programs largely 
support U.S. and Asia Pacific understanding and relations through 
cooperative research study, education programs, and exchange, including 
annual participation of approximately 2,000 individuals.
    The Center augments U.S. capacity to deal with and lead in the 
rapidly growing Asia-Pacific region and plays major role in supporting 
our renewed regional engagement with Asia and the Pacific. Overall 
fiscal constraints in the foreign affairs budget have forced the 
Department to make difficult tradeoffs. However, we are working to 
elevate our commitment to the region through a strategy that is 
multifaceted, involving close coordination with the full spectrum of 
interagency and international partners to make sure our diplomatic, 
defense, and development efforts are targeted toward our highest 
priorities.
    For example, the East-West Center serves as our implementing 
partner on the Brunei-U.S. Partnership on English Language Education 
for the Association of Southeast Asian Nations (ASEAN). This is a 
multifaceted $25 million English-language training program funded by 
the Government of Brunei that draws upon State Department and East West 
Center expertise in English-language teaching to help unify the diverse 
members of ASEAN through use of English. This creative public-private 
partnership not only reflects a shared commitment on the part of the 
East-West Center and the U.S. Government to advance educational 
opportunities in the region, but also demonstrates a resourceful 
approach to funding these priorities.
    At the same time we are working to leverage partnerships to advance 
our engagement in the region, it is also important in this constrained 
budget environment that we are forthcoming about the anticipated 
impacts of reduced funding and our efforts to address those impacts. 
The FY 2013 request of $10.8 million for the East-West Center is a net 
decrease of $10.2 million from the FY 2011 Actual and $5.9 million 
below the FY 2012 Estimate. At this funding level, the Center must 
fundamentally reshape itself. Some projects will be carried out if 
funding outside of the Center's direct appropriation can be secured. 
The number of scholarships as well as the award amount will be reduced. 
Center research activities will be more focused around issues of 
health, environment, governance and justice, regional relationships and 
organizations, and trade and their interrelationships. The Pacific 
Islands Development Program will be folded into the larger Research 
umbrella. The Education and Seminars Programs and External Affairs will 
focus on degree fellow awards and programs that are self-supporting, 
attract large external funding or are mission-critical, such as the 
journalism exchanges and alumni engagement.

    Question (#28). What do you see as the political, institutional, 
and security implications of the current eurozone financial crisis? How 
is it shaping your views on the strategy and objectives for U.S. 
foreign policy? What scenarios should the United States plan for?

    Answer. Europe remains America's partner of first resort on global 
challenges; a prolonged economic crisis in the European Union would 
potentially affect the long-term ability of crisis-stricken European 
countries to partner with us. We do not see this happening at present; 
European Union member states and other partners in Europe have moved 
decisively in recent months and years to expand assistance to critical 
transition countries in the Arab world, ramp up sanctions against Syria 
and Iran regarding those regimes' human rights abuses and defiance of 
international commitments, and sustain EU engagement in eastern Europe 
and around the world.
    Driven by economic imbalances, competitiveness gaps, and 
institutional weaknesses in its monetary union, Europe's debt crisis 
illustrates the importance of pursuing sustainable, balanced growth in 
the world economy. It also shows the need for a progrowth, projobs 
agenda and strong economic coordination to support the global recovery 
while European governments put new institutions and policies into 
place. Finally, the crisis demonstrates the continued importance of 
international cooperation to restore financial stability, boost 
confidence, and create jobs.
    Europe is the most significant foreign source of investment and 
jobs in America, so a long-term economic crisis in Europe would have a 
direct impact on our foreign economic policy and on the economic 
dynamism that underpins U.S. strength in the world. While Europe's debt 
crisis remains the foremost challenge to the global economy, the 
leaders of euro-area countries have pledged to do whatever it takes to 
stand behind the euro. We are confident they have the capacity and the 
resources to deliver on that commitment.
    Europe's debt crisis highlights the importance of continued close 
cooperation with our European partners on diplomacy, defense, and 
development, reiterating our shared commitment to remain engaged 
globally. In a time of constrained budgetary resources on both sides of 
the Atlantic, it is more important than ever to coordinate with 
partners in Europe who can bring unique capabilities to bear in pursuit 
of shared goals. We are working together to ensure complementary 
outcome-focused development efforts in the Middle East and North Africa 
region, in sub-Saharan Africa, and elsewhere. Such coordination is 
crucial to maintain engagement and make sure our efforts are mutually 
reinforcing.

    Question (#29). Can you please explain how the administration is 
distributing the aid to Nagorno-Karabakh? Are there any official 
restrictions on communication, contacts, travel, or other interactions 
between U.S. and Nagorno-Karabakh government officials?

    Answer. The administration shares Congress' view on the importance 
of aiding those who have been affected by the conflict over Nagorno-
Karabakh (NK). Since 1998, the United States has provided over $37 
million in humanitarian assistance to victims of the NK conflict, 
including food, shelter, emergency and medical supplies, access to 
quality health care and water, and demining projects. U.S. assistance 
currently supports humanitarian demining and improved access to potable 
water. The demining project has thus far cleared 94 percent of 
antipersonnel and antitank mines and 71 percent of the battle area. We 
are concluding a potable water project that will expand access to clean 
water in the city of Stepanakert. We intend to continue our support to 
the people of Nagorno-Karabakh in FY 2013.
    As a cochair of the OSCE Minsk Group, the United States remains 
committed at the highest levels to assisting the sides of the Nagorno-
Karabakh conflict to achieve a lasting and peaceful settlement. We 
continue to engage the leaders of the sides to reach agreement on a 
framework for such a settlement, which then can lead to a comprehensive 
peace treaty. No country, including Armenia, recognizes the self-
declared independence of the so-called ``Nagorno-Karabakh Republic.'' 
However, the U.S. cochair of the Minsk Group does travel regularly to 
Nagorno-Karabakh to meet with the de facto authorities there, as part 
of the overall effort to engage all the populations that have been 
affected by the conflict.

    Question (#30). Is there additional information on the destruction 
of the medieval Armenian cemetery at Djulfa by the Azeri government. 
Can you report any other destructions of human heritage that have taken 
place in the North Caucasus since that time?

    Answer. The United States has condemned the destruction of the 
Djulfa cemetery and urged the Azerbaijanis to investigate the incident. 
Despite our repeated requests to visit the Djulfa cemetery, local 
authorities have so far refused permission to do so.
    As in many conflict areas, the Caucasus has seen destruction of 
important historical monuments. The United States is engaged with 
governments in the region to ensure the preservation of historical 
monuments and artifacts. For example, the United States, through the 
U.S. Ambassador's Fund for Cultural Preservation, has provided funding 
to improve infrastructure and capacity to support the long-term 
preservation of the Noratus cemetery in Armenia, home to the largest 
surviving collection of Armenian cross stones in the world. Under the 
same program, we have also sponsored the preservation of a medieval 
scholarly center near Tatev Monastery in Armenia. In Azerbaijan, the 
United States, among other projects, has awarded funding to the Gala 
Mosque project to help preserve the tower walls and mosque of the Gala 
village.

    Question (#31). Are you concerned about ongoing threats by Turkey 
regarding the exploration for oil off the coast of the Republic of 
Cyprus?

    Answer. The United States supports the right of the Republic of 
Cyprus to explore for energy in its offshore areas. We believe that 
Cyprus' oil and gas resources, like all of its resources, should be 
equitably shared between both communities in the context of an overall 
settlement. This policy, which we convey to both the Republic of Cyprus 
and Turkey, reflects our long-standing support of the Cypriot-led 
efforts under U.N. auspices to reunify the island into a bizonal, 
bicommunal federation and to encourage the two sides to come to a 
peaceful settlement.
    On February 11, Cyprus announced the second round of licensing for 
offshore hydrocarbon exploration. In response, Turkey issued a press 
release that reaffirmed its strong opposition to this exploration 
absent an agreement. We have encouraged all sides to address concerns 
through talks. We continue to urge all parties to refrain from actions 
or statements which could increase tension in the region.

    Question (#32). What is the United States currently doing to 
promote the construction of Southern corridor pipeline, such as 
Nabucco, from the Caspian to Europe?

    Answer. Our Office of the Special Envoy for Eurasian Energy has 
been working hard on this issue, and there have been a number of recent 
developments on the Southern corridor. First of all, I would note that 
Nabucco has always been one of several options to achieve our shared 
goal with Europe of bringing new sources of supply to market, with a 
significant portion of that gas supplied to our friends and allies in 
the Balkans and elsewhere in Eastern Europe. In October of last year, 
Turkey and Azerbaijan took an important step when they signed a long-
awaited 
gas supply deal. Then just in February, the consortium controlling 
Azerbaijan's Shah Deniz II natural gas field narrowed the choices for a 
route from Turkey to Europe to a scaled-down version of Nabucco, known 
as Nabucco West, the South East Europe Pipeline (SEEP) and the Trans-
Adriatic Pipeline. We continue to work closely with all the companies 
and parties involved to achieve energy security for Europe.

    Question (#33). You have championed women's initiatives throughout 
your tenure as Secretary of State. You know that integrating gender 
into program design and implementation greatly enhances the 
effectiveness of our foreign policy and foreign assistance efforts. The 
administration recently released the National Action Plan on Women, 
Peace, and Security. The Plan has a goal to empower half of the world's 
population as equal partners in preventing conflict and building peace 
in countries threatened and affected by war, violence, and insecurity.

  <bullet> How will the administration's proposed budget support 
        efforts to integrate gender throughout U.S. foreign policy 
        programs and strategies and across agencies?

    Answer. The administration's proposed budget will support efforts 
to integrate gender throughout U.S. foreign policy programs and 
strategies and across agencies through: (a) programs targeted to 
advance gender equality and the status of women and girls, and (b) 
ensuring that the full range of programs--from economic development to 
humanitarian assistance to exchange programs, as well as conflict 
prevention and crisis response operations--identify and address 
existing disparities, capitalize on the skills and contributions of 
women and girls, and are accessible and responsive to women and girls.
    The U.S. National Security Strategy recognizes that ``countries are 
more peaceful and prosperous when women are accorded full and equal 
rights and opportunity.'' Evidence shows that investments in women's 
employment, health, and education are correlated with greater economic 
growth and more successful development outcomes. Engaging women as 
political and social actors can change policy choices and makes 
institutions more representative and better performing. And a growing 
body of evidence shows that women bring a range of unique experiences 
and contributions in decisionmaking on matters of peace and security 
that lead to improved outcomes in conflict prevention and resolution.
    To achieve successful outcomes for U.S. foreign policy priorities, 
including stability, prosperity, and peace, we must focus on promoting 
gender equality and advancing the political, economic, social, and 
cultural status of women and girls across our work. To further this 
strategic imperative, we have issued the Department of State's first-
ever Secretarial Policy Guidance on Promoting Gender Equality to 
Achieve our National Security and Foreign Policy Objectives. The policy 
guidance requests embassies and bureaus to build on existing efforts 
and work to bolster participation and leadership opportunities for 
women in local and national government processes, civil society, and 
international and multilateral forums; to unleash the potential of 
women to spur economic development by addressing the structural and 
social impediments that disadvantage and prevent women from 
contributing to their fullest extent in formal and informal economies; 
and to draw on the full contributions of both women and men in 
peacemaking, peacekeeping, and peace-building. The Department is also 
working to address the distinct needs of women and girls in disaster 
and crisis response through the U.S. National Action Plan on Women, 
Peace, and Security framework. USAID has also issued a new policy on 
Gender Equality and Female Empowerment, which requires integration of 
gender throughout our development work.
    Furthering gender equality and advancing the status of women and 
girls in our work means going beyond simply ensuring a balanced 
approach to our diplomatic efforts, development assistance, and 
humanitarian aid; it also means focusing on reducing gaps between women 
and men and girls and boys in resources, opportunities and outcomes in 
our programs and the full range of our engagement with host 
governments, civil society, and the private sector. It also means 
encouraging and increasing women's direct participation through 
bilateral, regional, and multilateral diplomacy to ensure better 
outcomes for governments and society.
    To ensure that we are making progress, the Department will 
integrate gender through four key mechanisms: (a) strategic and budget 
planning; (b) programming; (c) monitoring and evaluation; and (d) 
management and training. We estimate that our FY 2013 request for 
foreign assistance will be used to fund over $300 million in activities 
where gender equality or women's empowerment is an explicit goal; $1.23 
billion in activities where gender equality or women's empowerment is 
an important but secondary outcome; and $147 million in activities that 
are aimed at preventing and responding to gender-based violence, for a 
total of $1.68 billion.

    Question (#34a). In our efforts to combat, prevent, and punish mass 
atrocities, we sometimes struggle for tools. In the past, the 
Department has been able to turn to the Department of State Rewards for 
Justice Program to assist with the apprehension and punishment of 
persons wanted by the war crimes tribunals for the Former Yugoslavia, 
Rwanda, and Sierra Leone. The Department has also been able to use the 
Program in connection with its efforts to combat and punish terrorists 
and narcotraffickers.

  <bullet> Do you consider the program to have been successful? Can you 
        provide representative examples of the program working at its 
        best?

    Answer. Yes, the Department's three rewards programs are important 
tools for the U.S. Department of State, and protect the national 
security of the United States. The Rewards for Justice (RFJ) 
Counterterrorism Program is one of the U.S. Government's most valuable 
assets in the fight against international terrorism and is the public 
face of U.S. efforts to prevent these acts and bring to justice those 
responsible. Since its inception in 1984, RFJ has paid over $100 
million to more than 70 individuals who provided information.
    The RFJ Counterterrorism Program is credited with successes that 
have demonstrated global results. RFJ paid a $2 million reward to a 
source who provided information to Diplomatic Security (DS) special 
agents in Pakistan for the location of Ramzi Yousef, mastermind of the 
1993 World Trade Center bombing. In 1995, Pakistani authorities, 
assisted by DS agents, arrested Yousef in Pakistan and extradited him 
to the United States. He is currently at a maximum security detention 
center in Colorado. In 2003, Uday and Qusay Hussein were brought to 
justice. In this instance, an RFJ campaign had been initiated and, in 
just 18 days, a source came forward with credible, actionable 
information--the fastest result in RFJ history. The 101st Airborne 
Division conducted an operation to capture Uday and Qusay, which 
resulted in the deaths of these two wanted persons.
    The War Crimes Rewards Program has been instrumental in bringing to 
justice some of the most notorious and brutal fugitives sought by the 
U.N. International Criminal Tribunals for the Former Yugoslavia (ICTY) 
and Rwanda (ICTR). In the past 2 years alone, the program has made 14 
payments for information leading to the arrest and conviction of these 
fugitives.
    The Narcotics Rewards Program has proved a valuable tool for U.S. 
law enforcement agencies--not only encouraging confidential informants 
to come forward and thereby helping bring traffickers to justice, but 
also applying pressure to drug traffickers, making their illicit 
operations significantly more difficult and costly. Since the program's 
inception in 1986, the Secretary of State has authorized approximately 
$71 million in rewards to confidential informants who helped bring 
narcotics traffickers to justice. Over the past 3 years, Narcotics 
Rewards payments have averaged approximately $10 million annually.
    The Narcotics Rewards Program has helped to bring important 
traffickers to justice, including major logistics managers for cocaine 
distribution networks out of Colombia and Venezuela, like Salomon 
Camacho-Mora. More recently, the program has helped to bring a number 
of cartel leaders to justice in Mexico. For example, after publicizing 
rewards for certain members of the Arturo Beltran-Leyva drug 
trafficking organization in early December 2009, Marcos Arturo Beltran-
Leyva was killed during a law enforcement operation attempting to 
capture him. The organization's logistics leader, Jose Gerardo Alvarez-
Vasquez, was separately captured in April 2010.
    Due to the sensitivity of these programs, we are limited in the 
type of specifics we can provide in regards to the operations and 
successes. However, further details are provided in the classified 
reports that the Department of State submits to the House Foreign 
Affairs and Senate Foreign Relations Committees for every reward paid 
by each of these three programs.

    Question (#34b). As the Yugoslavia, Rwanda and Sierra Leone 
tribunals wind up their work, do you see a potential role for the 
program with respect to other tribunals designed to hold accountable 
those accused of committing mass atrocities?

    Answer. The War Crimes Rewards Program has been instrumental in 
bringing to justice some of the most notorious and brutal fugitives 
sought by the U.N. International Criminal Tribunals for the Former 
Yugoslavia (ICTY) and Rwanda (ICTR). In the last 2 years alone, we have 
made 14 payments for information leading to the arrest and conviction 
of these fugitives. Further details are provided in the report that we 
submit to the House Foreign Affairs and Senate Foreign Relation 
Committees for every reward we issue.
    However, the present statutory authority for the War Crimes Rewards 
Program is limited to those fugitives indicted by the Special Court for 
Sierra Leone (SCSL), the ICTR and ICTY. From these three tribunals, 
there remain only nine targeted fugitives at large, all from the ICTR. 
After the capture of those fugitives, the program will be unable to 
ensure accountability for some of the world's worst crimes. The State 
Department would like to expand this program to bolster our ongoing 
efforts to help bring other alleged war criminals to justice. To do so, 
we would need legislation authorizing the Department to publicize and 
pay rewards for information leading to the arrest or conviction in any 
country, or the transfer to or conviction by an international criminal 
tribunal of specifically identified foreign nationals accused of war 
crimes, crimes against humanity or genocide.
    Under such authority, fugitives would only be added to the rewards 
program after careful review and approval by an interagency committee 
and the Secretary of State or her designee. That committee would 
include representatives from relevant agencies, including State, DOD, 
DOJ, DHS and the Intelligence Community.

    Question (#34c). How could the expansion of the program strengthen 
the hand of the State Department in efforts, for example, to assist 
with international efforts to apprehend Joseph Kony or remove him from 
the battlefield?

    Answer. Subject to the interagency committee's recommendations and 
approval by the Secretary of State, some individuals who could be 
considered for inclusion in the War Crimes Rewards Program under the 
expanded authority include Joseph Kony and the other top commanders of 
the Lord's Resistance Army wanted for war crimes and crimes against 
humanity.
    The expansion of the War Crimes Rewards Program could bolster 
efforts to generate information about the whereabouts of Joseph Kony 
and other LRA commanders by giving lower level fighters a material 
incentive to provide information. Our military advisors believe this 
program would enhance their efforts in the field. We believe it could 
also help encourage lower level LRA fighters to defect and escape from 
the organization's ranks. Since October, scores of individuals have 
escaped or been released from the LRA's ranks. We are working with the 
governments in the region and U.N. to encourage more individuals to 
defect. If Joseph Kony and the other top LRA commanders were added to 
the program, the Department of State would work to publicize the 
rewards using leaflets, radio broadcasts, and other publicity tools.

    Question (#34d). Do you believe the program could be helpful with 
respect to other U.S. law enforcement priorities, such as combating 
transnational organized crime? If so, how?

    Answer. The Department of State's U.S. and foreign law enforcement 
partners recognize our Rewards Programs as valuable tools that create 
incentives for offering information, which in turn helps bring 
criminals to justice. However, since the inception of the three 
original programs, transnational crime and its perpetrators have 
evolved, extending far beyond narcotics- or terror-related activities. 
These criminals are willing to capitalize on any avenue that might 
produce illicit profits, covering a range of illicit activity from 
intellectual property rights piracy, arms trafficking, trafficking in 
persons, to cyber crime. As these criminal organizations expand their 
reach, they have become more complex and volatile, which destabilizes 
democratic institutions and the integrity of the global economy. We 
believe strongly that it is important to update our toolkit to address 
the threats before us.
    On July 25, 2011, President Obama introduced a National Strategy to 
Combat Transnational Organized Crime, which illustrates the evolving 
criminal threat and encourages additional tools to counter it. 
Transnational criminal organizations rely heavily on their control over 
and the secrecy of their illicit networks. Our Rewards Program 
successes demonstrate that we can undermine this sense of confidence 
and control by terrorist and criminal networks, disrupting their 
ability to operate effectively. The ability to offer rewards for 
information that brings transnational organized criminals to justice 
and publicize the targeting of these criminals, if authorized by the 
Congress, would help U.S. authorities and our international partners to 
dismantle organized criminal networks as well.

    Question (#34e). Representative Royce has introduced legislation 
entitled the Department of State Rewards Program Update and Technical 
Corrections Act of 2012 that seeks to address aspects of these 
international challenges. Do you support this legislation?

    Answer. Yes, we welcome the legislation that Representative Royce 
has introduced, H.R. 4077, which would allow the Department of State to 
better use the program to pursue and help bring to justice individuals, 
such as Joseph Kony, who are accused of genocide, war crimes, or crimes 
against humanity.

    Question (#35). The State Department Coordinator for Reconstruction 
and Stabilization (S/CRS) had some real successes, most notably in its 
work in South Sudan, but also struggled to find its footing. The new 
Conflict Stabilization Operations (CSO) Bureau presents an opportunity 
to build on these lessons learned and better institutionalize 
prevention and enhance our response capabilities. One of the strengths 
of S/CRS has been its interagency character. Some concerns have been 
raised, however, that agencies such as the Department of Justice and 
the Department of Agriculture will play much smaller roles in the new 
Civilian Response Corps and in the lese larger efforts.

  <bullet> How do you respond to such concerns about the whole-of-
        government approach and what role do you envision for these 
        other agencies as the program moves forward?

    Answer. To be more innovative and agile, CSO is developing a new 
model for the Civilian Response Corps (CRC) that will seek to include 
the widest possible range of partners, including the interagency, from 
the beginning of its engagements. The result should be an expeditionary 
team made up of leaders and experts from all parts of the United 
States, interagency, state and local governments, and other sources of 
talent.
    The nature of places where CSO is operating is changing. We see a 
range of cases where the U.S. role is pivotal but not dominant, rather 
than the heavy footprint of Afghanistan and Iraq. In turn, we are 
focusing on a smaller CRC-Active component which emphasizes leaders, 
and a broader approach which expands potential partners and has a ``pay 
as we use'' business model like the CRC-Standby. This will allow us to 
respond with those who can work independently, such as supporting a 
Presidential inquiry in Liberia, or who can lead a small team that 
draws on both USG and local resources. To succeed, country cases must 
accelerate local ownership and that too will be at the heart of CSO's 
emphasis.
    We believe that this approach will be more effective and responsive 
to the needs of each case and more cost effective than the current 
model.

    Question (#36). In the time since USAID was incorporated into the 
State Department's planning and budgeting processes, to what extent 
have you been able to find cost savings from consolidating operating 
budgets or foreign aid programs with similar objectives?

    Answer. Since the integration of the Department of State and USAID 
budgets with the creation of the Office of the U.S. Foreign Assistance 
Resources (F), the Department has made significant progress in 
establishing and implementing effective mechanisms to coordinate State/
USAID foreign assistance programs and align foreign assistance 
resources with policy priorities.
    The Quadrennial Diplomacy and Development Review (QDDR) goes even 
further by taking a comprehensive look at how we can spend our 
resources most efficiently, how we can achieve our priorities most 
effectively, what we should be doing differently, and how we should 
prepare ourselves for the world ahead. The QDDR's key reforms to State 
and USAID planning and budget processes are designed to strengthen the 
links between diplomatic and development efforts, as well as more 
effectively align policy priorities, strategic responses, budget 
planning, and performance management. Our commitment to rigorous 
planning and performance management maximizes the effect of every 
dollar spent.
    The new strategic planning effort is anchored by two processes that 
will greatly enhance our ability to coordinate State and USAID 
programs, as well as identify overlap and opportunities for cost 
savings. The first process will produce Joint Regional Strategies, 
collaborative efforts between State and USAID to develop multiyear 
regional strategies that identify joint goals, objectives, priorities 
for resources and programming, and tradeoffs. The second process will 
produce Integrated Country Strategies, also a collaborative effort 
designed to bring all agencies under Chief of Mission authority 
together to develop common objectives and a plan for best aligning 
their resources to achieve objectives. USAID's new Country Development 
and Cooperation Strategies will form the core of the development aspect 
of the Integrated Country Strategies.
    The QDDR recognized the importance of integrating development with 
other foreign policy considerations through integrated planning and 
budgeting; and it emphasized the importance of a strong and coherent 
development perspective within that integrated whole. Strengthening 
USAID's policy, strategy, planning, and budget capacities are a crucial 
part of this vision. Along with the integrated planning and budgeting 
processes at State, this will provide enhanced ability to make results-
based tradeoffs among programs implemented by various bureaus and 
agencies.
    With regard to operating budgets, USAID and State have made 
progress on consolidating management services; a recent GAO study 
attested to the economies of scale that consolidation has produced. 
Based on a QDDR recommendation, the Joint Management Board has begun 
operation and seeks further consolidation of management services, and a 
robust and flexible platform that provides efficient and effective 
support to diplomacy and development.

    Question (#37). In the development of the FY 2013 budget request, 
to what extent have you eliminated or reallocated funds to better align 
the Department's budget and foreign assistance with the 
administration's national security strategy and current foreign policy 
priorities?

    Answer. The FY 2013 budget for the Department of State and U.S. 
Agency for International Development is shaped by U.S. national 
security interests and foreign policy priorities. The budget request is 
informed by the results of the first-ever Quadrennial Diplomacy and 
Development Review (QDDR) which focuses on ensuring that we get the 
most out of every dollar from the American taxpayers, while protecting 
our interests and projecting our leadership in the 21st century.
    The FY 2013 budget elevates diplomacy and development, which, 
alongside defense, are critical tools of American power. It continues 
our vital national security missions in Iraq, Afghanistan, and 
Pakistan; builds a strong network of relationships and institutions 
across the Pacific; supports transitions in Middle East and North 
Africa by incentivizing political and economic reforms; emphasizes 
economic statecraft to strengthen the U.S. economy; and elevates 
development, making strategic investments to address poverty, disease, 
hunger, and climate change, which can destabilize entire societies and 
sow the seeds for future conflict.
    Under strict budget caps set by the 2011 Budget Control Act, our FY 
2013 budget seeks to stretch every taxpayer dollar as far as possible 
without compromising our core national security and foreign policy 
interests. Our budget reflects our careful evaluation of all programs 
and all spending, makes difficult tradeoffs, and takes full advantage 
of programs that are successfully becoming more efficient and thus need 
fewer resources to accomplish our goals.
    For example, progress and efficiencies in the Global Health 
Initiative allow us to meet our key objectives and to achieve the 
President's stated goal of putting 6 million people on HIV/AIDS 
treatment globally by the end of 2013. This is 2 million more people 
than our old treatment goal and puts us on the path to an AIDS-free 
generation in an era of tight budgets.
    We focused Feed the Future and Global Health Initiative programs on 
countries with the greatest need and capacity for sustainable progress, 
leading to the elimination or reduction of Feed the Future and global 
health funding for several countries.
    We reduced funding for Europe, Eurasia, and Central Asia by $113 
million (18 percent), reflecting shifting global priorities and 
progress over time by some countries in the region toward market-based 
democracy. And we reduced funding for programs that are on a glidepath 
to more host-country ownership.
    In addition, we scaled back funding for overseas construction for 1 
year, despite the ongoing need for updated, more secure diplomatic 
facilities. We are also saving on administrative costs through measures 
including more efficient travel, freight, utilities, communications, 
consolidation of services between State and USAID, and centralized and 
bulk procurement.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                 Submitted by Senator Richard G. Lugar

    Question (#1). Oil markets today are exceptionally tight and 
vulnerable to supply disruption. Expert analysis by the Rapidan Group 
indicates just 1.6 million barrels of spare capacity, which means that 
even today's high gas prices could easily skyrocket if Iran makes good 
on its threats against the Strait of Hormuz, if terrorists successfully 
attack oil infrastructure, or if an unfriendly leader such as Hugo 
Chavez seeks manipulate his exports to the United States. Ironically, 
Democratic Senate leadership is calling for Saudi Arabia to boost 
production even while they are against increasing oil trade with 
Canada. Indeed, the Obama administration recently rejected a permit for 
the Keystone XL pipeline upon a recommendation from the State 
Department.

  <bullet> Please share with the committee your strategy to boost 
        liquidity in global oil markets in the next few months, 
        particularly as gas prices for Americans continue to sky-
        rocket.

    Answer. In the case of global oil markets, we are pursuing a 
strategy that improves our energy security and fosters economic growth, 
while managing our resources and protecting our environment for future 
generations. Just last month, I signed a groundbreaking transboundary 
hydrocarbons agreement with Mexico on oil and gas exploration in the 
Gulf of Mexico to create jobs and new opportunities and to address our 
energy needs. With regard to our northern neighbor, Canada is currently 
our single largest supplier of energy, providing 28 percent of U.S. oil 
imports or close to 2.5 million barrels of oil per day. We do not 
anticipate this situation will change in the near term.
    Let me emphasize again, that the Department's recommendation to the 
President on January 18, 2012, that the application for a Presidential 
Permit for the Keystone XL pipeline be denied was not based on the 
merits. At the time of the recommendation, the alternative route for 
the pipeline through Nebraska had not yet been established and, thus, 
there was insufficient time to conduct the necessary analysis.

    Question (#2-3). The State Department recently concluded 1,217 days 
of review of the Keystone XL pipeline permit, including finalizing an 
environmental review. Midway through finalizing a national interest 
determination, President Obama publicly weighed in to the debate, and 
the State Department halted the determination. The protracted delay 
undermines our confidence in the Department's competence to undertake 
timely review of strategically and economically important projects, and 
it throws into question whether the Department was allowed to make a 
decision of U.S. interest based on the facts, rather than political 
concerns.

  <bullet> Could you please tell us if White House officials gave any 
        guidance to the State Department to delay the permit decision 
        or to ultimately recommend a rejection of the permit?

    Answer. As I stated in my testimony, the Department recommended to 
the President on January 18, 2012, that the application for a 
Presidential Permit be denied due to insufficient time to conduct the 
necessary analysis, and the President accepted our recommendation and 
determined that the Keystone XL pipeline project, as presented and 
analyzed at that time, would not serve the national interest. The White 
House did not exert any influence over the State Department's 
recommendation.

  <bullet> If not, could you please explain how the State Department 
        was unable to act upon the strategic and economic benefits of 
        Keystone XL after more than 3 years of review?

    Answer. On November 10, 2011, the State Department made the 
decision to halt the national interest determination process and seek 
more information regarding alternative routes that would avoid the 
Nebraska Sand Hills. At that time, the Nebraska legislature was in a 
special legislative session, called specifically to consider the issue 
of developing state requirements for the approval of petroleum 
pipelines in response to widespread concern over the Nebraska Sand 
Hills and potential threats of an oil spill to groundwater. These 
concerns were expressed by individuals and groups across the political 
spectrum. For example, after the final EIS was issued in August of 
2011, the Governor of Nebraska requested that the State Department deny 
TransCanada's permit application on the basis that it would not be in 
the national interest to approve a pipeline with a route through the 
Nebraska Sand Hills and over the Oglalla Aquifer. Rather than denying 
the permit application at that time, the State Department decided, as 
mentioned, that it needed to obtain more information about alternative 
routes that would avoid the Sand Hills. Subsequent to that decision, 
also in November of 2011, the applicant, TransCanada, reached an 
agreement with the State of Nebraska to reroute the pipeline around the 
Sand Hills, and the State of Nebraska enacted legislation that provided 
for state-level approval of a route through Nebraska. In December 2011, 
the Department of State was working on the process to obtain the 
necessary additional information, including consulting with Nebraska 
state officials. We were unable to complete the process because of the 
imposition of the arbitrary deadline in the Temporary Payroll Tax Cut 
Continuation Act passed on December 23, 2011.

    Question (#4). The Keystone XL pipeline would create thousands of 
private sector jobs, and it would help protect United States national 
security interests. It comes at no taxpayer expense, and it will 
strengthen our vital ties with our ally Canada.
    The State Department recently concluded 1,217 days of review of the 
Keystone XL pipeline permit, including finalizing an environmental 
review. Midway through finalizing a national interest determination, 
President Obama publicly weighed into the debate, and the State 
Department halted the determination. The protracted delay undermines 
our confidence in the Department's competence to undertake timely 
review of strategically and economically important projects, and it 
throws into question whether the Department was allowed to make a 
decision of U.S. interest based on the facts, rather than political 
concerns.

  <bullet> Reversal of Keystone XL Permit Decision: Is there any legal 
        blockage to the State Department reversing its recommendation 
        to President Obama on Keystone XL, to encourage immediate 
        approval?

    Answer. The State Department's recommendation to President Obama to 
deny the Presidential Permit for the Keystone XL pipeline is final. Any 
new applications would be treated as a new process, following 
regulations and procedures for such pipeline reviews.

    Question (#5). Pertaining to the State Department Record of 
Decision: In the
 Department's record of decision, concurrent with the report pursuant 
to Section 501(b)(2) of the Temporary Payroll Tax Cut Continuation Act 
of 2011, stated (page 5) that regardless of Keystone XL, there would be 
no net change in imports or exports due to Keystone XL. The difference 
is, of course, where those exports would originate. In other words, the 
State Department and Obama administration acknowledges no benefits to 
replacing Venezuelan or Middle Eastern crude (or declining production 
from Mexico) with reliable and abundant Canadian crude.

  <bullet> Is it the Department's position that the source of our 
        imports is irrelevant so long as the net quantities do not 
        change?

    Answer. The Department's record of decision also noted that the 
economic analysis conducted as part of the preparation of the final EIS 
indicated that regardless of Keystone XL, over the remainder of this 
decade there was unlikely to be a significant difference in the amount 
of crude oil imported from Canada. The source of imported oil, 
including over the long term, would have been among the factors, along 
with other economic, energy security, foreign policy, environmental and 
trade factors, we would have considered if the national interest 
determination was allowed to proceed as planned.

    Question (#6). In the record of decision, the State Department and 
Obama administration assert that there is currently excess cross-border 
capacity. That is a curious argument since, as a purely privately 
funded project, it would make no economic sense for companies backing 
Keystone XL to pay the estimates $7+ billion cost.

  <bullet> Please explain exactly where this excess capacity is, and 
        how it matches to the crude export quantities expected from 
        Canada.

    Answer. As noted in the record of decision: ``There is currently 
excess cross-border pipeline capacity, but limited connections to the 
U.S. Gulf Coast refineries.'' As noted in the final EIS (section 
1.4.3), the current cross-border pipelines deliver primarily to the 
Midwest in the United States. Additional information about how the 
current cross-border capacity relates to projected quantities of crude 
oil production in Western Canada, as well as to other potential 
additions of crude oil transport capacity in North America, is included 
in the final EIS, Appendix V, ``Keystone XL Assessment'' and ``Keystone 
XL Assessment--No Expansion Update.''

    Question (#7-8). In the record of decision, the State Department 
and Obama administration asserts that ``The United States will continue 
to work with Canada to ensure our shared interests in energy . . . ''. 
The Government of Canada has made clear their national priority in 
development of the oil sands.

  <bullet> Is the U.S. Government unsupportive of oil sands 
        development?

    Answer. No. The Department earlier approved permits to construct 
and operate petroleum pipelines from the Western Canadian Sedimentary 
Basin, which includes the Canadian oil sands. These approvals were the 
Keystone pipeline in 2008, and the Alberta Clipper pipeline in 2009.

  <bullet> If the U.S. Government is not antioil sands development, is 
        it the Obama administration's policy that trade in crude from 
        the oil sands should not be expanded?

    Answer. As I have stated previously, the continued development of 
oil and gas supplies in North America and globally is a critical 
component of our energy diplomacy.

    Question (#9). In the record of decision, the State Department and 
Obama administration assert that ``denying the [Keystone XL pipeline] 
permit at this time is unlikely to have a substantial impact on U.S. 
employment, economic activity, trade, energy security, or foreign 
policy over the longer term.'' Such a conclusion is clearly at odds 
with the reality of our security and economic needs. As with all 
infrastructure projects, the private sector jobs created would 
predominantly be in the construction and manufacturing sectors, both of 
which have been particularly hard-hit in the economic downturn. By the 
logic described in the report, rejection of the pipeline is the Obama 
administration saying that those jobs are not sufficiently important to 
sway its judgment.

  <bullet> Do you stand by the conclusions of the report? If not, how 
        would you adjust it today?

    Answer. The Department's recommendation to the President on January 
18, 2012, that the application for a Presidential Permit for the 
Keystone XL pipeline be denied was not based on the merits of the 
project. The Department recommended to the President that the 
application for a Presidential Permit be denied because the arbitrary 
deadline imposed by the Temporary Payroll Tax Cut Continuation Act of 
2011 did not provide sufficient time to conduct the necessary analysis.

    Question (#10). Pertaining to the State Department Review of the 
Keystone XL Pipeline Permit Application: Please describe, in detail, 
why after 1,217 days 
the State Department still determined that it had insufficient time to 
review the application.

    Answer. In response to Question #3, I described the concerns that 
led the Department to decide on November 10, 2011, that the Department 
needed additional information regarding potential alternative routes 
around the Nebraskan Sand Hills. The arbitrary deadline imposed by the 
Temporary Payroll Tax Cut Continuation Act of December 23, 2011, gave 
the Department insufficient time to conduct the necessary analysis, 
particularly since at that time a complete pipeline route had not been 
identified.

    Question (#11). Do you view it as acceptable that the Department 
has kept a major private sector project, and associated jobs, more than 
3 years to review?

    Answer. The State Department has consistently stated that it did 
not think it would be responsible to hasten a decision on what 
constitutes the national interest in response to an arbitrary deadline. 
For more details please see the responses to Questions 3 and 10.

    Question (#12). What steps will you take to ensure that such a 
review does not take such a long time in the future?

    Answer. The Department will take the time necessary to analyze new 
pipeline applications consistent with relevant statutes, regulations, 
and Executive orders.

    Question (#13). The Department and the Obama administration have 
pointed to concerns in Nebraska for the Department's unwillingness to 
approve the pipeline. However, concerns around the Ogallala Aquifer and 
Sand Hills were not hidden and not unexpected. How is it that the 
Department did not, by its own reasoning, recognize and act upon these 
issues prior to November 2011?

    Answer. Prior to our November 2011 decision that we needed 
additional information to determine the impact of alternative routes, 
we had been engaged in discussions with TransCanada and the State of 
Nebraska. After the final EIS was released on August 26, 2011, the 
Department held a public comment period to obtain input for the 
national interest determination. During this period the public provided 
input on many issues. Only during this public comment period did the 
intensity and uniformity of concern about the proposed route through 
the Sand Hills, including by Nebraska's elected officials fully reveal 
itself. Please see also my response to Question 3.

    Question (#14). The State Department conducted both an EIS and a 
Supplemental EIS, and issued a final EIS in August 2011. Please explain 
why, after years of environmental review, the Department declared that 
it would need more than a year to adjust the pipeline route proposed in 
Nebraska?

    Answer. On November 10, 2011, the State Department made the 
decision to halt the national interest determination process and seek 
more information regarding alternative routes that would avoid the 
Nebraska Sand Hills. At that time, the Nebraska legislature was in a 
special legislative session, called specifically to consider the issue 
of developing state requirements for the approval of petroleum 
pipelines in response to widespread concern over the Nebraska Sand 
Hills and potential threats of an oil spill to groundwater. These 
concerns were expressed by individuals and groups across the political 
spectrum. For example, after the final EIS was issued in August 2011, 
the Governor of Nebraska requested that the State Department deny 
TransCanada's permit application on the basis that it would not be in 
the national interest to approve a pipeline with a route through the 
Nebraska Sand Hills and over the Oglalla Aquifer. Rather than denying 
the permit application at that time, the State Department decided, as 
mentioned, that it needed to obtain more information about alternative 
routes that would avoid the Sand Hills. Subsequent to that decision, 
also in November 2011, the applicant, TransCanada, reached an agreement 
with the State of Nebraska to reroute the pipeline around the Sand 
Hills, and the State of Nebraska enacted legislation that provided for 
state-level approval of a route through Nebraska. In December 2011, the 
Department of State was working on the process to obtain the necessary 
additional information, including consulting with Nebraska state 
officials. We were unable to complete the process because of the 
imposition of the arbitrary deadline in the Temporary Payroll Tax Cut 
Continuation Act passed on December 23, 2011.
    Prior to our November 2011 decision that we needed additional 
information to determine the impact of alternative routes, we had been 
engaged in discussions with TransCanada and the State of Nebraska. 
After the final EIS was released on August 26, 2011, the Department 
held a public comment period to obtain input for the national interest 
determination. During this period the public provided input on many 
issues. Only during this public comment period did the intensity and 
uniformity of concern about the proposed route through the Sand Hills, 
including by Nebraska's elected officials fully reveal itself.

    Question (#15). Did the State Department examine alternative routes 
in Nebraska prior to November 2011, and if so, why were those routes 
not given preference?

    Answer. In the final Environmental Impact Statement in Volume 2, 
Section 4.3, the State Department examined alternative routes that 
included different potential routes through Nebraska. Those routes, 
however, generally involved significantly longer routes, were 
economically or technically infeasible, and/or would not have provided 
any environmental advantage over the proposed route. The State 
Department did not examine an alternative route strictly within the 
State of Nebraska designed to avoid the Nebraska Sand Hills. For more 
information, please see my responses to Questions 3 and 13.

    Question (#16). Pertaining to the National Interest Determination 
Review: Prior to suspension of the Keystone XL permit review in 
November 2011, the Department was already more than half way through 
completion of the national interest determination, which it has slated 
for conclusion in December 2011.

  <bullet> Given that the Department is no longer reviewing Keystone 
        XL, please share the Department's preliminary findings as they 
        had progressed by November 2011 pertaining to: energy security, 
        foreign policy, and trade impacts of Keystone XL, if approved.

    Answer. The record of decision contains the Department's findings 
pertaining to energy security, foreign policy, and trade impacts of 
Keystone XL. The final Environmental Impact Statement (EIS) contains 
additional information and analysis regarding those impacts.

    Question (#17-20). Permit Review Authority and Process: Canada is 
our largest trading partner and close ally. A default presumption that 
expanded trade is economically beneficial and supportive of our foreign 
policy seems reasonable. Moreover, lack of ability of the Department to 
give Keystone XL a timely review has raised questions of competence in 
the energy and environmental area (including as noted in the Inspector 
General's review). Moreover, the State Department's role in the permit 
review process is not based in statute.

  <bullet> Please respond to the argument that the State Department, 
        while maintaining a consultative role, is not best suited to be 
        the lead agency in pipeline permit review.

    Answer. Executive Order (EO) 13337 delegates to the State 
Department the authority to receive and grant applications for 
Presidential Permits for cross-border facilities and outlines a process 
for the Department to determine whether granting such permits would be 
in the national interest.

  <bullet> Leaving aside Executive Order 13337, simply permitting a 
        pipeline to cross the border does not in itself authorize 
        construction. The company involved must still obtain 
        permissions from state authorities, which have primary 
        jurisdiction over oil pipeline citing, and from relevant 
        Federal agencies such as BLM and the Army Corps. Given that the 
        State Department is not specialized in relevant environmental 
        issues, would it make sense for the NEPA process (if required) 
        to be separated from the National Interest Determination?

    Answer. The State Department's consideration of what constitutes 
the national interest is not limited to only what is required by the 
National Environmental Policy Act (NEPA). In consultation with other 
relevant agencies such as BLM, it was determined that having the State 
Department serve as the lead agency for the NEPA process was most 
consistent with NEPA and its implementing regulations.

  <bullet> How has establishment of the Energy Bureau changed 
        responsibility for permit review?

    Answer. The establishment of the Bureau of Energy Resources has not 
changed responsibility for permit review, but the Bureau of Energy 
Resources would also be involved in any future permit reviews.

  <bullet> The 1968 Executive order that first established the 
        permitting requirement stated that ``the proper conduct of the 
        foreign relations of the United States requires that Executive 
        permission be obtained for the construction and maintenance at 
        the borders of the United States of facilities connecting the 
        United States with a foreign country.'' Since 1968, the 
        Executive branch's role in approving the connection of 
        pipelines at U.S. border crossings has been based on foreign 
        policy considerations, a point reinforced by the Secretary of 
        State (not EPA Administrator, for example) being vested with 
        principle authority. What has changed in the conduct of foreign 
        affairs that environmental concerns have, in the case of 
        Keystone XL, trumped decades of precedent?

    Answer. The Department's recommendation to the President on January 
18, 2012, that the application for a Presidential Permit for the 
Keystone XL pipeline be denied was not based on the merits. The 
arbitrary deadline imposed by the Temporary Payroll Tax Cut 
Continuation Act of December 23, 2011, gave the Department insufficient 
time to conduct the necessary analysis, particularly since at that time 
a complete pipeline route had not been identified.

    Question (#21-23). Integrity of Fair Application Review: By 
Executive order, the State Department is charged to prepare 
recommendations for the President on granting of a transborder pipeline 
permit. The employees of all companies deserve a fair hearing on the 
merits of the application, not subject to interference from the White 
House in the review process.

  <bullet> At any point, did White House officials give guidance to 
        State Department officials on the criteria or timelines of 
        review on Keystone XL?

    Answer. No. The White House did not exert any influence over the 
State Department's review process or recommendation.

  <bullet> In mid-November 2011, the Department announced that it would 
        delay a decision on the Keystone XL permit application until 
        after the 2012 election. At any point, did White House 
        officials give guidance to State Department officials to delay 
        the permit decision?

    Answer. No. The White House did not exert any influence over the 
State Department's review process or recommendation.

  <bullet> In January 2012, the Department recommended that the 
        President reject the Keystone XL permit. At any point, did 
        White House officials give guidance to State Department 
        officials to make such a recommendation?

    Answer. No. The White House did not exert any influence over the 
State Department's recommendation.

    Question (#24). Recognition of States Authority and Assistance: 
Questions about the routes of pipelines within U.S. States, like other 
local land use decisions, are traditionally and appropriately matters 
to be decided by the States themselves. The Department has indicated 
that the proposed routing of Keystone XL must shift within the State of 
Nebraska. Indeed, legislation I have offered allows Nebraska to do just 
that. However, it appears that the Department is presuming authority to 
resite a pipeline by forcing a change in Nebraska, an authority not 
given in statute so reserved for the states.

  <bullet> Please clarify whether the Department believes it has the 
        authority to site oil pipelines, and, if so, the source of that 
        authority.

    Answer. The Department did not indicate that the proposed routing 
of Keystone XL must shift within the State of Nebraska, nor is the 
Department presuming authority to resite the pipeline in Nebraska. On 
November 10, 2011, the State Department made the decision to halt the 
national interest determination process and seek more information 
regarding alternative routes that would avoid the Nebraska Sand Hills. 
At that time, the Nebraska legislature was in a special legislative 
session, called specifically to consider the issue of developing state 
requirements for the approval of petroleum pipelines in response to 
widespread concern over the Nebraska Sand Hills and potential threats 
of an oil spill to groundwater. Subsequently, also in November 2011, 
the applicant, TransCanada, reached an agreement with the State of 
Nebraska to reroute the pipeline around the Sand Hills, and the State 
of Nebraska enacted legislation that provided for State-level approval 
of a route through Nebraska. The Department's consideration of what is 
in the national interest includes consideration of all potential 
impacts of a proposed pipeline, including those impacts associated with 
a particular route.

    Question (#25). The State of Nebraska continues to pursue 
finalization of a new Keystone XL pipeline route through its territory, 
pursuant to Nebraska State law. Given that the State Department and 
Obama administration have encouraged just such a review, it seems 
prudent for the Department to provide assistance.

  <bullet> Are you willing to commit the State Department to cooperate 
        as needed with Nebraska and to provide any appropriate 
        assistance to Nebraska in order to complete its route selection 
        process, particularly given the stated intention of TransCanada 
        to resubmit the application?

    Answer. There is currently no pipeline application before the 
Department and thus no basis for the Department to take action 
regarding a pipeline review. If the Department receives a new 
application, we will cooperate with other State and Federal agencies, 
including relevant officials in the State of Nebraska, to ensure an 
efficient review of the application that avoids unnecessary duplication 
of efforts.

    Question (#26-27). Reapplication of Keystone XL: TransCanada has 
indicated that, absent congressional action to approve override the 
President's rejection of Keystone XL, it will reapply for a permit.

  <bullet> Have State Department officials given guidance to 
        TransCanada on the timing of any such reapplication, and, if 
        so, what was that guidance?

    Answer. The Department has not given any guidance to TransCanada on 
the timing of any new applications.

  <bullet> Given that the State Department has already spent 1,217 days 
        reviewing the Keystone XL application, and any reapplication is 
        likely to be substantially similar except in the State of 
        Nebraska, how can the Department justify recent comments that 
        no expedited review would be made available?

    Answer. If the Department receives a new application, we will 
cooperate with other State and Federal agencies, including relevant 
officials in the State of Nebraska, to ensure an efficient review of 
the application that avoids unnecessary duplication of efforts. There 
are certain requirements must be met for any new pipeline application.

    Question (#28-30). Disposition of Crude Oil Intended for Keystone 
XL: The Government of Canada has clearly stated its intentions to ship 
the oil sands crude oil that would have gone through Keystone XL to its 
Western Coast, to be shipped through Puget Sound and onward to Asian 
markets. Indeed, China and Canada signed a high-level energy agreement 
just days after the Obama administration rejected the Keystone XL 
pipeline.

  <bullet> What message has the State Department given to Canada, given 
        that government's anger over rejection of Keystone XL?

    Answer. The United States-Canada alliance is a cornerstone of both 
countries' national security. We believe Canada will remain committed 
to the bilateral alliance, and the United States will continue to work 
with Canada to ensure our shared interests in energy, environmental, 
and economic issues are not adversely affected by the decision to deny 
the permit in January.

  <bullet> Does the Department believe that rejection of Keystone XL 
        will prevent oil sands development from occurring?

    Answer. The Department's recommendation to the President on January 
18, 2012, that the application for a Presidential Permit for the 
Keystone XL pipeline be denied was not based on the merits. The 
arbitrary deadline imposed by the Temporary Payroll Tax Cut 
Continuation Act of December 23, 2011, gave the Department insufficient 
time to conduct the necessary analysis, particularly since at that time 
a complete pipeline route had not been identified. As noted in the 
final EIS, including the economic analyses in Appendix V, in all but 
the scenario where there is no additional crude oil transport capacity 
added above 2010 levels, there is unlikely to be a significant 
difference in the rate of oil sands development.

  <bullet> Does the Department view it as a loss to the U.S. economy 
        and energy security that Canada will divert intended oil flows 
        from Keystone XL to Asia?

    Answer. The Department's recommendation to the President on January 
18, 201, that the application for a Presidential Permit for the 
Keystone XL pipeline be denied was not based on the merits. The 
arbitrary deadline imposed by the Temporary Payroll Tax Cut 
Continuation Act of December 23, 2011, gave the Department insufficient 
time to conduct the necessary analysis, particularly since at that time 
a complete pipeline route had not been identified. The disposition of 
crude oil is determined primarily by market forces. The economic 
analysis included in the final EIS indicated that regardless of 
Keystone XL, there is significant market incentive for Canadian crude 
oil producers to seek access to Asian markets. That economic analysis 
also indicated that the export of Canadian crude oil to Asia instead of 
the United States was not sensitive to the construction of the Keystone 
XL pipeline.
                    data reporting and transparency
    Lack of reliable data on global oil production and capacity 
introduces additional uncertainty into markets, putting upward pressure 
on prices. Spare capacity is particularly crucial in managing oil price 
volatility, but data is unreliable. It is generally believed that OPEC 
inflates its spare capacity estimates, and at this point only Saudi 
Arabia is likely to have any spare capacity available.

    Question (#31). Please provide an update on Department activities 
to advocate reliable and transparent data reporting amongst oil 
producing nations.

    Answer. Our new Energy Bureau has deepened our engagement with IEA 
and OPEC on data reporting, and we have broadened our engagement with 
the International Energy Forum. The IEF hosts the Joint Oil Data 
Initiative, which brings together data from the principal data sources 
and allows the public to assess methodology and accuracy. Beyond this, 
the State Department reviews multiple public and classified data 
sources to assess consistency, and to identify discrepancies.

    Question (#32). Do you view OPEC data on spare capacity as 
accurate?

    Answer. OPEC does not routinely report data on spare capacity. We 
use the U.S. Energy Information Administration (EIA) and the 
International Energy Agency (IEA) as primary sources of data on spare 
capacity, and augment that with information received from Posts and 
from diplomatic engagements with OPEC and non-OPEC members. We cross-
check this data for consistency with multiple classified and public 
data sources.

    Question (#33). Given that the IEA and EIA have limited ability to 
assess OPEC projections, what other tools does the Department deploy to 
project spare capacity?

    Answer. The Department engages directly and consistently with 
significant energy producers. Just in the past several months we have 
engaged with several OPEC members, including Saudi Arabia, UAE, Libya, 
Kuwait, Iraq, Angola, and Nigeria to discuss oil production plans and 
spare capacity. Posts also provide updates on production outages and 
increases by engaging host governments and the private sector. We 
review, as well, multiple classified and open data sources.

    Question (#34). A report entitled the ``Petroleum and Poverty 
Paradox'' identified several recommendations for the State Department 
to increase attention on extractive industries transparency, including 
in revenue reporting, budgeting, and management of mineral revenue 
funds. That report, and the ensuing legislation with lead cosponsor 
Senator Ben Cardin ``Energy Security Through Transparency,'' part of 
which became the Cardin-Lugar amendment S. 1504 to Dodd-Frank, included 
encouragement for the U.S. Government to become an Extractive 
Industries Transparency Initiative implementing country and to include 
transparency as a U.S. priority in multilateral fora.

  <bullet> Please update the committee on the Department's progress in 
        achieving transparency commitments through the OECD and APEC.

    Answer. In the OECD, member states are required to submit data in a 
number of areas that is then subject to peer review. This process is an 
exercise in opening a country's books, and by its nature promotes 
transparency. The OECD is also a standards-setting and rulesmaking 
organization. Many of its finished products, whether formal agreements 
such as the Anti-Bribery Convention, or OECD standards on investment, 
trade, or taxation, are at their core exercises in member state 
transparency. Non-member countries that sign on to these agreements 
adopt the transparency requirements of the member states as well, and 
aspiring accession countries, such as Russia, allow member-state 
countries to review not only their legislation and procedures, but 
their actual enforcement of transparency measure across whole sectors 
of their economies. Finally, the OECD works with particular regions, 
such as the Middle East and North Africa, to promote good policy on 
governance and investment climate--both areas have a strong element of 
transparency. We will be partnering with the OECD in May to hold a 
conference in Tunisia on transparency and open government.
    The Department is also advocating transparency through APEC. As 
outlined in the Ministerial Statement from the High Level Policy 
Dialogue on Open Governance and Economic Growth chaired by the 
Secretary at the APEC summit in Honolulu last year, the APEC Anti-
Corruption and Transparency Experts' Working Group (ACT) is committed 
to reporting on progress toward implementing APEC anticorruption and 
transparency principles. Specifically, each economy will be completing 
comprehensive interim reports in 2012 and 2013 and presenting a report 
in 2014. The United States is on track to fulfill this commitment, and 
we presented our progress toward completing our own interim report at 
the 14th ACT meeting in Moscow in February. We also circulated our 
draft widely as a model to be used by other countries.

    Question (#35). Given the presence of major oil, natural gas, and 
minerals producing countries in the G20, what barriers for progress on 
commitments to transparency exist?

    Answer. We have sought to use the anticorruption work stream in the 
G20 to promote transparency and anticorruption. At the urging of the 
United States, anticorruption and the Extractive Industries 
Transparency Initiative (EITI) were included in the agenda for the 2009 
G20 summit in Pittsburgh, and the final communique included strong 
language urging participation in EITI. The Pittsburgh language advanced 
by the United States was cited by the EITI Secretariat as ``important 
for EITI.'' The G20 is a very new forum for discussion of these issues, 
representing a diverse set of countries, but the United States 
continues to promote the development of specific, actionable 
commitments on transparency and anticorruption through this forum. An 
additional barrier to progress is that the United States itself is not 
yet EITI compliant, but starting down this path is a step in the right 
direction.

    Question (#36). What commitments [for transparency] is the U.S. 
Government advocating for the G20?

    Answer. As the United States moves to become an Extractive Industry 
Transparency Initiative (EITI) candidate country, we continue to 
encourage other members of the G20 to join the EITI. Through the Open 
Government Partnership (OGP), we are encouraging the more than 40 
countries developing action plans to include EITI membership in their 
plans. The anticorruption work stream of the G20, which the United 
States originated and has strongly promoted, has been one instrument to 
promote EITI. In the 2009 summit hosted by the United States in 
Pittsburgh, leaders indicated in their communique that ``We support 
voluntary participation in the Extractive Industries Transparency 
Initiative.'' The 2010 G20 Seoul Anticorruption Action Plan commits 
countries ``to promote integrity, transparency, accountability and the 
prevention of corruption, in the public sector, including in the 
management of public finances'' and to combat corruption in specific 
sectors. Through the G20 Anticorruption Working Group set up in Seoul, 
we have pursued these and other commitments, and worked to drill down 
to actionable steps and press for implementation, including in the 
critical areas of transparency and integrity in public procurement, 
fiscal transparency, adoption and enforcement of laws criminalizing 
foreign bribery, and public integrity measures. Other focuses include 
accession to and implementation of the U.N. Convention against 
Corruption and the OECD Anti-Bribery Convention, cooperation on asset 
recovery, work by the Financial Action Task Force, whistleblower 
protection, safeguarding anticorruption authorities, and engagement 
with the private sector.

    Question (#37). The State Department will play an increasingly 
important role in explaining the importance of transparency to foreign 
governments and work closely with U.S. companies to explain their 
requirements under U.S. law for foreign governments unsure about 
disclosures required by the SEC pursuant to the Cardin-Lugar amendment, 
section 1504 of Dodd-Frank. There is a precedent for this, for example, 
in our embassies explaining U.S. legal requirements under the Foreign 
Corrupt Practices Act. Please describe the capacity and preparedness 
for our embassies to undertake this task, particularly in countries 
such as Angola, China, and Qatar.

    Answer. Our embassies are well positioned and prepared to explain 
how changes in U.S. law may affect companies operating in their host 
countries. Embassies throughout the world have been instrumental in 
educating host governments and corporations about U.S. legal 
requirements under the Foreign Corrupt Practices Act. Once the SEC 
issues final regulations, the State Department will work through our 
posts overseas to help host governments create the necessary conditions 
for companies listed in the United States to be compliant with U.S. 
law. We will continue to advocate for other governments to adopt 
transparency standards along the lines of those in the Dodd-Frank Act. 
This applies equally well in countries such as Angola, China, and 
Qatar, as it does in the nations around the globe.

    Question (#38). The Cardin-Lugar amendment, section 1504 of Dodd-
Frank, contains the requirement that rules ``shall support the 
commitment of the Federal Government to international transparency 
promotion efforts'' and authorizes consultation in the rulemaking 
process between the SEC and other Agencies. In other words, the statute 
clearly invites the State Department to give input, which would seem 
obvious since the Department leads international transparency efforts 
(so is best suited to define those efforts) and the Department will 
have a significant responsibility to explain those rules abroad. 
However, Department officials have declined to provide comment to the 
SEC.

  <bullet> Does the State Department lack the legal authority to 
        provide an opinion to the SEC on implementation of Cardin-
        Lugar?

    Answer. The State Department's practice is not to submit public 
comments in response to rulemaking proposals.

    Question (#39). Is it Department policy that it must be formally 
asked, in writing, before expressing an opinion to the SEC on the 
content of U.S. foreign policy in this area?

    Answer. The State Department does not normally submit public 
comments in response to rulemaking proposals. It is, however, 
Department policy to respond to official correspondence in an 
appropriate and timely manner.
                            bureau of energy
    The Department recently reorganized to consolidate energy functions 
within a new Energy Bureau, and to better coordinate closely related 
functions with science and climate offices. In December 2007, a law I 
authored was enacted to require establishment of an International 
Energy Coordinator with the primary mission of putting energy at the 
top of our diplomatic agenda and better leveraging relevant activities 
and expertise across the Department.

    Question (#40). Please describe how moving the Coordinator from 
being within the Secretary's office to be under an Under Secretary and 
one among dozens of similarly positioned officials will continue to 
give energy prominence.

    Answer. The establishment of the International Energy Coordinator, 
based on your leadership, was instrumental in formalizing a consistent 
mechanism for high-level diplomatic engagement on energy security 
issues. The State Department has committed to the effective 
coordination of resources to address the political, security, economic, 
development, and environmental challenges posed by energy. To this end, 
the Bureau for Energy Resources was established to pull together our 
diplomatic and programmatic efforts on oil, natural gas, coal, 
electricity, renewable energy, transparent energy governance, and 
strategic resources.

    Question (#41). Please describe why functions around climate 
change, which by-and-large is a question of energy generation and 
usage, are not within the Energy Bureau.

    Answer. Climate change is a multifaceted issue and a significant 
and important part of addressing it requires reducing emissions from 
the energy sector. However, addressing climate change also requires 
adaptation to climate impacts and reducing emissions from other 
industrial sources as well as in the land use, forestry, and the 
agriculture sectors. Energy is one component of a much broader 
international dialogue around climate change that also involves climate 
science, environmental impacts, and action in a broad range of economic 
sectors.
    The State Department's Special Envoy for Climate Change engages 
regularly with Environment Ministers from around the world on all these 
issues to present a comprehensive and consistent strategy on the many 
issues related to climate change. In doing so, the special envoy's 
office also works very closely with the new Bureau of Energy Resources 
to coordinate efforts relevant to clean and renewable energy 
deployment. A very important pillar of the new Energy Bureau is the 
directorate on Energy Transformation, which focuses on alternative and 
renewable energy and energy efficiency and electricity markets. Through 
this directorate, the Energy Bureau now leads the U.S. Government's 
representation to the International 
Renewable Energy Agency and the Global Bioenergy Partnership, important 
functions that were transferred from the Office of Global Change in the 
Bureau of Oceans, International Environment, and Scientific Affairs 
during the reorganization.

    Question (#42). Some have questioned whether the Energy Bureau will 
lead to more bureaucracy. Please describe how the new Bureau has 
repurposed existing funds, and what your plans for growth are.

    Answer. Funding for ENR operating expenses is based on the 
reallocation of existing resources. The total FY12 budget for Bureau 
operating expenses and salaries is estimated at $11.4 million. The 
total FY13 budget request for operating expenses and salaries is $16.9 
million, an increase of $5.4 million which maintains current services 
and reflects a staff increase of 22 FTE.
    With regards to staffing, the Bureau has 53 FTEs. By FY 2013, we 
anticipate the staffing level at 75 employees.

    Question (#43). Please describe partnerships the Bureau has, or 
will, form with private industry both in conventional and 
unconventional energy areas. What has the reaction been to the Bureau 
in the private sector?

    Answer. The reaction to ENR's creation was extremely positive 
across the board. Our private sector partners were very pleased that 
the Department is taking positive steps toward recognizing the 
importance of energy as a cornerstone of U.S. foreign policy. ENR has 
been actively engaged in working with the private sector on numerous 
issues, from forming partnerships to increase worldwide access to 
energy to helping our allies effectively and safely develop their 
energy resources. One example of this is our Unconventional Gas 
Technical Engagement Program (UGTEP). The program focuses on all 
sources of unconventional gas, not just shale gas. It highlights the 
potential these various sources have to make a significant impact on 
long-term global energy security and the challenges posed by their 
potentially harmful impacts. This is an important tool for sharing with 
other countries the experiences we have had in the United States with 
the development and production of shale gas and other nonconventional 
gas and oil resources, and what various levels of government--Federal, 
State, and local--and industry have found to be the best practices 
associated with unconventional gas development. Through programs like 
this, ENR strengthens is relationships with the private sector and 
promotes the energy issues vital to U.S. foreign policy.

    Question (#44). How is repetition with the Department of Energy 
international energy functions being prevented? Are there steps that 
can be taken to better integrate activities between the Departments?

    Answer. The new Bureau of Energy Resources (ENR) and the Department 
of Energy work closely together and have complementary capabilities. 
DOE has world-leading technical expertise on energy issues and 
established relationships with energy ministries. ENR has essembled 
excellent geopolitical and policy expertise, and enjoys the benefit of 
reaching out to State's diplomatic posts around the world. DOE and ENR 
have worked together on common country approaches, each lending their 
expertise. Both have traveled together to advance energy relationships. 
This collaboration, we believe, is strengthening our impact.

    Question (#45). In addition to the global Coordinator for 
International Energy Affairs, the Department also continued appointment 
of a special envoy to give high-level attention to European and 
Eurasian energy affairs. Indeed, having a credible high-level official 
devoted to specific tasks (in particular opening of the Southern 
corridor) has been crucial to prompting more concerted action in 
Brussels and Eastern Europe, and it has shown strengthen in partnership 
with Caucasian and Central Asian countries under pressure from Russia 
to maintain current energy arrangements.

  <bullet> Please describe how you view the future need for the current 
        special envoy position.

    Answer. The special envoy for Europe and Eurasia brings expertise 
and senior leadership that have been essential to U.S. interest in the 
region. We continue to benefit from the strong coordination between the 
special envoy and ENR, as the region works through energy challenges 
that fundamentally affect the economies and geopolitics of the region.

    Question (#46). The Department has conducted an important effort to 
encourage responsible development of global shale gas reserves. Please 
describe progress on that initiative and resources in the budget 
request to continue work.

    Answer. The Department's Unconventional Gas Technical Engagement 
Program (UGTEP), formerly known as the Global Shale Gas Initiative, 
continues to make significant progress engaging with international 
partners on the various environmental, regulatory, legal, and technical 
issues involved in unconventional gas development.
    In 2011, Poland, Estonia, Latvia, Lithuania, India, and Jordan 
participated in State Department-coordinated informational visits to 
the United States. During their visits, the delegations had in-depth 
technical engagement on the U.S. experience in the pursuit of 
responsibly and environmentally sound development of unconventional 
natural gas. These programs included meetings with the Departments of 
Energy, Interior, Commerce, the Environmental Protection Agency, U.S. 
Trade and Development Agency, as well as state regulators, experienced 
academics, community advocacy groups, and industry.
    Under UGTEP, the U.S. Geological Survey (USGS) conducted technical 
workshops with partner countries including China, India, Uruguay, 
Paraguay, Chile, Argentina, and Colombia. Shale gas resource 
assessments have been released for China, India, and Uruguay; other 
assessments should be completed for other key countries in 2012.
    UGTEP has been included in the Bureau of Energy Resources foreign 
assistance budget request for FY 2013, which totals $14.25 million. 
Future programs may support additional visits by relevant foreign 
officials to the United States and extended technical engagement with 
U.S. experts; regional shale gas conferences to broaden the dialogue on 
and understanding of unconventional gas development challenges; 
technical visits by U.S. experts and resident regulatory and 
environmental advisors to key partner countries; and additional or 
follow-on unconventional gas resource assessments by the USGS.

    Question (#47). The Department has conducted an important effort to 
encourage responsible development of global shale gas reserves. What is 
the Department doing to help prevent antishale policies from taking 
hold in several European countries?

    Answer. Unconventional natural gas, which includes shale gas, if 
developed responsibly and in an environmentally sound manner, can play 
an important role in a country's energy security.
    Under the auspices of the Unconventional Gas Technical Engagement 
Program (UGTEP) and through our embassies, we actively provide European 
countries with information on U.S. efforts to reduce the potential 
harmful impacts of unconventional natural gas development. This 
includes reports by the Secretary of Energy's Advisory Board 
Subcommittee on Shale Gas Production, and the Environmental Protection 
Agency's study on the effects of hydraulic fracturing on the life-cycle 
of water. Through this engagement, we share the U.S. experience and 
best practices so that European countries understand the potential to 
develop unconventional gas safely and in an environmentally sound 
manner if the proper regulatory and environmental protection frameworks 
are in place.
    In November 2011 the State Department welcomed representatives from 
Estonia, Lithuania, and Latvia to the United States for a 10-day visit 
on unconventional gas development. This delegation met with U.S. 
interagency partners from the Department of Energy, Department of 
Interior, Department of Commerce, Environmental Protection Agency, as 
well as state regulators, experienced academics, community advocacy 
groups, and industry representatives to get a holistic perspective of 
the U.S. experience with unconventional natural gas development--
specifically regarding shale gas. Future activities may include 
additional U.S. visits, in-country engagement by U.S. experts, and 
additional workshops.
    Our Energy Resources Bureau is also working with Special Envoy for 
Eurasian Energy Affairs Morningstar to foster a constructive dialogue 
in the U.S.-EU Energy Council's Energy Security Working Group, as well 
as in bilateral discussions with EU member states. The Department is 
also working with individual European countries under the auspices of 
the International Energy Agency (IEA) to develop globally recognized 
best practices and standards for unconventional gas development, as 
well as supporting efforts to better understand the impacts of 
increased unconventional gas production on the global energy market.
                         energy product exports
    The State Department budget notes requests of expanded funding to 
achieve goals of doubling exports under the National Export Initiative. 
Currently, exports of U.S. crude oil are generally prohibited. Exports 
of manufactured (or refined) products produced from U.S. refineries are 
not currently restricted, and the U.S. exports approximately 15 percent 
of refined products. Those exports have increased during recent years 
of economic downturn and are, in effect, helping to keep American 
workers employed.

    Question (#48). Do you believe that the free trade of manufactured 
products, including those manufactured by America's refinery workers, 
is beneficial to goals of increasing exports and promoting economic 
growth?

    Answer. The Department fully supports the Administration's goal of 
doubling exports under the National Export Initiative. Increased 
exports of U.S. manufactured goods will help promote economic growth 
and create jobs.

    Question (#49). What is the Department's position on export 
potential for liquefied natural gas?

    Answer. The Department of Energy has the authority to review 
applications for LNG export facilities. The Administration has recently 
granted two licenses for exports of LNG, taking into account resource 
estimates that indicate adequate gas supply in the U.S. to support both 
increased domestic consumption and exports. We support the decisions 
taken by the Department of Energy and recognize that each license 
application will be reviewed and judged based on prevailing facts and 
market conditions.
             price mitigation and oil shortage preparedness
    Oil markets today are exceptionally tight and vulnerable to supply 
disruption. The Energy Information Administration has revised spare 
capacity estimates down by 42 percent over the last 2 months. Expert 
analysis by the Rapidan Group indicates just 1.6 million barrels of 
spare capacity (defined as availability within 30 days), which means 
that even today's high gas prices could easily skyrocket if Iran makes 
good on its threats against the Strait of Hormuz, if terrorists 
successfully attack oil infrastructure, or if an unfriendly leader such 
as Hugo Chavez seeks manipulate his exports to the United States.

    Question (#50). What are your expectations for increases in oil 
production capacity in key countries, such as Iraq, over the next 90 
days?

    Answer. In addition to information from the Energy Information 
Administration and the International Energy Agency, we continue to 
engage with a number of oil producing countries to better understand 
the supply and demand dynamics of international oil markets. In 
addition to those countries, such as Saudi Arabia, with significant 
spare production capacity, there are several countries with the 
potential to increase production capacity in the near future, including 
Iraq, Libya, Nigeria, and others.
    While Iraq suffers from chronic infrastructure problems, they have 
made steady gains and successfully inaugurated a new single-point 
mooring in the south. The Government of Iraq and industry experts have 
told us that they believe Iraq can increase production by 500,000 
barrels per day during 2012.

    Question (#51). The International Energy Agency's outdated 
statutory membership requirements have prevented inclusion of China and 
India, two major oil consumers, in formal emergency planning. Do you 
view this as a hindrance to effective emergency coordination and 
planning? What remedies are available?

    Answer. IEA candidates for accession must first be members of the 
Organization for Economic Cooperation and Development (OECD). The IEA 
has for many years pursued considerable bilateral engagement with both 
China and India as a top priority, and the IEA continues to look for 
ways to boost these links. The United States has aggressively 
encouraged this increased engagement with the IEA and continues to do 
so.
    The International Energy Agency's growing engagement with both 
states has included cooperation on emergency response measures, 
including discussions on development and maintenance of petroleum 
reserves. For example, extensive emergency preparedness measures were 
part of the Memorandum of Understanding (MOU) signed between the IEA 
and India in October 2011. That MOU also includes the IEA sharing best 
practices with India on management of oil stockholding (both publicly 
and privately held), emergency stock release mechanisms, and the IEA's 
preparation of an emergency response assessment for India. Discussions 
with both China and India have included means of coordination during 
supply disruptions.
    More broadly, the IEA Governing Board, with strong U.S. support, 
has directed the Agency to coordinate with key petroleum suppliers and 
consumers in the event of a disruption in supply, and the IEA 
Secretariat has indicated it plans to pursue consultations with key 
non-IEA countries in the event of an emergency.

    Question (#52). Important strict sanctions on Iranian oil exports, 
designed to help stop Iran's nuclear weapons program, will further 
squeeze oil markets.

  <bullet> Is the administration reconsidering the premise that oil 
        markets are liquid enough to handle loss of Iranian exports and 
        a higher risk premium?

    Answer. We are closely following developments in oil markets 
worldwide, and the President will make a determination on this by March 
30, as required by section 1245 of the National Defense Authorization 
Act of 2012.

    Question (#53). If so, what is the administration's backup plan for 
easing price volatility?

    Answer. As the President has noted, the administration is well 
aware of the pain that higher gasoline prices impose on American 
consumers, but there are no short-term silver bullets. However, much of 
the recent increases in oil prices are due to concerns over the 
potential for conflict in the gulf, rather than to fundamental change 
in the global supply and demand balance. The surest way to reduce that 
volatility will be to continue to try to resolve the underlying 
political challenges in that region.

    Question (#54). Please share with the committee your strategy to 
boost liquidity in global oil markets in the next few months.

    Answer. As the President has said, promoting stability in global 
oil markets requires an ``all the above strategy.'' At home we have 
significantly increased production. We have more oil and gas rigs 
operating than the rest of the world, and we have vigorously pursued 
higher efficiency standards. Internationally, we work intensively with 
energy producers and companies to encourage policy and business 
conditions conducive to sustainable production of energy resources. Our 
engagement spans all continents and seeks to capture the benefits from 
traditional and new producers.

    Question (#55). Is the administration prepared to withstand 
increases in oil prices as markets tighten?

    Answer. We recognize the pain that higher gasoline prices cause for 
American consumers. However, we believe that the biggest factor 
contributing to the rise in prices is uncertainty and risk of a 
disruption of supply from the Middle East, particularly related to 
Iran, and the speculation this has caused in the market. We should 
expect that Iran will talk up the risk to talk up the prices. Peaceful 
resolution of international concerns regarding Iran's nuclear program 
would contribute to stability in the gulf and we are pursuing that 
resolution through our dual-track policy of pressure and engagement, 
while monitoring developments closely and taking appropriate steps to 
ensure free transit of legitimate trade.

    Question (#56). If global oil prices rise with sanctions, it may be 
tempting to ease their implementation or release stocks from the 
strategic petroleum reserve quickly, leaving them lessened if they are 
needed in the near future. What criteria does the administration have 
for when to trigger a SPR release and to coordinate a release with IEA 
member countries?

    Answer. Since becoming law on December 31, 2011, the State 
Department has worked tirelessly to enforce the provisions of section 
1245 of the National Defense Authorization Act for FY 2012. A decision 
to release stocks from the Strategic Petroleum Reserve would be made by 
the President, and the State Department is not in a position to 
prejudge when or under what circumstances he might exercise that 
authority.

    Question (#57). Are plans underway to reduce Chinese oil hoarding 
in the event of an Iran-related conflict?

    Answer. We consult closely with China on our dual-track approach to 
resolve international concerns about Iran's nuclear program. We also 
discuss world oil markets both bilaterally and multilaterally. We are 
not aware of plans by China to hoard oil in the event of an Iran-
related conflict. A broad range of countries are making the decision to 
reduce their reliance on Iranian crude oil and we are continuously 
monitoring the market. We will continue to vigorously and aggressively 
take action consistent with the law and other U.S. sanctions to achieve 
our fundamental goal: unrelenting pressure on the Iranian regime to 
comply with its international obligations.

    Question (#58). What plans are in place for China and other non-IEA 
countries to coordinate with IEA countries, including Japan, in use of 
emergency stocks?

    Answer. China is already informally cooperating with the IEA on 
strategic petroleum reserves, and the United States is encouraging 
deeper cooperation.

    Question (#59). What, if anything, is being done to expedite the 
completion of UAE's Habshan-Fujairah pipeline, which avoids the Strait 
of Hormuz?

    Answer. It is our understanding that the construction of the 
pipeline has largely been completed, but that additional testing and 
certification needs to be conducted before it can start carrying oil. 
In recent visits, we have expressed our interest in this project to 
Emirati authorities. They have told us that they are working closely 
with their contractor to complete the pipeline as soon as possible.

    Question (#60). What planning is being done to meet demand needs of 
countries that are highly dependent on Iranian oil, such as Greece?

    Answer. The Department has been engaged with both consumers and oil 
producing countries to assess the availability of adequate supplies. 
Key suppliers have told us privately and stated publicly that they will 
respond to market demand. Still, importers and exporters will need to 
agree to contractual arrangements, and commercial terms which 
inevitably entail negotiations between parties.

    Question (#61). Tight oil markets increase the attractiveness of 
terrorist strikes against major infrastructure. Please describe 
Department efforts, and funding requested, to avert such threats.

    Answer. The U.S. Global Energy Critical Infrastructure Protection 
(GECIP) Strategy was developed in 2006 following the failed terrorist 
attack on the world largest oil complex at Abqaiq, Saudi Arabia. Under 
this strategy we have identified the most important global oil and gas 
production, refining, transmission and export facilities and offered 
technical assistance to the countries in which these facilities are 
located to identify potential vulnerabilities and enhance security. The 
list of 
facilities, the specific criteria for inclusion and the names of 
designated partner countries is classified.
    This initiative has led to a very significant cooperative program 
with involving numerous federal agencies, including the Department of 
State. Discussions with a number of other potential partners are 
ongoing. As partners are expected to cover the cost of assistance 
provided under GECIP, the Department has not requested funding to 
support this program.

    Question (#62). Today's tightness in the global oil market requires 
immediate action, and it is also a reminder of the need to prepare to 
prevent future circumstances. Indeed, structural shifts in global 
demand overseas and struggling production expansion indicate such 
tightness will become more common.

  <bullet> Do you agree with the argument that, in cases of supply 
        emergency, it is beneficial for the United States to source its 
        imports from friendly countries in stable regions, such as 
        Canada?

    Answer. In cases of supply emergency, it could be beneficial for 
the energy security of the United States to source its crude oil 
imports from friendly countries in stable regions, such as Canada. 
However, the specifics of the hypothetical example would determine the 
optimal course of action. The United States and Canada continue to 
share the largest and most integrated energy relationship in the 
world--in natural gas and electricity, as well as in oil. Canada is the 
No. 1 supplier of imported oil to the United States.

    Question (#63). In cases of supply emergency, do you agree with the 
statement that crude oil supplies being delivered by pipeline directly 
into our refineries are more reliable, and often priced at a slight 
discount due to lower transport costs, preferential to relying on oil 
brought in by tanker from Venezuela and the Middle East?

    Answer. Pipelines are generally considered a reliable, economic 
method of transport. For this reason they are widely used, when 
possible, for transporting bulk commodities like crude oil, natural 
gas, and refined petroleum products.
    The relative cost of pipelines versus waterborne transport would 
depend on the relative distances, on shipping rates, and just as 
important, on insurance costs. The quality and characteristics of the 
oil, and requirements for different purposes, are also a consideration.
    In the case of a supply emergency, crude oil by pipeline could be 
cheaper but this would depend on a wide range of hypothetical 
circumstances.

    Question (#64). In considering future Iranian sanctions and the 
possible need for national security exemptions, it is important to 
consider real cases of U.S. interest. Development of the Shah Deniz 
fields, and shipment of that gas to strategic allies in Eastern Europe, 
is a clear priority that has spanned administrations, which you have 
reaffirmed. However, there is discussion of the gas going to Greece and 
Italy, neither of which suffers the same strains of dependence on 
Russia as do many Eastern European allies.

  <bullet> In your view, would shipment of Caspian gas via the TAP or 
        ITGI pipelines rise to the level of a vital national security 
        interest of the United States?

    Answer. Development of Azerbaijan's Shah Deniz gas field and 
shipment of that gas to our strategic allies in Eastern Europe are 
essential parts of our Eurasian energy policy. Therefore we would 
support any pipeline that brings Caspian gas to Europe provided the 
following two conditions are met: (1) a significant portion of the gas 
must be supplied to our friends and allies in the Balkans and elsewhere 
in Eastern Europe, which are particularly dependent on a single source 
of gas; and (2) the pipeline must be expandable, so that additional 
sources of gas can be accommodated once they become available.

    Question (#65). Brazil.--The new Brazilia Government has shifted 
the country away from Iran--a welcome and marked contrast from 
President Lula. Unlike her predecessor, President Rousseff has not 
engaged in high-profile Presidential diplomacy with Iran, and her 
government declined to receive Iranian President Ahmadinejad during his 
January 2012 Latin American tour.

  <bullet> Will the United States help cement these vastly improved 
        relationships with Brazil by hosting a formal state dinner for 
        President Rouseff next month during her visit here?

    Answer. The Obama administration has taken a number of significant 
steps to solidify our longstanding ties with Brazil, and President 
Obama looks forward to hosting Brazilian President Dilma Rousseff for 
meetings at the White House as part of their ongoing dialogue regarding 
the growing partnership between the United States and Brazil across a 
wide range of bilateral, regional, and multilateral issues. While not a 
State visit, the two Presidents will execute an ambitious and broad 
agenda, including meeting with the U.S.-Brazil CEO Forum, and follow up 
on progress made under the three Presidential dialogues launched during 
President Obama's March 2011 visit to Brazil--the Strategic Energy 
Dialogue, the Economic and Financial Dialogue, and the Global 
Partnership Dialogue. The visit is an important continuation of our 
efforts to grow commercial, economic, education, and innovation ties 
between our two countries.

    Question (#66). Additionally, will you pursue other policies that 
include negotiating a market access agreement with MERCOSUL, the 
Southern Common Market, and a Bilateral Tax Treaty with Brazil?

    Answer. The United States stands ready to pursue policies that 
provide greater access to Mercosul markets for U.S. exporters. To date, 
however, Mercosul has given no indication that it is ready to consider 
real tariff liberalization or undertake other types of commitments that 
would be required. In practice, Mercosul has served as an umbrella for 
various political relationships rather than as a functioning customs 
union. Nevertheless, we continue to express to Mercosul members the 
mutual benefits of free and open trade.
    The administration remains interested in concluding a bilateral 
income tax treaty with Brazil that would be consistent with 
international standards and provide meaningful tax benefits to cross-
border investors. The United States and Brazil have held a number of 
consultations since 2006 to determine the feasibility of concluding 
such an agreement, and intend to continue these discussions. In 
addition, the United States signed a Tax Information Exchange Agreement 
(TIEA) with Brazil in 2007. The TIEA was approved by Brazil's House of 
Representatives in February 2010 and is awaiting approval by Brazil's 
Senate.

    Question (#67). What other moves is the administration making on 
this effort? For example, does the United States support Brazil's 
efforts for a permanent seat on the U.N. Security Council?

    Answer. The United States and Brazil enjoy excellent bilateral 
relations and are building a 21st century partnership with a focus on 
global issues that affect both countries. Since President Rousseff was 
inaugurated on January 1, 2011, she has received numerous high-level 
visitors from the United States including President Obama in March 2011 
and Secretary Clinton, who attended President Rousseff's inauguration.
    In addition to our growing bilateral cooperation, we are working 
with Brazil to enhance trilateral cooperation on issues such as 
development in Africa, and we have excellent ongoing cooperation in 
Haiti. We recently signed trilateral cooperation agreements in Bolivia 
and Mozambique. We are working together on biofuels and other forms of 
renewable energy. We also collaborate on sustainable urban development 
and planning issues, and promote educational and scientific exchanges. 
We share a commitment to combat racial, ethnic, and LGBT 
discrimination, to advance the empowerment of women, and to fight 
exploitative child labor and forced labor. In these and a growing 
number of new areas, the U.S.-Brazilian partnership has the potential 
to have a major positive global impact.
    During his visit to Brazil, President Obama expressed appreciation 
for Brazil's aspiration to become a permanent member of the Security 
Council and acknowledged Brazil's assumption of global 
responsibilities.
    The administration believes the long-term viability of the U.N. 
Security Council depends on its reflecting the world of the 21st 
century. As such, we will work to enhance the ability of the Security 
Council to carry out its mandate and effectively meet the challenges of 
the new century.

    Question (#68). Argentina.--I am concerned that the policies 
implemented by Resolution 3252/2012, and others geared at restricting 
imports of the Government of Argentina are making it difficult for U.S. 
businesses to export to willing buyers in the Argentine market. Please 
explain what the Department of State is doing to support U.S. companies 
in their efforts to export into this market?

    Answer. U.S. exports to Argentina increased 22 percent in 2011, 
resulting in a trade surplus of more than $5 billion. While we are 
pleased with this growth, we remain concerned by measures introduced by 
the Argentine Government that create barriers to trade and investment, 
including increased use of nonautomatic licenses, requirements that all 
imports and purchases of dollars to pay for those imports be approved 
by the government, restrictions on remittances abroad of profits and 
dividends, and requirements that companies balance imports with 
exports. Such measures are not consistent with the free trade model 
that will lead to the greatest benefits for all. We have conveyed our 
concerns to the Government of Argentina both bilaterally and in the WTO 
that these new policies pose barriers to trade and investment that have 
a negative effect on both U.S. and Argentine companies. Other nations, 
similarly affected, have made the same point to the Argentine 
Government. In those cases where U.S. companies have given us 
permission to address their concerns with the Argentine Government, we 
have done so, including directly assisting a U.S. company to obtain 
import permits for U.S.-made equipment. However, in many cases U.S. 
companies ask us to keep their concerns confidential for understandable 
reasons. We are committed to working together with the Government of 
Argentina to address these concerns so that we may establish a more 
productive bilateral commercial relationship.

    Question (#69-70). I understand that Roberta Jacobson, Acting 
Assistant Secretary of State, recently visited Argentina.

  <bullet> Did she raise barriers to U.S. exports with the Argentine 
        Government?
  <bullet> If so, was she able to make any progress in terms of a 
        change in these policies?

    Answer. Yes, Acting Assistant Secretary of State Roberta Jacobson 
raised concerns regarding barriers to U.S. exports during her recent 
visit to Argentina, and expressed the desire that our governments 
continue to work collaboratively to resolve these existing issues.
    The fact that she raised these issues with key officials 
demonstrates that we remain concerned about these measures. We will 
continue to voice our concerns at various levels with the Argentine 
Government. We recognize the importance of a free and open commercial 
environment, and will continue to encourage the Government of Argentina 
to allow for predictable and reliable policies to enhance trade and 
investment.

    Question (#71). I assume the Department of State is working hard to 
support the administration's efforts to increase exports. What is the 
State Department doing to break down the barriers to U.S. companies 
presented by Argentina's policies?

    Answer. Senior U.S. officials, including at Embassy Buenos Aires, 
have raised concerns about barriers to U.S. exports at various levels 
of the Argentine Government. These issues were highlighted by our 
Ambassador to Argentina, Vilma Martinez, in a recent meeting with the 
Argentine Ministers of Agriculture, Economy, and Industry. We will 
continue to raise our concerns at every opportunity and will encourage 
the Argentine Government to provide a transparent regulatory 
environment that promotes fair and open competition. Additionally, we 
will continue to raise these issues multilaterally at the WTO. We 
remain strongly committed to working with Argentina to strengthen the 
bilateral commercial relationship and to resolve these key concerns.

    Question (#72). I understand that one of the pillars of the State 
Department's Jobs Diplomacy initiative is leveling the playing field 
for fair competition.

  <bullet> What steps is the State Department taking to level the 
        playing field in Latin America as major economies like 
        Argentina and Brazil adopt increasingly protectionist policies 
        that disadvantage U.S. companies?

    Answer. The Department is committed to utilizing all available 
resources to identify, address, and remove barriers to trade and 
investment between the United States and our trading partners. Emerging 
economies, such as Argentina and Brazil, offer tremendous potential to 
support additional American jobs by providing American producers with 
access to millions of international customers.
    The Department and our embassies continue to raise concerns about 
protectionist policies and barriers to U.S. companies in Argentina and 
Brazil. We regularly meet with representatives of U.S. firms doing 
business overseas to listen to the challenges they face and convey 
their concerns to foreign government officials, including at senior 
levels. We continue to encourage our trading partners to assume a 
transparent regulatory environment that promotes fair and open 
competition. When appropriate, we also express our concerns through the 
WTO and other international organizations and mechanisms.

    Question (#73). How does the Department's policy of Economic 
Statecraft plan to address the threat to the world trading order that 
countries like Argentina are posing by violating WTO provisions without 
impunity?

    Answer. The Department's Economic Statecraft agenda elevates 
economic issues and weaves our economic priorities into our larger 
international diplomatic engagement. One of the key elements is 
promoting a trade agenda that addresses nontariff and other barriers to 
market access as well as ensures free and fair competition and a level 
playing field--also known as competitive neutrality--for all players in 
the global marketplace. Through our bilateral engagement with countries 
like Argentina, we will continue to work within our existing trade and 
investment agreements, as well as high-level dialogues, to encourage 
their governments to respect their trade and investment commitments.

    Question (#74). According to recent reports, the U.S. Treasury 
Department is considering allowing Argentina to restructure its debt 
through the Paris Club. Although approximately $3.5 million of this 
debt is owed to the U.S. Government, this amount is small in comparison 
to the over $3.5 billion Argentina owes to private U.S. creditors. In 
fact, the amount owed to private American creditors is so large that if 
Argentina were to pay these debts, the U.S. Government would receive 
far more from tax revenues on those payments alone than it would from a 
settlement of the debt owed to the U.S. Government.

  <bullet> In light of these facts, will the U.S. Government wait until 
        Argentina has satisfied all awards under the U.S.-Argentine 
        Bilateral Investment Treaty and the more than 100 outstanding 
        U.S. court judgments against it before approving a Paris Club 
        deal for Argentina?

    Answer. Argentina's arrears to U.S. Government agencies total about 
$550 million, and U.S. Government effort, including in the Paris Club, 
is appropriately focused on recovering full payment on these loans 
extended on behalf of American taxpayers. It would not be in the 
taxpayers' interest to impose additional conditions, unrelated to Paris 
Club claims, on the pursuit of this objective.
    U.S. Government efforts to recover on loans, extended on behalf of 
our taxpayers, in no way diminishes our urging of Argentina to honor 
the claims of private American bondholders and investors. We continue 
to use every opportunity to press Argentina to do so.

    Question (#75). Several countries have called on the IMF to play a 
substantial role in resolving the eurozone debt crisis. In light of 
this, it is critical that the United States take steps to foster global 
respect for the IMF institution. I am very concerned that such respect 
is being undermined by Argentina's continuing refusal to submit to 
consultation under Article IV of the IMF Charter. There are only three 
other countries that have rejected such consultation (Somalia, 
Venezuela, and Ecuador).

  <bullet> Given the need to maintain international confidence in the 
        IMF, will the United States persist in urging Argentina to 
        participate in an Article IV consultation?

    Answer. As a member of the IMF, Argentina is obligated by the IMF 
Articles of Agreement and is strongly encouraged to strive for openness 
in economic policies affecting other countries. Surveillance is 
critical to IMF effectiveness and to the stability of the international 
monetary system. Each member of the IMF has an obligation to consult 
with the IMF on exchange rate and domestic economic policies under 
Article IV. We are extremely disappointed that Argentina has not 
completed an Article IV consultation since 2006. We have, and will 
continue, to support the IMF policy of urging Argentina to uphold all 
of its obligations under the Articles of Agreement for member 
countries.

    Question (#76). Do you anticipate any dilution of this requirement?

    Answer. We do not expect any dilution of this IMF requirement in 
the case of Argentina. In February, the IMF found Argentina to have 
made insufficient progress in improving the quality of its data and set 
a 6-month deadline for remedial action. Per the IMF process under 
Argentina's Article VIII reporting requirements the IMF will hold an 
informal Board meeting in May to discuss Argentina's failure to release 
data and will meet formally in September 2012 to decide whether to 
censure Argentina if it does not bring its data reporting into 
compliance with its obligations under the Articles of Agreement.

    Question (#77). Generalized System of Preferences (GSP) for 
Argentina expires June 30, 2013. In the meantime, Argentina's benefits 
continue unless there's an affirmative decision to terminate them for 
actions inconsistent with the eligibility criteria.

  <bullet> In your opinion, have Argentina's actions been consistent 
        with GSP eligibility criteria?

    Answer. The U.S. law governing GSP requires beneficiary countries, 
as a precondition for GSP eligibility, to act in good faith in 
recognizing and enforcing final arbitral awards from international 
courts. The U.S. Government has received two petitions seeking to 
remove Argentina's eligibility for GSP trade benefits based on the 
Argentine Government's failure to recognize as binding and enforce two 
separate, final International Center for Settlement of Investment 
Disputes (ICSID) awards. An ongoing interagency review, led by USTR, is 
now at an advanced stage and the final outcome of that review is 
expected to be announced soon.

    Question (#78). Cuba.--On March 26, 2012, Pope Benedict XVI will 
visit Cuba.

  <bullet> Do you intend to or have you already appealed to the 
        relevant Vatican officials for Pope Benedict to request the 
        release on humanitarian grounds of Alan Gross, the American 
        social worker and international development professional 
        arrested in December 2009 while in Cuba as a contractor for the 
        U.S. Agency for International Development (USAID)?

    Answer. Since Alan Gross was unjustly detained in Havana more than 
2 years ago for facilitating uncensored Internet connectivity between 
Cuba's Jewish community and the rest of the world, we have used every 
appropriate opportunity to press for his release. U.S. Government 
officials have continually raised Mr. Gross' case with numerous Cuban 
and foreign interlocutors. We have urged our partners around the world 
to press the Cuban Government for Mr. Gross' immediate release. In a 
statement before the U.N. General Assembly in October 2011, we called 
upon Cuba to release Mr. Gross unconditionally. We have met with 
prominent figures traveling to Cuba and encouraged them to advocate for 
Mr. Gross' release, which they have done. We have done the same with 
religious leaders from many different faiths, including the Catholic 
Church. We will continue to use every appropriate diplomatic channel to 
press for Mr. Gross' release both publicly and privately. Alan Gross 
has been unjustly imprisoned in Cuba for far too long, and should be 
freed immediately to return to his family.

    Question (#79). Haiti: What is the State Department's position 
regarding the possibility of the Haitian Government reestablishing 
Haiti's military?

    Answer. From the standpoint of citizen security, the United States 
Government considers the focus of resources should be the development 
of the Haitian National Police (HNP), its growth and 
professionalization, as the police are key to security in Haiti. In 
fact, the HNP needs a substantial increase in its annual operating 
budget if the Government of Haiti is to fulfill its commitment to fully 
support the police.
    In addition, a well-trained police force, respectful of human 
rights, will be key to the gradual withdrawal of United Nations 
Stabilization Mission in Haiti (MINUSTAH).
    The United States also believes that strengthening the justice 
system and rule of law is essential for political stability and 
economic development, as well as security.

    Question (#80). Please explain your views regarding former Haitian 
Prime Minister Garry Conille's plans to audit $300 million in contracts 
awarded by his predecessor after the earthquake. Is an audit necessary?

    Answer. We support former Prime Minister Conille's efforts to 
promote transparency and accountability in the spending of public funds 
in Haiti, including the audit of these contracts.

    Question (#81). Please provide your views regarding the Haitian 
Government's relationship with the Government of Venezuela. What is the 
nature of this relationship? Does this relationship worry you?

    Answer. Venezuela has pledged $1.3 billion in post-earthquake 
assistance to Haiti. As the poorest country in the Western Hemisphere, 
and one still recovering from the effects of a devastating earthquake, 
Haiti is not in a position to turn down significant offers of 
assistance. As one of the largest donors to Haiti's reconstruction, 
Venezuela was invited by the Government of Haiti to serve as a voting 
member of the Interim Haiti Recovery Commission.
    The United States has not done any joint reconstruction projects 
with the Government of Venezuela and has no plans to do so.

    Question (#82). Mexico.--All of Mexico's Presidential candidates, 
including Josefina Vazquez Mota, the candidate from President Caldron's 
political party (PAN), have promised that if they were to win the 
election they would change the current strategy to fight 
narcotrafficking in Mexico.

  <bullet> Are you worried that a new Mexican President may back away 
        from Mexico's current commitments regarding cooperation to 
        fight narcotrafficking with the United States under the Merida 
        Initiative?

    Answer. The relationship between the United States and Mexico is 
strong and has grown deeper and more productive throughout President 
Calderon's tenure. Our cooperation covers a wide range of issues, 
including security, economic competitiveness, trade, energy, 
environment, climate, human rights, cultural and educational ties, and 
regional and global issues.
    During his visit to Mexico on March 5, Vice President Biden met 
separately with Presidential candidates, Andres Manuel Lopez Obrador, 
Enrique Pena Nieto, and Josefina Vazquez Mota to discuss bilateral 
relations and learn more about their respective visions for the future 
of Mexico. All three candidates expressed a commitment to continue 
cooperation with the United States in combating transnational criminal 
organizations and the meetings provided an opportunity to underscore 
with each candidate that the United States looks forward to working 
closely with Mexico's next administration led by whomever the Mexican 
people elect on July 1.
    The common interest shared by the United States and Mexico in 
combating transnational criminal organizations and reducing crime and 
violence to enhance the security of communities on both sides of our 
shared border extends beyond any political party or administration. We 
are committed to working in partnership with Mexico to meet the 
evolving challenges posed by transnational criminal organizations. We 
will do so until the final day of the Calderon administration and, 
beginning on its first day, with Mexico's next administration.

    Question (#83). Venezuela.--Have you already, or under what 
circumstances would you or other relevant senior State Department 
officials consider issuing an explicit warning to Venezuela that the 
United States would regard a cutoff of oil exports in coordination with 
Iran as a threat to U.S. national interests?

    Answer. As you may be aware, the Venezuelan Government has 
threatened to cut oil sales to the United States on a regular basis 
over the last several years. It has not done so for a variety of 
reasons, including the deep and historic interconnections between the 
oil sectors in our two nations. Another important factor is that a 
decision from the Venezuelan Government to cut off oil exports to the 
United States would significantly cause more damage to the Venezuelan 
economy than it would to the U.S. economy. Venezuela produces 2.5 
million barrels per day (bbl/day) and exports over 40 percent of that 
production, approximately 1.06 million bbl/day, to the United States. 
Those Venezuelan exports represent only about 10 percent of U.S. 
imports of crude and refined products.
    The United States has been Venezuela's No. 1 oil market for many 
years. Venezuela's reliance on oil exports to the United States, 
coupled with the absence of a market with the geographic proximity and 
depth of the United States, makes an embargo potentially quite damaging 
to the Venezuelan economy and thus highly unlikely.
    As the Secretary has noted, we believe that all nations in the 
hemisphere should think twice about engagement with Iran. We have also 
underlined to nations in the hemisphere that should they choose to 
engage with Iran, it is important that they appeal for Iran to heed the 
requirements of the international community regarding its nuclear 
program.

    Question (#84). Have you or other relevant senior State Department 
officials made efforts to expand strategic energy agreements with 
Brazil, Mexico, Canada, and other countries in the hemisphere to help 
assure access to supplies of petroleum and refined products and ethanol 
in the event of a Venezuelan cutoff of oil exports in coordination with 
Iran?

    Answer. The Department's goal is to promote U.S. energy security, 
while fostering greater cooperation toward a clean energy future with 
our allies. In order to secure our energy supplies, we are working 
closely with key partners in the Western Hemisphere, including Brazil, 
Mexico, Canada, and Colombia.
    In March 2011 Presidents Obama and Rousseff established the 
Strategic Energy Dialogue (SED) to deepen energy cooperation between 
our nations' energy sectors, strengthen mutual energy security, create 
new jobs, and reduce carbon pollution. The SED builds on previous U.S.-
Brazil Memorandums of Understanding (MOUs) on energy cooperation, 
including the 2007 Biofuels MOU. Our cooperation on biofuels consists 
of bilateral research and development activities; projects in Central 
America, the Caribbean, and Africa to offer assistance to third-party 
countries interested in developing a biofuels industry; and the 
development of technical standards to promote a global market for 
biofuels. A new area under the SED is our collaboration on the 
development and testing of aviation biofuels. We have also discussed 
the desirability of facilitating opportunities for international 
collaboration and investment in Brazilian oil development.
    Mexico, consistently one of the top three exporters of petroleum to 
the United States, is a crucial energy partner for the United States. 
The administration places a high priority on energy cooperation with 
Mexico and seeks to deepen the existing relationship in the oil and gas 
sector and to expand collaboration into new areas such as wind energy, 
energy efficiency, and a bilateral renewable energy market. Most 
recently, Secretary Clinton signed an agreement on February 20 
concerning the development of oil and gas reservoirs that cross the 
international maritime boundary in the Gulf of Mexico. The 
Transboundary Hydrocarbons Agreement is designed to enhance energy 
security in North America and support our shared duty to exercise 
responsible stewardship of the Gulf of Mexico. It is built on a 
commitment to the safe, efficient, and equitable exploitation of 
transboundary reservoirs with the highest degree of safety and 
environmental standards.
    The United States and Canada continue to share the largest and most 
integrated energy relationship in the world--in natural gas and 
electricity, as well as in oil. We expect this relationship to endure 
and expand. Canada is the No. 1 supplier of imported oil to the United 
States. Canada is continuing to collaborate with the United States in 
securing the energy future of both countries through a diverse mix of 
energy sources, technology, and innovation.
    We are also cooperating with Colombia to ensure our energy 
security. Colombia is a major oil, coal, hydroelectric, and emerging 
biofuels producer with significant growth potential. Energy is one of 
the thematic working groups under the U.S.-Colombia High-Level 
Partnership Dialogue (HLPD), led by the Department of State, which met 
in October 2010 and May 2011; Colombia will host the next HLPD meeting 
later this year. The energy working group focuses on furthering 
cooperation on energy efficiency, renewable energy, oil and gas 
(including off-shore drilling), interconnection, mining, and energy 
development projects to promote sustainable development, including 
through the Energy and Climate Partnership of the Americas (ECPA).
    President Obama announced ECPA at the 2009 Summit of the Americas, 
and we are working with governments, international organizations, and 
civil society on low-carbon solutions to energy challenges and 
developing partnerships to mitigate and adapt to climate change in the 
region. To date, the United States and other governments have 
collaborated on approximately 40 ECPA initiatives, including projects 
that promote renewable technologies, alternative fuels, and energy 
efficiency.

    Question (#85). Pakistan.--The events of the last 12 months have 
riddled our relationship with Pakistan with doubt and foreboding, yet 
there remain critical elements of cooperation that must be sustained. 
In order for Pakistan to become a more stable, responsive, and 
responsible state it must bolster freedom of the press and create an 
economic environment that attracts investment.

  <bullet> How will the significant funding that remains from past year 
        appropriations be more specifically focused on building the 
        capacity of an independent media and thriving business sector?

    Answer. At the heart of U.S. civilian assistance is the fundamental 
belief that a stable, tolerant, democratic, and prosperous Pakistan is 
in the U.S. national security interest. To this end, we have a number 
of initiatives that bolster the strength of the Pakistani private 
sector and the media, both of which are integral to Pakistan's future. 
Central to this effort is the objective to move to ``trade, not aid'' 
with Pakistan.
    For example, on the private sector: the top two priorities of U.S. 
civilian assistance to Pakistan (energy and economic growth) reflect 
the emphasis we place on helping improve the economic environment and 
attracting investment in Pakistan, which will further drive private 
sector employment and growth. Pakistan's energy crisis has a crippling 
effect on its economic development and ability to attract investment; 
our top assistance priority is to work with Pakistan to help address 
its energy shortfalls, in order to improve economic growth, employment, 
and investment.
    Our second priority for civilian assistance is to help Pakistan 
foster economic growth. U.S. assistance includes programs to promote 
private-sector-led growth in a variety of areas. The administration is 
developing an initative to help make investment capital available to 
Pakistan's small- and medium-sized entrepreneurs. This signature 
initiative, currently in development, will specifically focus on 
private sector investment in Pakistan and increasing access to capital 
for small- and medium-sized enterprises (SMEs), which represent 90 
percent of Pakistan's businesses, employ 78 percent of the 
nonagricultural workforce, and contribute over 30 percent of GDP. 
USAID's Agribusiness program is designed to help farmers not only 
produce more goods, but improve their business processes to sell more 
goods in local and international markets. The U.S. Trade and 
Development Agency (USTDA) has funded business case analyses that 
support trade and investment in several sectors. The U.S. Commerce 
Department also implements programming that facilitates U.S. investment 
in Pakistan's private sector.
    In order to support Pakistan's independent media, the United States 
funds projects supporting Pakistani journalists operating in conflict 
zones by providing programs on professional standards and safety when 
reporting in the field, particularly in Khyber Pakhtunkhwa (KP) 
province and the Federally Administered Tribal Areas (FATA). Such a 
project, funded by the Department of State's Bureau of Democracy, Human 
Rights, and Labor (DRL), also works to increase the capacity of 
journalists to report more accurately, responsibly, and fairly when 
covering national issues. The work of these journalists educates local 
populations about ongoing issues in their communities, which improves 
transparency and strengthens citizens' calls for accountability and 
good governance. Supporting journalists in Pakistan also casts light on 
the realities and challenges in Pakistan's border areas.
    In addition, we have a range of public diplomacy exchange programs 
that provide Pakistani journalists opportunities for training and 
professional development, and connect them to the international 
journalism community from which they can learn, collaborate, and gain 
support for their efforts, while highlighting the significant 
challenges journalists face in Pakistan. These programs vary from 
month-long internships at first-rate U.S. media organizations to 
smaller, focused programs that connect groups in the Pakistan 
journalism community to key individuals and organizations throughout 
the United States to address issues critical to the practice of 
journalism in Pakistan. Other public diplomacy programs provide 
journalism scholarships for Pakistani students, as well as 
opportunities for mid-career journalism professionals to spend a year 
at top U.S. graduate institutions. Collectively, these programs 
strengthen the independent media by increasing the expertise of 
Pakistani journalists, exposing them to best practices and connecting 
them with the international journalism community and one another.

    Question (#86). What action has the administration taken to ensure 
abductions and killings of journalists, such as Saleem Shazad, are 
resolved and justice rendered in concert with Pakistani citizens?

    Answer. Freedom of the media is a core element of and a necessary 
condition for a stable democracy, and a tenet highly cherished by the 
United States. Although Pakistan enjoys a vibrant media, journalists 
face a variety of threats in their everyday work. Members of the press 
have suffered intimidation, harassment, violence, torture, 
disappearances, and even death from a number of actors, including 
Pakistani authorities. This discourages critical reporting on security-
related topics. We take abuses of this kind very seriously and are 
concerned about the welfare of journalists in Pakistan. The United 
States supports strengthening democratic institutions and the rule of 
law in order to hold accountable those who are responsible for 
violating human rights, including in Pakistan. This includes publicly 
condemning the death of Saleem Shazad and calling for a thorough 
investigation into his case.
    We continue to raise our concerns at the highest levels in our 
dialogue with the Government of Pakistan as well as in our exchanges 
with Pakistani civil society. We continue to monitor the situation in 
Pakistan closely.

    Question (#87). What combination of bilateral and multilateral 
efforts has been made to ensure that recommendations by the well-
regarded Pakistan Business Council that have been made to the 
Government of Pakistan are fulfilled?

    Answer. Pakistan urgently needs economic reforms, especially in the 
energy, water, and transportation sectors, to make its businesses more 
competitive, attract investment and promote economic development and 
trade. We support the Pakistan Business Council reform recommendations 
through the U.S.-Pakistan Strategic Dialogue. Through our working 
groups on economics and finance, energy, and water, we have pressed for 
a broad array of economic reforms with our Pakistani counterparts to 
promote free market principles, rationalize pricing and improve 
transparency. Multilaterally, we are a member of the Friends of 
Democratic Pakistan (FODP) group of countries, which has produced 
reports and roadmaps for the reform of the energy and water sectors. We 
facilitated the Afghanistan-Pakistan Transit Trade Agreement and 
encouraged increased trade between Pakistan and its neighbors. We are 
actively promoting the Turkmenistan, Afghanistan, Pakistan, India gas 
pipeline (TAPI), the CASA 1000 electric power grid, and regional 
integration through infrastructure projects and regulatory reforms. In 
her June 2011 speech in Chennai, India, Secretary Clinton put forward 
the U.S. strategic vision of the New Silk Road, which supported 
initiatives to advance regional economic integration. We also support 
business and civil society groups in their push for economic reform. 
The Government of Pakistan has begun raising natural gas and 
electricity prices to reduce crippling subsidies and improve income 
taxe collection as a way to reduce budget deficits and improve 
macroeconomic stability.

    Question (#88). A continuing criticism of U.S. civilian aid to 
Pakistan is that the Pakistanis themselves have no understanding that 
important investments are being made by the American people. While 
there is a reasonable argument to protect particular investments and 
the implementing partners from risk in the field, public perceptions of 
inertia and false promises carry with them considerable negative 
consequences as well.

  <bullet> Especially in light of the continued strains between our two 
        countries, how are you working to promote greater understanding 
        by Pakistani citizens that our civilian aid programs are funded 
        by U.S. citizens and enabling improved governance by a nascent 
        civilian government?

    Answer. Despite recent challenges in the relationship, the United 
States has been clear that we will continue civilian assistance to 
Pakistan, as testament to our long-term commitment to the people of 
Pakistan and an investment in the country's successful future--
something that is in both countries' interest. We also work closely 
with the Government of Pakistan to communicate that since the passage 
of the Enhanced Partnership for Pakistan Act (Kerry-Lugar-Berman) in 
October 2009, the United States has disbursed over $2.6 billion in 
civilian assistance to Pakistan, including about $800 million in 
emergency humanitarian assistance to address the needs of those 
impacted by the floods of the last 2 years and military actions in FATA 
and KP province.
    While challenges in the relationship have made it more difficult to 
publically message on the results of U.S. assistance, the U.S. Embassy 
and consulates have made a substantial effort to focus media attention 
on those results. This has included developing documentaries about U.S. 
civilian assistance programs and placing them on Pakistani television 
and YouTube, conducting weekly live Urdu-language radio programs on 
specific projects, and partnering with a leading Pakistani firm to 
conduct a nationwide awareness campaign in the vernacular in order to 
raise awareness levels. USAID has also recently upgraded its Web site 
to provide greater transparency and information about U.S. assistance 
projects. U.S. policy is to brand all U.S. assistance, except when 
specific security or other challenges require a formalized exception.
    The aggregate impact of our programs in Pakistan will be felt 
gradually over the years. Development progress takes time and we 
continue to manage expectations both in the United States and Pakistan 
about the pace of U.S. assistance impact.

    Question (#89-92). The population of Pakistan is estimated to 
increase from 170 million to 260 million by the year 2030. It is 
further estimated that by 2030, the urban population will double, and 
about 50 percent of the total population of Pakistan will be living in 
urban areas. Experts examining U.S. civilian aid to Pakistan recommend 
that assistance now focused primarily in rural areas be refocused on 
urban and periurban areas going forward. The growing dissatisfaction of 
the populace in these areas stems from the combination of limited 
economic opportunity, physical insecurity, and misguided or ambivalent 
governance.

  <bullet> To what extent are you examining investments in civilian 
        assistance in urban areas in addition to rural areas?
  <bullet> What assumptions are you using for such assessments as they 
        relate to our national security interests in a long-term 
        relationship with Pakistan?
  <bullet> How does the urban development element fit in the near term 
        given the existing threats that emanate from some of Pakistan's 
        major cities?
  <bullet> What opportunities are there for collaborative development 
        in such areas, and what obstacles hinder their impact?

    Answer. A recent Woodrow Wilson Center report and other analyses 
have pointed to the importance of urban and periurban areas to 
Pakistan's future, both in terms of economic growth and countering 
violent extremism. As such, our approach to civilian assistance to 
Pakistan--which is centered around five priority sectors, namely 
energy, economic growth, stabilization, education and health--very 
consciously strikes a balance between programming that promotes urban 
versus rural development.
    Our assumptions for assistance include that: (1) overall, U.S. 
assistance is a nationwide program to benefit Pakistan's population 
writ large, rather than any particular region; (2) that programming 
will be intentionally split between urban and rural populations, 
including the remote border areas of KP and FATA; and (3) that 
opportunities to counter violent extremism will be a consideration in 
program decisionmaking and design. These considerations acknowledge 
that some of the greatest discontent and potential for extremism and 
violence do indeed emanate from urban areas.
    A number of economic growth programs oriented toward urban 
development complement those with a rural orientation. Those focused on 
urban growth include the ongoing Entrepreneurs Program, which has 
trained 70,000 women entrepreneurs to date in financial literacy and 
other skills, including in Karachi and other urban areas. In addition, 
a signature program currently under design to provide investment 
capital to Pakistani small- and medium-sized enterprises will also 
foster urban employment.
    Furthermore, in energy, our top assistance priority, we made the 
decision to focus primarily on helping Pakistan resolve the shortfall 
it currently faces on its national electric grid, in lieu of focusing 
on providing electricity to rural populations off-grid or adding 
populations (and by extension increasing demand) to the national grid. 
Such a decision has the effect of focusing effort and resources on 
urban development, as only 60 percent of Pakistan's population is 
connected to the national grid, predominately in urban areas. 
Prioritizing energy assistance and development is also designed to 
address a core obstacle to urban investment and employment, since 
insufficient energy supply is responsible for large-scale unemployment 
and furloughs in industrial areas.

    Question (#93). Syria.--With Russia and China refusing to 
cooperate, it is clear that international pressure is unlikely to be 
sufficient to shift Assad from power. Meanwhile, in Syria the death 
toll continues to mount, instability in the region expands, and the 
world is looking to the United States for leadership.

  <bullet> How is Syria fundamentally different from Libya and what is 
        the administration doing to solidify the international 
        consensus on ways forward?

    Answer. We believe that the Syrian people deserve the same 
opportunity to shape their future that the Tunisians, Egyptians, 
Libyans, and Yemenis now enjoy. However, from the beginning of the 
unrest, we have been clear that Syria is not Libya. The geopolitical 
landscape, regime and opposition cohesion, and the regional dynamics at 
play in Syria differ dramatically from those in Libya. We believe that 
taking more assertive steps would only be effective if it occurred 
through a coordinated regional and international framework. We have 
tried hard to persuade the U.N. Security Council to put its weight 
behind the Arab League's initiative, but our efforts have been blocked 
on two occasions.
    We believe that a political solution in Syria is still possible. We 
are working to isolate the Assad regime diplomatically, crimp its cash 
flow, ensure humanitarian assistance reaches suffering Syrian 
civilians, and encourage the opposition to unite around a platform of 
outreach to Syria's minorities and peaceful, orderly political 
transition. Moreover, we have built an international coalition 
dedicated to the same goals and methods, one that has been on display 
in the U.N. General Assembly and the recent Friends of the Syrian 
People conference in Tunis.

    Question (#94). Food Security.--Your Department launched the Feed 
the Future Initiative in May 2010, and the effort will enter its fourth 
year in FY 2013. You have been requesting and receiving nearly a 
billion dollars annually for the program, and my impression is that the 
program has had a series of fits and starts.

  <bullet> What results has the Feed the Future program achieved toward 
        the goals of accelerating agricultural growth and improving 
        nutrition?

    Answer. Through the President's Global Hunger and Food Security 
Initiative, Feed the Future, the United States has promoted 
agricultural-led growth by raising the incomes of the poor, increasing 
the availability of and access to food, and reducing undernutrition 
through sustained, long-term development progress. Developed to attack 
the root causes of hunger and poverty, Feed the Future lays the 
foundation for sustainable global food security which gained increased 
attention due to the human and economic impacts of the 2007-2008 food 
crisis. In the 3 years since the L'Aquila summit, the United States has 
gone from a low of $245 million in agricultural investment in 2008 for 
State/USAID and Treasury to $888 million in 2010, $1.1 billion in 2011, 
and a request of $1.2 billion in 2013.
    In the past year, Feed the Future investments have increased the 
productivity and access of vulnerable populations to nutritious foods. 
In FY 2011, Feed the Future investments assisted over 3 million farmers 
in applying new agricultural production technologies and management 
practices, increasing the value of export sales by $86 million. 
Nutrition interventions resulted in the decrease in the prevalence of 
underweight children under age 5 participating in USAID programs, from 
27 percent in FY 2010 to 25 percent in FY 2011. Achievements are a 
result of the implementation of Feed the Future USG strategies which 
refocused resources to (1) support specific value chains and subregions 
where we can maximize economic growth, job creation, and nutritional 
impacts; (2) leverage investments with other donors and private sector; 
(3) integrate gender and nutrition; and (4) create clear connections to 
food assistance for a systematic transition from assistance to country-
led development.

  <bullet> In Tanzania, Feed the Future trained 84,000 smallholder 
        horticulture farmers on best production practices and improved 
        technology use on 4,812 hectares of smallholder horticulture 
        farmland. Investment successes have inspired the Government of 
        Tanzania to increase the allocation of its budget to 
        agriculture from 7 percent in FY 2010 to 10 percent by 2014.
  <bullet> In Ghana, programs provided 36 financial institutions with 
        training in how to increase lending to the agricultural sector, 
        resulting in nearly 1 million dollar's worth of finance 
        available to farmers and other value chain actors. Through Feed 
        the Future support, two major input companies expanded to 
        become mobile money merchants and can now transfer money to 48 
        of their retailers in the Upper West Region, ensuring timely 
        payment and supply of inputs to remote areas in the upcoming 
        farming season.
  <bullet> In Bangladesh, Feed the Future investments reached 435,728 
        farmers who applied a new soil fertilization technique and 
        other improved management practices on 244,605 hectares, 
        resulting in a rice yield increase of 15 percent. Programs 
        disseminated the fertilizer deep placement (FDP) technique, 
        burying urea briquettes near the roots of rice plants to 
        improve efficiency of inputs, and expanding the private sector 
        system for supplying urea briquettes. Our investments created 
        the first-ever rice surplus in the Barisal division, which had 
        previously experienced a perennial rice deficit.
  <bullet> In Guatemala, Feed the Future provided training to 40 
        producer groups in new production practices, marketing skills, 
        and post-harvest handling to equip farmers to be viable, long-
        term participants in targeted value chains. Working with the 
        Guatemalan National Coffee Association, coffee producers 
        expanded their production levels, improved management practices 
        and achieved extraordinary sales of $26 million, including $7.2 
        million in sales of coffee certified for niche markets.
  <bullet> In Zambia, Feed the Future nutrition programs trained 73 
        health care workers from 3 districts in Infant and Young Child 
        Feeding and provided financial and technical support for 
        planning, supervision, and monitoring of the biannual Child 
        Health Week. As a result, approximately 2 million children aged 
        6 to 59 months received vitamin A supplementation.

    Question (#95). How has the Initiative's emphasis on public-private 
partnerships allowed the United States to find efficiencies and cost 
savings, while also making progress toward agricultural development in 
the focus countries?

    Answer. Feed the Future views the private sector as an equal 
partner in the development community and embraces its role in creating 
jobs, enabling economic growth, and bringing much-needed innovation and 
expertise to the countries and people that we aspire to serve. The 
private sector is particularly important in increasing the 
sustainability of U.S. assistance and fostering private sector-led 
growth in emerging markets, which is critical to reducing poverty, 
fighting hunger, and improving nutrition. In addition to the private 
sector, Feed the Future builds off our Nation's comparative advantage 
in advanced technologies through its emphasis on promoting innovation. 
This agenda goes beyond science and technology to include the use of 
innovative financial instruments such as indexed insurance and more 
inclusive agriculture financing, as well as a new application of 
existing technologies to increase food security.
    The FY 2013 President's Budget request for Feed the Future includes 
$32 million to promote and leverage increased private sector investment 
in Feed the Future focus countries. Engagement of the private sector at 
all stages of this initiative, from the development of Agriculture 
Country Implementation Plans to program execution, is critical to the 
success and sustainability of our investments. FY 2013-funded programs 
will increase private sector investment in focus areas, mitigate 
private sector risks, access private sector innovation, improve the 
enabling environment for greater private sector investment, and 
facilitate the commercialization of new technologies that improve 
agricultural production. This funding will also be used to catalyze new 
private/public partnership models and promote innovative investment 
models.
    To leverage private sector investments and intellectual capital, we 
have:

  <bullet> Signed a Memorandum of Understanding with Walmart to 
        increase production of high-quality vegetables and fruits for 
        the Central American regional markets by supporting new, small, 
        and medium independent growers and exploring linkages to 
        Walmart's national, regional, and global supply chains.
  <bullet> Helped establish the Southern Agricultural Growth Corridor 
        of Tanzania (SAGCOT), a public-private partnership that aims to 
        boost agricultural productivity in Tanzania and the wider 
        region. SAGCOT will promote ``clusters'' of profitable 
        agricultural farming and services businesses, with major 
        benefits for smallholder farmers and local communities.
  <bullet> Announced a unique, trilateral partnership between PepsiCo, 
        USAID, and the World Food Programme that will provide a 
        nutritionally fortified feeding product while helping to build 
        long-term economic stability for smallholder chickpea farmers 
        in Ethiopia by involving them directly in PepsiCo's product 
        supply chain.
  <bullet> Launched an alliance with the World Cocoa Foundation and the 
        Sustainable Trade Initiative (IDH) to invest in sustainable 
        cocoa programs in West Africa. The partnership includes private 
        sector participation from key chocolate-producing companies 
        including Cargill, The Hershey Company, Kraft Foods, Lindt & 
        Sprungli, Nestle, and Mars, among others.

    Question (#96). Foreign Assistance--Transparency/Taxpayer 
Accountability.--This past November, you attended the Fourth High Level 
Forum on Aid Effectiveness in Busan, Korea. At the forum, you committed 
the United States as a signatory to the International Aid Transparency 
Initiative. I support aid transparency as a means to ensure that U.S. 
foreign assistance is invested transparently to see exactly what our 
resources are being used for and to reduce the risk for corruption.

  <bullet> How is this new commitment to aid transparency reflected in 
        your budget request, and how will U.S. taxpayer investments in 
        assistance become more transparent through this initiative?

    Answer. The United States is pleased to be a signatory to the 
International Aid Transparency Initiative (IATI). IATI provides a 
common international standard for the publication of aid information. 
The United States endorses the principles of transparency and openness 
embodied by IATI. Prior to signing on to IATI, the United States 
supported the IATI efforts by participating in the IATI Technical 
Advisory Group (TAG) from its inception. Work is underway to enable a 
crosswalk of the U.S. Government (USG) foreign assistance information 
contained in the Foreign Assistance Dashboard 
(www.foreignassistance.gov) to allow us to report assistance 
information in the IATI format. A standardized reporting format will 
enable consistent and regular reporting and accurate comparisons across 
donors, countries, and private philanthropic organizations, as well as 
promote broad access by beneficiaries, U.S. and other international 
stakeholders.
    Most of the costs of meeting the IATI standard will be borne by the 
individual U.S. Government agencies that manage foreign assistance and 
will be reflected as needed in their respective budget requests. For 
the USG, the modest cost of converting data on the Foreign Assistance 
Dashboard to the IATI format has been subsumed in the ongoing work on 
the development of the Dashboard, which is reflected in the FY 2013 
foreign assistance budget.

    Question (#97). Iraq.--According to the Inspector General, more 
than 80 percent of your approximately $6 billion in Iraq is overhead, 
rather than used on programs and assistance. Much of these costs come 
from the need to import virtually everything needed to feed, clothe, 
and protect our diplomats.

  <bullet> Is such a model sustainable over the long run?

    Answer. Now that we have successfully completed the military-to-
civilian transition in Iraq, we are developing the next phase of our 
transition: streamlining and normalizing operations for our diplomatic 
platform. As security conditions improve and more goods and services 
become readily available on the local economy, we have begun to 
transition to the same model we use in difficult environments all over 
the world, where we live largely on the local economy and rely on our 
locally engaged staff for support services. We are working on a 
targeted reduction of personnel for agencies under Chief of Mission 
authority, with reductions reflecting a whole of government approach as 
prioritized by the Ambassador. We are currently assessing all our 
facilities and will consolidate our physical footprint in Baghdad.
    We are very committed to our diplomatic mission and ensuring that 
Iraq continues its development as a strong regional ally. These changes 
allow us to continue to focus on our strategic objectives, supported by 
an efficient, consolidated infrastructure.

    Question (#98). Also, what has been the impact of a security 
environment that continues to limit our diplomats' ability to move 
outside the Embassy and execute projects?

    Answer. While the safety and security of our personnel remains a 
paramount consideration, our diplomats and development experts in Iraq 
are fully engaged in strengthening the relationships we have built with 
Iraqi officials, politicians, and social leaders. Our Ambassador and 
Embassy officers meet regularly with President Talabani, Prime Minister 
Maliki, cabinet ministers, parliamentarians, and civil society leaders 
throughout Iraq. Movements outside the Embassy for these engagements 
have increased--not decreased--since the withdrawal of U.S. forces in 
December. We continue to successfully implement our various assistance 
programs. Embassy and Government of Iraq security personnel work 
effectively together to ensure that our officials can do their jobs 
safely.

    Question (#99). Finally, what has been the impact of the Arab 
Spring on the Government of Iraq and the Iraqi people--has this helped 
or hindered the progress of democracy?

    Answer. The Arab Spring did not impact Iraq the way it did other 
countries in the region. Iraq has had a series of elections since 2005 
giving Iraqis an opportunity to express their aspirations through the 
ballot box instead of through mass demonstrations. There were two ``Day 
of Rage'' protests in February 2011 inspired by Arab Spring protests 
elsewhere. However, the demand of the demonstrators was not for the 
toppling of the government but rather for improvement of basic 
services, such as water and electricity, provided by the government. 
The Iraqi leadership heard these protestors and has been working to 
address Iraqis' desire for dependable basic services. The Arab Spring 
has only reinforced what Iraq's leaders have already learned from 
elections and a vibrant, open political environment--that political 
leaders need to be responsive to popular needs.

    Question (#100). I am pleased by the intent and purpose of 
employing direct hire personnel to staff the Iraq Police Development 
Program (PDP). Nevertheless, that program, even in its scaled-back 
scope, appears to be challenged by several other factors, as reported 
by the Special Inspector General for Iraqi Reconstruction in its most 
recent report. It is difficult to see from Washington the program's 
value and impact, particularly given resistance from the Iraqis, 
security challenges, and the costs and complexity of the mission.

  <bullet> In your opinion, is there a point at which the PDP, if 
        further reduced in size and scope, would no longer be worth 
        continuing?

    Answer. The Police Development Program was designed as a flexible 
program which could be adapted to respond to changing needs and 
priorities. The program's careful targeting of key law enforcement 
functions helps to ensure that we continue to meet U.S. and Iraqi 
goals.

    Question (#101). In your opinion, would the MOI be capable of 
sustaining an effective police force without the PDP?

    Answer. The Iraqi Government and the Ministry of Interior (MOI) 
have made great strides in building a substantial public security 
infrastructure. We believe we can contribute significantly to their 
ongoing efforts to further enhance Iraq's civilian security 
capabilities. During the Saddam years, Iraq was cut off from the law 
enforcement reform and modernization efforts that were taking place in 
most developed countries. The PDP aims to help Iraq catch up, for 
example, by identifying opportunities to improve management systems and 
processes that in turn build greater accountability and responsibility, 
make the most of human and financial resources dedicated to Iraq's 
public security, and make Iraq's police services more professional and 
effective.

    Question (#102). What value added contributions would the PDP 
provide to the MOI?

    Answer. PDP advisors help the MOI to identify and address 
opportunities to improve its organizational structures and systems so 
the MOI can more effectively manage Iraq's civilian security forces. 
The PDP demonstrates, for example, how the standardization of 
procedures--ranging from operational planning to logistics--can improve 
efficiency and accountability in accordance with international best 
practices. The advisors show how the MOI can promote and protect human 
rights, including gender rights, including through engagement with the 
Iraqi public.
    PDP also facilitates greater MOI cooperation with the Embassy and 
U.S. law enforcement. That cooperation not only promotes more effective 
protection of U.S. Government and private personnel, facilities, and 
businesses but also allows us to wage a common fight against 
transnational threats such as terrorism, money-laundering, and 
smuggling of humans and illicit materials.

    Question (#103). What would be the implications of eliminating the 
PDP for Iraqi security and crime reduction?

    Answer. The United States has a unique opportunity through the PDP 
to influence the direction and success of law enforcement reform and 
capacity-building in Iraq at a critical stage in the development of 
Iraq's civilian security institutions. We have a strategic interest in 
promoting effective Iraqi responses to criminal and terrorist threats. 
By strengthening citizen security and peaceful dispute-resolution 
mechanisms, we are helping Iraqi authorities prevent the destabilizing 
return to reliance on militias, or an erosion of confidence in 
democratic government. We also have an interest in supporting the 
continued development of Iraq's public safety institutions in line with 
the best practices of democratic governments, rather than the 
repressive policies that characterized the Saddam era.
    Eliminating the PDP would also weaken U.S. and Iraqi law 
enforcement cooperation in combating transnational threats, and 
potentially weaken Iraqi adherence to internationally recognized 
policing standards.

    Question (#104). Ambassador Jeffrey has stated publicly his 
recognition that his mission more resembles an army post than an 
embassy and his desire to shed some of the costly legacy pieces of the 
operation, such as expatriate static guards, imported food and support 
items.

  <bullet> What new authorities or exceptions to laws do you need to 
        expedite such transitions to enable cutting costs in 2012?

    Answer. The Department of State requires no new authorities or 
exceptions to transition to a more traditional support structure. The 
pace of the change will be set by an improving security environment and 
the availability of goods and services in Iraq, including the 
availability of safe, reliable transportation to and within Iraq.

    Question (#105-106). For FY 13, you have requested $900 million in 
FMF for Iraq.

  <bullet> Please provide for the committee a status of unobligated 
        balances in ISFF and FMF accounts from prior years' 
        appropriations.

    Answer. According to Department of Defense (DOD), which oversees 
the ISFF program, the unobligated balance is approximately $360 
million. These funds are accounted for in the FY11/12 ISFF Spend Plan 
for the third and fourth quarters of FY12, which DOD submitted to 
Congress in July 2011.
    There are no prior-year FMF unobligated funds as FY12 is the first 
year we sought FMF for Iraq.

  <bullet> Second, of the 400 or so cases that are active, how many are 
        structured as regular FMS cases to include appropriate security 
        and administrative fees under the AECA?

    Answer. The 324 active cases supporting Iraq, regardless of funding 
source, are structured as Foreign Military Sales. All of the FMS cases 
supporting Iraq include the standard 3.8 percent FMS administrative 
fee. Owing to the physical security provided by USF-I, the pre-2012 FMS 
cases did not include the SAT related overhead costs.

    Question (#107). For FY 13, you have requested $900 million in FMF 
for Iraq. What is your intent with future FMS cases?

    Answer. Beginning January 1, 2012, new cases funded with either FMF 
or Iraqi funds will include SAT-related overhead costs and will 
continue to be structured as regular cases. The first such case is the 
F-16s, for which the Iraqis will fund all related costs. Admin and 
security costs for ISFF cases will continue to be funded through ISFF 
appropriations and authorities.
    Because of the current locations of some FMS cases, some of the 
overall security cost burden for an FMF-funded case is borne elsewhere 
as operations costs. Administrative costs will be fully included.

    Question (#108-110). Section 1244 of the National Defense 
Authorization Act of 2008 requires you to make ``a reasonable effort'' 
to provide an individual in Iraq who is applying for a special 
immigrant visa and is in imminent danger ``with protection or the 
immediate removal from Iraq.''

  <bullet> What criteria do you use to define individuals who are in 
        imminent danger?
  <bullet> How many people in Iraq fit this category?

    Answer. The overall situation in Iraq remains the subject of 
concern, but all Special Immigrant Visa (SIV) applicants must either be 
under threat, or have experienced threat, to qualify for the program. 
In practical terms, it is very difficult to objectively validate and 
qualify a threat as imminent. Although the U.S. Embassy is unable to 
provide protection to SIV applicants inside Iraq, those considering 
themselves in imminent danger may request that the State Department 
process their SIV applications in neighboring countries. The State 
Department, along with the Department of Homeland Security and other 
agencies, is focused on processing all SIVs as expeditiously as 
possible to minimize the threat to all qualified Iraqis applying for 
SIVs.
    Visa Office records indicate that 111 Iraqi SIV applicants moved 
their visa application process from Iraq to a neighboring country; 570 
Iraq SIVs applied initially in neighboring countries.

  <bullet> What steps are you taking to protect those individuals or 
        remove them from Iraq?

    Answer. Although security in Iraq has improved, the situation 
remains challenging. Special Immigrant Visa (SIV) applicants must 
either be under threat, or have experienced threat, to qualify for the 
SIV program. For those who consider themselves to be in imminent danger 
the State Department can transfer and process their SIV application in 
a neighboring country, should the applicant relocate. If an SIV 
applicant relocates to another country, they may also present 
themselves to the office of the U.N. High Commissioner for Refugees 
(UNHCR), who has the mandate to provide protection to those who are 
determined to qualify as refugees.

    Question (#111). Europe.--We have been working for many years on 
establishing a Southern Energy corridor to Europe but progress has been 
very slow in recent years. Could you please detail the recent progress 
in making the Nabucco Pipeline a reality?

    Answer. Our Office of the Special Envoy for Eurasian Energy has 
been working tremendously hard on this issue, and there have been a 
number of recent developments on the Southern corridor. First of all, I 
would note that Nabucco has always been one of several options to 
achieve our shared goal with Europe of bringing new sources of supply 
to market, with a significant portion of that gas supplied to our 
friends and allies in the Balkans and elsewhere in Eastern Europe. In 
October of last year, Turkey and Azerbaijan took an important step when 
they signed a long-awaited gas supply deal. Then in February, the 
consortium controlling Azerbaijan's Shah Deniz II natural gas field 
narrowed the choices for a route from Turkey to Europe to a scaled-down 
version of Nabucco, known as Nabucco West, the South East Europe 
Pipeline (SEEP), and the Trans-Adriatic Pipeline.
    We continue to work closely with all the companies and parties 
involved to achieve energy security for Europe.

    Question (#112). NATO plans to hold a summit this May in Chicago, 
the first summit since 1999 in the United States. I'd be interested to 
learn when the U.S. priorities are for the summit. Is the United States 
actively pressing for further NATO enlargement?

    Answer. We have three main goals for the Chicago summit: transition 
in Afghanistan, new capabilities for the alliance, and acknowledging 
NATO's partnerships, including with aspirants. In advance of the 
summit, we are working with allies and partners to define NATO's post-
2014 role in Afghanistan. We are encouraging allies to make new 
commitments to sustain the Afghan National Security Forces (ANSF) post-
2014. NATO allies also need to develop and maintain critical alliance 
capabilities to ensure that NATO is able to perform a variety of roles 
and missions in the evolving security environment. This includes 
completion of the Deterrence and Defense Posture Review (DDPR), as well 
as progress in meeting the capabilities requirements agreed by the 
alliance at Lisbon in 2010 and related capabilities initiatives. 
Finally, we would like to use the summit as an opportunity to highlight 
our key partners' contributions to NATO's operations and broader 
strategic goals.
    Although enlargement is not the central theme in the discussions at 
Chicago, we will look to demonstrate actively that the door remains 
open to aspirants. The Chicago Summit Communique will contain language 
acknowledging the aspirants and NATO's open door policy. The United 
States works bilaterally and through NATO to support aspirants' efforts 
to meet NATO standards and encourage them to take the steps required to 
become interoperable with NATO. We offer joint training opportunities, 
in addition to encouraging and supporting partner contributions to 
NATO's worldwide operations in order to increase interoperability and 
build an atmosphere of cooperation and trust at all levels of planning 
and operations.

    Question (#113). How much progress have we made in establishing a 
missile defense capability in Europe?

    Answer. President Obama is committed to protecting the United 
States, U.S. deployed forces, and our European allies and partners 
against the growing threat of ballistic missiles. Over the past 2 
years, working together with our NATO allies, the administration has 
achieved significant progress in implementing the European Phased 
Adaptive Approach (EPAA), and we are on a path to achieve the 
milestones outlined by the President.
    President Obama made clear his desire to implement EPAA in a NATO 
context. At the Lisbon summit in November 2010, NATO made the historic 
decision to endorse a missile defense capability whose aim is to 
provide full coverage and protection for all NATO European populations, 
territory, and forces against the increasing threats posed by the 
proliferation of ballistic missiles. Allies at Lisbon welcomed the EPAA 
as the U.S. national contribution to NATO's missile defense capability, 
as well as welcoming additional voluntary contributions from other 
allies. NATO is working toward declaring an ``interim'' NATO missile 
defense capability at Chicago.
    Working together with our NATO allies, the administration has 
achieved significant progress in implementing the EPAA. We have:

  <bullet> Deployed a rotational Aegis-equipped ship to the 
        Mediterranean;
  <bullet> Deployed a missile defense radar in Turkey;
  <bullet> Brought into force basing agreements with Romania and Poland 
        to host missile defense interceptor sites; and
  <bullet> Reached agreement in-principle with Spain to host four 
        multirole Aegis-equipped ships at Rota, Spain.

    The administration will continue to consult closely with Congress 
and with our NATO allies to implement the vision that the President set 
forth in September 2009. We will also continue to rigorously evaluate 
the threat posed by ballistic missiles and we will adapt our missile 
defense system accordingly. The United States remains committed to 
cost-effective and proven missile defenses that provide flexibility to 
address emerging threats.

    Question (#114). The need for defense austerity has been felt on 
both sides of the Atlantic and has resulted in changes to the U.S. 
force posture in Europe. How do you see these changes affecting the 
NATO alliance, particularly in terms of our ability to fulfill our 
Article Five commitments and conduct training and steady state 
operations with allies?

    Answer. The United States is able to fulfill its Article Five 
commitments and will remain so even after our force posture changes are 
implemented. We are committed to maintaining a robust and visible 
military presence in Europe capable of deterring and defending against 
aggression. To that end, we are deploying new capabilities in Europe, 
including missile defense assets in Poland, Romania, and Turkey, and 
Aegis ships in Spain. We are establishing an aviation detachment in 
Poland to further enhance training opportunities. And we will take 
steps to increase the responsiveness of special operations forces in 
the region. We are also developing the concept outlined at the Munich 
Security Conference by Secretary Panetta to increase our exercises and 
training with allies.
    The United States is modernizing its presence in Europe at the same 
time our NATO allies, and NATO itself, are engaged in similar steps. 
This is an opportunity for our European allies to take on greater 
responsibility. At the Lisbon summit in 2010, the alliance approved a 
list of critical capabilities, many of which have become a pillar of 
the Secretary General's Smart Defense initiative to pool, share, and 
specialize capabilities. We are determined to adapt NATO forces to make 
them more deployable, sustainable, and interoperable, and thus more 
effective. We continue to encourage allies to meet their defense 
spending commitments and to contribute politically, financially, and 
operationally to the strength and security of the alliance, even in 
these austere economic times.

    Question (#115). Afghanistan.--Criticism of corruption within the 
Afghan Police force and the Ministry of Interior abound.

  <bullet> How does your budget address corruption within the Ministry 
        of the Interior, as well as across the national and provincial 
        governance structures?

    Answer. Corruption in Afghanistan remains a serious issue and we 
continue to engage the Afghan Government to address the problem. We are 
working with our Afghan partners on various anticorruption measures by 
promoting transparency and good governance while working to prevent 
fraud, waste, and abuse. We support the Afghan ministries, governors, 
and local leaders, including the Ministry of Interior and its officials 
in finding ways to combat corruption.
    Our assistance to Afghan ministries includes ethics training to 
Afghan civil servants and the judiciary, capacity-building for internal 
Afghan audits, improving procurement systems within Afghan justice 
ministries, and encouraging the enactment and enforcement of 
anticorruption laws.
    To address specific issues within the Ministry of Interior, we 
supported Afghan efforts to make police salary payments electronic via 
cell phone. This eliminates the opportunity for siphoning off police 
salaries at the local and provincial levels. The Department of Defense 
also has embedded advisors at the local, provincial, and national 
levels that help mentor police on ethical behavior, in addition to the 
ethics training they receive as part of their police academy training.
    The Major Crimes Task Force (MCTF) is an FBI/internationally 
mentored unit of 153 vetted investigators from the Ministry of Interior 
(MOI) and National Directorate of Security (NDS) who investigate 
corruption, kidnapping and organized crime cases. Since its inception 
in September 2009, the MCTF's has significantly increased its 
investigative capacity through training and mentoring provided by the 
FBI and other international partners. This training and mentoring has 
led to hundreds of arrests. Afghan investigators from MOI and NDS have 
exhibited an ability to conduct investigations in a logical manner, 
using sophisticated investigative techniques such as telephone 
wiretaps, cellular telephone exploitation, and GPS tracking. The Afghan 
leadership has demonstrated an ability successfully to manage their 
cases, investigators, and resources. The MCTF continues to receive 
financial assistance from DOD (through both CSTC-A and CENTCOM), which 
provides funding for vehicles, vehicle maintenance, equipment, and some 
consumable supplies.
    The State Department's Bureau for International Narcotics and Law 
Enforcement (INL) provides Operational and Maintenance (O&M) funding to 
maintain Camp Falcon where the MCTF is located, and where MCTF mentors 
reside. However, the work of the MCTF is often frustrated by the lack 
of followthrough in prosecution when it refers cases to the Attorney 
General's Office. No major corruption cases investigated by the MCTF in 
the last 2 years have been prosecuted by the Attorney General's Office.
    The Ministry of Interior also dissolved seven private security 
companies in 2011 connected to Afghan officials, citing its 
``commitment to transparency and the rule of law,'' and, in Kandahar 
province, the MOI fired the chief of police of an Internally Displaced 
Persons (IDP) camp, who was involved in corruption.

    Question (#116). How have you inoculated U.S. assistance from gross 
misappropriation of funds?

    Answer. The United States is taking an integrated civilian-military 
approach to combat areas of corruption that impact the delivery of our 
assistance. Our approach includes safeguarding the use of U.S. funds, 
stopping illicit funds from fueling the insurgency, eliminating 
opportunities for insurgents to erode public support for the Afghan 
state, and strengthening institutions that will promote accountability 
and allow for transition. The U.S. Government has improved its vetting 
system and oversight mechanisms for civilian assistance contracting, as 
well as increased information-sharing between different government 
agencies such as the Department of Defense and USAID.
    The Department of Defense's Task Force 2010 was organized to help 
commanders better understand with whom they are doing business and to 
ensure contracting dollars were not empowering the wrong people or 
undermining the United States and the international community's efforts 
in Afghanistan. The organization uses intelligence, law enforcement, 
auditors and forensic financial analysts to gain visibility on the flow 
of contracting funds below the prime contractor level, to determine 
where issues and concerns exist, and to identify actions to mitigate 
fiscal and force protection risk.
    In addition, USAID has significantly increased oversight and 
monitoring staff and is fully implementing the Accountable Assistance 
for Afghanistan (A3), an agency initiative to safeguard U.S. funds. The 
A3 initiative implements a number of suggested oversight improvement 
including the increased use of cost-reimbursable contracts, limits on 
subcontractors, improved vetting, increased use of electronic funds 
transfers, and the creation of onsite monitoring capacity in forward 
operating bases and provincial reconstruction teams.

    Question (#117). While handover of security responsibility to 
Afghans is forecast to be complete by the end of 2014, some ISAF 
partners, such as France have indicated they will depart much sooner. 
The budget proposal for 2013 does not effectively narrow the United 
States focus in Afghanistan while growing in relative size to every 
other partner nation investment.

  <bullet> When will our budget in Afghanistan reflect the fiscal 
        realities of our domestic debt as well as the narrower national 
        security interests relative to Afghanistan?

    Answer. The resources requested for FY 2013 in Afghanistan will 
play a key role in ensuring Afghanistan never again serves as a safe 
haven for al-Qaeda or other extremist groups. In the last year, we've 
taken significant strides toward a secure and stable Afghanistan 
through gains on the battlefield, the end of bin Laden, and strong 
commitments by the region and international community to Afghanistan's 
future at the Istanbul and Bonn conferences. At the NATO summit in 
Chicago later this spring, we plan to join with international partners 
to announce a plan to share the burden of training and equipping Afghan 
security forces to ensure Afghanistan's long-term stability. We remain 
committed to our goal of transitioning security responsibility to the 
Government of Afghanistan by the end of 2014, which should result in a 
significant reduction in U.S. military spending. Resources requested in 
FY 2013 are necessary to support security transition, firmly set 
Afghanistan on a path toward greater economic sustainability, and 
enhance the ability of the Afghan Government to provide necessary 
services to its people.
    We regularly review our existing portfolio to focus programming on 
activities that support our highest priorities. As the military draws 
down and more responsibilities transition to Afghans, funding for 
programs explicitly tied to stabilization and counterinsurgency will 
shift from support for short-term stability needs to support for 
Afghan-led development and building the capacity of the government to 
address sources of instability. Our program in FY 2013 will also 
continue to improve project sustainability through capacity-building to 
ensure Afghans can maintain past investments into the future. Nowhere 
is this more evident than our investments in the infrastructure sector. 
In FY 2013 our request for infrastructure decreases by 12 percent from 
FY 2012 and 31 percent from FY 2011, where our major focus is on 
increasing operations and maintenance capacity and sustainability as 
opposed to new construction projects.
    Relatively stable levels of development assistance will be critical 
to ensuring a successful transition at the end of 2014. We have 
identified key foundational investment areas (including energy 
infrastructure, sustainable agriculture, and government economic 
capacity) where programming resources now will be important in 
fostering a more sustainable and resilient economy. As was the case in 
Iraq, as we near transition in Afghanistan, the costs for Department of 
State and USAID programs and operations are likely to increase in the 
short-term as military spending declines. Nonetheless, we do expect the 
trajectory of our assistance program to decrease beyond 2014.

    Question (#118). Why are we building consulates across Afghanistan 
and staffing them at significant cost if we have paid attention to the 
lessons of our experience in Iraq where we are evidently scaling back 
considerably?

    Answer. We recognize that our political and diplomatic strategy in 
Afghanistan must be based on a realistic assessment of the resources 
available to us, and we continually adjust our end-state planning with 
a careful eye on costs. Future State operations will see a smaller 
direct-hire population across our enduring Afghanistan locations than 
at present. Since security for our diplomats will always be expensive, 
we are determined to place the absolute minimum number of staff in 
harm's way. Going forward, we are incorporating lessons still being 
learned from Iraq, including colocation with other agencies wherever 
possible, leveraging existing Government contracts, and making maximum 
use of locally engaged staff.
    Our enduring diplomatic presence must, nonetheless, support the 
achievement of our goals. The President has identified two vital 
national interests in Afghanistan: defeating al-Qaeda and preventing 
Afghanistan from again becoming a sanctuary for terrorism. These goals 
require that we support the continued stability of Afghanistan after 
Transition is complete at the end of 2014. Afghanistan, however, 
remains a mosaic of regional power bases, each with a different mix of 
ethnic and political players. We must, therefore, have a sufficient 
diplomatic presence throughout the country to help manage regional/
ethnic tensions, to aid our Afghan partners to develop a functioning 
governance structure recognized as legitimate by the population, and to 
support reintegration and reconciliation of reconcilable insurgents. 
Presence throughout the country will also allow us to monitor 
Afghanistan's relations with its neighbors and promote development of 
regional political, economic, and commercial links. Posts in Kabul as 
well as in Herat, Kandahar, Mazar-e-Sharif, and Jalalabad will ensure 
that we can engage key regional leaders on an enduring basis to achieve 
our goals.

    Question (#119). As the United States began its transition from 
military to civilian-led activities in Iraq last year, you had 
requested $1 billion in OCO (Overseas Contingency Operations) funding 
for its Police Development Program (PDP). I note that you are seeking 
additional funding through the OCO account for this purpose for Iraq 
again this year. As the United States moves from military to civilian-
led activities in Afghanistan, it has become clear that the extremely 
high investment in police training has had limited impact on the 
performance and perception of Afghanistan's police forces as an 
effective and sustainable institution of public protection. While this 
begs the readiness question given the expected transition in the next 
year or two, it also raises concern over the value of such expenditures 
and the inevitable reabsorption of the rule-of-law training mission 
from the Department of Defense.

  <bullet> What new methods and responsibilities are being implemented 
        by the so-called ``whole of government'' approach to preparing 
        for an orderly transition?

    Answer. Transition is proceeding in the context of close 
coordination among U.S. agencies in Washington and on the ground in 
Afghanistan. While the U.S. military and our ISAF partners cooperate in 
training the Afghan National Security Forces to take responsibility for 
security, USAID and State are working to improve governance and help 
lay the foundations of a sustainable Afghan economy.
    Within the context of the wider USG transition coordination effort, 
the Coordinating Director of Rule of Law and Law Enforcement (CDROLLE) 
at Embassy Kabul provides the nexus for interagency coordination on all 
rule-of-law programs, including those which have a connection with law 
enforcement. For example, the Departments of State, Defense and Justice 
are actively planning to play a supporting role to rule-of-law 
facilities and missions including the National Interdiction Unit, the 
Sensitive Investigative Unit, the Major Crimes Task Force, the Counter 
Narcotics Justice Center, Counter Narcotics Police of Afghanistan 
Headquarters and field locations, the Judicial Security Unit, the 
Justice Center in Parwan, and Provincial Justice Centers. Emphasis is 
given to building Afghan Government capacity and transitioning lead 
operational and planning roles to Afghan officials. Where necessary and 
appropriate, planning includes transition of current military projects 
to civilian oversight.
    In our coordination with the Department of Defense (DOD), no 
decisions have been taken on changing the current model in which the 
DOD takes the lead in 
the training and funding of the ANSF, and the State Department expects 
that the DOD will continue to provide sustainment to the ANSF 
throughout and following transition.

    Question (#120). What resources are you proposing to address 
improved coordination and collaboration with DOD in prioritizing 
effective training and equipping in transition?

    Answer. Prior to 2011, the Department of State implemented the 
Afghan National Police (ANP) civilian police training and mentoring 
program under the overall direction of the DOD and the Combined 
Security Transition Command--Afghanistan (CSTC-A). In April 2011, the 
program was transferred from the Department of State and consolidated 
under one Department of Defense contract for ANP support. The NATO 
Training Mission--Afghanistan (NTM-A) coordinates with the Ministry of 
Interior and international community partners (such as EUPOL) through 
the International Police Coordination Board to determine ongoing and 
emerging training priorities for the ANP.
    The challenges to standing up a professional ANP force are well-
documented and remain a core focus of the international community's 
effort in building Afghan National Security Forces (ANSF) capabilities. 
Still, notable gains in ANP operational capability have been achieved 
in recent years, allowing for the current transition to an Afghan 
security lead in numerous provinces, districts, and cities throughout 
Afghanistan. As of March 2012, more than half the population of 
Afghanistan resides in areas where Afghans are taking responsibility 
for security. The capacity of the ANP to assume more demanding policing 
functions such as riot control, investigations and community outreach 
initiatives has strengthened and, as noted in the Asia Foundation's 
2011 Survey of the Afghan People, Afghan public perception of the ANP 
has improved in recent years with 85 percent of respondents agreeing 
that ``the ANP is honest and fair with the Afghan people'' and 83 
percent of respondents indicating that ``the ANP helps improve 
security.''
    Looking ahead to 2014 and beyond, the ANSF will maintain the 
operational lead for ensuring the safety and security of Afghanistan, 
however, NTM-A will likely retain a post-2014 presence in support of 
continued professionalization of the ANP. Unlike the interagency 
transition of the police program in Iraq--which was mandated by 
National Security Presidential Decision Directive 36--in Afghanistan 
there is no mandate from the administration to transition the police 
program among U.S. Government agencies following drawdown of U.S. 
military forces. As such, the Department of State has not requested 
funds in FY13 for a resumption of the ANP training program from the 
Department of Defense.

    Question (#121). Criticism of corruption within the Afghan Police 
Force and the Ministry of Interior abound. How does your budget address 
corruption within the Ministry of the Interior, as well as across the 
national and provincial governance structures?

    Answer. Corruption in Afghanistan remains a serious issue and we 
continue to engage the Afghan Government to address the problem. We are 
working with our Afghan partners on various anticorruption measures by 
promoting transparency and good governance while working to prevent 
fraud, waste, and abuse. We support the Afghan ministries, governors, 
and local leaders, including the Ministry of Interior and its officials 
in finding ways to combat corruption.
    Our assistance to Afghan ministries includes ethics training to 
Afghan civil servants and the judiciary, capacity-building for internal 
Afghan audits, improving procurement systems within Afghan justice 
ministries, and encouraging the enactment and enforcement of 
anticorruption laws. To address specific issues within the Ministry of 
Interior, we supported Afghan efforts to make police salary payments 
electronic via cell phone. This eliminates the opportunity for 
siphoning off police salaries at the local and provincial levels. The 
Department of Defense also has embedded advisors at the local, 
provincial, and national levels that help mentor police on ethical 
behavior, in addition to the ethics training they receive as part of 
their police academy training.
    The Major Crimes Task Force (MCTF) is an FBI/internationally 
mentored unit of 153 vetted investigators from the Ministry of Interior 
(MOI) and National Directorate of Security (NDS) who investigate 
corruption, kidnapping, and organized crime cases. Since its inception 
in September 2009, the MCTF's has significantly increased its 
investigative capacity through training and mentoring provided by the 
FBI and other international partners. This training and mentoring has 
led to hundreds of arrests. Afghan investigators from MOI and NDS have 
exhibited an ability to conduct investigations in a logical manner, 
using sophisticated investigative techniques such as telephone 
wiretaps, cellular telephone exploitation, and GPS tracking. The Afghan 
leadership has demonstrated an ability successfully to manage their 
cases, investigators, and resources. The MCTF continues to receive 
financial assistance from DOD (through both CSTC-A and CENTCOM), which 
provides funding for vehicles, vehicle maintenance, equipment, and some 
consumable supplies.
    The State Department's Bureau for International Narcotics and Law 
Enforcement (INL) provides Operational and Maintenance (O&M) funding to 
maintain Camp Falcon where the MCTF is located, and where MCTF mentors 
reside. However, the work of the MCTF is often frustrated by the lack 
of followthrough in prosecution when it refers cases to the Attorney 
General's Office. No major corruption cases investigated by the MCTF in 
the last 2 years have been prosecuted by the Attorney General's Office.
    The Ministry of Interior also dissolved seven private security 
companies in 2011 connected to Afghan officials, citing its 
``commitment to transparency and the rule of law,'' and, in Kandahar 
province, the MOI fired the chief of police of an Internally Displaced 
Persons (IDP) camp, who was involved in corruption.

    Question (#122). How have you inoculated U.S. assistance from gross 
misappropriation of funds?

    Answer. The United States is taking an integrated civilian-military 
approach to combat areas of corruption that impact the delivery of our 
assistance. Our approach includes safeguarding the use of U.S. funds, 
stopping illicit funds from fueling the insurgency, eliminating 
opportunities for insurgents to erode public support for the Afghan 
state, and strengthening institutions that will promote accountability 
and allow for transition. The U.S. Government has improved its vetting 
system and oversight mechanisms for civilian assistance contracting, as 
well as increased information sharing between different government 
agencies such as the Department of Defense and USAID.
    The Department of Defense's Task Force 2010 was organized to help 
commanders better understand with whom they are doing business and to 
ensure contracting dollars were not empowering the wrong people or 
undermining the United States and the international community's efforts 
in Afghanistan. The organization uses intelligence, law enforcement, 
auditors and forensic financial analysts to gain visibility on the flow 
of contracting funds below the prime contractor level, to determine 
where issues and concerns exist, and to identify actions to mitigate 
fiscal and force protection risk.
    In addition, USAID has significantly increased oversight and 
monitoring staff and is fully implementing the Accountable Assistance 
for Afghanistan (A3), an agency initiative to safeguard U.S. funds. The 
A3 initiative implements a number of suggested oversight improvement 
including the increased use of cost-reimbursable contracts, limits on 
subcontractors, improved vetting, increased use of electronic funds 
transfers, and the creation of onsite monitoring capacity in forward 
operating bases and provincial reconstruction teams.

    Question (#123). The Millennium Challenge Corporation's key 
indicators for working with a country's government are: ruling justly, 
providing economic freedom, and investing in people. Included within 
the broad category of ruling justly are elements such as political 
rights and rule of law. Although situations evolve, currently there are 
two MCC eligible countries that could be in violation of these 
indicators, Senegal and Malawi, where there are allegations that the 
current governments are abusing the political process.

  <bullet> How does the MCC maintain effective control over U.S. 
        resources in countries where these sorts of events are 
        occurring?

    Answer. MCC maintains extremely tight control mechanisms on all 
funds in partner countries. These control systems, which include 
ongoing monitoring by MCC's Fiscal Accountability and Procurement 
specialists, quarterly financial reports, semiannual or annual 
independent audits, and direct disbursement from MCC to major 
contractors through a common payments system (so that the vast majority 
of funds do not flow through the partner government) are not subject to 
changes in the local policy environment.
    MCC safeguards against corruption and fraud through multiple 
channels, including procurement requirements, training for local 
Millennium Challenge Account accountable entities (MCAs), and anonymous 
tips for investigation and/or referral to MCC's Inspector General 
(OIG). As part of an ongoing effort to protect taxpayer funds, MCC has 
published its Policy on Preventing, Detecting, and Remediating 
Corruption and Fraud in MCC Operations (``Anti-Fraud and Corruption 
Policy''). The policy is an effort to bolster the risk detection and 
assessment and management capacity of MCAs to identify corruption and/
or fraud in MCC-funded programs and projects. This is done in part 
through rigorous monitoring and evaluation, as well as the use of 
independent fiscal and procurement agents when necessary. This 
standardized policy works to achieve greater consistency across MCC and 
MCA teams in their approaches to the prevention of fraud and 
corruption, and ensures that allegations of corruption and fraud are 
consistently addressed and, when appropriate, referred to the OIG.
    MCC has implemented processes and policies to address eligibility 
concerns related to eligibility criteria measured by the MCC scorecard.
    MCC's authorizing legislation gives it the right to suspend or 
terminate country programs if ``the country or entity has engaged in a 
pattern of actions inconsistent with the [eligibility] criteria.'' The 
process to consider such a decision is outlined in the publically 
available ``Policy on Suspension and Termination'' document. When 
examining whether a policy decline is severe enough to warrant action, 
MCC looks at whether the country has demonstrated a pattern of actions 
that clearly moves the country farther away from positive performance.
    MCC has made use of this policy in the past to suspend or terminate 
Compact or Threshold program assistance, but only in cases of a clear 
pattern of actions. MCC continues to monitor the situation in Senegal 
and Malawi closely.

    Question (#124). What determinations are being made regarding the 
status of MCC programs in each country?

    Answer. Malawi: There are no compact activities being conducted in 
Malawi at the present time. MCC placed the compact on operational hold 
on August 3, 2011, due to actions by the Government of Malawi that were 
inconsistent with MCC's democratic governance criteria. At that time, 
MCC told the Government of Malawi that the hold was intended to allow 
MCC to ``review its partnership with Malawi, including whether to 
recommend to its Board of Directors whether to suspend or terminate its 
assistance.'' The MCC Board of Directors is expected to consider the 
status of the Malawi Compact at its quarterly meeting on March 22.
    Senegal: On February 7, 2012, MCC released the following statement 
on the situation in Senegal: ``MCC takes seriously its partner 
countries' commitment to accountable, democratic governance. Free, 
fair, and competitive elections are one extremely visible reflection of 
that commitment. MCC respects both the democratic and electoral 
processes in Senegal, as well as the rights of individuals to peaceful 
political participation. We are closely monitoring the events in 
Senegal, in coordination with our colleagues at the U.S. Embassy in 
Dakar. MCC looks forward to seeing all sectors of Senegalese society 
reject violence in favor of a full and active democratic process.''
    On February 26, Senegal conducted a Presidential election, which 
was described by observers as peaceful, orderly, and transparent. The 
election resulted in a runoff between the incumbent President and an 
opposition candidate. Senegal will hold a second round of voting on 
March 25. MCC continues to closely monitoring the events in Senegal, in 
coordination with the U.S. Embassy in Dakar. The agency has informed 
the Government of Senegal that both the quality of the election and the 
nature of the government's response to protests, if any, could have 
serious implications for Senegal's compact. MCC continues to track 
events in collaboration with the U.S. Embassy and pay careful attention 
to the reports of independent observers and election monitors on the 
ground.
    The MCC is negotiating second compacts with countries which are in 
the process of completing initial compacts. The agency has set forth 
guidance for determining eligibility for second compacts including 
progress toward compact results, the nature of the country's 
partnership with the agency and the degree to which the agency has 
implemented the compact in accordance with the agency's policies. I 
have concerns about this evaluation process, somewhat based on the 
second compacts that are being initiated. For instance, the committee 
recently received congressional notification of a second compact with 
Cape Verde.

    Question (#125). The MCC is negotiating second compacts with 
countries which are in the process of completing initial compacts. The 
agency has set forth guidance for determining eligibility for second 
compacts including progress toward compact results, the nature of the 
country's partnership with the agency and the degree to which the 
agency has implemented the compact in accordance with the agency's 
policies. I have concerns about this evaluation process, somewhat based 
on the second compacts that are being initiated. For instance, the 
committee recently received congressional notification of a second 
compact with Cape Verde.

  <bullet> Was there a thorough evaluation process conducted to 
        determine if a second compact was warranted?

    Answer. Yes. MCC has a rigorous and transparent process for 
selecting countries for compact eligibility, and Cape Verde emerged as 
the first country eligible to compete for a second compact. Every 
September, MCC publishes a Selection Criteria and Methodology Report 
that outlines how countries will be evaluated for compact eligibility, 
including the criteria for selecting countries for second compacts.
    Cape Verde was initially selected for compact eligibility in fiscal 
year 2010 based on the evaluation process laid out in the ``Fiscal Year 
2010 Selection Criteria and Methodology Report.''
    Cape Verde is an African success story whose strengths in political 
and economic governance are widely recognized, and performs well on 
MCC's scorecard.

  <bullet> In terms of Ruling Justly indicators, Cape Verde regularly 
        scores in the top 15 percent of all MCC candidate countries for 
        each and every Ruling Justly indicator. This performance was 
        recognized elsewhere when former President Pires was awarded 
        the African leadership prize by the Mo Ibrahim Foundation for 
        his leadership in making Cape Verde a model of democracy and 
        stability.
  <bullet> In terms of Investing in People, Cape Verde is on track to 
        reach most of the MDGs by 2015.
  <bullet> In terms of Economic Freedom, the World Bank reports on 
        ``Cape Verde's strong track record of macroeconomic management 
        and solid structural reforms'' and notes that growth has been 
        driven by strong public and private investment.

    For fiscal year 2010, when determining eligibility for a second 
compact, MCC considered, among other factors, the country's policy 
performance using the selection criteria and methodology outlined in 
this report, the opportunity to reduce poverty and generate economic 
growth in the country, the funds available to MCC to carry out compact 
assistance, and the country's performance implementing its first 
compact.
    To assess implementation of a first compact, the MCC recommends 
that the Board consider the nature of the country partnership with MCC, 
the degree to which the country has demonstrated a commitment and 
capacity to achieve program results, and the degree to which the 
country has implemented the compact in accordance with MCC's core 
policies and standards. In selecting Cape Verde for a second compact, 
MCC recognized Cape Verde's strong policy performance, impressive 
reforms, and achievements of the initial compact. The country's 
technical capacity, political will, and willingness to contribute its 
own resources were also important considerations.
    MCC's experience with Cape Verde revealed a reform-minded 
democracy, committed to transparency and interested in improving 
government effectiveness. The initial partnership with MCC created new 
incentives for Cape Verde to continue existing policy reforms at the 
national level, implement new reforms at the sector level, and improve 
its performance on the scorecard indicators.

    Question (#126). How are we ensuring that governments are not under 
the impression that a second compact is a given? I am very concerned 
that in an effort to fully utilize MCC funds, the agency may be moving 
forward too hastily on second compacts.

    Answer. MCC's Board is particularly selective when determining 
eligibility for follow-on partnerships. In addition to good policy 
performance, countries must show meaningful progress toward achieving 
first compact results before being considered for a subsequent compact. 
Of the ten countries that will conclude first compacts by the end of 
2012 (Armenia, Benin, Cape Verde, El Salvador, Ghana, Georgia, 
Honduras, Mali, Nicaragua, and Vanuatu), MCC's Board has selected five 
as eligible for subsequent compacts--Cape Verde in fiscal year 2010, 
Georgia and Ghana in fiscal year 2011, and Benin and El Salvador in 
fiscal year 2011.
    MCC communicates very clearly to its partner countries that second 
compacts should not be assumed. This message is transmitted frequently 
and consistently to countries that express interest in second compact 
eligibility.
    MCC's engagement with partner countries is by no means open-ended. 
MCC carefully considers each country partnership based on the country's 
policy and implementation performance, as well as the opportunities to 
have an impact on growth and poverty reduction. This includes 
consideration of the potential sustainability of MCC's investments, and 
the country's ability to attract and leverage public and private 
resources in support of development. Selective, effectively targeted 
programs, such as those financed by MCC, are critical to ending the 
cycle of aid dependency, ensuring sustainability, and promoting country 
ownership.
    MCC's use of subsequent compacts is focused on helping countries 
solidify a sustainable economic growth path that attracts private 
investment and allows countries to move away from dependence on aid. 
Plainly stated, MCC does not intend to have open-ended relationships 
with countries. Selective subsequent compacts, however, do play a 
pivotal role in MCC's ability to reduce poverty and promote sustainable 
economic growth, and provide opportunities for both MCC and its partner 
countries to explore innovative programs, including strategic 
partnerships with the private and nongovernmental sectors.

    Question (#127-129). Trade/Business Agency Streamlining.--The White 
House has sent notification of its intent to consolidate certain trade 
and business agencies, including the Overseas Private Investment 
Corporation and the Trade and Development Agency. Streamlining 
government is a laudable effort; however, we must be thoughtful in the 
process and carefully evaluate the effects and results.

  <bullet> What are the actual savings of such consolidation? We have 
        not yet been presented with a detailed picture of what the 
        resulting Department will look like. In fact, we've been 
        presented with very little information overall.
  <bullet> Will these agencies with divergent missions be able to 
        effectively function under one roof?
  <bullet> Will such consolidation actually benefit U.S. companies and 
        workers which are struggling to survive in these difficult 
        economic times?

    Answer. At this time, the Department is not involved in the 
consolidation of these trade and business agencies. We respectfully 
refer you to the White House.

    Question (#130). In response to a letter last summer on polio 
eradication efforts in Pakistan, I received a letter from Deputy 
Secretary Nides informing me that the State Department was prepared to 
shift $4.5 million from FY 2010 maternal and child health programs to 
bolster polio eradication efforts in Pakistan. This was to be combined 
with $2 million that was already allocated for these efforts for FY 
2011.

  <bullet> Were those funds actually shifted?

    Answer. Yes, the $4.5 million in FY 2010 Maternal and Child Health 
(MCH) funds were shifted and combined with $2 million in FY11 funds to 
bolster polio eradication efforts in Pakistan. Overall, a total of $10 
million in MCH funds has been committed to polio for FY 2010 and FY 
2011 in Pakistan. This includes the $4.5 million shifted from FY 2010 
MCH funds, the original $3.5 million of FY 2010 MCH funds, and the $2 
million in FY 2011 funds, allocated to bolster polio eradication 
initiatives implemented by the World Health Organization (WHO) and 
UNICEF in Pakistan.

    Question (#131). How much is expected to be spent on continued 
eradication efforts in Pakistan?

    Answer. The FY 2013 Congressional Budget Justification includes $2 
million for polio eradication efforts in Pakistan. In FY 2013, USAID 
will reassess the epidemiologic and funding requirements. Projected 
support for both UNICEF and WHO is expected to remain at about $2 
million per year, unless there are compelling emergency funding needs. 
Pakistan receives significant donor funding for polio eradication 
efforts, particularly from Japan, the Bill & Melinda Gates Foundation, 
World Bank, Britain and the United States. The Saudi Government, 
through the Islamic Development Bank, and the Gates Foundation, are 
currently working on establishing a significant new funding mechanism.

    Question (#132). The administration's FY 2013 budget gives a large 
increase to GAVI Alliance to help meet the administration's multiyear 
pledge. Will those additional funds come at the expense of other USG 
vaccination programs, both bilateral and multilateral?

    Answer. The FY 2013 budget includes $145 million for the USG 
contribution to the Global Alliance for Vaccines and Immunization (GAVI 
Alliance). Vaccines are among the most cost-effective public health 
interventions. This Alliance--with donor and host country governments, 
civil society and the private sector partners--leverages USG resources 
and helps to ensure that our development dollars have the greatest 
impact. For example, the USG pledge has allowed GAVI to negotiate a 67-
percent price reduction on rotavirus vaccines so that children in low-
income countries can be protected against this cause of diarrheal 
disease. The priority will be the rollout of pneumococcal conjugate and 
rotavirus vaccines to combat pneumonia and diarrhea, the two leading 
killers of children, and strengthening logistics systems.
    Combined with other donors, the USG contribution will enable the 
GAVI Alliance to immunize an additional 243 million children in 
developing countries. The USG commitment leverages billions of dollars 
that other donors have committed to GAVI, multiplying the impact of our 
funding more than eightfold.
    The FY 2013 GAVI contribution will not negatively impact bilateral 
investments needed for immunization system development. The 
administration recognizes that vaccines alone cannot achieve the 
objectives set forth by the international community to significantly 
reduce childhood deaths due to vaccine preventable diseases. Therefore, 
in addition to the GAVI Alliance contribution, the USG is playing an 
active role in assisting countries to build the systems to bring 
lifesaving vaccines to every child in a sustainable manner. USAID 
collaborates with other USG agencies, as well as international 
organizations, private sector groups, and the NGO community, to ensure 
that countries have access to the support that they need to bring the 
vaccines purchased through GAVI to every child. Bilateral and 
multilateral activities to build immunization capacity at the local and 
national level in recipient countries will continue to receive support 
to ensure that vaccine investments made through the GAVI Alliance are 
maximized.

    Question (#133). What is the proposed FY13 funding level of non-
GAVI related vaccination programs?

    Answer. The non-GAVI immunization funding by USAID is approximately 
$48 million annually. In addition to the GAVI Alliance contribution and 
bilateral funding for immunizations, the USG plays an active role in 
assisting countries to build systems to bring lifesaving vaccines to 
every child in a sustainable manner.
    USAID collaborates with other USG departments and agencies, as well 
as international organizations, private sector groups, and the NGO 
community, to ensure that countries have access to the support that 
they need to bring the vaccines purchased through GAVI to every child. 
The streams of funding that support these two critical areas are 
synergistic and do not detract from one other. Bilateral and 
multilateral activities to build immunization capacity at the local and 
national level in GAVI Alliance recipient countries will continue to 
receive the support they need to make sure that the vaccine investment 
made through GAVI and bilateral programs is maximized.

    Question (#134). I was pleased to learn of the recent polio 
eradication effort success in India; however, I am troubled about the 
setbacks we have seen with efforts in Afghanistan's polio eradication 
program. The United States has been a strong partner on this front.

  <bullet> Is there more that the United States could be, and should 
        be, doing to increase the immunization rates in Afghanistan?

    Answer. We share concerns about polio incidence in Afghanistan. 
Taking into account efforts to promote Afghan leadership of the health 
system, USAID is providing strong support to facilitate polio 
eradication efforts by working in partnership with the Ministry of 
Public Heath in Afghanistan and the United Nations. Given the public 
health emergency situation, USAID is exploring how we can leverage our 
existing programs and resources across all sectors to help UNICEF and 
WHO's polio eradication efforts nationally, and in high-risk districts 
in both countries where wild poliovirus still circulates. Supplemental 
activities currently under consideration include: increasing awareness 
and acceptance of polio vaccination in conjunction with UNICEF's plan 
for a multimedia mass communication campaign customized for the local 
context; enhancing local ownership and coordination in partnership with 
the Global Polio Eradication Initiative in Afghanistan; increasing 
vaccination coverage, including through strengthening the existing 
surveillance network and routine immunization infrastructure; improving 
the capacity of the vaccinator pool, and doing more work at the border 
to prevent cross-border transmission.

    Question (#135). PEPFAR.--In December, during his World AIDS Day 
Address, President Obama announced that by the end of 2013, the United 
States will be supporting 6 million people on antiretroviral treatment. 
That is a 50-percent increase of where we were at the end of 2011--a 
number that took up 8 years and tens of billions of dollars to reach. 
The administration's 2013 budget cuts funding for bilateral HIV/AIDS 
programs.

    How do you envision meeting that ambitious goal in such a short 
amount of time, with less funding?

    Answer. Since the beginning of this administration, our focus has 
been on saving more lives. The President set ambitious new goals on 
World AIDS Day 2011, including support for treatment of 6 million 
people, reaching more than 1.5 million HIV-positive pregnant women for 
prevention of mother-to-child transmission, supporting more than 4.7 
million voluntary medical male circumcisions, and distributing more 
than 1 billion condoms--all by the end of FY 2013. With the FY 2013 
budget, we can achieve these goals, continue the strong history of U.S. 
leadership on HIV/AIDS, and continue to work for an AIDS-free 
generation.
    In light of the President's commitment, we carefully considered the 
PEPFAR bilateral funding level needed to ensure that the targets will 
be achieved. Our models show that the appropriation we have already 
received for FY 2012, along with our request for FY 2013, will keep us 
on track to meet the goals.
    In FY 2013, PEPFAR will continue efforts to support greater impact 
and efficiency through smart investments, improve the quality of 
collected data, and ensure that country programs continue to reflect 
the realities of the epidemic at the local level so that we can target 
our investments to maximize impact. As an example of how PEPFAR has 
been able to increase its impact, PEPFAR has reduced the cost of 
treatment per person per year from over $1,100 to $335. Lower costs of 
drugs, bulk purchasing, and simple changes like shipping medication by 
ground instead of air have reduced the cost of treatment dramatically. 
Given the efficiencies that PEPFAR has built into its system, we are 
confident that we will be able to reach the goals under this budget.

    Question (#136). The administration's FY 2013 budget request 
proposes to shift $250 million from FY 2012 PEPFAR bilateral program 
funds to go the Global Fund to Fight HIV/AIDS, Malaria, and 
Tuberculosis. The budget also proposes allocating the Global Fund $1.65 
billion FY 2013. Is it the administration's view to shift HIV/AIDS 
program funds from bilateral programs to multilateral entities?

    Answer. Global AIDS is a shared responsibility. The U.S. bilateral 
programs cannot meet the global AIDS challenge alone, and are most 
effective with a robust Global Fund. This year in particular, our 
budget decisions came down to recognition that we have a unique 
opportunity to ensure that bilateral programs continue to meet the 
President's goals while also strengthening our most critical donor 
partner in the global AIDS response--the Global Fund to Fight AIDS, 
Tuberculosis and Malaria. Because each dollar the United States invests 
in the Fund leverages $2.50 from other donors, an increased U.S. 
investment at this time is crucial for increasing the commitment of 
others to meet the shared responsibility.
    The USG continues to work to increase collaboration between PEPFAR 
and Global Fund-financed programs on the ground to reach more people in 
more countries with higher quality services and directly leverage the 
results of the Global Fund. PEPFAR and the Global Fund have developed 
and expanded our collaboration over the past several years. At the 
country level, the Global Fund, PEPFAR, and partner countries 
collaborate--in areas ranging from grant management, technical 
assistance and capacity-building, to the provision of antiretroviral 
drugs and joint programming--working hand in hand in-country to save 
and improve lives. The two organizations coordinate strategically at 
the global, regional, and country levels to ensure that resources are 
used efficiently and effectively. PEPFAR needs a well-functioning 
Global Fund to achieve our bilateral program targets and overall goals, 
and the Global Fund needs PEPFAR to ensure quality and strong program 
management. If either the Fund or PEPFAR bilateral are underresourced, 
there will be negative repercussions for both programs that will 
threaten our ability to achieve a sustainable response.
    In October 2010, USG tied its multiyear pledge to the Global Fund 
to successful implementation of reforms that increase the impact of 
grants. The Fund took decisive action in adopting comprehensive reforms 
last year, and now is the time to implement those far-reaching changes 
as expeditiously as possible. We are very pleased with the appointment 
of the Fund's new General Manager who has promised to advance the 
reform agenda as rapidly as possible, and with his steps to improve 
fiduciary oversight and grant management. The increased funding for the 
Global Fund will keep the United States on track to fulfill its pledge, 
but even more important, it will mitigate risk to the PEPFAR bilateral 
program and those it serves.
    This shift for FY 2013 responds to the unique moment we have and 
our opportunity to take action. In future years, we will again consider 
the right mix of U.S. investments to move us toward the goal of an 
AIDS-free generation.

    Question (#137). Since there is no new additional funding coming 
into the global AIDS program, where will this money come from?

    Answer. Through a combination of declining costs, greater 
efficiencies, high-impact interventions and increased cost-sharing with 
partner countries and the Global Fund, every dollar we invest through 
PEPFAR is going farther. The following are some of the key factors that 
provided us with the assurance that we will be able to meet the 
President's goals with this budget.
    First, we are targeting shifts in resources toward treatment at a 
time when treatment costs are coming down. This is allowing us to 
greatly increase the number of people supported on treatment to our 
target of 6 million people by the end of FY 2013. PEPFAR's per-patient 
cost of providing treatment has declined from over $1,100 per patient 
per year to approximately $335 in 2011, and we are convinced that 
further gains in efficiency are achievable. We are also experiencing 
gains by using generic drugs, shipping commodities more cheaply, 
shifting health worker tasks as appropriate, linking AIDS services to 
the broader health system, and collecting and using data on the costs 
of providing services. Taken together, these developments allow PEPFAR 
to do much more treatment for less.
    Our increases in treatment are matched by better use of our 
prevention dollars. We are reallocating funds from lower impact 
prevention interventions to both treatment as prevention and high-
impact prevention interventions. For example, PEPFAR is leading the 
effort to expand voluntary medical male circumcision in eastern and 
southern Africa where it will have the most impact. Circumcision is a 
one-time procedure that confers a large lifetime prevention benefit, 
both to the individual and to others in his community. By increasing 
our total investment in circumcision, we are multiplying our impact on 
the virus. And as we gain experience conducting successful high-volume 
campaigns and new circumcision devices become available, the average 
cost of a circumcision will drop even further.
    Another area that has freed up resources for treatment is the 
reduced need for non-ARV care for people living with HIV. Increasingly, 
HIV is a chronic disease that PEPFAR programs are managing on an 
outpatient basis, rather than in the hospital. By getting people on 
treatment sooner and keeping them healthy, PEPFAR is averting the 
opportunistic infections that have driven up care costs.
    PEPFAR has worked to partner with countries in the global AIDS 
fight, and countries are stepping up and increasingly taking on 
services we once provided. This is most striking in the lower middle-
income countries of southern Africa--South Africa, Botswana, and 
Namibia. In South Africa, the government has more than doubled its 
commitment on HIV/AIDS in recent years to well over $1 billion per 
year. A special 2-year ``bridge funding'' commitment by PEPFAR to 
provide ARVs in South Africa (with aggressively negotiated pricing) was 
highly successful in enabling the government to launch its own 
increased purchasing of ARVs with newly negotiated low prices. The 
government is now approaching the goal of providing all ARVs needed in-
country, with added support from the Global Fund, enabling PEPFAR to 
move increasingly to a supportive technical assistance role that will 
allow for lower budget allocations as we shift from service delivery to 
an advisory role. This is shared responsibility for HIV/AIDS at work.
    In other countries, specific contextual factors have dictated a 
downward adjustment for FY 2013. We were able to use prior-year funding 
to continue several multiyear special initiatives--like the Medical and 
Nursing Education Partnerships--thus freeing up resources that allow us 
to strengthen the Global Fund.

    Question (#138). Will country teams have to reprogram funds in 
order to adjust to the funding shift?

    Answer. Country teams will not need to reprogram in order to adjust 
to the budget--they will still have the resources they need to achieve 
the goals. Country teams may seek to reprogram for other reasons as 
country priorities shift, but this budget will not require such 
reprogramming.

    Question (#139). Commission on Wartime Contracting : On p. 182 in 
your QDDR, you state the need to:

          Elevate accountability for planning and oversight of large 
        contracts. Procurement planning focuses on soliciting, 
        evaluating, negotiating, and awarding contracts. Many contracts 
        are well into their performance phase before an adequate 
        contract administration strategy is established or resources 
        for contract administration are identified. Contract 
        administration planning must take place at program inception. 
        Sufficient resources for contractor oversight, support, travel, 
        communications, and other appropriate resources will be 
        identified and included as part of the contracting process 
        itself. Each Assistant Secretary at State will be required to 
        certify personally that program planning and oversight is 
        adequate for every service contract valued at an annual 
        expenditure of $25 million or more. Assistant Secretaries will 
        verify in their annual management control statements that they 
        have reviewed implementation plans and oversight arrangements 
        for these contracts and have judged the oversight to be 
        sufficient.

    This note falls in line with the Commission on Wartime 
Contracting's recommendation #6: ``Elevate the positions and expand the 
authority of civilian officials responsible for contingency contracting 
at Defense, State, and USAID.'' And yet, the Acquisitions office, led 
by the senior most acquisitions specialist in the department, 
responsible for some $8 or $9 billion in contracts and grants, is six 
bureaucratic levels below you, and no one above that individual is an 
acquisitions or contracting specialist; they are all Foreign Service 
officers or political appointees.
    In a response to the CWC recommendations, the Department of State 
stated this model is ``most suitable to support its contingency needs'' 
and that the professional acquisition staff is ``sufficient'' and the 
work above her level is ``overseen'' and ``consistently coordinated.''
    With great respect for the strong team you have in place, and the 
Under Secretary for Management, the structure is inadequate for the 
increasing demands the country is placing upon it, and it appears you 
have ignored your own recommendation, as well as the CWC's.

  <bullet> Please detail for the committee how you will (using your own 
        words), ``Elevate accountability for planning and oversight of 
        large contracts.'' This is not an OIG or inspection function, 
        it's a management function.

    Answer. The Department acknowledges that its contracting function 
has grown considerably over the past few years. Although not as large 
as that of DOD or other Federal agencies, State's contracting activity 
grew from $1.8 billion in 2001 to $8.8 billion in 2011. Most of this 
growth was for programs in Iraq and Afghanistan.
    As our contracting activity increased, we faced two challenges: (1) 
we needed additional acquisition personnel to support our procurement 
efforts; and (2) the requirements offices needed to better support our 
acquisitions with up-front planning and contract administration 
oversight.
    The Department of State increased acquisition staff using funding 
in a Working Capital Fund, which is generated through a 1 percent fee 
on all procurements. Using a Working Capital Fund allows the Department 
to rapidly right-size our procurement staff to the acquisition 
workload. As an example, we hired 103 additional procurement staff 
since 2008. This professional acquisition staff is capable of handling 
$9 billion in contracting a year.
    The Department of State acquisition model uses a centralized 
contracting approach to consolidate and coordinate resources. A 
Washington, DC-based central office staffed with acquisition 
professionals provides primary and backup acquisition support for 
operations in Iraq, Afghanistan, Haiti, and other worldwide locations. 
Two Regional Procurement Support Offices provide additional forward 
deployed support. The Department centralized the acquisition of 
worldwide local guard services using this Washington, DC-based approach 
with great success.
    The Chief Acquisitions Officer (CAO), as required by Congress, is a 
noncareer, politically appointed, position. That position at the 
Department is currently filled by a Senate-confirmed, career Senior 
Foreign Service officer with worldwide experience with our acquisition 
needs and challenges, as well as experience working with our Department 
of Defense colleagues. The Head of Contracting Activity (HCA), as 
acknowledged by the committee, is a seasoned professional with a solid 
record of acquisition accomplishments.
    The Chief Acquisitions Officer works hand in hand with the Under 
Secretary for Management on acquisition issues, especially contingency 
contracting. Major decisions on contingency contracting policy, such as 
how to strengthen private security contractor oversight, are led by the 
Under Secretary for Management. There have not been acquisition issues 
whose solutions have been impeded by the current flexible, well 
coordinated structure.
    Contracting is a team effort at the Department with close 
relationships between acquisition and requirements personnel; 
collaboration is essential to anticipate upcoming requirements, allow 
sufficient lead time, consider various methods of procurement, and 
otherwise increase the efficiency of the acquisition process. In this 
team approach, acquisition personnel support requirements office 
personnel by contracting for program needs in accordance with laws and 
regulations, and requirements office personnel support acquisition 
personnel by assuming an active role in the acquisition process and 
contract administration. This collaboration is necessary for effective 
implementation, execution, and accomplishment of a contracting program. 
While this team approach had been set out in the Foreign Affairs 
Handbook since at least 2005, we found that our requirements office 
personnel needed to take a more active role in contracting and that 
accountability for contract administration needed to be enhanced.
    The Department acknowledges that improvements are always possible 
in our contracting oversight and management, and we continue to look 
for ways to enhance accountability for contracting throughout our 
organization. The examples of contracting challenges cited by the CWC 
in its final report are not a function of the organizational location 
or strength of our acquisition staff, but rather of the need for more 
effective contract administration support.
    To elevate accountability for contracting, the QDDR team 
established that the Assistant Secretary of a performing Bureau needed 
to ensure that adequate resources, both personnel and funding, are 
identified early in program planning to make certain contract 
administration is not an afterthought. Department guidance issued in a 
Procurement Information Bulletin in June 2011 requires the cognizant 
Assistant Secretary to certify that planning and oversight is adequate 
for every service contract valued at an annual expenditure of $25 
million or more, and also to verify in their annual management control 
reviews that they have examined these contractual arrangements and 
judged oversight to continue to be sufficient.
    Further, responsibility for effective contract administration was 
elevated when all Department employees were reminded of the importance 
of planning for sufficient contract resources throughout the life of 
the contract, most recently through the issuance of a Department Notice 
in January 2012, which reiterated the Assistant Secretaries' 
responsibilities.
    The January 2012 Department Notice on planning for adequate 
contract resources reminded all staff that, ``Effective contract 
administration is a critical core competency in the procurement 
process. Contract administration planning should take place at the 
beginning of the procurement process as an essential part of the 
acquisition plan. Such plans shall be developed by the Bureau technical 
program office and should consider an initial assessment of resources 
required for contractor oversight, support, travel and communications. 
Planning must also take into account the need for multiple technical 
monitors based on geographic dispersion and multiple technical 
disciplines. Program offices must identify financial and other 
resources that are reserved for implementation of contract 
administration.''
    We believe our ability to increase our acquisitions staff through 
the Working Capital Fund--hiring 103 staff since 2008, coupled with the 
steps taken to elevate accountability of the requirements offices for 
contracting--serves as a solid foundation for our contracting function 
at State.

    Question (#140-141). In the Commission on Wartime Contracting's 
final report to Congress, it made a recommendation (#11) to ``improve 
contractor performance-data recording and use.'' In the State 
Department's response to this recommendation, it indicated that State 
``agrees with this recommendation, and looks for implementation with a 
Federal Acquisition Regulation (FAR) change.''

  <bullet> Has State promulgated or recommended such a change?
  <bullet> What progress is being made to make this change in order to 
        follow through on addressing this recommendation?

    Answer. The Department agrees in part with the Commission on 
Wartime Contracting's (CWC's) Recommendation #11. However, we note that 
the CWC's recommendation is actually directed at Congress, stating that 
``Congress should direct agency heads to improve contractor 
performance-data recording and use.''
    Assuming that Congress concurs with this CWC recommendation, we 
believe that implementation is best achieved with a Federal Acquisition 
Regulation (FAR) change. Amending the FAR is a collaborative process; 
the Department of Defense (DOD), GSA, and the National Aeronautics and 
Space Administration (NASA) jointly issue the FAR for use by executive 
agencies in acquiring goods and services.
    To clarify State's position on CWC Recommendation 11, which the CWC 
broke into three subrecommendations:

1. Allow contractors to respond to, but not appeal, agency performance 
assessments.
    State agrees with this part of the recommendation.

2. Align past performance assessments with contractor proposals.
    State understood this recommendation to require that, when 
evaluating contractor proposals, only the performance evaluations 
included in the past performance database could be used. This would 
exclude commercial information, state government data, and any other 
surveys State might want to conduct concerning a contractor's past 
performance. As such, we disagree with the recommendation, finding it 
to be too restrictive, and contrary to the best interests of the U.S. 
Government and the American taxpayer.

3. Require agencies to certify past performance information.
    We do not agree that requiring contracting officers to certify the 
use of the database would increase use of the database. The 
availability of relevant data and ease of collection would encourage 
use.

    Question (#142-144). The idea that our missions in Iraq and 
Afghanistan will rely on contractors is no longer new or surprising. 
Nevertheless, the size and scope of the contractor force that you will 
be hiring, numbered at some 14,000 in Iraq alone, presents challenges 
to Embassy Baghdad, the Consulates, and the Management and Acquisitions 
team back here in the States. Your Inspector General Howard Geisel 
stated in a meeting with my staff, ``The biggest single problem in 
these situations is the Department having enough qualified contracting 
officer representatives (CORs) within the missions and in the 
contingency regions.''
    According to the CWC, despite this growth, `` . . . the number of 
contract specialists . . . rose by only 3 percent governmentwide 
between 1992 and 2009.'' In many instances, you have hired temporary 
personnel, or are relying on the Department of Defense to do the 
Department of State's contracting oversight--for instance some 52 DCMA 
personnel support your Iraq contracts. I am further concerned that so 
much of this COR work is done remotely and that so few State-Department 
personnel are in the field with the contractors.

  <bullet> What new authorities or new funding do you need to increase 
        the number of trained, full-time, U.S. Government contract 
        oversight specialists?
  <bullet> Considering the worldwide demand, how many CORs do you 
        project needing in the next 5 years and how many are on 
        permanent hire with the Department?
  <bullet> If no new authorities or funding are needed, what is 
        preventing your hiring and deploying more CORs?

    Answer. The Department's contracting function has grown from $1.8 
billion in 2001 to $8.8 billion in 2011, mostly because of growth for 
programs in Iraq and Afghanistan. As our contracting activity 
increased, we have hired additional Acquisitions Management staff using 
funding in the Working Capital Fund, which is generated through a 1-
percent fee on all procurements. The Working Capital Fund has provided 
sufficient funding for this staffing surge, and State has hired 103 
additional staff in the Office of Acquisitions Management since 2008.
    Working as team members with our Acquisitions staff, Contracting 
Officer Representatives (CORs) are U.S. Government employees from the 
requirements office who monitor contract performance. The Contracting 
Officer from Acquisitions strives to appoint a COR as soon as a 
requirement is initiated, so that the COR can assist in the 
solicitation process. The Contracting Officer may appoint an 
individual--a U.S. Government employee known as a government technical 
monitor or GTM--to assist the COR in monitoring a contractor's 
performance.
    Over the past few years, we have trained and deployed more CORs. In 
FY11 the Department had 1,080 employees certified to carry out COR 
duties and projects an increase to 1,200 in FY12. We have taken steps 
to improve our initial planning and continued oversight of contracts by 
our requirements offices. Examples of improvements that State has made 
include:

  <bullet> We mandated upfront planning for contract administration on 
        major programs, and require that the Assistant Secretary of the 
        requirements office ensure adequate contract administration 
        resources, both personnel and funding.
  <bullet> The Department increased the number of CORs assigned to 
        contracts in Iraq and Afghanistan.
  <bullet> The Department of State has updated COR training to be more 
        interactive, skills-based and adult-learning focused.

     Training: All CORs and GTMs, both domestic and overseas, must 
complete a 40-hour approved training course. Available training has 
been expanded by launching a skills-based COR class in May 2011 at the 
Foreign Service Institute (FSI). A separate basic class has been 
tailored for CORs from the Bureau of Diplomatic Security to include 
oversight of local guards and other security programs overseas. The 
40-hour Defense Acquisition University (DAU) online basic COR course is 
being adapted for Department of State online COR training and includes 
overseas contracting considerations. We hope to have it available to 
students by summer 2012. In addition to basic COR training, FSI offers 
a number of courses on contract related topics such as procurement 
integrity, negotiation, program management, and cultural sensitivity, 
both on campus and online. The DAU course, ``Mission Support 
Planning,'' recommended by the CWC, is offered by FSI as an online 
course.
    COR Performance: In January and April 2011, we issued Department 
notices reminding staff of the requirement to include work elements for 
CORs and GTMs in performance appraisals and to seek the Contracting 
Officer's feedback on COR performance. The April 2011 notice provided 
guidance on critical work elements for supervisors to include in COR 
and GTM performance appraisal plans (or Employee Evaluation Reports).
    The Department created a COR Award to highlight contract 
administration achievements by the COR, and published an article in the 
May 2011 State Magazine highlighting the importance of contract 
administration and the valuable role of the COR.
    Requirements Offices: With regard to the Department's program 
offices, we have instituted enhanced planning for technical contracting 
support, including adequate COR support. The Bureaus of International 
Narcotics and Law Enforcement Affairs (INL) and Diplomatic Security 
(DS), the two Bureaus most heavily involved in overseas contingency 
contracting, have both significantly increased resources to support 
contract administration.
    We instituted operational measures and increased contract oversight 
to ensure professionalism and responsibility over private security 
contractor (PSC) personnel. DS is staffed to achieve this oversight in 
Iraq and Afghanistan. DS's actions for management, oversight, and 
operational control of PSC personnel include:

  <bullet> DS Special Agents at each post in Iraq and Afghanistan serve 
        as managers for the Static Guard and Personal Protective 
        Security programs;
  <bullet> DS Special Agents at each post and in headquarters also 
        serve as CORs and assistant CORs (A/CORs) for the direct 
        management and oversight of the Worldwide Protective Services 
        (WPS) contract; and
  <bullet> DS personnel at each post are assigned as GTMs to assist the 
        CORs and 
        A/CORs in the field with the oversight of the WPS contract.

    Among its measures to improve ongoing contract administration, INL 
has increased the number of program officers and contract 
administration personnel in the field and at headquarters. INL also has 
improved the accessibility of contract management staff to COR files by 
instituting remote electronic access from the field to headquarters.
    Use of Defense Contract Management Agency: Prior to the final 
withdrawal of U.S. troops from Iraq in December 2011, we worked very 
closely, every day, on an unprecedented level with our DOD colleagues 
on implementing the transition, and we continue to use DOD resources in 
theater. The joint DOD Equipping Board identified more than 3,260 
individual pieces of equipment worth approximately $224 million to be 
transferred as excess, sold, or loaned to State; sustainment for this 
equipment is being provided on a reimbursable basis through a contract 
managed by the Army Sustainment Command at Rock Island. We are 
procuring life support services under DOD's competitively awarded 
Logistics Civil Augmentation Program or LOGCAP IV. We implemented a 
full range of IT support services, in many cases partnering with DOD to 
improve efficiency and reduce costs.
    Because we rely on these DOD contracts in Iraq, we sought support 
from DOD, including using the Defense Contract Management Agency (DCMA) 
to monitor contractors' performance and management systems, and to 
protect U.S. Government property. DCMA staff are on the ground and 
experienced with these contracts, and we believe using DCMA for this 
contract support is a prudent use of available resources. DCMA provides 
contract administration services to many Federal agencies. DCMA support 
is paired with Department of State CORs on DOD contracts.
    The Department found that use of temporary Civil Service staffing 
authority is very useful in acquiring contract administration resources 
and we appreciate congressional support of this flexibility as well as 
for the President's Department of State budget requests.
    The Office of Acquisitions Management (AQM) has been using the OPM 
delegated Direct Hire Authority (DHA) for Acquisition Positions since 
March 2010. As a result, AQM has been able to successfully recruit 
professional acquisition force direct-hires as a result of this 
authority. The DHA ends for the entire Federal Government on September 
30, 2012. Extending this authority for 4 years (or indefinitely) will 
allow the Department to continue to recruit talented professionals, 
thereby adding to the existing professional government acquisition 
corps.

    Question (#145). Iraq/Afghanistan Personnel Casualties.--What 
system do you have in place for tracking State and USAID contractors in 
Iraq and Afghanistan?

    Answer. The Department uses the DOD Synchronized Pre-Deployment 
Operational Tracker (SPOT) as the official database to account for 
contractors in Iraq and Afghanistan.

    Question (#146). Please provide to the committee killed and wounded 
figures for the conflicts in Iraq and Afghanistan.

    Answer. Since the beginning of the conflicts in Iraq and 
Afghanistan, there have been a total of six deaths of direct hire 
Foreign Affairs employees--with the breakdown being one death in 
Afghanistan and five in Iraq. This number includes all Foreign Affairs 
employees from all agencies, excluding the Department of Defense.
    However the question of injury is a more complex issue. The number 
of Foreign Affairs employees that have been wounded during these 
conflicts varies depending on the type and severity of injury and when 
and where the injury occurred. The statistic that we have that most 
adequately captures the total number of injures in Iraq and Afghanistan 
is 190 injuries since the start of the conflict. We do not have data 
that indicates how many of these injuries are conflict related (e.g., 
mortar attack), and how many are routine (e.g., car accident).
    The Department does not have historic data on contractors killed 
and wounded as we only recently began tracking this data. The data for 
FY 2011 for the State Department is as follows:

U.S. DEPARTMENT OF STATE CONTRACTORS KILLED OR WOUNDED IN PERFORMANCE OF
              DUTIES  IN IRAQ OR AFGHANISTAN DURING FY 2011
------------------------------------------------------------------------
                                   Killed        Wounded        Total
------------------------------------------------------------------------
Afghanistan...................            7             6            13
Iraq..........................            0            10            10
                               -----------------------------------------
      Total number of                     7            16            23
       contractor personnel
       killed or wounded......
------------------------------------------------------------------------
 Data Source: Department Bureau Offices. Collected by a census process
  on a quarterly basis.

* The 7 deaths from Afghanistan were Afghan Nationals supporting mine
  clearance operations.


    Question (#147). Somalia.--The recent decision to support and 
contribute to the expanded U.N. Support Package for the African Union 
Mission in Somalia appears to pursue a similar approach proven 
misguided in the past; a foreign occupying force in a hostile country 
with few allies among the Somali population and a fundamentally flawed 
and incompetent government entity propped up by the international 
community. Compounding this further is the fact that the international 
community has little if any operational plan, lacks strategic 
agreements among the partner nations as to their respective roles or 
purposes, and has a decade-old and anemic political process which has 
marginal positive influence on the conflict.

  <bullet> Why should the United States agree to fund an expansion of 
        this mission to triple the force from its original size and 
        widely expand its mandate across the country with 
        circumstantial evidence of some recent international interest 
        in resolving this decades-long conflict?

    Answer. Stabilizing Somalia remains critical for our national 
security, counterterrorism, and foreign policy interests. The United 
States designated 
al-Shabaab as a Foreign Terrorist Organization in 2008, and the group 
announced its formal merger with al-Qaeda in early 2012. Al-Shabaab 
continues to use Somalia as a safe haven and base of operations and 
extremists in Somalia may threaten the United States and its interests. 
The ongoing conflict in Somalia, exacerbated by 
al-Shabaab, has bred instability across the Horn of Africa, displaced 
millions of Somalis, and fomented one of the world's worst humanitarian 
crises.
    The success of the African Union Mission in Somalia (AMISOM) is 
essential to achieving our national security goals in Somalia. 
Strengthening and expanding AMISOM is critical for establishing secure 
space for stabilization efforts and governance to take shape in 
southern and central Somalia. Legitimate governance and political 
reconciliation cannot take hold as long as al-Shabaab remains in 
control of large sections of southern and central Somalia.
    Regional efforts to combat al-Shabaab are degrading the group's 
capability to destabilize Somalia and the surrounding region, and are 
also intensifying preexisting fissures within the organization. It is 
critical that we help AMISOM to keep the pressure on the organization 
at this moment when it no longer controls Mogadishu, has ceded large 
swaths of territory, and is engaged in battles on multiple fronts.
    The Somali National Security Forces are playing a significant part 
in combating al-Shabaab, but they are not yet capable of operating on 
their own or holding territory for a sustained period of time without 
external support. Therefore, AMISOM's reach must be expanded in order 
to extend the reach of legitimate governance.
    We believe that the current international attention on Somalia is 
not fleeting--rather, we are seeing more and more partners step up with 
more than just words by providing actual resources. There was strong 
support for AMISOM expansion among countries in the region, the AU, and 
the U.N. Security Council. The U.K.-hosted London conference on Somalia 
significantly raised the profile of Somalia issues and reflected the 
high level of interest in the international community.
    In addition to the U.S. and EU support, we are now seeing less 
traditional donors such as Turkey step up with significant assistance 
for humanitarian, development and security sector reform efforts. Even 
China recently committed publicly to provide additional resources to 
AMISOM. We are strongly committed to ensuring that the United States is 
not left to carry the burden in terms of support for AMISOM and the 
Transitional Federal Government alone. We have consistently made clear 
to the AU the need to expand the pool of donors for both efforts.

    Question #148. What specific agreement has Kenya made in having 
their ill-conceived incursion and ill-experienced force fall under 
AMISOM authority?

    Answer. On February 22, the U.N. Security Council unanimously 
adopted Resolution 2036, which increased the mandated troop levels and 
expanded the mandate of AMISOM, thereby providing the opportunity for 
the AU to incorporate Kenyan forces into the AMISOM mission. AU and 
Kenyan officials are in the midst of formalizing the arrangement to 
incorporate Kenyan forces in Somalia into an expanded AMISOM. Once 
these Kenyan forces are officially part of AMISOM, Kenya will be 
eligible to receive the logistics support package from the U.N. Support 
Office for AMISOM (UNSOA) referenced in UNSCR 2036 that is provided to 
all Troop Contributing Countries.

    Question #149. What are the concrete commitments by troop-
contributing countries to date?

    Answer. As of March 13, the African Union (AU) lists the nominal 
force strength of the African Union Mission in Somalia (AMISOM) as 
9,779 troops, which includes 5,138 Ugandans, 4,445 Burundians, 100 
Djiboutians, and 76 multinational headquarters staff officers. Uganda 
and Burundi will deploy a combined 2,500 additional troops (on top of 
their current commitments) to AMISOM. Uganda's intended augmentation 
unit will complete training in April 2012. Burundi's intended 
augmentation unit will complete training in early May 2012. Djibouti 
has committed politically to deploying a full battalion of at least 850 
personnel (including the 100 currently deployed). There remain 
outstanding management issues that have slowed completion of the 
deployment. Sierra Leone has committed to providing a battalion of 850 
personnel to the mission, which would replace a Kenyan battalion in 
southern Somalia, according to AMISOM's latest Concept of Operations.
    Kenya has officially committed between 4,400-4,600 troops to the 
mission, although AU officials and Kenya are still negotiating final 
arrangements to formalize the incorporation of Kenyan forces into 
AMISOM. The U.N. Support Office for AMISOM (UNSOA) will conduct a 
predeployment visit with the Kenyan forces to determine the troop 
numbers, equipment classification, and equipment reimbursement rates, 
which will then be formalized in a Letter of Assist.

    Question #150. What further commitments are there relative to this 
expansion to the full complement given that even the last increase has 
not been achieved?

    Answer. If all of the AMISOM troop commitments made as of February 
28 are met (up to their full level), AMISOM will reach its full 
mandated force strength of 17,731 personnel. There are no additional 
commitments beyond those listed in the answer to QFR #149, nor could 
additional commitments be incorporated under the mandated force 
strength unless the mandate is further revised or current commitments 
are not met.

    Question #151. What does the full complement of the intended 
``support package'' contain by way of equipment, supplies, weapons, and 
funding?

    Answer. The United Nations Support Office for the African Union 
Mission in Somalia (UNSOA) has provided the logistical support for 
AMISOM since the adoption of U.N. Security Council Resolution 1863 
(2009). U.N. Security Council Resolution 2010 (2011) authorized and 
further enhanced the continuation of the U.N. logistical support 
package until October 31, 2012.
    UNSOA currently provides AMISOM troops, through assessed 
contributions, the following support items: water, food, fuel, power 
generation, maintenance, limited facilities construction, medical 
evacuation, limited medical support, communications equipment, kitchen 
equipment, stationery, and deployment/redeployment transportation. 
Assessed contributions also fund the U.N. Mine Action Service's 
advanced counterimprovised explosive device (IED) training for AMISOM 
troops.
    U.N. Security Council Resolution 2036 (2012) authorized the 
expansion of AMISOM from 12,000 to 17,731 troops and authorized UNSOA 
to extend the existing logistical support package to the additional 
AMISOM troops, as well as expand the scope of that package to include 
additional elements such as contingent owned equipment reimbursement 
and the addition of critical enablers.
    More specifically, the expanded package will add helicopters and 
fixed wing airplanes (the exact amounts have not yet been determined) 
that will support AMISOM's expanded areas of operation, as well as 
longer distance capacity vehicles (again, numbers not yet determined) 
to provide supplies through long overland lines of communication, 
additional combat engineering to provide route clearance (including 
counter-IED capability), and construction engineering to fortify 
positions.
    Some of these logistics capabilities will be organic to AMISOM, 
some will be contracted. The exact mix of the two is currently being 
discussed by the AU and UNSOA.

    Question #152. What criteria have been established to determine 
what elements of the support package is delivered when and to what 
entities?

    Answer. Only African Union Mission in Somalia (AMISOM) troop 
contributing countries are authorized to receive logistics support, 
counter-IED training, and reimbursement of contingent owned equipment 
from the U.N. Support Office for AMISOM (UNSOA), up to a maximum of 
17,731 uniformed and 20 civilian personnel. U.N. Security Council 
Resolution 2036 (2012) further reinforced this and requires the U.N. to 
ensure proper transparency and accountability, and application of 
internal controls to ensure that only AMISOM troop contributing 
countries receive UNSOA support. The United States is actively engaged 
with the U.N. and AU on these control measures to ensure proper 
utilization of resources.
    UNSOA is currently working with the AU on how best to support 
logistically AMISOM's expansion beyond Mogadishu. The addition of force 
multipliers and enablers, including helicopters, is essential to 
provide AMISOM with greater operational capability and flexibility to 
degrade al-Shabaab.

    Question (#153-155). United States assistance to Somalia includes 
bilateral, multilateral, and other avenues of funding including, 
humanitarian, diplomatic, technical capacity-building, peacekeeping, 
peacekeeper training, peripheral train and equip of neighboring forces, 
military and intelligence cooperation in the region, antipiracy, 
refugee and so on.

  <bullet> What is the total cost of United States assistance for 
        Somalia across all accounts on an annual basis from FY10 and 
        FY11 broken out by source and purpose in bilateral and 
        multilateral accounts?

    Answer. U.S. foreign policy objectives in Somalia are to promote 
political and economic stability, prevent the use of Somalia as a haven 
for international terrorism, and alleviate the humanitarian crisis 
caused by years of conflict, drought, flooding, and poor governance. 
The total cost of United States assistance to support efforts in 
Somalia across the Department of State and the United States Agency for 
International Development (USAID) accounts in FY 2010 is approximately 
$187 million and in FY 2011 is approximately $246 million. The table 
below is a breakdown of foreign assistance funding by program 
objective, program area, and by account. State Department operations 
funding for Somalia is also included for both years.

  SOMALIA FOREIGN ASSISTANCE BY ACCOUNT, PROGRAM OBJECTIVE AND AREA, FY
                              2010-FY 2011
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                  FY 2010      FY 2011
                                                   actual       actual
                                                   total        total
------------------------------------------------------------------------
USAID/State Somalia Foreign Assistance + State      187,001      246,621
 Operations Funding for Somalia TOTAL\1\......
USAID/State Somalia Foreign Assistance TOTAL..      185,861      245,969
Economic Support Fund.........................       31,270       19,627
  1 Peace and Security........................       12,000        8,436
    1.6 Conflict Mitigation and Reconciliation       12,000        8,436
  2 Governing Justly and Democratically.......       11,270        3,070
    2.2 Good Governance.......................        3,757        3,070
    2.3 Political Competition and Consensus-          6,433           --
     Building.................................
    2.4 Civil Society.........................        1,080           --
  3 Investing in People.......................        5,000        5,000
    3.2 Education.............................        5,000        5,000
  4 Economic Growth...........................        3,000        3,121
    4.6 Private Sector Competitiveness........        3,000        3,121
Global Health Programs--USAID.................        1,550        1,547
  3 Investing in People.......................        1,550        1,547
    3.1 Health................................        1,550        1,547
Nonproliferation, Antiterrorism, Demining and         2,353        2,000
 Related Programs.............................
  1 Peace and Security........................        2,353        2,000
    1.1 Counter-Terrorism.....................          353           --
    1.3 Stabilization Operations and Security         2,000        2,000
     Sector Reform............................
Peacekeeping Operations \2\...................      102,000       75,300
  1 Peace and Security........................      102,000       75,300
    1.3 Stabilization Operations and Security       102,000       75,300
     Sector Reform............................
Regional/Central Foreign Assistance Funding          48,688      147,495
 for Somalia \3\..............................
State/AF Economic Support Fund (Partnership           1,200           --
 for Regional East Africa Counterterrorism)...
  1 Peace and Security........................        1,200           --
    1.1 Counter-Terrorism.....................        1,200           --
State/PM Peacekeeping Operations (Global Peace       15,818       12,247
 Operations Initiative) \4\...................
  1 Peace and Security........................       15,818       12,247
    1.3 Stabilization Operations and Security        15,818       12,247
     Sector Reform............................
USAID/OFDA: International Disaster Assistance        16,667       46,620
 \5\..........................................
  5 Humanitarian Assistance...................       16,667       46,620
    5.1 Protection, Assistance and Solutions..       16,667       46,620
USAID/FFP: International Disaster Assistance             --       42,517
 \5\..........................................
  5 Humanitarian Assistance...................           --       42,517
    5.1 Protection, Assistance and Solutions..           --       42,517
USAID/FFP: Food for Peace Title II \5\........       15,003       46,111
  5 Humanitarian Assistance...................       15,003       46,111
    5.1 Protection, Assistance and Solutions..       15,003       46,111
State Operations Funding for Somalia TOTAL....        1,140          652
State/AF Diplomatic and Consular Direct                 602          477
 Funding......................................
State/AF Public Diplomacy Direct Funding......          538          175
------------------------------------------------------------------------
\1\ Figures do not include OE support costs from USAID/East Africa
  Regional Mission.
\2\ In FY 2011, $14.799 million in U.N. peacekeeping credits was applied
  to pay a portion of the FY 2011 UNSOA assessment.
\3\ In addition, funding was also provided from the Migration and
  Refugee Assistance and Emergency Refugee and Migration Assistance
  accounts to assist Somali IDPs and refugees in neighboring countries.
\4\ The Peacekeeping Operations (Global Peace Operations Initiative)
  funding listed above only includes that which has directly benefited
  troops deploying to Somalia (e.g. training or modest deployment
  equipment), primarily through Africa Contingency Operations Training &
  Assistance (ACOTA).
\5\ Humanitarian assistance funding is tracked by year of obligation.


  <bullet> Under the same criteria, what is the expected cost for FY12 
        and FY13 if the AMISOM force should achieve the last mandated 
        level by FY12, and what will it cost the United States at the 
        new mandated levels?

    Answer. We estimate the additional cost to the United States for 
the expanded troop level and support package is approximately $46 
million in the first year of expansion (of which a portion may be 
assessed in FY 2012) for increased staffing, infrastructure 
improvements, and equipment acquisition and approximately $38 million 
in subsequent years. This would lead to an estimated total U.S. share 
of assessed costs for U.N. Support Office for AMISOM (UNSOA), including 
the additional enablers, of approximately $138 million in the first 
year of the mandate and $130 million in subsequent years, compared to 
the FY 2013 Request level of $92 million.

  <bullet> Where will the funding for this operation be drawn given 
        that this was not incorporated in the FY13 budget request? What 
        will the tradeoff be in assistance elsewhere?

    Answer. In consultation with the Congress, the Department 
anticipates funding any new, additional requirements to support the 
African Union Mission in Somalia (AMISOM) by making tradeoffs within FY 
2012 and FY 2013 resources. The FY 2012 requirements will depend on the 
size and timing of U.N. assessments, which are expected in July or 
August. At that time, the Department will review options, including the 
status of available credits and/or whether to draw on the flexibility 
provided for the foreign assistance accounts within the FY 2012 
Overseas Contingency Operations appropriation. However, in order to use 
FY 2012 foreign assistance funds, the administration would need a 
legislative remedy that would allow for additional funds to be provided 
through the Peacekeeping Operations account (the FY 2012 Peacekeeping 
Operations appropriation caps the amount that can be provided to the 
U.N. Support Office for AMISOM at $91.8 million). As the FY 2013 
request for Contributions to International Peacekeeping Activities 
(CIPA) was based on assessed peacekeeping mission levels as of December 
2011 (when the budget locked for FY 2013), the Department plans to 
consult with Congress on the most appropriate funding source that would 
maximize transfer authorities.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                   Submitted by Senator Barbara Boxer

    Question. Though the Egyptian Government has lifted the travel ban 
on the six Americans who have been accused of spurring unrest in the 
country, the criminal charges against them have not been dropped and 
their trial is scheduled to resume in late April. As a result, there is 
considerable debate here in Congress about whether the United States 
should continue to provide assistance to the Egyptian Government and 
about the future of United States-Egyptian relations.

  <bullet> What is the current status of the negotiations to resolve 
        the issue of the American foreign aid workers? How do you see 
        this being resolved and can you give any timeframe? What, do 
        you believe, is the true motive behind the crackdown on civil 
        society organizations?
  <bullet> Do you believe you have the tools you need to exert 
        sufficient pressure on the Egyptian Government, including the 
        language included in last year's State and Foreign Operations 
        Appropriations bill which requires you to certify that Egypt is 
        meeting its obligations under the 1979 Egypt-Israel Peace 
        Treaty and that the government is ``implementing policies to 
        protect freedom of expression, association, and religion and 
        due process of law''?

    Answer. We have worked hard to urge the Egyptian Government to end 
its pursuit of the NGO case and its harassment of civil society 
organizations, to drop the charges against the NGO workers, and to 
return confiscated property. Although the travel ban on international 
NGO workers was lifted, the trials for the charged Egyptian and 
international NGO workers are ongoing. President Obama reached out to 
Field Marshal Tantawi; I have spoken many times with the Foreign 
Minister; and our military colleagues have reached out to their 
counterparts at the highest levels. Ambassador Patterson is working 
with all of the parties on the ground that are involved with or 
affected by the Egyptian investigation.
    The Egyptian Government's motivation in cracking down on these 
organizations is not entirely clear. The Ministry of Planning and 
International Cooperation has alleged that U.S. funding of unregistered 
NGOs violated an agreement between the United States and Egypt, but the 
United States has not agreed to such a restriction. The U.S.-funded 
organizations have been working in good faith to support Egypt's 
transition to democracy. They are respected organizations that receive 
support from the U.S. Government and have been working in Egypt with 
the sole goal of supporting Egypt's transition to democracy. We believe 
it is in Egypt's interest to allow these groups to operate and 
contribute to Egypt's transition. It is important to note that these 
Egyptian investigations also target domestic Egyptian groups performing 
work that is necessary and valuable for any democratic society. Civil 
society groups represent the views and aspirations of the people, which 
is what democracy is all about. In order for Egypt's democratic 
transition to succeed, these groups must be allowed to operate without 
restriction.
    While we work toward a resolution to the NGO crisis, we can't lose 
sight of the range of our strategic interests in Egypt. We have a great 
deal at stake here: our relationship with the largest Arab country, 
transit and over-flight rights, the Israel-Egyptian peace treaty, and 
our support for democracy and political transition in the Arab world. 
In terms of our bilateral assistance to Egypt, we are guided by the 
need to safeguard our interconnected strategic interests: maintaining a 
critically important bilateral partnership with Egypt and supporting 
the success of a democratic transition for Egypt that meets the 
aspirations of all Egyptians.

    Question. Currently, there is a law in Afghanistan that permits the 
arrest and imprisonment of women fleeing situations of domestic abuse.

  <bullet> Is the United States putting pressure on Afghan President 
        Hamid Karzai to change this appalling law?
  <bullet> How can we continue to push the Afghan Government to ensure 
        that women's rights are safeguarded?

    Answer. While there is no codified Afghan law that permits the 
arrest and imprisonment of women for fleeing situations of domestic 
abuse, the Supreme Court issued an advisory opinion in 2010 that women 
who flee their homes and do not immediately go to the police or a close 
relative should be imprisoned as a precaution against promiscuity and 
prostitution. As a result, women and girls continue to be wrongfully 
imprisoned through common practice and deference to arguable 
interpretations of tribal and Sharia Law.
    The Afghan Constitution enshrines women's rights, and the 2009 Law 
for the Elimination of Violence against Women, which President Karzai 
passed by decree, codifies vital protections. These protections include 
the criminalization of 23 acts of abuse toward women and girls, 
including but not limited to rape, forced prostitution, domestic 
violence, baad or giving girls as payment to settle family or tribal 
disputes, forced marriage, underage marriage, and prohibiting a woman 
or girl from accessing education or work. We know this law can only 
achieve full effectiveness when implemented in its entirety and 
enforced at all levels, which is why we will continue to support 
programs that raise awareness on the rights of women and ensure these 
rights are protected. Our programs are also working to educate legal 
professionals, justice sector officials, and citizens on this issue, 
and to uphold the protections guaranteed to women, children, and all 
Afghan citizens under the law. For example, DRL funds several programs 
that aim to increase government and civil society capacity to advance 
women's access to justice; as a result of one DRL project, 92 percent 
of women in eight provinces reported their access to justice has 
increased and 70 to 90 percent expressed there has been an increase in 
awareness of women's rights in their communities.
    Additionally, the Bureau of International Narcotics and Law 
Enforcement Affairs (INL) established an international fund for Afghan 
women's shelters in 2011, helped develop a permanent Afghan Shelter 
Network for stakeholders, increased provincial shelter presence and 
legal aid coverage by 67 percent since 2010, and tripled the number of 
prosecutorial Violence Against Women Units since 2011. We now support 8 
of the 14 total shelters in Afghanistan for women seeking violence-free 
lives for themselves and their children. Combined, these shelters--run 
by Afghan women for Afghan women--benefit more than 1,000 women and 
children each year in seven provinces, providing housing, education, 
skills training, health care, and legal aid and mediation services for 
victims of domestic abuse.
    We also provide training for prosecutors at Violence Against Women 
(VAW) Units at the Office of the Attorney General in Kabul, supported 
the opening of four new provincial VAW Units, with two more to open 
this year. These units are dedicated to prosecuting crimes against 
women and girls and have led to 26 convictions so far. More than 750 
women from 23 provinces have initiated cases through the VAW Unit in 
Kabul since it opened in March 2010.
    Additionally, INL aids incarcerated Afghan women through the 
Corrections System Support Program, which supports six female 
corrections advisors who work with women and their children in prison. 
This program also provides educational, recreational, and vocational 
materials to incarcerated women in eight Afghan provinces.
    Through the Bureau of Population, Refugees, and Migration (PRM), 
the State Department has also partnered with international 
organizations and NGOs to support prevention of and response to gender-
based violence in Afghanistan. These projects improve women's knowledge 
of their rights, increase access to support services including medical 
care and counseling, and develop sustainable livelihood opportunities 
for Afghan women. Additionally, PRM funds health care and education 
programs, both in Afghanistan and for Afghan refugees in Pakistan, 
which focus on reducing child and maternal morbidity and mortality.

    Question. Recently, Russia and China vetoed--for the second time--a 
U.N. Security Council resolution that would have condemned President 
Bashar al-Assad's violent crackdown on protesters in Syria.

  <bullet> Can you speak to Russia and China's motivation in protecting 
        the Syrian Government?
  <bullet> Do you see any chance of Russia and China backing off their 
        opposition to any condemnation of the Assad regime's violence?

    Answer. Secretary Clinton and Ambassador Rice have unequivocally 
expressed the United States profound disappointment with China's and 
Russia's vetoes of Security Council resolutions on Syria in October and 
February. The United States has long maintained that strong action by 
the Council is overdue and essential.
    The United States diplomatic effort with Russia on this issue has 
been extensive. The Secretary has spoken with Foreign Minister Lavrov 
numerous times to discuss Syria and met with him February 4 and again 
March 12 following his attendance at a meeting of the Arab League in 
Cairo. While Russia has yet to agree to a resolution text, the United 
States and Russia both support the mission of the U.N. and Arab 
League's special envoy, Kofi Annan. We have also welcomed Russia's 
interest in extending humanitarian assistance to Syrians and its 
support for the missions of both Annan and Valerie Amos, the Under 
Secretary General for Humanitarian Affairs/Emergency Relief 
Coordinator.
    The United States continues to engage significantly with China on 
this issue. The issue of Syria has been raised with the Chinese 
Government at the highest levels, including with Chinese Vice President 
Xi Jinping during his mid-February visit to Washington. While the 
Chinese have also not yet agreed to a resolution text, we continue to 
press the issue with them. Their recent six-point plan on Syria, 
coupled with their recent $2 million donation to the Red Cross for 
humanitarian work in Syria, shows an interest in appearing to be seen 
as an active proponent of a peaceful resolution of the situation--and 
as an impartial party condemning the violence ``on all sides''--rather 
than a supporter of Assad's regime.

    Question. On January 17, a Turkish court ruled that no government 
officials were involved in or aware of a plot behind the 2007 murder of 
the Turkish Armenian journalist Hrant Dink.

  <bullet> Are you satisfied with Turkey's record in properly 
        investigating and prosecuting Mr. Dink's murder?
  <bullet> Have you made any statements--public or private--to express 
        concern about the persecution of writers in Turkey for their 
        sentiments on the Armenian Genocide?

    Answer. Full accountability is integral to the vitality of any 
democracy. We continue to monitor the progress of the Hrant Dink case 
closely, including the January 17 verdict and the filing of an appeal 
by the Istanbul Prosecutor Chief Prosecutor. We were encouraged by the 
issuance on February 20 of a State Inspection Council (DDK) report 
acknowledging mistakes were made in the investigation of government 
officials alleged to have acted negligently in preventing Mr. Dink's 
murder. U.S. officials in Turkey will continue to attend court hearings 
and discuss the case with both Turkish officials and the human rights 
community.
    We remain concerned about limits on free expression in Turkey, 
including limits on commentary on the horrific events of 1915, which 
President Obama has described as one of the worst atrocities of the 
20th century. The Ambassador and other U.S. officials have expressed 
our concerns about media freedom at all levels, both publicly and 
privately, to the government. I referenced this issue during a speech 
on United States-Turkey relations at the American Turkish Council on 
October 31, saying, ``A vibrant economy depends upon the free exchange 
of ideas, the free flow of information, and the rule of law.'' I also 
highlighted the issue in public remarks during my July 2011 visit to 
Turkey.
    The Turkish Government, including at senior levels, has conveyed 
its commitment to address concerns about media freedom in Turkey. The 
government forwarded an important package of judicial reforms to 
Parliament in January that, if enacted, would stop investigations and 
annul convictions of press offences carrying a sentence of less than 5 
years. Turkey's Parliament is also redrafting the 1982 constitution to 
better protect individual rights and freedoms. Of course, these 
measures are just a first step; Turkey must go further. We will 
continue to monitor developments in Turkey, stressing the importance we 
attach to concrete measures to expand media freedom in law and 
practice.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator Robert Menendez

    Question. Palestinian Unity Talks.--An agreement between Fatah and 
Hamas to form a unity government would be a real setback for peace. 
Hamas remains a terrorist group bent on Israel's destruction. On May 5 
of last year, Madame Secretary, you stated that the United States has 
``made it very clear that we cannot support any government that 
consists of Hamas unless, and until, Hamas adopts the Quartet 
principles.'' Does that position still hold? What happens to U.S. 
assistance to the Palestinians if a unity government including Hamas is 
formed?

    Answer. We continue to closely monitor developments related to 
Palestinian reconciliation, including the February 6 ``Doha 
Declaration'' and its possible implementation.
    There have been a number of public agreements regarding Hamas-Fatah 
reconciliation over the past few years, but very little has happened on 
the ground. To date no changes have been made in the structure and 
makeup of the Palestinian Authority (PA)--Mahmoud Abbas remains the 
President and Salam Fayyad remains the Prime Minister. Palestinian 
security forces continue to actively pursue and arrest those seeking to 
undermine stability, including Hamas militants.
    Our position has not changed. Hamas remains a designated Foreign 
Terrorist Organization. We have been clear with the Palestinian 
leadership about the principles that must guide a possible future 
Palestinian Government in order for it to play a constructive role in 
achieving peace and building an independent state. Any Palestinian 
Government must embrace the ``Quartet Principles''--it must 
unambiguously and explicitly commit to nonviolence, recognition of 
Israel, and acceptance of previous agreements and obligations between 
the parties. President Abbas has been clear that he remains committed 
to those principles. If a new government emerges, we will evaluate it 
carefully in accordance with the provisions of U.S. law, including the 
provisions of the 2012 appropriations act. We will ensure our policy 
toward such a government fully complies with that law.

    Question. I would like to draw your attention to the very troubling 
security situation in Mexico, Central America, and the Caribbean. The 
Obama administration has sought to develop collaborative partnerships 
with countries throughout these two regions, via Merida, CARSI, CBSI. 
On the one hand, I applaud the administration's counternarcotics 
efforts which have been very effective in establishing a cooperative 
security relationship between the United States and other countries.
    On the other hand, the security situation for citizens living in 
the region is growing worse by the day. Homicides are up in every 
country in Central America. Crime is rampant throughout the Caribbean 
and even vacationing U.S. Supreme Court Justices are not immune from 
the violence. The narcotraffickers are buying off government officials 
and corruption has returned to the region with a vengeance: The people 
are losing faith in the police; judicial institutions are being 
undermined; elections are being bought with drug profits. Citizens of 
nearly every Central American nation now rank public insecurity as the 
top problem facing their countries.
    In September, President Obama identified every Central American 
country as a major drug transit country, with Belize and El Salvador 
making their first appearance on the ``drug majors'' list. The use of 
Central America as a transshipment zone has grown, as traffickers have 
used overland smuggling, littoral maritime trafficking, and short-
distance aerial trafficking rather than long-range maritime or aerial 
trafficking to transport cocaine from South America to Mexico. 
Currently, as much as 90 percent of all illicit drugs that enter North 
America have transited Central America. This use of the Central 
America-Mexico corridor as a transit zone represents a major shift in 
trafficking routes and as we seek to close these routes, the cartels 
are rebuilding their transit routes through the Caribbean.
    Madam Secretary, we are losing the fight against drugs right here 
in our own front yard. The pervasive lack of security in the region not 
only threatens regional governments and civil society, but the United 
States--whether in the form of declining support for democracy as a 
result of corrupt governance, drug traffickers acting with impunity as 
a result of weak state presence, or increased emigration as a result of 
economic and physical insecurity.
    So I am extremely concerned when I look over the funding request 
for CARSI and CBSI, and see that both programs are severely underfunded 
in the FY13 appropriations request. The CARSI request is for $107.5 
million, up just $2.5 million from the FY12 request; and the CBSI 
request is $59 million, down from $73 million requested in FY12. How 
can the administration justify a 19-percent reduction in CBSI when A/S 
Brownfield testified at a hearing I chaired last year that the drug 
cartels are moving back into the Caribbean. These are his words: ``The 
handwriting is on the wall. They [the cartels] will return. We know 
we're going to have to deal with this crisis again. It is in our 
interest . . . to prepare for it now and in advance.''
    And how can the administration justify a small increase in CARSI 
funding when in 2010, more cocaine was confiscated in Costa Rica, 
Panama, and Nicaragua than Mexico? We are on the verge of a failed 
state in Honduras, and this is how we allocate our resources? Why is 
the administration requesting more than $500 million of INL money to 
train police in Iraq when we have as great, if not a greater, threat in 
our own hemisphere? Madam Secretary, I recognize the importance of the 
``front line states,'' but we are spending billions of dollars on 
states that don't want American help, rather than our neighbor's in 
this hemisphere who bear the brunt of America's drug habit and are 
literally begging for more cooperation and more assistance.

    Answer. Threats posed by trafficking and transnational crime to the 
rule of law in Central America and the Caribbean directly impact U.S. 
interests and national security. The administration's FY 2013 request 
for the Western Hemisphere prioritizes U.S. assistance to counter these 
threats, especially in Central America and the Caribbean. U.S. security 
assistance for Central America and the Caribbean emphasizes training 
and capacity building, which supports sustainability and builds 
stronger institutions to counter rule of law threats for the long term.
    The $107.5M FY 2013 request for Central America Regional Security 
(CARSI) Initiative will continue training and capacity efforts 
initiated with prior year U.S. assistance to strengthen Central 
America's capacity to administer the rule of law and counter threats 
posed by trafficking and transnational crime, particularly in El 
Salvador, Guatemala, and Honduras. CARSI assistance will remain heavily 
oriented toward training, mentoring, professionalization, and capacity-
building for law enforcement personnel and rule of law institutions. 
CARSI community action and municipal crime prevention activities 
address at-risk segments of society and marginalized communities.
    In the Caribbean, the $59M FY 2013 request for the Caribbean Basin 
Security Initiative (CBSI) reflects a transition from initial 
investments, made with prior year U.S. assistance, in the acquisition 
of new equipment systems and hardware. FY 2013 CBSI assistance will 
emphasize sustainment of those systems, follow-on training and 
capacity-building, and ongoing prevention activities, all of which are 
lower cost.

    Question. Press Freedom in Latin America.--Madam Secretary I am 
greatly concerned about the deteriorating state of press freedom in 
Latin America. Without a free and independent media, no country can 
claim to be a democracy. Yet journalists throughout the region are 
being harassed and penalized when they speak out against corrupt 
governments; they are being shot and killed by drug cartels when they 
report on narcotrafficking; and they now find themselves subject to 
criminal and tax penalties of corrupt judicial systems.
    This last issue of criminal liability is a particularly troubling 
trend. When elected officials in Latin America are feeling the heat of 
a critical fourth estate, they too often turn to new laws and the 
criminalization of libel and slander in order to silence the offending 
journalists. Much like we see in Russia, governments in Latin America 
are now willing to use the court system to mandate jail sentences on 
journalists, or to impose exorbitantly large tax bills on their media 
companies to eliminate private media and to support government-
controlled media. However, unlike Russia, I don't see the State 
Department speaking out against this censorship in Latin America.
    I want to highlight two recent cases in Latin America of government 
censorship through corrupt judicial systems. In Ecuador, the case of El 
Universo newspaper is very troubling. After an editorial in February 
2011, that President Correa found to be offensive, he sued for libel. 
After a number of hearings, the high courts found in the President's 
favor to the tune of $42 million and mandated jail sentences for the 
editor and the two owners of the paper. One of the judges in the case, 
after she fled to Colombia, announced that she had been offered bribes 
from the government to find the paper guilty. After immense 
international pressure, Correa announced pardons for El Universo and 
several others accused of libel, but not without noting that he had 
won, stating ``We have shown that you can sue and beat the abusive 
media.''
    In Venezuela, the owners of last independent TV station, 
Globovision, are seeking asylum in the U.S. because of persecution by 
the Chavez regime. The government has used the court system to impose 
absurd taxes on the station in an effort to drive it out of business, 
or to allow the government to buy shares and take over the board of 
directors. The owners have already lost a number of businesses that 
they owned outside of the media sphere, and family members have 
received threats, at least one has sought asylum in this country. The 
Venezuelan Government has literally put all of the independent media 
out of business, and now the newspapers and airwaves are entirely 
controlled by Chavez's cronies. How can the Venezuelan people expect 
free, fair elections in October if the opposition does not get equal 
coverage in the media?
    Are you concerned about this trend in the Americas, where the press 
is directly or indirectly forced to self-censor or be subjected to 
legal suit, forced to flee their countries and worse?
    Again, Madam Secretary, what is the State Department's position on 
this matter, and do you have any concrete actions that you can take to 
help remedy this situation.

    Answer. We are deeply troubled about recent threats to media 
freedom in the Western Hemisphere, and particularly the individual 
cases you mention. The past 5 years have reversed a 20-year positive 
trend, with declines in freedom of expression, due to government 
pressures in countries like Venezuela, Ecuador, and Nicaragua, and due 
to violence and intimidation from transnational criminal groups in 
Mexico and Central America. The Department of State's ``Country Reports 
on Human Rights Practices,'' reports and statements by the OAS Special 
Rapporteur on Freedom of Expression, NGO reports, and other data 
document clearly the challenges to media outlets and individual 
journalists from both government and nongovernment actors.
    The examples of the El Universo and Gran Hermano libel cases in 
Ecuador show how international pressure can help push back on 
government attempts to quash freedom of expression. We have vigorously 
and repeatedly spoken out and expressed our concerns to the Ecuadorian 
Government on these cases, citing the Inter-American Democratic 
Charter's words that freedom of expression is an ``essential 
component'' of democracy, and stated unequivocally that democratically 
elected leaders have a responsibility to ensure political and legal 
space for freedom of expression. We continue to urge the Ecuadorian 
Government to address the potentially chilling effect on press freedom 
as a result of these and other cases.
    The Venezuelan Government continues to harass and intimidate 
privately owned and opposition-oriented television stations, media 
outlets, and journalists by using threats, fines, targeted regulations, 
property seizures, criminal investigations, and prosecutions. These 
actions have led the independent media to engage in self-censorship due 
to fear of government reprisal. The Department has repeatedly and 
publicly stated that a free and independent media plays the key role in 
the dissemination of information and views, which is essential to a 
well-functioning democracy. We will continue to speak out when the role 
of this critical democratic institution, part of the foundation of any 
healthy democracy, is targeted by the Venezuelan Government.
    In countries as diverse as Argentina, Paraguay, Nicaragua, 
Suriname, and Panama, heavy-handed government attempts to influence 
media, in some cases including imposition of restrictive legal 
frameworks and denying or suspending licenses, threaten the free flow 
of information. In Nicaragua, President Ortega has been consolidating a 
monopoly of television and radio stations owned by him and his family. 
The government uses harassment, censorship, arbitrary application of 
libel laws, and national security justifications to suppress reporting, 
and withholds government advertising contracts from independent media.
    Government-driven pressure inhibits media expression in numerous 
countries in the region. Government control of traditional media in 
Cuba (press, television, radio) is complete, leaving Cubans isolated 
and eager for unfiltered news from outside the island, about events on-
island and worldwide. Cuba has one of the lowest levels of Internet 
penetration in the world, and the Cuban Government remains intent on 
barring the vast majority of the populace from gaining unfettered 
access to the Web. The level of self-censorship among the Cuban 
population is extremely high due to real and perceived threats if they 
speak candidly and on the record. Some Cuban activists who are also 
independent journalists have been imprisoned for their activities.
    [Criminal violence, particularly in Mexico and Central America, has 
taken a heavy toll on journalists' lives and has a chilling effect on 
media coverage as well as on efforts to galvanize public support for 
anticrime programs. The Mexican Government has taken numerous steps to 
improve protections for journalists. On March 13 the Mexican Senate 
unanimously approved constitutional reforms that would federalize 
crimes against journalists.]
    Through diplomatic engagement and public statements, the Department 
of State calls attention to the obstacles to freedom of expression and 
conveys support for those who strive to protect it, regardless of 
whether the threat comes from government or nonstate actors. Our 
embassies engage consistently with media organizations, human rights 
groups, journalists, and governments in the countries where freedom of 
expression is under threat. In Honduras we are supporting the Special 
Victims Task Force, which investigates the murders of journalists, 
among others. We are enhancing our public diplomacy programs focused on 
journalist education and safety, and on social media's capacity to 
buttress freedom of expression. The Bureau of Democracy, Human Rights 
and Labor as well as USAID manage programs throughout the region to 
work toward decriminalization of libel, promote independent journalism, 
empower civil society to support freedom of expression, improve the 
quality of investigative journalism, and provide journalists with tools 
to protect themselves in a climate of intimidation.

    Question. There have been increasing cease-fire violations in 
Nagorno Karabakh, with the most recent resulting in the death of an 
Armenian soldier. Azerbaijan's President has repeatedly stated that 
only the first stage of war is over. The three Minsk Group Cochairs 
have all called for the pulling back of snipers as a crucial step for 
decreasing the tensions. It has been at least a year since both Armenia 
and Nagorno Karbakh have agreed to this proposal, but Azerbaijan has 
not. What are you doing to encourage Azerbaijan's acceptance of this 
important proposal to prevent war from resuming in this vital area for 
U.S. interests?

    Answer. As a cochair of the OSCE Minsk Group, the United States 
remains deeply committed to assisting the sides of the Nagorno-Karabakh 
conflict to reach a lasting and peaceful settlement. We reiterate at 
every opportunity that there is no military solution to the conflict, 
and that only a peaceful settlement will lead to security, stability, 
and reconciliation in the region. We regret any loss of life, and 
continue to call upon the sides to take steps--including the withdrawal 
of snipers--to improve the atmosphere for negotiations, prevent 
unnecessary casualties, and strengthen implementation of the cease-
fire.

    Question. Turkish Prime Minister Erdogan ordered the demolition of 
a statue to Armenia-Turkey friendship last April and in February 
protesters in Turkey, including Turkey's Interior Minister and other 
senior Turkish Government officials, walked the streets with signs 
saying, ``You are all Armenians, You are all bastards,'' and ``Today 
Taksim, Tomorrow Yerevan: We will descend upon you suddenly in the 
night.'' A correspondent for the French Daily Le Monde noted that the 
``embers of 1915 are still burning.'' Have you ever publicly condemned 
any of these actions, which foment dangerous anti-Armenian hatred in 
Turkey and destabilize the region?

    Answer. I have stated publicly and privately that the rights of all 
individuals in Turkey must be protected, that individuals should enjoy 
human rights and fundamental freedoms, including the freedom to 
practice their religion and speak their minds. In public statements 
following my extensive bilateral meetings with Foreign Minister 
Davutoglu in Washington on February 13, I was clear that we are 
continually interested in the very important work being done by the 
Government of Turkey on religious freedom, and the return of property 
to religious communities. We continue to urge governments, civil 
society leaders, clerics, human rights groups, and all people of 
conscience in all nations, including Turkey, to speak out against 
ethnic and religion-based hatred. In my speech at the Annual Conference 
on U.S.-Turkey Relations on October 31, 2011, I stated that Turkey's 
ability to realize its full potential depends upon its resolve to 
strengthen democracy at home and promote peace and stability in the 
neighborhood. Turkey's ongoing constitutional reform process represents 
a valuable opportunity to strengthen its democracy, and I have had very 
productive conversations with the highest levels of the Turkish 
Government about taking this opportunity to deepen Turkey's respect for 
human rights for all Turkish citizens, including the right to speak and 
worship freely. It is important to note that the Turkish people 
themselves, and their leaders, are increasingly and publicly expressing 
their support for better relations with Armenia and their opposition to 
hateful speech and actions. For example, Prime Minister Erdogan 
publicly condemned the individuals who disrupted the February 26 
demonstrations marking the 20th anniversary of the Hocali incident with 
anti-Armenian signs and slogans. Turkish citizens organized a 
counterdemonstration on March 4 and drew a larger crowd to express 
outrage over the hate speech featured in the previous week's 
demonstration and demonstrate solidarity with Turkey's Armenian 
minority.

    Question. For more than 25 years, Camp Ashraf in Iraq has been home 
to over 3,000 Iranian refugees. Though the MEK has been included on the 
U.S. terrorist list since 1997, we have considered the residents of 
Camp Ashraf to be ``noncombatants'' and ``protected persons'' under the 
Geneva Conventions since 2004. With the complete withdrawal of our 
troops from Iraq this past December an agreement was reached that sent 
many members of Camp Ashraf to the former U.S. military base, Camp 
Liberty. Over the past few weeks, however, residents have expressed 
concern about the size, infrastructure, and treatment of the refugee 
group since they arrived at their new home, asserting that ``In a 
nutshell, Camp Liberty lacks the most basic international humanitarian 
standards and human rights standards'' and ``is a prison from all 
respects.'' Could you comment on the transfer of residents from Camp 
Ashraf to Camp Liberty, the conditions at the latter and what is being 
done to address these concerns?

    Answer. As you noted, on December 25, 2011, the United Nations 
(U.N.) and the Government of Iraq (GOI) signed a Memorandum of 
Understanding (MOU), which paved the way for a peaceful and humane 
temporary relocation of Ashraf residents to Camp Hurriya and their 
eventual departure from Iraq. The United States has publicly supported 
the MOU, while also calling on the GOI to abide by the MOU's terms, 
specifically the elements of the MOU that provide for the safety and 
security of the residents.
    On January 31, following much work by the GOI, the U.N. High 
Commissioner for Refugees (UNHCR) and U.N. Human Rights Office in 
Baghdad determined the infrastructure and facilities at Camp Hurriya to 
be in accordance with international humanitarian standards, as required 
by the MOU.
    On February 18, the first group of about 400 Ashraf residents 
relocated to Camp Hurriya. The U.N. Assistance Mission for Iraq (UNAMI) 
and the Office of the UNHCR, as they had committed, supported that 
relocation through human rights monitoring and mediation of certain 
issues between the GOI and the residents. There were complications 
during that move, but despite delays, it took place peacefully and the 
GOI provided significant resources for the protection of the residents' 
travel. U.S. officials from Embassy Baghdad also observed portions of 
this movement, at both Ashraf and Hurriya.
    At Hurriya, the UNHCR has begun a verification and refugee status 
determination process for the relocated residents, and U.N. monitors 
maintain a round-
the-clock presence. The residents at Hurriya, who have access to the 
Internet and unrestricted ability to communicate with anyone outside 
Hurriya, have identified problems with certain facilities at the camp. 
UNAMI, with support from U.S. Embassy Baghdad, has acted swiftly to 
seek repairs to those problems by the GOI. UNAMI and U.S. officials 
have also urged leaders of the residents to work directly with the GOI 
on resolving remaining and future logistical issues. We have seen some 
progress between the residents and the GOI on finding practical 
solutions in that regard. Patience and flexibility is required, and 
both the GOI and residents must cooperate to find solutions to the 
issues and problems that still exist.
    In addition to our general support for these U.N. efforts, 
officials from U.S. Embassy Baghdad joined UNAMI in observing parts of 
the relocation and U.S. Embassy officers have visited Hurriya 
frequently since. We remain attentive to the situation at Ashraf and 
Hurriya and remain in active, regular contact with both the U.N. and 
the GOI in support of completing a peaceful and safe relocation 
process.
    The prompt decision of the remaining Ashraf residents to continue 
relocations to Hurriya is vital in moving forward with the work of 
UNHCR and the subsequent relocation of individuals out of Iraq. We 
share your interest in seeing a peaceful conclusion to this issue and 
we look forward to continuing our dialogue with you.
    The residents of Camp Ashraf do not have the status of ``protected 
persons'' under Fourth Geneva Convention. After the end of the 
occupation of Iraq, the Multi-National Force-Iraq (MNF-I) continued to 
treat the residents of Ashraf as ``protected persons'' as a matter of 
policy, not as a matter of legal obligation, until 
MNF-I's U.N. mandate expired at the end of 2008. With the expiration of 

MNF-I's U.N. Security Council Resolution mandate, the Government of 
Iraq assumed security responsibility for Ashraf.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question (#1). Women in Afghanistan and Reconciliation.--Last 
month, in a sign that they are moving toward formal talks with the 
American-led coalition in Afghanistan, the Taliban announced they were 
opening a political office in Qatar that could allow for direct 
negotiations over the endgame in the Afghan war. Now that 
reconciliation looks like more of a reality, how are we ensuring that 
women are actually a meaningful part of that transition and will not be 
edged out as the Taliban enters?
    Further, as we draw down from Afghanistan what are our contingency 
plans for Afghan women during that transition process? Will we be in 
the position to bring Afghan women over as refugees to the United 
States if their physical safety is in danger in an Afghanistan with a 
more conservative and Taliban-influenced leadership?

    Answer. The U.S. Government is committed to promoting the full 
range of human rights of Afghan women as their involvement is critical 
to the future stability and development of Afghanistan. We have 
invested in policies and programs to foster women's leadership capacity 
in all areas of political participation, decisionmaking, and civil 
society. The essential role of women in peacebuilding, reconciliation, 
and conflict resolution is at the core of the recently launched U.S. 
National Action Plan on Women, Peace and Security.
    The U.S. goal in supporting reconciliation is to get Afghans 
talking with other Afghans about the future of their country. We have 
said from the start that negotiations must meaningfully include women, 
as well as ethnic minorities and members of civil society. One of our 
redlines is that insurgents who want to reconcile must commit to abide 
by Afghanistan's Constitution and the rights enshrined in it--including 
women's rights to political participation; to basic freedoms, such as 
access to health services, education, and the right to work; and to 
live free from violence. For a stable and secure future in Afghanistan, 
women must be included at all levels of the reconciliation process.
    We are incorporating gender issues into our strategic thinking and 
program support in the peace processes, including at the local and 
district levels. We are working with the Department of Defense (DOD) to 
ensure that funding available for reintegration supports initiatives 
and community development projects that benefit women and girls. In 
addition, the Bureau of Democracy, Human Rights and Labor (DRL) now 
requires all those applying for grant funding to include information on 
how their programs will address the human rights concerns of 
marginalized populations, particularly women. To further implement the 
focus on gender integration outlined in the Quadrennial Diplomacy and 
Development Review (QDDR), we have issued the State Department's first-
ever Policy Guidance on Promoting Gender Equality to Achieve our 
National Security and Foreign Policy Objectives to build on existing 
efforts to integrate gender throughout all of the State Department's 
diplomatic and development work. The guidance emphasizes four key 
mechanisms for achieving gender integration: planning and budget 
development, programming, monitoring and evaluation, and management and 
training. Similarly, USAID has solidified its commitment to women's 
programming with the recently unveiled Gender Equality and Female 
Empowerment Policy and the Counter Trafficking in Persons Policy. These 
policies are all in line with the December 2011 National Action Plan on 
Women, Peace and Security and related Presidential Executive order on 
the same topic, and seek to fully integrate the role of women in peace 
processes.
    Our activities are closely aligned with the National Action Plan 
for the Women of Afghanistan (NAPWA), which reflects Afghan women's own 
priorities for their political, economic, and social empowerment. USAID 
is taking several steps to reinforce our commitment to empowering women 
which include: (1) the issuance of a Mission Order on Gender in 
September 2011, which institutionalizes a gender approach for all USAID 
Afghanistan programming; and (2) undertaking over 20 gender analyses of 
existing and new programs to ensure that current and future programming 
is compliant with Agency policy as put forward in the recently released 
directives referenced above. These analyses will help maximize USAID 
funding. Evidence of this focus is represented in our ``Stabilization 
in Key Areas'' (SIKA) program, which will have a Gender Advisor at each 
of the platforms, working with the Contracting Officer's Representative 
(COR), to enhance coordination and effective project design. Since 
2008, we have more than doubled spending attributed to women and girls, 
as well as created and fully staffed a new Gender Unit in 2010.
    In addition, we continue to provide our full suite of traditional 
development programs for women. In the past year alone, we have 
provided more than 500 grants for capacity-building for civil society, 
basic education, women's equality under the law, land reform, 
microenterprise, and political and social advocacy. USAID advises the 
Ministry of Women's Affairs to help it advocate for policies that 
promote and protect women's rights. Specifically, USAID is working with 
the Ministry on implementation of the National Action Plan for the 
Women of Afghanistan.
    We are also fully engaged with organizations such as the 
Afghanistan Independent Human Rights Commission and the Afghanistan 
Women's Network to ensure that they are capable of driving a women's 
rights agenda as well as a gender-conscious approach to development.
    We are also developing a new strategy and package of programs 
called ``Women in Transition'' (WIT). WIT will focus on providing 
mainstream business and employment opportunities for women through 
targeted technical and vocational training, business development 
services and small- and medium-sized enterprise financing. Both the 
strategy and programs are designed to firmly entrench women as leaders 
in the development of their own country.
    We know that no society can advance if half of its population is 
left behind. Therefore, we will also continue to support Afghan women's 
own efforts to be meaningfully included in seminal, countrywide 
political decisionmaking processes as we have since the end of Taliban 
rule, such as at the 2001 Bonn Conference, the London Conference, 
Consultative Peace Jirga, Kabul Conference, and Bonn 2011, in order to 
support the long-term transition and development of Afghanistan.
    With regard to resettlement of Afghan women, generally, to be 
considered a refugee, a person must be outside his or her country of 
nationality. The United States has resettled Afghan refugees, including 
vulnerable women, for decades. We will continue to accept resettlement 
referrals of Afghan refugees from the United Nations High Commissioner 
for Refugees (UNHCR) as long as there is a need.

    Question (#2). Iraqi Refugees.--As you may know, Section 1244(e) of 
the National Defense Authorization Act of 2008--The Refugee Crisis in 
Iraq Act--requires that your Department provide protection, or the 
immediate removal from Iraq, for Iraqis who are in imminent danger 
because of their work for the United States and are still awaiting the 
issuance of their Special Immigrant Visas. What procedures have been 
put in place to provide protection for these U.S.-affiliated Iraqis?
    In order to reduce the costs of operating our Embassy in Baghdad, I 
understand that efforts are being made to increase the number of local 
employees and to increase sourcing goods and services locally. Are the 
ongoing threats to Iraqis who work for the United States and the 
extreme delays in processing Special Immigrant Visas for them having an 
impact on increasing local hires in Iraq?

    Answer. The overall situation in Iraq remains the subject of 
concern, but we note that all Special Immigrant Visa (SIV) applicants 
must either be under threat, or have experienced threat to qualify for 
the program. In practical terms, it is very difficult to validate 
objectively and qualify a threat as imminent. The U.S. Embassy is 
unable to provide protection to SIV applicants inside Iraq, but for 
those who consider themselves in imminent danger, the State Department 
is able to process their SIV applications in neighboring countries, 
should the applicant relocate. Many have taken advantage of this 
option: 111 Iraqi SIV applicants moved their visa applications from 
Iraq to a neighboring country, and 570 Iraqis applied for SIVs in 
neighboring countries initially. Former employees have also 
successfully applied for admission to the United States under the 
refugee program.
    Ongoing threats and other forms of pressure do reduce the number of 
potential Iraqi applicants for employment at the U.S. mission, and the 
prospect of a safe relocation through the SIV program mitigates this. 
The Embassy does not believe that the length of the process to apply 
for the SIV program has an impact on the pool of Iraqi applicants for 
work at the mission.

    Question (#3). Gender and the Budget.--Secretary Clinton, you have 
repeatedly stated that in all of the U.S.'s development efforts, there 
will be a focus on elevating the role of women and girls as they are 
critical to advancing social, economic, and political progress. Can you 
please share what concrete steps you view are necessary for both State 
and USAID to fully achieve this vision of addressing both women's and 
girl's needs effectively throughout project outcomes, both in 
Washington and abroad?

    Answer. The administration's proposed budget will support efforts 
to integrate gender throughout U.S. foreign policy programs and 
strategies and across agencies through: (a) programs targeted to 
advance gender equality and the status of women and girls, and (b) 
ensuring that the full range of programs--from economic development to 
humanitarian assistance to exchange programs, as well as conflict 
prevention and crisis response operations--identify and address 
existing disparities, capitalize on the skills and contributions of 
women and girls, and are accessible and responsive to women and girls.
    The U.S. National Security Strategy recognizes that ``countries are 
more peaceful and prosperous when women are accorded full and equal 
rights and opportunity.'' Evidence shows that investments in women's 
employment, health, and education are correlated with greater economic 
growth and more successful development outcomes. Engaging women as 
political and social actors can change policy choices and makes 
institutions more representative and better performing. And a growing 
body of evidence shows that women bring a range of unique experiences 
and contributions in decisionmaking on matters of peace and security 
that lead to improved outcomes in conflict prevention and resolution.
    To achieve successful outcomes for U.S. foreign policy priorities, 
including stability, prosperity, and peace, we must focus on promoting 
gender equality and advancing the political, economic, social, and 
cultural status of women and girls across our work. To further this 
strategic imperative, we have issued the Department of State's first-
ever Secretarial Policy Guidance on Promoting Gender Equality to 
Achieve our National Security and Foreign Policy Objectives. In 
addition, USAID released a new policy on Gender Equality and Female 
Empowerment. Both policies contain specific steps to ensure that State 
and USAID advance the status of women and promote gender equality in 
policy development, strategic planning, budgeting and programming, 
monitoring and evaluation, and management and training practices.
    Furthering gender equality and advancing the status of women and 
girls in our work means going beyond simply ensuring a balanced 
approach to our diplomatic efforts, development assistance, and 
humanitarian aid. It means focusing on reducing gaps between women and 
men and girls and boys in resources, opportunities, and outcomes in our 
programs and the full range of our engagement with host governments, 
civil society, and the private sector. It also means encouraging and 
increasing women's direct participation through bilateral, regional, 
and multilateral diplomacy to ensure better outcomes for governments 
and society.
    We estimate that our FY 2013 request for foreign assistance will be 
used to fund over $300 million in activities where gender equality or 
women's empowerment is an explicit goal; $1.23 billion in activities 
where gender equality or women's empowerment is an important but 
secondary outcome; and $147 million in activities that are aimed at 
preventing and responding to gender-based violence, for a total of 
$1.68 billion.

    Question (#4). OSCE.--The President's proposal for an 18-percent 
cut in OSCE-related funding could result in reducing American secondees 
to the OSCE Secretariat, institutions, and field operations by one-
third, as well as eliminate funding for extra-budgetary projects (i.e., 
funding for Rabbi Andy Baker's travel as Personal Representative of the 
Chairman-in-Office, as well as a substantial portion of ODIHR's 
programming budget). It is my understanding that the President's 
request for OSCE-related funding for FY 2013 reflects an 18-percent cut 
in spending. We are in a challenging budget climate, but this cut could 
substantially reduce our ability to achieve U.S. foreign policy goals 
through the organization.

  <bullet> How can we preserve our leadership in the organization?
  <bullet> What steps are being taken to preserve our capacity to fund 
        extra-budgetary projects?

    As you know, the Helsinki Commission has led efforts to combat 
anti-Semitism and other forms of discrimination within the European 
countries that make up the OSCE region. The June Norway attacks, 
November discovery of an underground neo-Nazi cell in Germany that has 
been operating for decades, December killings of Senegalese street 
vendors by a far-right Italian group, and continuing violence against 
Roma has prompted our Commissioners to call for increased action by the 
State Department on addressing issues of racism and xenophobia and 
supporting the civil and human rights of affected communities.

  <bullet> With cuts to Europe's budget, what is being done to allow 
        for a specific Department focus on these issues ranging from 
        effective monitoring to increasing the capacity of affected 
        communities to respond to hate crimes and other forms of 
        discrimination?

    Answer. The administration commitment to the OSCE, the premier 
multilateral mechanism for supporting democratic development and 
respect for human rights in Europe and Eurasia, remains steadfast. We 
appreciate the strong Helsinki Commission and bipartisan congressional 
support for the OSCE. The United States will pay its full contributions 
to the OSCE's 2012 budget, and the President has requested sufficient 
resources from Congress to pay our full budget share next year. We 
intend to continue the practice of providing funding over and above our 
OSCE budget contributions for activities such as election monitoring, 
extra-budgetary projects and personnel secondments, although this 
funding may be at reduced levels from past years. The Office for 
Democratic Institution and Human Rights (ODIHR) remains a top priority, 
especially as regards its democratization and human rights promotion 
efforts. The United States has contributed generously to ODIHR extra-
budgetary programs and projects in recent years, with a particular 
focus on election observation and tolerance programs, including efforts 
to combat anti-Semitism. We will also continue to support high priority 
U.S. foreign policy goals in the OSCE's first and second dimensions, 
including conventional arms control, as well as counterterrorism, 
border security, counternarcotics, and good governance activities.

    Question (#5). ROMA.--Currently 12 countries are taking part in a 
``Decade of Roma Inclusion'' (2005-2015), a multilateral initiative to 
identify a limited number of measurable national goals for improvements 
in the fields of employment, health, and housing for Roma. (Those 
countries are Albania, Bosnia and Herzegovina, Bulgaria, Croatia, the 
Czech Republic, Hungary, Macedonia, Montenegro, Romania, Serbia, 
Slovakia, and Spain.) On February 5, 2012, the Secretary of State 
announced during a trip to Bulgaria that the United States is joining 
the Decade of Roma Inclusion as an observer.
    Madam Secretary, I welcome your announcement in Sofia on February 5 
that the United States will become an observer in the ``Decade of Roma 
Inclusion,'' and your outstanding leadership on Romani human rights 
issues. Bearing in mind that the United States has closed down USAID 
missions in Europe, even while many Roma live in conditions that the 
UNDP has compared to sub-Saharan Africa, will the United States make a 
small contribution [$20,000] to the Decade's work, particularly to 
support the engagement of grassroots civil society?

    Answer. We are helping Romani communities and individuals 
everywhere chart a new path so that every Romani person may live up to 
her or his potential. Since 2009, the Bureau of Democracy Human Rights 
and Labor has invested over $2 million in programs designed to improve 
the lives of European Roma through increasing access to justice, 
promoting interethnic dialogue and multiethnic civic engagement among 
youth at the community level. Other USG-funded assistance projects 
totaling more than $3.5 million in this period have supported OSCE 
Office for Democratic Institutions and Human Rights (ODIHR) efforts to 
assist with the integration of Roma minorities in the Western Balkans; 
a technology camp in Romania focused on building ICT capacities within 
Roma communities to address social inclusion and civic engagement 
issues; scholarships, tutoring, and mentoring to Roma NGOs and 
students; and the resettlement of 50 displaced Roma families out of 
lead-poisoned camps in north Mitrovica, Kosovo. Our embassies across 
the region will continue to conduct a broad range of efforts to support 
Roma inclusion.
    We will be observing the Decade of Roma Inclusion and urging 
governments and NGOs to continue working to improve the status of Roma 
throughout Europe. We will not be taking on new financial obligations 
for the Decade of Roma Inclusion, but we continue to support Roma 
through the current initiatives that work to increase legal assistance, 
expand educational opportunities, and help more Romani people 
participate in political discourse.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. Chicago Summit Goals.--The United States will host the 
NATO summit in Chicago this May. This will be the first summit on 
American soil since 1999, and I believe it provides a unique 
opportunity to highlight the still-critical economic and security ties 
of our transatlantic partnership and to reaffirm the West's unrivaled 
influence in our 21st century world.
    Despite our challenges, the NATO alliance continues to represent 
arguably the most successful military partnership in the history of our 
world.
    As the Subcommittee Chair on European Affairs, we will be engaging 
in the many discussions leading up to the summit, and we look forward 
to working with your team in the weeks ahead.

  <bullet> What priority objectives does the administration have in 
        Chicago? What challenges do you anticipate?

    Answer. The upcoming NATO summit in Chicago, to be held May 20-21, 
is an opportunity for the United States to underscore our enduring 
commitment to the alliance. We hope that NATO will be able to record at 
Chicago concrete accomplishments in three main areas: Afghanistan, 
capabilities, and partnerships. These priorities align with NATO 
Secretary General Rasmussen's idea of an alliance that is ``committed, 
capable, and connected.''
    In advance of the summit, we are working closely with allies and 
coalition partners to define NATO's post-2014 role in Afghanistan, even 
as we remain committed to the ISAF mission today. We are also 
encouraging allies to make new commitments to sustain the Afghan 
National Security Forces (ANSF) post-2014.
    Looking ahead, in this period of budget austerity, NATO allies need 
to agree on how to develop and maintain critical alliance capabilities 
to ensure that NATO is able to perform a variety of roles and missions 
in the evolving security environment. NATO's Deterrence and Defense 
Posture Review will outline what allies envision as the appropriate mix 
of nuclear, conventional, and missile defense forces to meet new 
security challenges. We expect to record at the upcoming summit 
progress in meeting the capabilities commitments agreed at the Lisbon 
summit in 2010. Related to this goal, we hope to showcase a few of 
NATO's most recent achievements in the area of capabilities, including 
an interim NATO missile defense capability, Alliance Ground 
Surveillance (AGS), and Baltic Air Policing (BAP).
    NATO's partnerships with non-NATO members have been key to the 
success of our recent operations. Therefore, we would also like to use 
the summit as an opportunity to highlight the value of some of our key 
partners' contributions to NATO's operations and broader strategic 
goals and to ensure we have means in place to work with them when 
combat operations in Afghanistan have ended.
    The austere economic climate will be the biggest challenge to 
achieving these goals in Chicago, but allies recognize the paramount 
importance of security and the value that NATO offers in leveraging 
each other's defense and security capabilities.

    Question. Open Door Policy.--NATO has long asserted an ``open 
door'' policy toward other European democracies. In light of the fact 
that no countries will be considered for membership at the Chicago 
summit this year, how can NATO continue to make credible its ``open 
door'' policy and move aspiring countries down the road toward possible 
future membership?

    Answer. While the Chicago summit will not focus primarily on 
enlargement, NATO's door remains open to aspirants. NATO continues to 
support aspirant partners' efforts to meet NATO standards through the 
implementation of their Annual National Plans (ANPs) and through other 
NATO processes to advance their candidacies. The United States works 
bilaterally with aspirants as well, to encourage them to take the steps 
required to become interoperable with NATO and to achieve NATO's 
standards. We will continue to offer joint training opportunities in 
addition to encouraging and supporting partner contributions to NATO's 
worldwide operations, including the International Security Assistance 
Force (ISAF), Kosovo Force (KFOR), and the counterpiracy operation 
Ocean Shield, in order to increase interoperability and build an 
atmosphere of cooperation and trust at all levels of planning and 
operations. All of NATO's aspirants contribute troops to ISAF and will 
therefore attend that portion of the summit. The Chicago Summit 
Communique will also contain language acknowledging aspirants and 
NATO's open door policy.

    Question. Georgia.--One NATO partner country that has been hitting 
well above its weight is Georgia. Georgian troops continue to fight in 
some of the most dangerous territory in Afghanistan, including in 
Helmand province. They continue to make great sacrifices. Just 
recently, three Georgian soldiers were killed by an insurgent attack in 
Afghanistan, and in total the country has lost 15 of its soldiers on 
the ground there. As we know, Georgia was promised future NATO 
membership by NATO at the Bucharest summit; however, since then, the 
path forward for Georgia is uncertain. I believe Georgia still has 
reforms to undertake before it should be considered as a NATO member; 
however, it is important that we offer a clear path forward for them.

  <bullet> Can you talk about the role Georgia has played in the fight 
        in Afghanistan? In the absence of a Membership Action Plan, how 
        can we more explicitly move Georgia down the path of NATO 
        membership at Chicago?

    Answer. Georgia is a significant contributor to the International 
Security Assistance Force (ISAF) in Afghanistan. Georgia currently 
contributes approximately 950 troops and plans to deploy approximately 
another 750 troops this fall, which will make it the largest non-NATO 
contributor to ISAF. While demonstrating exemplary performance 
alongside U.S. Marines in Helmand province, Georgian soldiers and their 
families have also made great sacrifices with 15 soldiers killed in 
action and dozens wounded, some severely. We are working with the 
Georgian Government to care for their wounded soldiers.
    On NATO, the United States is working closely with allies on 
planning for the summit in Chicago, which will focus primarily on NATO 
engagement in Afghanistan. Georgia continues to be an important NATO 
partner and significant contributor to ISAF operations in Afghanistan, 
and we believe the summit should highlight this partnership. The 
administration supports Georgia's NATO membership aspirations, and is 
working with the Georgian Government to implement the wide array of 
reforms necessary to meet Euro-Atlantic standards. Georgia's Annual 
National Program (ANP) and the NATO-Georgia Commission (NGC) play 
central roles in this regard. The administration is also working with 
allies on ways to acknowledge the progress that Georgia has made on 
democratic, economic, and defense reforms at the summit.

    Question. European Investment in Defense.--One of the issues that 
will play a prominent role in Chicago is NATO's Smart Defense 
initiative. There is no doubt that we, as an alliance, should be 
cooperating more and sharing and pooling our resources. However, Smart 
Defense cannot be an excuse for continued under investment by our 
European allies. According to the NATO Secretary General's 2011 Annual 
Report, only three countries are spending at or above 2 percent of GDP, 
the commitment level of defense spending agreed upon by the alliance.

  <bullet> What message will the United States press in Chicago with 
        respect to defense investment spending by our European allies?

    Answer. Only four of our NATO allies (Albania, France, Greece, and 
the U.K.; Estonia could become the fifth in 2012) meet NATO's defense 
spending benchmark of 2 percent of Gross Domestic Product (GDP), and 
the United States takes every opportunity to emphasize to allies that 
NATO provides allied populations with the best security value for money 
and urge Allies to fulfill their pledges to increase defense spending. 
All allies must continue to invest politically, militarily, and 
financially to keep the alliance strong and secure. At a recent NATO 
Defense Ministerial, Secretary Panetta endorsed the Secretary General's 
``Smart Defense'' strategy that calls for realistic efforts to maintain 
and develop multinational capabilities despite defense budget cuts in 
the United States and Europe. In advance of the summit, we urge allied 
participation in pooled capability programs such as AWACS, Alliance 
Ground Surveillance (AGS), and exploring maritime missile defense 
cooperation, as well as role specialization programs such as Baltic Air 
Policing (BAP).

    Question. While we do see some countries moving further away from 
their 2-percent spending commitments, there are some like Estonia who 
are actually placing a greater emphasis on defense spending. How can we 
give some of our younger NATO members--like those in Eastern Europe and 
the Baltics--a more prominent voice in NATO affairs?

    Answer. While defense spending commitments are highly valued and 
encouraged, they are not the only contributions that strengthen the 
alliance. We strongly support all allies and partners who make 
important political, financial, and military contributions to the 
efforts of the alliance. The value of allied and partner contributions 
has been clear for more than a decade in Afghanistan and more recently 
was seen in the case of Operation Unified Protector in Libya, where the 
United States was able to provide operational support while other 
allies and partners took the lead in combat efforts. Such nations 
achieve greater influence for themselves in the alliance by leading 
through example. We seek to encourage these nations by recognizing the 
contributions they have made and rewarding their efforts. While we 
recognize the importance of adhering to agreed defense spending 
commitments and encourage allies to do so, we do not assess 
contributions to the alliance on the criteria of defense spending 
alone.
    With regard to the Baltic countries, we deeply appreciate their 
commitment to the alliance, both in terms of defense spending and in 
operational commitments like Afghanistan. We strongly encourage 
alliance support for the Baltic Air Policing mission, in part so that 
our Baltic allies can continue to make strong contributions in other 
areas of importance to the alliance--an example of Smart Defense.

    Question. NATO-Russia.--Missile defense remains a point of 
contention between NATO and Russia, and negotiations on possible 
cooperation will continue. However, NATO shares a much wider range of 
security interests with Russia outside of strictly missile defense. Can 
you give the committee a sense of some of the important--but perhaps 
less prominent--areas of mutual interest where we hope to continue to 
work closely with Russia?

    Answer. Our goal for building NATO-Russia relations is to find ways 
we can continue and intensify our efforts to address the shared threats 
that our nations face in the 21st century. The NATO-Russia Council 
(NRC) is a dynamic forum for discussions on areas where we disagree, 
and for constructive dialogue to move forward practical cooperation in 
areas of shared concern. Both elements of NATO's engagement with Russia 
are important.
    At Lisbon, leaders endorsed the NRC Joint Review of 21st Century 
Common Security Challenges (Joint Review) that identified five key 
areas for practical cooperation: Afghanistan, counterterrorism, 
counterpiracy, countering weapons of mass destruction, and responding 
to natural and manmade disasters.
    Our record of cooperation on Afghanistan reflects the common 
interests that Russia and NATO allies share in building peace and 
security for this region. NATO-Russia arrangements provide ground 
transit for materiel into and out of Afghanistan, in support of the 
United States and our ISAF partners. To date, over 40,000 containers of 
supplies have been shipped through Russia based on these arrangements. 
The NRC Helicopter Maintenance Trust Fund announced at Lisbon has made 
an immediate and positive impact on Afghanistan's ability to maintain 
its fleet of Russian-built helicopters. Russia has provided over $3 
million in cash to the NRC Helicopter Maintenance Trust Fund, to 
provide advanced training to Afghan helicopter maintenance technicians, 
which has been matched with more than $17 million in cash and in-kind 
donations provided by NATO allies. This fund will provide parts and 
training to help build critical capabilities enabling the Government of 
Afghanistan to maintain its fleet of Russian-built helicopters. Since 
2006, more than 1,800 law enforcement officers from Afghanistan, 
Pakistan, and Central Asia have received training through the NATO-
Russia Council. Over the past 3 years, the United States contribution 
to this program has increased. This increase reflects the importance we 
attach to building counternarcotics capacity in the region, and the 
potential of the NRC training program to help meet these critical 
needs.
    The NATO-Russia Council has several successful counterterrorism 
projects. The NRC Cooperative Airspace Initiative (CAI) is on track to 
become the first 24/7 NATO-Russia operation in 2012. CAI is an aviation 
counterterrorism program that allows NRC participant countries 
(currently Poland, Turkey, Norway, and Russia) to share tracking data 
regarding civilian aircraft of concern transiting sensitive border 
airspace. In June 2011, Turkey and Poland participated with Russia in 
the CAI live exercise Vigilant Skies, testing a coordinated 
counterterrorism response across shared borders. Vigilant Skies marked 
the first time Russian jets participated in a live exercise with NATO. 
NRC countries are also working together on the STANDEX (``Stand-off 
Detection of Explosive Devices'') project through shared technologies, 
expertise, and financial contributions. STANDEX, which is designed to 
detect and counter a terrorist threat to mass transit and other public 
spaces, is on track to be live-tested in 2013.
    Russian and NATO ships continue to help each other fight piracy in 
the Indian Ocean. We welcome the Russian Federation's 2011 initiative 
to expand and enhance our ongoing cooperation, and we look forward to 
working within the NRC to build agreement to move our counterpiracy 
efforts forward.
    May 2011's BOLD MONARCH marked the first time a Russian submarine 
participated in a NATO exercise. An annual NATO exercise, BOLD MONARCH 
is designed to maximize international cooperation in submarine rescue 
operations and is the largest of its kind in the world. We continue to 
support expansion of disaster response cooperation through the NATO-
Russia Council, and through the Euro-Atlantic Disaster Response 
Coordination Centre (EADRCC), another NATO partnership in which Russia 
is a member.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator James E. Risch

                nuclear modernization & missile defense
    Question. What is the status of negotiations with the Russian 
Federation on the Defense Technical Cooperation (DTC) Agreement on 
Missile Defense?

  <bullet> a. Do you anticipate reaching an agreement before the NATO 
        summit in Chicago?

    Answer. The proposed DTC Agreement is an umbrella agreement that 
would provide a legal framework to conduct a broad range of bilateral 
research and development projects. Key provisions of the agreement 
include intellectual property and classified information security. The 
agreement is not focused solely on any specific area of cooperation and 
it could be used for many areas, including cooperation on countering 
improvised explosive devices (IEDs) as well as missile defense. 
Although the negotiators continue to meet, including a session planned 
for April, we do not anticipate concluding the DTC Agreement by the 
NATO summit.

  <bullet> b. Administration officials have briefed Congress that you 
        want to have a Ballistic Missile Defense Agreement with the 
        Russian Federation before concluding a DTC Agreement. Is this 
        still the administration's position? What is the status of 
        these negotiations?

    Answer. The administration is not pursuing a BMD Cooperation 
Agreement with Russia. A BMD Cooperation Agreement would have been a 
more limited form of the DTC Agreement focused solely on missile 
defense cooperation, and would not have constrained or limited U.S. BMD 
programs, deployments, or activities quantitatively, qualitatively, 
geographically, operationally, or in any other way. Russia declined to 
pursue a BMD Cooperation Agreement. As such, there are no discussions 
ongoing. Instead, the Department of Defense is pursuing the broader 
Defense Technology Cooperation Agreement. If bilateral missile defense 
cooperation efforts can be identified and mutually agreed, an 
implementing agreement to facilitate them could be established under 
the DTC Agreement, once concluded.

    Question. Condition 9 of the New START Resolution of Ratification, 
as well as the FY 2012 National Defense Authorization Act, requires 
that the President provide a report to Congress if the amount 
appropriated for nuclear modernization falls below the 1251 target in 
any given year. That is now the case as the FY12 funding figure for 
NNSA weapons activities is some $400 million below the FY12 target. In 
the report, the President must explain whether the funding shortfall 
impacts the safety, security, and credibility of our nuclear forces and 
what he intends to do to compensate for the funding shortfall. Dr. Jim 
Miller (Principal Deputy Under Secretary of Defense for Policy) 
testified before the House Armed Services Committee and stated:

          We understand the requirement to report if we have less 
        funding than in the section 1251 as requested in Section 1251 
        Report. Our interpretation of that has been substantially less. 
        In fiscal year 2011 actually slightly less was appropriated 
        than requested. Our judgment was that a 1 percent or less 
        change didn't require us to submit the report. The difference 
        we are looking at now in both the House and the Senate 
        appropriations bill, I think, would trigger that, and we would 
        have to examine that question.

  <bullet> When will the administration submit this report to Congress?

    Answer. The administration understands and acknowledges the 
parallel reporting requirements of Condition 9 of the New START Treaty 
Resolution of Advice and Consent to Ratification and Section 1045(a)(2) 
of the Fiscal Year 2012 National Defense Authorization Act. We note the 
approximately $416 million shortfall in FY12 appropriated funding for 
NNSA Weapons Activities in FY 2012. Recognizing this shortfall, the 
administration is working expeditiously to fulfill the requirements of 
Condition 9 of the Resolution of Ratification and Section 1045 of the 
NDAA.
                                georgia
    Question. It is my understanding that the administration is 
requiring U.S. European Command to rewrite its assessment of Georgian 
military needs and capabilities before considering any type of arms 
sales to the country. The original assessment was conducted in late 
2009. Given how recently this assessment was conducted, what is the 
justification for repeating the study?

    Answer. As part of our ongoing security and defense relationship 
with Georgia, the Department of Defense, including U.S. European 
Command, regularly assesses Georgia's military needs and capabilities. 
Through our current defense cooperation efforts, we seek to maximize 
U.S. security assistance to support Georgia's defense reform and 
modernization, self defense capabilities, and to provide training and 
equipment in support of Georgian participation in ISAF operations in 
Afghanistan. Per standard practice, the administration reviews all 
requests for export licenses and arms transfers individually, assessing 
legal, technical, and policy considerations.

    Question. Will the language the administration is seeking among our 
NATO partners regarding the aspirations of Georgia provide a clear path 
toward membership?

    Answer. NATO maintains an Open Door policy for aspiring members. 
The United States is working closely with NATO allies on planning for 
the summit in Chicago, which will focus primarily on NATO engagement in 
Afghanistan. Georgia continues to be an important NATO partner and 
significant contributor to ISAF operations in Afghanistan, and we 
believe the summit should highlight this partnership. The 
administration supports Georgia's NATO membership aspirations and is 
working with the Georgian Government to implement the wide array of 
reforms necessary to meet Euro-Atlantic standards. Georgia's Annual 
National Program (ANP) and the NATO-Georgia Commission (NGC) play 
central roles in this regard. The administration is also working with 
allies on ways to acknowledge the progress that Georgia has made on 
democratic, economic, and defense reforms at the summit.

    Question. You have often commented about the rule of law in Russia. 
As you know, S. 1039 addresses this issue more broadly than just the 
case of Sergey Magnitsky.

  <bullet> What is your view of media reports that Russia is continuing 
        its case against Magnitsky even though he died as a result of 
        Russian Government actions or inaction while in custody?

    Answer. We continue to call for full accountability for those 
responsible for Sergey Magnitsky's unjust imprisonment and wrongful 
death. Pursuing criminal charges against him serves no purpose other 
than to deflect attention away from the circumstances surrounding his 
tragic case.

  <bullet> Have you denied visas or taken any other action against 
        those responsible for the unjust imprisonment of Khodorkovsky 
        and Lebedev?

    Answer. Under the Immigration and Nationality Act (INA) and the 
August 4, 2011, Presidential Proclamation on Suspension of Entry as 
Immigrants and Nonimmigrants of Persons Who Participate in Serious 
Human Rights and Humanitarian Law Violations and Other Abuse, the 
Department is required to deny visas to individuals involved in serious 
human rights violations, and we do so regularly. However in keeping 
with the INA, we are not able to publicly disclose the names of 
individuals who are denied visas.

  <bullet> Will you say publicly that Khodorkovsky and Lebedev should 
        be unconditionally released?

    Answer. After the second trial of Mr. Khodorkovsky and Mr. Lebedev 
in December 2010, we noted that their conviction on charges of 
embezzlement and money laundering raises serious questions about 
selective prosecution and about the rule of law being overshadowed by 
political considerations. We welcomed news that President Medvedev has 
ordered the country's prosecutor general to review the conviction.

  <bullet> Do you oppose the passage of S. 1039? If so, why?

    Answer. The administration has welcomed Senator Cardin's campaign 
for justice for Sergey Magnitsky, and shares the Senator's concerns 
about this tragic case and about rule of law in Russia more broadly. 
The State Department has already taken important actions--using the 
existing authorities of the Immigration and Nationality Act, as well as 
the expanded powers provided by the Presidential Proclamation issued in 
August--to ensure that no one implicated in Mr. Magnitsky's death can 
travel to the United States. We have raised concerns about the bill's 
requirements to name names and potentially freeze assets in the absence 
of a strong evidentiary standard, but have also assured the Senator 
that we are ready to work with him and his colleagues to ensure that 
those responsible for Mr. Magnitsky's death are brought to justice.

    Question. What steps is the administration taking to secure the 
extradition of Ali Musa Daqduq to U.S. custody?

  <bullet> What is the likelihood that the Government of Iraq will 
        comply with U.S. requests?
  <bullet> What leverage is the administration willing to use in order 
        to ensure a hand over?
  <bullet> If he is ultimately released, what is the likelihood that he 
        would flee to Lebanon or Syria and how would that further 
        exacerbate the crisis there?

    Answer. The United States presented an extradition request to the 
Government of Iraq the first week of February for Daqduq to stand trial 
before a Military Commission in the United States for his alleged role 
in the deaths of five U.S. servicemen in Karbala, Iraq, in 2007. We 
discuss this case at the highest levels of the Iraqi Government and 
have received assurances that Daqduq will face justice for the crimes 
he is alleged to have committed. Iraq has held Daqduq for over 2 
months, and is exploring what next steps it can take, consistent with 
its own legal system. Iraq understands how important the proper 
handling of this case is to Iraq's relationship with the United States. 
We believe Daqduq is a dangerous individual and his release could have 
a detrimental effect on U.S. interests, but it impossible to speculate 
specific consequences of his release.

    Question. Do you know of any senior Taliban or Haqqani Network 
leaders currently (or impending) receiving medical treatment in Saudi 
Arabia, UAE, or Qatar. If so, when did you learn about this 
possibility?

    Answer. The Department of State refers you to the Office of the 
Director of National Intelligence to respond to this question.

    Question. We have provided substantial assistance to the Lebanese 
Government and the Lebanese Armed Forces in the past and the President 
requested $70 million in economic assistance, $75 million in military 
assistance and $15.5 million in internal security assistance for 
Lebanon for FY 2013. Given that Hezbollah continues to take on a 
greater role in the Lebanese Government, I am very worried about how 
this assistance might be used in the future and about the fact that the 
Lebanese Army has done little to prevent Hezbollah's rearmament.

  <bullet> I understand that the administration is currently reviewing 
        our assistance to Lebanon and that it has yet to put forward a 
        congressional notification for FY12 money. What is the status 
        of this review and how is it being carried out?
  <bullet> How will our aid to Lebanon be affected in light of 
        Hezbollah's growing role in the government?

    Answer. The Department of State has not yet released the FY 2012 
Lebanon spending plan, but it is forthcoming. We continuously review 
all aspects of our assistance to Lebanon to ensure that all programs 
further U.S. objectives and remain within the national interest. As 
part of this review, the State Department has carefully assessed the 
Lebanese Government's policies and statements since its formation in 
June 2011. While we continue to have concerns about Hezbollah's 
influence within the body politic, we do not believe this government to 
be ``Hezbollah-run.'' Hezbollah holds 3 out of 30 Cabinet seats--the 
same number it held in the previous government of Saad Hariri. Nor are 
the various factions represented in the Cabinet universally pro-
Hezbollah. In fact, Prime Minister Najib Mikati and his centrist allies 
in the Cabinet have been successful in maintaining the government's 
commitment to Lebanon's international obligations, despite pressure 
from Hezbollah and other pro-Syrian factions within Lebanon to do the 
opposite.
    In particular, we have been reassured by Prime Minister Mikati's 
actions in November 2011to fulfill Lebanon's 2011 funding obligation 
($32.2 million) to the Special Tribunal for Lebanon, which has indicted 
four Hezbollah operatives accused of involvement in the assassination 
of former Prime Minister Rafik Hariri and other victims. In addition, 
Prime Minister Mikati continues to support the implementation of U.N. 
Security Council Resolutions 1559 and 1701 and has maintained a policy 
of disassociation with regard to the unrest in Syria, despite pressure 
from pro-Asad factions in his coalition to do more to support the 
regime in Damascus.
    Our recent budget requests seek to strengthen moderate forces in 
Lebanon and displace the influence of extremist nonstate actors such as 
Hezbollah and its backers in Iran and Syria. The U.S. Government has 
safeguards in place designed to minimize the risk that Hezbollah or 
other terrorist organizations will benefit from U.S. assistance 
activities.
    While we will continue to monitor developments in Lebanon closely, 
U.S. assistance to certain Lebanese central institutions, namely the 
Lebanese Armed Forces (LAF) and Internal Security Forces (ISF), 
continues to advance key U.S. interests and priorities, including: 
stability within Lebanon and on the Blue Line between Israel and 
Lebanon; maintenance of Lebanon's sovereignty and independence, and 
regional stability. The LAF continues to be a professional and well-
respected Lebanese institution with a strong relationship with the U.S. 
military. With the support of U.S. assistance and training, the LAF 
maintains a presence in all areas of Lebanon, including southern 
Lebanon and the area south of the Litani (as called for by U.N. 
Security Council Resolution 1701), and regularly conducts internal 
security, counternarcotics, and counterterrorism operations. An end to 
U.S. support to the LAF would be a strategic victory for Hezbollah, and 
cause LAF capabilities to deteriorate, and with them, security in 
southern Lebanon and along Israel's northern border.
                               argentina
    Question. As you know, in 2001, Argentina had the largest default 
in history, where it defaulted on over $81 billion in international 
bonds. In the United States alone, over 100 court judgments have 
ordered Argentina to fulfill its debt obligations to U.S. creditors, 
but Argentina still has not done so.

  <bullet> What steps is your Department taking to compel Argentina to 
        honor these rulings?

    Answer. On the margins of the Cannes G20 summit in November, 
President Obama discussed with President Fernandez de Kirchner the need 
for Argentina to normalize its relationship with the international 
financial and investment community, and he urged Argentina to take 
concrete actions with respect to repayment of outstanding arrears and 
complying with final and binding arbitral awards. Senior State 
Department officials and others in the administration have followed up 
with Argentine officials to reinforce the President's message.
    We believe it is in the mutual interest of Argentina and the United 
States that Argentina resolve its longstanding obligations to creditors 
and arbitral award holders.
    In meeting its obligations to creditors and investors, Argentina 
will send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth.

    Question. According to recent reports, the U.S. Treasury Department 
is considering allowing Argentina to restructure its debt through the 
Paris Club. Although approximately $3.5 million of this debt is owed to 
the U.S. Government, this amount is small in comparison to the over 
$3.5 billion Argentina owes to private U.S. creditors. In fact, the 
amount owed to private American creditors is so large that if Argentina 
were to pay these debts, the U.S. Government would receive far more 
from tax revenues on those payments alone than it would from a 
settlement of the debt owed to the U.S. Government.

  <bullet> In light of these facts, will the U.S. Government wait until 
        Argentina has satisfied all awards under the U.S.-Argentine 
        bilateral investment treaty and the more than 100 outstanding 
        U.S. court judgments against it before approving a Paris Club 
        deal for Argentina?

    Answer. Argentina's arrears to U.S. Government agencies total about 
$550 million, and U.S. Government effort, including in the Paris Club, 
is appropriately focused on recovering full payment on these loans 
extended on behalf of American taxpayers. It would not be in the 
taxpayers' interest to impose additional conditions, unrelated to Paris 
Club claims, on the pursuit of this objective.
    U.S. Government efforts to recover on loans, extended on behalf of 
our taxpayers, in no way diminishes our urging of Argentina to honor 
the claims of private American bondholders and investors. We continue 
to use every opportunity to press Argentina to do so.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator James M. Inhofe

    Question. At the 2008 NATO Bucharest summit, member states agreed 
that Georgia would become a future NATO member. This decision has been 
reaffirmed by NATO on numerous subsequent occasions. Georgia has been 
making impressive progress in its democratic transformation which I 
believe facilitates Georgia's NATO accession process. Georgia has also 
made extraordinary contributions to the International Security 
Assistance Force mission in Afghanistan.
    The NATO summit in Chicago is an important moment to recognize 
Georgia's progress and advance its prospects for membership in the 
alliance. U.S. leadership is essential for this.

  <bullet> Could you please elaborate on how the administration will 
        use the summit to ensure not only that Georgia's progress and 
        its contributions to NATO are recognized, but that it is also 
        given a clear roadmap and benchmarks for achieving full NATO 
        membership?

    Answer. The United States is working closely with NATO allies on 
planning for the summit in Chicago, which will focus primarily on NATO 
engagement in Afghanistan. Georgia continues to be an important NATO 
partner and significant contributor to ISAF operations in Afghanistan, 
and we believe the summit should highlight this partnership. The 
administration supports Georgia's NATO membership aspirations, and is 
working with the Georgian Government to implement the wide array of 
reforms necessary to meet Euro-Atlantic standards. Georgia's Annual 
National Program (ANP) and the NATO-Georgia Commission (NGC) play 
central roles in this regard. The administration is also working with 
allies on ways to acknowledge the progress that Georgia has made on 
democratic, economic, and defense reforms at the summit.

    Question. Despite Malaysia's portrayal as a moderate Muslim 
democracy, minorities there face increasing restrictions on religious 
freedom, including attacks on non-Muslim places of worship and the 
growing power and influence of the Sharia Islamic law court system over 
cases involving Hindus, Christians, and Buddhists. In addition, 
minorities are economically marginalized through government policies 
that favor the majority Muslim Malay population (Article 153 of the 
Constitution) and face political repression through draconian security 
measures.

  <bullet> How can the State Department play a more active role in 
        working with the Malaysian Government to promote more equitable 
        policies that ensure religious freedom and equality for all the 
        country's citizens?

    Answer. The United States Government maintains a broad and active 
dialogue with the Government of Malaysia as part of our productive 
bilateral partnership. The United States Government engages with 
religious groups, nongovernment organizations, civil society, and 
political parties within Malaysia. The United States Government seeks 
in all these engagements to promote understanding of the United States 
and U.S. policy, including the promotion of internationally accepted 
norms of religious freedom and human rights. The International 
Religious Freedom report highlights the promotion of those norms and 
serves as a basis for our engagement with the Malaysian Government.
    U.S. engagement with Malaysia includes engagement by the U.S. 
Ambassador and the staff of the Embassy in Kuala Lumpur. Senior 
Washington-based officials are directly involved with Malaysian 
counterparts; as an example, Special Representative to Muslim 
Communities Farah Pandith has visited Malaysia twice and met with 
government and nongovernment representatives.
                                 ______
                                 

   Response of Secretary of State Hillary Rodham Clinton to Question 
                  Submitted by Senator Johnny Isakson

    Question. Last year, Congress directed the State Department to 
assist American victims of Libyan terrorism regarding the use of the 
frozen assets of former Libyan dictator, Muammar Qaddafi, for 
compensation. As you are aware, it is possible that the compensation 
fund for American victims of Libyan terrorism established pursuant to 
the Libyan Claims Resolution Act could have a shortfall. Please 
describe efforts the Department is undertaking to: (1) establish 
contingency plans in the event of a shortfall; (2) engage in state-to-
state negotiations with the new Libyan Government to ensure American 
victims of Libyan state-sponsored terrorism receive full compensation 
in accordance with awards set forth by the Foreign Claims Settlement 
Commission; and (3) use assets belonging to Muammar Qaddafi, the 
Qaddafi family, and advisors currently under U.S. control to compensate 
these American victims of terrorism.

    Answer. The Department believes that it is premature to determine 
whether there will be a shortfall in settlement funds. The Foreign 
Claims Settlement Commission (FCSC) is still in the process of 
adjudicating and, in some cases, establishing the appropriate levels of 
compensation for many of the claims that were referred to it as part of 
the Libya claims program. The FCSC must be allowed to complete more of 
this work before a projection regarding the sufficiency of settlement 
funds can be made. In the event of a shortfall, the International 
Claims Settlement Act of 1949 establishes that each claimant who 
receives an award from the FCSC will receive a pro rata share of the 
available settlement funds up to the full amount of that award.
    Regarding possible state-to-state negotiations, the 2008 U.S.-Libya 
Claims Settlement Agreement provided for the ``full and final 
settlement'' of terrorism-related claims against Libya and its public 
officials in exchange for the $1.5 billion settlement amount. Given the 
terms of this agreement, there does not appear to be a legal basis for 
seeking additional compensation from the Government of Libya at this 
juncture. Doing so could well undermine our efforts to secure 
compensation for other U.S. nationals through similar claims 
settlements with other governments in the future.
    Furthermore, frozen Qadhafi family assets would not be an 
appropriate source of additional funds for these claims, which the 
United States has already settled through the 2008 U.S.-Libya Claims 
Settlement Agreement. This would similarly undermine the United States 
ability to conclude similar claims settlements on behalf of U.S. 
nationals in the future. Moreover, those Qadhafi family assets that are 
in the United States have been frozen pursuant to legally binding U.N. 
Security Council Resolutions. Those resolutions indicate that any 
frozen assets shall be used for the benefit and in accordance with the 
needs and wishes of the Libyan people. If the United States were to 
unilaterally decide on an alternative disposition of these assets, it 
would undermine our ability to obtain similar U.N. action in the future 
and could expose the United States to claims under international law.
    We are not aware of any Qadhafi family member interest in the 
assets that comprise the amounts reported publicly by the Office of 
Foreign Assets Control (OFAC) as blocked pursuant to the Libya 
sanctions program. We understand that the only property reported to 
OFAC as blocked pursuant to Executive Order 13566 that might contain an 
interest of a Qadhafi family member is nonliquid property regarding 
which valuation would be difficult to ascertain and that may have no 
significant value.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
               Submitted by Senator Christopher A. Coons

    Question. Sudan.--What is the status of the roadmap toward 
normalized relations that we initially presented to the Government of 
Sudan more than a year ago?

    Answer. The current situation in the Sudanese states of Southern 
Kordofan and Blue Nile has caused us to suspend discussions on the 
roadmap. The United States told the Government of Sudan that in order 
to discuss steps toward normalization, we need for Sudan, at a minimum, 
to address the crises in Southern Kordofan and Blue Nile. In 
particular, this would include action by Sudan to end the continued 
bombing that is taking such a toll on civilians, to permit 
international humanitarian access to these Two Areas, and to resume 
negotiations with the SPLM-N to find a political solution to the 
conflict. Unfortunately, the Government of Sudan has not met these 
conditions. Additionally, the full normalization of relations between 
the United States and Sudan would require the resolution of outstanding 
Comprehensive Peace Agreement issues, including oil arrangements, and 
progress in Darfur.

    Question. Sudan.--I am increasingly concerned about the assessments 
by the Famine Early Warning System (FEWS NET) of growing food 
insecurity in conflict-affected areas of South Kordofan and Blue Nile.

  <bullet> What further pressure can the United States and its allies 
        bring to bear on Sudan, which continues to deny access for 
        humanitarian workers despite the serious and deteriorating 
        situation for civilians?

    Answer. Since October of last year, we have relentlessly pursued 
unrestricted humanitarian access to the Two Areas with the Government 
of Sudan. I have told the Government of Sudan on numerous occasions 
that we, as the U.S. Government, cannot stand by and watch a crisis 
unfold. We have engaged AU Chairman Jean Ping, AUHIP Chairman Thabo 
Mbeki, U.N. Special Envoy for Sudan and South Sudan Haile Menkerios, 
and U.N. Under Secretary General for Humanitarian Affairs Valerie Amos, 
who have all reached out directly to the Government of Sudan on this 
crisis. We have demarched a number of countries and organizations with 
influence in Khartoum asking them to raise this with the government. We 
have worked tirelessly to raise awareness of the crisis through 
briefing of the advocacy community and Members of Congress. We are 
continuing to highlight the issue at the U.N. Security Council, and at 
high-profile events to impress a sense of urgency on the Government of 
Sudan. The President of the Security Council issued a statement on 
March 6 condemning violence along the border of Sudan and South Sudan, 
and renewing the 15-member Security Council's unanimous call to allow 
full, unfettered access for international humanitarian organizations to 
enter the Two Areas for proper assessment of needs and delivery of 
assistance. We remain hopeful that our diplomatic efforts and pressures 
on the Government of Sudan will yield progress. The United Nations, 
African Union, and the League of Arab States have made a joint proposal 
to the Government of Sudan for a major humanitarian program in these 
areas. We very much hope this proposal will be approved, because it 
offers the most effective means to reach the maximum amount of affected 
people.

    Question. Somalia.--With the end of the Transitional Federal 
Government (TFG) this August, what more can the United States and its 
allies do to strengthen Somalia's weak system of governance in order to 
make it more transparent and participatory, and encourage long-term 
economic growth and stability?

    Answer. The schedule for completing key constitutional tasks is 
extremely tight, but we are working closely with international partners 
to help Somali leaders ensure a successful transition and a transparent 
political process. Through USAID, we are providing support to the TFG 
to achieve key transitional goals, including providing technical 
assistance to the Council of Experts and the Independent Federal 
Constitutional Commission, promoting public outreach on the draft 
constitution, and developing civic education programs to help the 
Somali public understand the constitutional process. But ultimately, 
the TFG and other Somali stakeholders will bear responsibility for 
adhering to the timetable and achieving sufficient inclusivity and 
transparency.
    In concert with the international community, we are working closely 
with the TFG and regional actors to implement the Roadmap to End the 
Transition, which specifically addresses transparency in government in 
the following ways: creating an Independent Interim Electoral 
Commission, which will help appoint members of the Constituent 
Assembly; ordering a comprehensive report on all TFG expenditures and 
revenues; and formulating a national budget, which the TFG cabinet 
approved in January 2012. We support financially Somali efforts to 
draft the constitution and fund advisors to the Ministry of Finance to 
help it tackle budget reform.
    Since 2010, USAID has obligated $38 million for stabilization 
projects in Somaliland, Puntland, Mogadishu, and in some of the regions 
where al-Shabaab has been pushed out. These projects, part of USAID's 
Transition Initiatives for Stabilization (TIS), bring regional 
authorities together to quickly provide durable development programs to 
local communities that will encourage long-term growth and stability. 
We plan to expand these TIS projects and have encouraged other partners 
to contribute to and coordinate stabilization assistance.

    Question. West Africa.--The FY 2013 budget request includes 
relatively little bilateral development assistance for Niger ($2 
million), none for Mauritania or Cote d'Ivoire, and declining amounts 
for Mali ($66.1 million compared to $72.1 in FY 2012) and Senegal 
($33.9 million compared to $50 million in FY 2012). Given unprecedented 
political unrest in Senegal, conflict in Mali, broader insecurity in 
the Sahel region, and a fragile political transition in Cote d'Ivoire, 
please describe how the administration anticipates using the FY 2013 
foreign operations budget to advance democratic governance and 
stability in West Africa.

    Answer. The U.S. Government's overriding interests in Cote d'Ivoire 
have long been to help restore peace, encourage disarmament and 
reconciliation of hostile factions, and to support a democratic 
government whose legitimacy can be accepted by all citizens of Cote 
d'Ivoire. FY 2013 is a key year for solidifying Cote d'Ivoire's 
historic democratic achievement following its post-election crisis. The 
total FY 2013 foreign assistance request for Cote d'Ivoire is $137.3 
million, spread across five funding accounts and includes $13.5 million 
in Economic Support Funds (ESF) to support Cote d'Ivoire's political 
transition. State/AF traditionally programs ESF funds to support 
development programs in countries that are transitioning from 
instability to stability. FY 2013 ESF programs in Cote d'Ivoire will 
focus on reconciliation and strengthening the country's fragile 
democracy. ESF resources are complemented by peace and security 
programs funded through the Peacekeeping Operations (PKO)--$2 million, 
International Military Education and Training (IMET)--$200,000, and 
Foreign Military Financing (FMF)--$200,000 accounts. The request 
includes resources to support multiethnic participation in the 
democratic process in lieu of violence and separation; enhance capacity 
of national, provincial and local governmental institutions, the media, 
and civil society leading to better governance and increased public 
confidence in the democratic process; support credible and legitimate 
legislative elections and follow-on activities; increase respect for 
the rule of law and human rights; and address the HIV/AIDS epidemic 
through expanded access to prevention, care, and treatment services.
    Continued fighting in northern Mali, coupled with a poor harvest, 
is hampering the government's development plans and poses new 
challenges to the Presidential and legislative elections scheduled this 
year. FY 2013 is an important year in which we will continue to 
strengthen Mali's democratic and security institutions. The FY 2013 
foreign assistance request for Mali is $129.2 million. Although lower 
than the FY 2012 estimate, the request includes funding for the 
training of mayors, communal council members, and civil society 
organizations, while simultaneously supporting literacy and educational 
development, which will enable the Government of Mali (GOM) to design 
and manage the delivery of vital services to constituents. The Peace 
and Security program will promote military professionalism, advance 
respect for human rights, and strengthen the capacity of the GOM to 
protect itself from terrorist and criminal threats and to participate 
in peacekeeping operations. Through the Global Health Initiative (GHI), 
we will help Mali achieve major improvements in malaria reduction, 
maternal and child health, and family planning and reproductive health. 
GHI will also support work on HIV/AIDS and nutrition. Last, through the 
President's Global Hunger and Food Security Initiative the United 
States will work with the GOM to increase agriculture productivity and 
growth.
    Recent al-Qaeda in the Islamic Maghreb (AQIM) activity across the 
Sahel has caused the Government of Mauritania to bolster its 
counterterrorism and counterradicalization efforts. These efforts 
include collaborating regionally in the Sahel and with Maghreb nations, 
as well as making security their top domestic priority. Through the 
Trans-Sahara Counterterrorism Partnership (TSCTP) we are helping 
Mauritania bolster its border security and professionalize its 
military. In addition, the FY 2013 foreign assistance request for 
Mauritania includes $150,000 for International Military Education and 
Training (IMET) to support stabilization and security sector reform. 
This will continue to support counterterrorism activities and English 
language training of Mauritanian officers in order to increase their 
interoperability with international troops.
    The international community resumed development assistance and 
increased engagement with the inauguration of Mahamadou Issoufou as 
President of Niger in April 2011. Eleven months into the Issoufou 
administration, the country is at a turning point. One of our primary 
objectives is to support a transparent and responsive democracy that 
respects human rights in Niger. The FY 2013 request for Niger is $17.1 
million, across three funding accounts. Of this, $2 million (double the 
FY 2012 estimate) is requested in Development Assistance to expand 
programs focused on civil society and promoting good governance; 
specifically, improving public sector accountability and performance 
across a broader spectrum of public services. The request also includes 
$15 million for Food for Peace (Title II) to improve food security and 
support productive agricultural enterprises.
    Last, in Senegal, U.S. support with FY 2011 resources helped to 
wage a successful public advocacy campaign to ensure a free, fair, 
peaceful, and inclusive Presidential electoral process. The FY 2013 
request for Senegal includes ample funding to advance democratic 
governance and stability in the country. The requested assistance will 
play a key role in consolidating democratic outcomes resulting from the 
2012 Presidential and legislative elections while continuing to support 
Senegal's efforts to enhance local government capacity, promote laws 
and policies that lead to greater judicial independence, and strengthen 
the key oversight institutions such as the national corruption 
committee, national reform commission, and national procurement agency 
to provide more rigorous oversight.

    Question. LRA.--I welcomed the administration's notification to 
Congress in October that it was deploying about 100 military advisors 
to help Uganda and other regional countries counter the Lord's 
Resistance Army (LRA).

  <bullet> Please provide an update on the progress and status of the 
        advisory mission.
  <bullet> Do you expect the American military personnel to remain in 
        Africa until Joseph Kony and other senior LRA leaders are 
        apprehended?

    Answer. The United States continues to pursue our multifaceted, 
comprehensive strategy to help the people and governments of the region 
mitigate and eliminate the threat posed by the LRA and bring the top 
LRA commanders to justice. As one part of that strategy, we have 
deployed a small number of U.S. military forces to the LRA-affected 
region to serve as advisors to the national militaries pursuing the 
LRA's top commanders and seeking to protect local populations.
    Small teams of the U.S. military advisors are now working with the 
national military forces in forward operating sites in the LRA-affected 
areas. In these locations, the U.S. military advisors have made 
progress building relationships with military and civilian leaders, 
increasing information-sharing and analysis across borders, and 
synchronizing information on LRA movements. U.S. military advisors are 
also working with the Congolese military and the U.N. peacekeeping 
force, MONUSCO, at the Joint Intelligence and Operations Center in 
Dungu and helping them to plan their operations to counter the LRA. 
U.S. military advisors helped them plan a joint operation that was 
carried out to help deter the LRA from committing massacres in the DRC 
during the Christmas season, as it did in 2008 and 2009.
    There continues to be a robust interagency review process to ensure 
that this advisory effort is helping the region to make progress toward 
ending the threat to civilians and regional stability posed by the LRA. 
This is not meant to be an open-ended deployment. We believe our 
advisors can provide critical capabilities in the near-term to help the 
national military forces pursuing the LRA to succeed. We have made 
clear to the governments in the region that our continued support is 
also contingent on their continued leadership and collaboration in the 
fight against the LRA.

    Question. Nigeria.--What are the political and security 
implications of the increasing number of attacks against civilians 
perpetrated by Boko Haram? Is this an internal governance problem that 
Nigerian leadership must address, or is it an indication of ties to 
international terrorist groups? What role has the United States played 
in stemming this instability, and how concerned should we be about the 
potential economic implications in Nigeria and for bilateral trade?

    Answer. We abhor the violence attributed to Boko Haram in northern 
Nigeria. We support the Nigerian authorities in their efforts to bring 
the perpetrators of violent acts to justice, and stress the importance 
of protecting civilians in any security response to threats and 
attacks. In our view, Boko Haram is dangerous but not a threat to 
Nigeria's political stability.
    The extremist violence in northern Nigeria requires more than just 
a security response. Groups such as Boko Haram exploit legitimate 
grievances of the northern population to garner recruits and public 
support. To address the political and socio-economic challenges of the 
north, the Nigerian Government must effectively engage communities 
vulnerable to extremist violence and promote human rights practices 
among its security forces, whose heavy-handed tactics reinforce 
northerners' concerns that the Nigerian Government does not care about 
their lives.
    Boko Haram operates in the most impoverished part of Nigeria. A 
U.N. study shows that poverty levels in the 12 most northern states are 
nearly twice as high as in the rest of the country. Children in the far 
north are almost four times as likely to be malnourished. An 
astonishing 77 percent of women in the far north have no formal 
education, compared to only 17 percent in the rest of the country.
    While Boko Haram is not a monolithic group, its aims are largely to 
discredit the Nigerian Government. It is focused primarily on local 
Nigerian issues and actors, and responds principally to political and 
security developments within Nigeria. We are concerned about reports 
that Boko Haram is in contact with other extremist groups such as al-
Qaeda in the Islamic Maghreb (AQIM) and are monitoring these 
developments closely. Most Nigerians abhor Boko Haram tactics and 
ideology, although there is a growing minority among certain ethnic 
groups that view Boko Haram as promoting their interests.
    The United States engages regularly with our Nigerian counterparts 
on issues of violent extremism. We convened a meeting of the U.S.-
Nigeria Binational Commission in January to specifically discuss this 
issue. On multiple occasions, we have urged the Nigerians to seriously 
address longstanding grievances underlying unrest in northern Nigeria. 
U.S. companies do look to foreign governments to assure them that they 
can safely do business in countries where they operate. Our primary 
trade commodity from Nigeria is oil from the southern part of the 
country and this trade remains strong.

    Question. The Sahel is facing a two-fold crisis of drought and 
insecurity sparked by climatic issues and the flow of weapons from 
Libya. I have watched with growing concern the predictions of drought 
and hunger for 12 million people across Niger and six other countries, 
at the same time that a newly armed Tuareg insurgency is attacking 
civilians and government installations in northern Mali.

  <bullet> Can you please comment on U.S. efforts to address the 
        problems of both insecurity and hunger in the Sahel?

    Answer. USAID is greatly concerned by the security and hunger 
situation in the Sahel and is working to address both issues.
    We have taken early integrated action to address food insecurity 
through emergency aid that saves lives and longer term programs that 
increase resilience across the Sahel. Our strategy bridges the span 
from relief to recovery to development by addressing the root causes of 
hunger, malnutrition, and instability in West Africa.
    Our approach supports national and regional structures that promote 
food security and nutrition, while providing short-term assistance to 
vulnerable populations--such as food assistance, treatment for acute 
malnutrition, and building community resilience through cash-based 
programs to provide funds to protect and restore livelihoods. For 
instance, USAID is providing vouchers that enable vulnerable households 
to take advantage of functioning markets, which strengthens local 
commerce and helps individuals access food and other goods and 
services. At the same time, USAID cash-for-work activities provide 
short-term, income-generating opportunities and rehabilitate public 
infrastructure. To improve crop production, USAID is supporting fairs 
to distribute improved seeds to vulnerable farmers in the region.
    To date in FY 2012, the U.S. Government has provided nearly $200 
million in emergency assistance in response to food insecurity and 
conflict in the Sahel, including $9.2 million from USAID's Office U.S. 
of Foreign Disaster Assistance, $179 million from USAID's Office of 
Food for Peace, and $9.5 million from the State Department Bureau of 
Population Migration and Refugees.
    Tribal conflicts, extremist violence, and political and economic 
marginalization contribute to instability in the Sahel and can 
undermine development, so our emergency and agricultural support is 
complemented by long-term efforts to address conflict as one of the 
root causes of chronic poverty and instability. Through the Trans-
Sahara Counterterrorism Partnership (TSCTP), USAID coordinates with the 
Departments of State and Defense to strengthen government 
counterterrorism capabilities, enhance and institutionalize cooperation 
among security forces, promote democratic governance, and discredit 
terrorist ideology. USAID programs are actively mitigating conflict and 
encouraging reintegration of those whose actions may exacerbate crises 
or who may be motivated by poverty and hunger to radicalize. These 
programs specifically reach out to young men--the demographic most 
likely to be recruited by extremist groups. USAID-supported educational 
and vocational opportunities counter indoctrination efforts by violent 
extremist organizations and provide them with new skills, job security, 
and a positive vision of their future.
    In northern Mali specifically, the security situation is of great 
concern, even more so now due to the current military unrest. However, 
as you know, activities that counter violent extremism and insecurity 
may be suspended due to the recent unlawful seizure of power.
    We will continue to monitor these situations closely and respond to 
need as robustly as possible.

    Question. GHI/FTF.--The biggest change in the budget for Africa 
comes from a decrease in Global Health Initiative funds, which 
represents approximately two-thirds of the total funding for Africa. As 
I understand it, the FY 2013 budget request reflects a reduction of 5 
percent for USAID-administered GHI funds and 12 percent for State-
administered GHI funds compared to FY 2012. The request also includes a 
12 percent reduction in Feed the Future funds compared to FY 2012. 
Please describe the reasoning behind, and implications of, the cuts.

    Answer. USAID-Administered GHI Funds: In FY 2013, USAID 
prioritized, focused, and concentrated our investments across every 
portfolio, particularly in Global Health and Feed the Future. The FY 
2013 request was developed in the context of the current fiscal 
environment; the budget for the Global Health Initiative represents a 
straight-line from the FY 2011 level. With our current funding, this 
administration's global health investments are saving millions of lives 
around the world. Since 2008, child mortality has declined by 16 
percent and maternal mortality by 13 percent in priority countries for 
maternal and child health (MCH). In 2011 alone, the President's Malaria 
Initiative protected more than 58 million individuals from malaria 
infection.
    The FY 2013 request reflects innovation and efficiency gains which 
allow our dollars to go further, including the graduation of mature 
programs, refocusing funding to countries with the greatest need, and 
leveraging of resources through public-private partnerships and 
multilateral institutions. Efforts to increase the focus of health 
programs overall resulted in the shift of funding from nonpriority 
programs in Africa to higher priority countries in other regions. For 
example, regarding tuberculosis programming, USAID closed programs in 
Namibia and Ghana to increase funding for other countries with a higher 
burden of tuberculosis.
    State-Administered GHI Funds: For FY 2013, PEPFAR made Africa 
country allocations based upon gains in program efficiency, realignment 
of priorities to better reflect country-specific contextual issues 
(such as absorptive capacity and availability of other resources in 
country), and increased programmatic and financial ownership by partner 
countries.
    PEPFAR programs are able to expand without increased resources due 
to reduced treatment costs and efficiency gains spurred by scientific 
advances, task-shifting and a greater focus on cost-effective models of 
service delivery. Treatment costs have dropped from $1,100 to $335 per 
patient/year. One factor has been PEPFAR's commitment to procuring 
generic drugs with bulk purchasing through the Supply Chain Management 
System. In FY 2010, 97 percent of drugs procured were generic brands. 
PEPFAR has also made simple cost-saving changes, such as shipping by 
land and sea instead of air. Scientific advances and innovation within 
several areas, including voluntary medical male circumcision (VMMC) 
devices, will allow PEPFAR to deliver expanded services for less. With 
a new device, VMMC unit costs are expected to drop from approximately 
$142 to $32 by the end of 2012. Finally, shifting from hospital-based 
services to less expensive community clinics, adjusting the frequency 
of follow-up visits for stable patients, and transitioning from doctors 
to nurses for the provision of some services are greatly reducing 
PEPFAR costs and allows for expanded capacity overall.
    A purposeful realignment of resources to better reflect country-
specific contexts has also contributed to PEPFAR's ability to reduce 
its bilateral budget in FY 2013. This has included deeper analysis of 
epidemics at the country level, the capacity of governments and 
implementing partners, and progress toward increasing country ownership 
of HIV/AIDS programs. These factors have positioned PEPFAR to safely 
reduce budgets in some African countries while increasing budgets in 
others.
    Finally, through coordination of PEPFAR and the Global Fund, U.S. 
investments against AIDS are expanded both geographically and 
programmatically. This increased interdependence of PEPFAR and the 
Global Fund allows for a greater impact. The PEPFAR bilateral program 
cannot reach the goals without a robust and functioning Global Fund, 
and we anticipate that the increased resources proposed for the Fund in 
the FY 2013 budget will have an important impact in key African 
countries.
    Feed the Future Funds: The FY 2013 request of $1.2 billion for the 
President's Global Hunger and Food Security Initiative, Feed the 
Future, will fund the fourth year of this Presidential Initiative and 
reflects a coordinated interagency strategy that expands support for 
both bilateral and multilateral assistance programs. This request 
includes $1.1 billion for State Department and USAID, of which $1.0 
billion is for agriculture and $90 million is for nutrition programs. 
In addition, the Department of Treasury is requesting $134 million for 
a further U.S. contribution to the multidonor Global Agriculture and 
Food Security Program (GAFSP). At this requested level, the 
administration anticipates meeting the President's commitment to 
provide $475 million to the GAFSP.
    The FY 2013 request continues to address the root causes of hunger 
by helping countries increase agricultural-led growth by raising 
agricultural productivity, improving access to markets, increasing the 
incomes of the poor, and reducing undernutrition--especially of women 
and children--through sustained, long-term development programs. In 
priority countries, it is accelerating progress toward the Millennium 
Development Goal of reducing the number of people living in extreme 
poverty and suffering from hunger and undernutrition. Feed the Future 
programs also focus on reducing long-term vulnerability to food 
insecurity, especially in the Horn of Africa and the Sahel, and harness 
science and technology to help populations adapt to increasingly 
erratic production seasons. These efforts stand alongside the 
administration's ongoing commitment to humanitarian assistance that 
alleviates the immediate impacts of hunger and undernutrition.
    The combined FY 2013 request for State Department and USAID 
agriculture and nutrition programs is 3 percent ($27.4 million) greater 
than the FY 2012 estimate level. For State/USAID agriculture programs, 
the $1.0 billion request is 3 percent ($32.4 million) greater than the 
FY 2012 estimate level of $968.1 million.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                     Submitted by Senator Tom Udall

    Question. As you have probably heard, I recently met with the Nobel 
Prize Winner and IPCC Chair Dr. Rajendra Pachauri in India. During this 
meeting it was made clear to me that the science on climate change is 
getting stronger and the impacts we are facing in the future look 
increasingly dire. I know I don't need to convince you about the 
science on this issue, and the fact that climate change will likely 
lead to many issues which impact our national security as a result of 
drought, famine, migrations, and the impact of higher sea levels in 
coastal areas. However, given this great threat to the future of the 
planet, I am discouraged that the request for Global Climate Change was 
reduced from $482 million in fiscal year 2012 to $470 million in fiscal 
year 2013.

  <bullet> Can you please explain why climate change has been 
        deemphasized given the immense threat it poses to the future of 
        our planet and the Nation?

    Answer. Combating climate change remains a key priority of this 
administration, one we address both through our foreign assistance and 
through diplomatic efforts, including international climate change 
negotiations. The FY 2013 joint State/USAID/Treasury request of $770 
million for the Global Climate Change Initiative (GCCI) will support 
sustainable economic growth, U.S. national interests, and environmental 
protection. State and USAID programs ($470 million in the FY 2013 
request) support a diverse global clean energy resource base, conserve 
and restore the world's tropical forests, and enhance resilience to 
weather and climate-related disasters and damage. This work also 
sustains U.S. credibility and leadership on an issue that is high 
priority for countries around the world, including some of our longest 
standing allies.
    The 2.5-percent decrease in the FY 2013 State/USAID GCCI request 
was not a deemphasis on climate change but rather a recognition of the 
difficult fiscal situation and the need to support other equally 
critical foreign assistance priorities within the budget such as 
Afghanistan, the Arab Spring, and the President's Global Health and 
Feed the Future assistance initiatives. Even with this modest cut, 
GCCI funding will continue to be concentrated in priority countries and 
programs, including:

  <bullet> (For adaptation) those countries most vulnerable to climate 
        impacts, including small island developing states, least 
        developed countries, sub-Saharan Africa, and glacier-dependant 
        countries;
  <bullet> Low Emissions Development Strategy (LEDS) partners;
  <bullet> Large and/or emerging industrial greenhouse gas emitters; 
        and
  <bullet> Key tropical forest ecosystems such as the Congo and Amazon 
        Basin and Southeast Asia.

    GCCI funding increasingly will also seek to leverage the additional 
financial flows, particularly from the private sector, needed to help 
developing countries invest in technologies for low-emissions, climate-
resilient development. Leveraging climate financing from the private 
sector and other donor countries is a key priority for the State 
Department as we seek to maximize the value of every U.S. dollar spent 
on this critical issue, and this will become an increasingly important 
priority going forward.
    It should also be noted that, many USG assistance programs outside 
the GCCI, including both other USAID programs and activities undertaken 
by other agencies, also support the battle against climate change. 
Thus, while appropriated funding for the GCCI was $819 million in FY 
2011, we estimate the total USG contribution to climate change (aka 
``Fast Start'') finance for developing countries during FY11 to be 
approximately $3.1 billion. For example, in India alone, the Overseas 
Private Investment Corporation (OPIC) provided $214 million in FY 2011 
in investment finance and insurance for renewable energy activities.

    Question. In a recent Foreign Affairs piece, Ehud Eiran, a Research 
Fellow at Harvard's Belfer Center, and former officer in the Israeli 
Army as well as assistant to Prime Minister Ehud Barak's Foreign Policy 
Advisor wrote a piece titled ``What Happens After Israel Attacks Iran: 
Public Debate Can Prevent a Strategic Disaster.'' This article, I 
believe, is extremely important given the recent rhetoric regarding how 
to deal with Iran's developing nuclear capability. One of his most 
important points was that there has not been serious discussion about 
what would happen after a possible military strike and that, ``Without 
serious public discussion about the possibility of a long war with 
Iran, Israel could enter an extended conflict unprepared to provide for 
and defend its citizens. I am very concerned that this debate may also 
be lacking in some quarters in the United States, and would ask, 
whether or not we will be asking these tough questions in the public 
and posing them to our ally Israel before we, or Israel alone, crosses 
the Rubicon, and what role do you believe Congress should play to 
actively engage in such a policy debate?

    Answer. U. S. policy on Iran's nuclear program is straightforward: 
We are determined to prevent Iran from acquiring a nuclear weapon. An 
opportunity still remains for diplomacy--backed by pressure--to 
succeed. We are in close consultations with all of our international 
partners on maximizing this opportunity to persuade Iran to resolve the 
international community's concerns regarding the nature of its nuclear 
program. The level of our cooperation with Israel, in particular, on a 
range of regional and strategic issues is unprecedented. We continue to 
have frank discussions with the Israelis on our options regarding Iran, 
which President Obama recently stated includes all elements of American 
power: a political effort aimed at isolating Iran; a diplomatic effort 
to sustain international unity and ensure that the Iranian program is 
monitored; an economic effort that imposes crippling sanctions; and a 
military effort to be prepared for any contingency.
    We share the Congress' concern about Iranian behavior. We are 
aggressively implementing new sanctions pursuant to Section 1245 of the 
National Defense Authorization Act of 2012, as well as continuing to 
enforce sanctions already in place. Working with allies to strengthen 
implementation of these existing sanctions and to exploit new regime 
vulnerabilities, while maintaining P5+1 consensus, offers the best 
opportunity for resolving our concerns. Within that framework, we 
welcome your ideas to help us continue to increase the pressure for a 
change in Iranian behavior.

    Question. While most of the public attention in the world is on 
Syria, Afghanistan, Pakistan, and Iran, I fear that we are not paying 
enough attention to the many atrocities occurring in our own backyard. 
While what is occurring in the Middle East is deplorable and very 
concerning, I am also concerned about Central America, a region which 
is home to increasing levels of violence, and the country with the 
highest murder rate in the world, Honduras. Madame Secretary, how does 
the budget for Central America help stabilize these areas, and should 
we be doing more given the urgent and deteriorating security situation 
in this region?

    Answer. We share your concern regarding the citizen security crisis 
in Central America and the accompanying factors that bring violence to 
the region. The problem is large and complex, but the United States is 
committed to continuing to work with Central American governments and 
civil society, as well as other donor nations and institutions, to 
support the region's efforts to reverse the deteriorating state of 
citizen security.
    The Central America Citizen Security Partnership is the United 
States coordination mechanism in response to the citizen security 
situation. This partnership aims to help protect citizens of Central 
America, the United States, and the hemisphere, who are increasingly 
threatened by organized crime, gangs, and drug-fueled violence. Under 
the partnership, the United States uses the Central America Regional 
Security Initiative to implement programming in targeted areas, 
including to reduce levels of crime and violence, support prevention 
efforts for at-risk youth and those living in marginalized communities, 
and strengthen rule of law institutions.
    Since FY 2008, the United States has committed $361.5 million to 
these efforts. We look forward to working with you on our proposed FY 
2012 CARSI allocation of $105 million, and the administration's FY 2013 
$107.5 million CARSI request.
    Citizen security is a priority for the people of Central America. 
Given the proximity of Central America to our own border, it is 
imperative to continue our commitment to the region to sustain our 
efforts and build upon the unparalleled levels of collaboration 
occurring amongst the Central Americans themselves in addressing their 
most pressing citizen security, rule of law, and prevention challenges.

    Question. I am happy to see that there has been progress with 
Merida in Mexico. I am also very well aware, that like the United 
States, Mexico is also in an election year. That is why I believe that 
public support of Merida is very important. While I have been assured 
by members of the three major parties in Mexico, that they support 
continuing to work with the United States to fight against organized 
drug cartels, I am also aware that in some public areas, there has been 
a backlash against the initiative as a result of human rights and law 
and order concerns. This seems to be a crucial area, given the fact 
that law and governance training, as well as reforms to the federal and 
state constitutions are progressing faster in some regions of Mexico 
than others.
    How can the State Department better assist the Mexican Government 
in their battles against organized crime and narcotrafficking in the 
region while also addressing important issues such as judicial reform 
and human rights so that the average Mexican citizen does not lose 
faith in the justice system funding for International Narcotics Control 
and Law Enforcement has been greatly decreased from the FY12 estimate 
of $248,500,000 to the FY13's request of $199,000,000 million . . . 
given the importance of ensuring the success of these programs, what 
justifies such a large cut in INCLE funding?

    Answer. The Merida Initiative is an unprecedented partnership 
between the United States and Mexico to fight organized crime and 
associated violence while furthering respect for human rights and the 
rule of law. Of the $1.6 billion from all accounts appropriated for the 
Merida Initiative through FY 2011, we have delivered over $900 million 
in equipment, capacity-building, and technical assistance, including 
$504 million in CY 2011 alone. Merida assistance supports the 
Government of Mexico by dismantling organized criminal groups, 
strengthening institutions, building a 21st century border, and 
building strong and resilient communities.
    Our reduced assistance request for Mexico in FY 2013 reflects the 
shift from ``big ticket'' items, such as helicopters and maritime 
aerial surveillance planes to lower cost training and technical 
assistance. The programming stresses reforming and strengthening 
Mexico's law enforcement and justice institutions so that they will be 
more transparent and effective in providing citizen safety.
    We support Mexico's judicial reform and institutional strengthening 
efforts at the federal and state levels through: judicial exchanges; 
training of judges, prosecutors, and investigators; increasing the 
efficiency of court administration; and assisting in the creation of 
standards for witness protection, chain of custody and forensics.
    Our security sector assistance emphasizes: training for federal and 
state police officers; providing technical assistance for curriculum 
development to federal and state police academies, which will elevate 
the quality instruction for future classes of police recruits; 
providing polygraph machines and training for conducting employee 
background investigations; and providing equipment and technical 
assistance to establish a National Police Registry, to ensure corrupt 
officers are not hired by another government security agency.
    We work to promote respect for human rights through our programming 
across the board, incorporating human rights training into our security 
and law enforcement training and our rule of law programming.
    USAID conducts human rights training and education for police, 
prosecutors, and other officials to promote implementation of 
international human rights standards. USAID is supporting the 
participation of human rights and other NGOs in justice sector reforms, 
so that these NGOs are better equipped to engage the Government of 
Mexico on human rights issues and educate citizens on their roles and 
responsibilities in the new system. USAID also supports the United 
Nations High Commissioner on Human Rights' office in Mexico to work 
with Mexican Government agencies to strengthen observance of human 
rights norms.

    Question. Senator Corker mentioned issues about NNSA funding 
levels, and I just want to add that the people of New Mexico are very 
concerned about these cuts and whether the National Labs will be able 
to meet the national security requirements they have been entrusted 
with. In New Mexico, a major construction project was cancelled as a 
result of NNSA's budget decisions. Both the Bush and Obama 
administrations called for the CMRR-NF to satisfy New START obligations 
and to address the growing safety issues at the 50-year-old building 
it's meant to replace. In the face of dramatic budget cuts, 
construction delays and growing costs, it's being put on the back-
burner by the administration. I have concerns about how this will 
affect the lab employees working in the outdated building and its 
impact on Northern New Mexico. I have not yet received a full 
explanation about the shift, and hope I can have an explanation soon.

    Answer. The administration remains committed to maintaining a safe, 
secure, and effective nuclear arsenal. Over the past 3 years, the 
administration has worked with Congress to develop a sustainable, 
bipartisan commitment to a nuclear deterrent to defend and protect the 
United States and our allies.
    The administration's historic budget requests and nuclear 
modernization plan have sought to reverse years of declining 
investments in the nuclear weapons complex. With congressional passage 
of the Budget Control Act (BCA), we face new fiscal realities. These do 
not weaken our commitment to maintaining our nuclear deterrent and 
modernizing the weapons complex, but they must inform programmatic 
decisions.
    Our colleagues at DOE/NNSA can provide a full explanation of the FY 
2013 funding decisions, as they relate to the Chemistry and Metallurgy 
Research Replacement Nuclear Facility.

    Question. Over the last 30 years, the United States prioritized 
maintaining relations with the Egyptian Government and military over 
support for civil society. U.S. funds for civil society did not exceed 
1 percent, even when people were advocating for reform ahead of 
elections. In FY12, the United States promised $1.3 billion in military 
aid if the country met its legal obligations to hold free and fair 
elections and protect basic rights. The United States also gave Egypt 
$300 million in economic and social aid through the Ministry for 
International Cooperation, the ministry believed to be driving the NGO 
harassment.

  <bullet> How can the United States better incentivize the Egyptian 
        Government to be more accountable to its people?
  <bullet> How will resources in the FY13 budget take a more balanced 
        approach to supporting the Egyptian people and civil society?
  <bullet> And how can U.S. military and diplomatic priorities better 
        align so that foreign assistance strengthens, not weakens, the 
        relationship between the Egyptian people and their government?

    Answer. Our assistance, whether in the form of Economic Support 
Funds (ESF) or Foreign Military Financing (FMF), has long sought to 
promote a more accountable Egyptian Government responsive to its 
people. For example, our ESF has helped to increase the transparency 
and effectiveness of Egyptian line ministries that deliver crucial 
social services to the Egyptian people. Additionally, ESF channeled for 
direct support to our partners helps nascent Egyptian and international 
NGOs build their capacity and hold the GOE accountable to the Egyptian 
people. Our FMF has also for decades aimed to professionalize the 
Egyptian military so that the armed forces serve the interests of the 
Egyptian people and jointly advance our shared national security 
priorities. The decision by the Egyptian Armed Forces to avoid firing 
on peaceful demonstrators and to side with protesters demanding the 
resignation of former President Hosni Mubarak in February 2011 helped 
allow Egypt's democratic transition to take place. We also provided 
unprecedented levels of direct support to civil society organizations 
in Egypt following the revolution for activities that we believe helped 
make the electoral process more transparent and participatory.
    Starting July 1, Egypt will have a new democratically elected 
government. We will discuss with Egypt's emerging political leaders how 
our assistance can advance the goals you have described--supporting a 
government that can deliver real advances for the Egyptian people.
    As part of this, President Obama and I have made support for civil 
society a priority in our policy toward Egypt's transition, and we do 
not intend to back away from that commitment. We remain deeply 
concerned about intimidation and legal proceedings against democracy 
activists and civil society organizations in Egypt. We will continue to 
communicate our support of Egyptian civil society through diplomatic 
exchanges, public diplomacy, programmatic assistance, and direct 
meetings with civil society organizations.
    The strategic relationship we maintain with the Egyptian Armed 
Forces, of which FMF is a part, need not undermine our relationship 
with a democratic Egyptian Government. The goal of our FMF will remain 
to help assist an Egyptian military that protects national security 
within a democratic framework.

                                  <all>

</pre></body></html>
